<html>
<title> - THE OLYMPICS SITE SELECTION PROCESS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                  THE OLYMPICS SITE SELECTION PROCESS

=======================================================================

                                HEARINGS

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               ----------                              

                 OCTOBER 14, 1999--THE NEED FOR REFORM
             DECEMBER 15, 1999--REVIEW OF THE REFORM EFFORT

                               ----------                              

                           Serial No. 106-88

                               ----------                              

            Printed for the use of the Committee on Commerce

                  THE OLYMPICS SITE SELECTION PROCESS



                    U.S. GOVERNMENT PRINTING OFFICE
60-363CC                    WASHINGTON : 2000




                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Hearings held:
    October 14, 1999.............................................     1
    December 15, 1999............................................   451
Testimony of:
    Baker, Hon. Howard H.........................................   506
    Blair, Bonnie................................................   533
    Carrard, Francois, Director General, International Olympic 
      Committee..................................................   134
    Ctvrtlik, Robert.............................................   550
    DeFrantz, Anita L., Vice President, International Olympic 
      Committee..................................................   139
    Duberstein, Kenneth M.:
        October 14, 1999.........................................   176
        December 15, 1999........................................   513
    Easton, James L., Member, International Olympic Committee....   144
    Helmick, Robert H., Former President, U.S. Olympic Committee.    33
    Hybl, William J., President, U.S. Olympic Committee..........    30
    Kissinger, Henry:
        October 14, 1999.........................................   175
        December 15, 1999........................................   511
    Mills, Billy.................................................   554
    Naber, John..................................................   537
    Payne, William P., Cochair, Atlanta Olympic Committee........    20
    Samaranch, Juan Antonio, President, International Olympic 
      Committee, accompanied by Francois Carrard, Director 
      General, International Olympic Committee, counsel to Mr. 
      Samaranch..................................................   468
    Stapleton, Bill, Chairman, USOC Athletes Advisory Council....   545
    Strug, Kerrie................................................   556
    Szott, Kevin.................................................   560
    Westbrook, Peter.............................................   557
    Young, Andrew, Good Works International, Cochair, Atlanta 
      Olympic Committee..........................................    25
Material submitted for the record by:
    Baker, Hon. Howard H., prepared statement of.................   191
    Bell, Griffin B., King & Spalding, letter dated September 16, 
      1999, to Hon. Thomas Bliley and Hon. Fred Upton, enclosing 
      material for the record....................................   316
    Report of the Special Bid Oversight Commission...............   227
    Report to the International Olympic Committee by the Toronto 
      Ontario Olympic Council....................................   193

                                 (iii)

  


        THE OLYMPICS SITE SELECTION PROCESS: THE NEED FOR REFORM

                              ----------                              


                       THURSDAY, OCTOBER 14, 1999

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Barton, Burr, 
Bilbray, Whitfield, Ganske, Bryant, Klink, Waxman, Stupak, 
McCarthy, Strickland, and DeGette.
    Also present: Representatives Hefley and Isakson.
    Staff present: Jan Faiks, majority counsel; Eric Link, 
majority counsel; Clay Alspach, legislative clerk; Chris 
Knauer, minority investigator; and Brendan Kelsay, minority 
investigator.
    Mr. Upton. Good morning. Today the subcommittee is holding 
its first hearing on the site selection process associated with 
the awarding of the International Olympic Games. The purpose of 
the hearing will be to review the conduct of the Atlanta 
Organizing Committee, the U.S. Olympic Committee, and the 
International Olympic Committee in connection with the bidding 
for the 1996 Olympic Summer Games. We also are going to hear 
about the reforms that these organizations are proposing that 
hopefully will guarantee the end of this culture of corruption, 
a culture leading to a system that appears to suggest the host 
city is not judged on its merits, but rather on its gifts.
    This committee started reviewing Atlanta's bid after we 
learned about the outrageous vote buying that occurred in Salt 
Lake City. We are hoping that Salt Lake City's actions were an 
aberration, but sadly, as the Atlanta report so graphically 
confirmed, Salt Lake City was not an aberration. True, 
Atlanta's experience does not rise to the same level as Salt 
Lake City, but it is also true that there is a system or, as I 
have identified, a culture of corruption that exists within the 
bidding for the Olympic Games that encourages the practice of 
excessive lobbying of IOC members. This activity, this culture 
must stop. It is tarnishing the pride and prestige of the 
Olympic Games, and it is not fair to the athletes or the cities 
all over the world who are bidding for the honor of hosting the 
games.
    We are going to hear from the cochairs of the Atlanta 
games. They have been very open and frank in their amended 
report to the committee, and I appreciate very much the effort 
that Judge Griffin Bell has made to present the facts regarding 
the Atlanta bid process to this committee.
    The Atlanta report shows that Atlanta officials and 
volunteers gave many excessive gifts that were expensive; 
travel to OIC members as well; pages and pages of Cabbage Patch 
dolls, shopping sprees, carburetor kits, brake pads, jewelry, 
children's clothes, shoes, golf clubs, Spode china, computer 
parts. The list goes on and on. IOC traveled on Atlanta's 
expense account to Walt Disney World, Miami, Honolulu, New 
York, Sea Island, Georgia, just to name a few of the locations, 
but just as troubling the report shows that IOC members 
themselves asked Atlanta organizers for health care services, 
employment opportunities, athletic training, lavish hospitality 
and first-class travel, political and scholastic assistance. 
Atlanta was eager to accommodate these requests, and based on 
the documents presented to this committee, Atlanta made every 
effort to satisfy virtually every request.
    Is this the price that we want to use to award the Olympic 
Games? No. It's wrong. Integrity and ethics do matter. The end 
does not justify the means.
    Additionally it's disturbing to the committee as the many 
gifts and favors that were offered, Atlanta engaged in a 
comprehensive intelligence gathering to learn details about IOC 
members' likes and dislikes. Consultants, officials from other 
bid cities, members of the press, IOC members themselves, even 
Atlanta hostesses and drivers gathered information on IOC 
members for the Atlanta organizers. The smallest detail or 
nuance was not too insignificant to record in an IOC's member 
profile for later use in choosing a personal gift or arranging 
travel for a member's child. The Atlanta documents list the 
favorite foods and beverages, colors, hobbies, strengths and 
weaknesses of every IOC member. Details as to whose wife needed 
special treatment because she could influence her husband's 
vote were carefully listed.
    The IOC profiles struck me as going too far, too explicit, 
and certainly an invasion of privacy. Is this what is necessary 
to win a vote to be a host city? I certainly hope not.
    Today the committee will hear from Francois Carrard, 
Director General of the IOC; and Anita DeFrantz, one of four 
Vice Presidents on the IOC Executive Committee; and Jim Easton, 
an IOC member from the United States. Mr. Samaranch is 
committed to appear before this committee on December 15, and 
we look forward to his testimony at that time. Ms. DeFrantz was 
personally involved in helping Atlanta win the Olympic Games, 
and I'm anxious to hear her views on the bidding process.
    I would hope that everyone here today knows that the 
culture of corruption that has evolved in the bidding process 
must stop. We have to find ways to reform how cities are 
awarded the right and privilege to host the games.
    Our last panel today is composed of distinguished Americans 
who are working to change the bidding process. Senator Howard 
Baker, Ken Duberstein, and Dr. Henry Kissinger will share with 
the committee their reviews on how this system must be changed, 
and we certainly welcome their testimony.
    In my district I have had the pleasure to have two great 
Olympic heroes live in my home county: Muhammad Ali and Jesse 
Owens. We all remember that Ali lit the Olympic flame to open 
the Atlanta Olympics. Ali represents all that is right with the 
Olympics today. Unfortunately, this hearing represents all that 
is wrong, the painful contrast.
    The Olympics hold a special place on the world stage. They 
are more than a sporting event. They are an exchange of ideas. 
They are a celebration of global cultures. They are a time when 
the world can come together, united in sports and certainly in 
peace.
    Sadly, the organizers of the Atlanta games admitted that 
they had to play a bidding game to win the games. I believe 
that they made a choice to play that game, and it was the wrong 
choice. I am angry at the USOC for not conducting proper 
oversight of both Atlanta and Salt Lake City's efforts. I'm 
also deeply troubled that the IOC has allowed the Olympic rings 
to become tarnished. This system is not fair to great athletes 
like Ali and Owens and all the thousands of people in the world 
who work and practice long hours to become Olympians.
    I will do everything in my power to ensure that the culture 
of corruption is destroyed. I will follow the reform movement 
closely, and I will look forward very much to hearing from Mr. 
Samaranch on the December 15.
    There are those that have suggested that these hearings are 
about trashing the Olympics. They could not be more wrong. 
These hearings are about cleaning up the Olympics, removing the 
stain created by the tawdry behavior of the Atlanta Olympic 
Organizing Committee, the USOC and the IOC. We have a lot of 
work to do. Let's let the process begin.
    I yield to the vice chair, the ranking member of this 
subcommittee, Mr. Klink.
    Mr. Klink. I thank the chairman, and, Mr. Chairman, I would 
tell you in actuality it is with great regret that I find 
myself here today.
    Like most members, I have tremendous respect for the 
Olympic movement and for its athletes, but what has happened in 
Salt Lake City and Atlanta deserves special attention if we're 
really going to concern ourself with the future of the games. 
We would be naive if we had not recognized that the Olympics 
had become big business. For the cities that are lucky enough 
to host the games, its many sponsors, and the IOC itself, the 
Olympics can mean several billion dollars in local revenue and 
infrastructure improvements for a host city. It can also mean 
the city will become the focus of the world community for 
weeks, months, even years, producing both immediate and long-
term benefits.
    The IOC was awarded nearly $400 million in revenues from 
the Atlanta games. NBC has paid almost $3.5 billion to the IOC 
to broadcast the games until 2008. But it is the process used 
by a host city to bid for those games and the methods used by 
the IOC to award the games that are the focus of today's 
hearing. Both are seriously flawed and in need of reform.
    The countless documents examined by the subcommittee 
suggest that the games aren't automatically awarded to a city 
based on technical merit. Instead today's bid process has 
encouraged a system where lavish gifts and other special favors 
are heaped on IOC members in order to influence their vote. 
This has resulted in a system where the ability to host the 
games based on what's best for the athletes may take a back 
seat to other considerations, such as how ingratiating a bid 
city was to a particular IOC member. Perhaps the 1991 Toronto, 
Ontario, Olympic Council report to the IOC described the bid 
process the best. The council noted that one of the key factors 
needed to win the right to host the Olympic Games was for a 
city to, ``demonstrate why it is in each IOC member's personal 
interest to vote for and to award the games to that city.'' Any 
system where the bid city must prove that it is in the personal 
interest of an IOC member to vote for any city is a system 
that's gone astray.
    Mr. Chairman, many would like to think that the giving of 
lavish gifts and opulent travel and other special favors was 
unknown until the tawdry events of Salt Lake City became 
public, but I have to take exception to that notion. The 
activities reported in the Salt Lake City bid revealed in the 
King & Spalding report on the Atlanta bid appeared to have been 
around for many years.
    Let me quote from a Sports Illustrated article written 13 
years ago back in 1986. This was about a bid for the 1992 
Summer Olympics. This is a quote: ``The tactics of Olympic 
bidders vary somewhat, but they're never very subtle. The most 
popular strategy is simply to shower everyone on the IOC with 
gifts, trips, and parties. No city did this better--did better 
in this area than Paris. Whenever an IOC member felt the need 
to vacation in Paris for a while, he was instantly sent airline 
tickets and given a free room at the elegant Hotel de Crillon 
as well as reserved tables at Maxim's or Tour d'Argent with the 
bill paid in advance. Members traveled everywhere in 
limousines, sometimes with a police escort, and they were given 
perfume, raincoats, jogging suits and discounts at some of 
Paris's finest shops.''
    The 1991 report I cited earlier by the Toronto, Ontario, 
Olympic Council, whose bid to host the Olympics, by the way, 
was unsuccessful, also sounded several alarms. That's nearly a 
decade ago. Some of them dealt with travel. Some dealt with 
excessive gift-giving. Let me quote from what Toronto told the 
IOC in 1991: ``No single issue is so open to abuse as gifts and 
other material inducements to individual IOC members. Perhaps 
no single issue has the power to undermine the integrity of the 
IOC as this particular one. Unfortunately many IOC members 
expect to receive gifts above and beyond what anyone would 
judge to be courteous and gracious. Cash, jewelry or other 
items easily converted to cash were hinted at on several 
occasions. We were surprised to discover on more than one 
shopping trip that the bid city host was expected to pay for 
all purchases made by not only the member, but the guests as 
well.''
    Again, Mr. Chairman, these kinds of reports were not made 
yesterday. They were made nearly a decade ago. Further, as you 
review the various investigations that follow the Salt Lake 
City revelations, it appears that many of those involved during 
the host city bids knew this culture existed. Yet the IOC has 
chosen not to reform and thus to allow a shameful system to 
continue and, in fact, even worsen. It is for those reasons I 
still remain somewhat skeptical that the IOC is serious at this 
time.
    Mr. Chairman, with us today are officials from Atlanta 
responsible for both winning and hosting the 1996 Olympic 
Summer Games. While I'm proud the United States won the right 
to host those games, I'm disappointed with the process that 
Atlanta chose to win that bid. While I agree with those that 
say the Atlanta bid tactics weren't as unrestrained as Salt 
Lake's, I still believe they went too far. Instances of lavish 
travel, gifts and other special favors were given or were 
attempted to be given to IOC members whose vote was critical to 
Atlanta.
    Do these attempts represent an effort to outright buy 
votes? I can't say that. What the evidence does show, however, 
is that numerous gifts and favors were given by Atlanta 
officials that had little or nothing to do with demonstrating 
that city's ability to host the game. What Atlanta officials 
did to win the 1996 bid was at times borderline. Atlanta 
officials claimed they played within the bid system's culture 
as they found it, but one might argue that the Atlanta 
officials did nothing to help stop or to reform an ethically 
bankrupt process. Instead, Atlanta's actions served only to 
reinforce if not to endorse an already tawdry system that 
arguably made future bid efforts for other cities even more 
polluted. One can only wonder if Atlanta or cities before 
Atlanta had blown the whistle on this system, whether Salt Lake 
City would be in the mess it's in today.
    But I'm not here to cast aspersions on Atlanta or anyone 
else. Instead I'm here because I want to work with you, Mr. 
Chairman and the other members of this committee and the many 
witnesses before us today to fix a system that we all agree is 
broken. I'm looking forward to the testimony of the people 
before us today because we need to know what went wrong in 
order to support meaningful corrections to our own systems as 
well as those in the IOC.
    Finally, Mr. Chairman, while I'm saddened by the events 
that took place in both Salt Lake City and Atlanta, I must 
point out that it is because of the exposure of those events by 
this country's governmental institutions, including the U.S. 
Congress, the free press, and the public, that reforms are now 
being contemplated by the IOC. I believe good has come out of 
this process, and by throwing open all the files and the 
records of how the bid process worked for two U.S. cities, 
admittedly an often painful and embarrassing experience, we've 
discovered some serious flaws in the IOC system and several of 
our own. Our bid processes will be improved because of what 
we've done over the past year, and hopefully so, too, will the 
final reforms adopted by the IOC. I only wonder if certain 
other former bid countries could also benefit by examining in 
close detail their own bid experiences.
    Let me conclude, Mr. Chairman, by saying that while some in 
the IOC may have strayed from what the Olympic movement have 
been about and have sadly used the bid process to seek personal 
reward, most have not and are extremely hard-working and are 
very dedicated individuals. In fact, I believe that the vast 
makeup of the IOC care very deeply about the health and the 
integrity of the Olympic Games.
    I look forward to working with all of our friends from 
abroad as well as many outstanding witnesses who are before us 
to build an Olympics that is transparent, accountable, and free 
of the recent activities that have so jeopardized the Olympic 
flame.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Ron Klink follows:]
Prepared Statement of Hon. Ron Klink, a Representative in Congress from 
                       the State of Pennsylvania
    Thank you Mr. Chairman.
    Mr. Chairman, in actuality, it is with great regret that I find 
myself here today. Like most Members, I have tremendous respect for the 
Olympic movement and its athletes. But what has happened in Salt Lake 
City, and now Atlanta, deserves special attention if we really are to 
concern ourselves with the games' future.
    We'd be naive if we didn't recognize that the Olympics have become 
big business for the cities lucky enough to host the games, its many 
sponsors, and the IOC itself. The Olympics can mean several billion 
dollars in local revenue and infrastructure improvement for a host 
city. It can also mean that the city will become a focus of the world 
community for weeks, months--even years, producing both immediate and 
long-term benefits. The IOC was awarded nearly $400 million in revenues 
from the Atlanta games. NBC has paid almost $3.5 billion to the IOC to 
broadcast the games until 2008.
    But it is the process used by a host city to bid for the games and 
the methods used by the IOC to award the games that are the focus of 
today's hearing. Both are seriously flawed and in need of reform. The 
countless documents examined by this subcommittee suggest that the 
games aren't automatically awarded to a city based on technical merit. 
Instead, today's bid process has encouraged a system where lavish gifts 
and other special favors are heaped on IOC members in order to 
influence their vote. This has resulted in a system where the ability 
to host the games (based on what's best for the athletes), may take a 
back seat to other considerations, such as how ingratiating a bid city 
was to a particular IOC member.
    Perhaps the 1991 Toronto Ontario Olympic Council, report to the IOC 
describes the bid process best. The council noted that one of the key 
factors needed to win the right to host the Olympic games, was for a 
bid city to ``demonstrate why it is in each IOC Member's personal 
interest to vote for, and award the Games to that city [emphasis 
added].'' Any system where the bidding city must prove that it is in 
the ``personal interest'' of an IOC member to vote for any city is a 
system that has gone astray.
    Mr. Chairman, many would like to think that the giving of lavish 
gifts, opulent travel, and other special favors was unknown until the 
tawdry events of Salt Lake surfaced. But I might take exception to that 
notion. The activities reported in the Salt Lake City bid, and revealed 
in the King and Spalding report on the Atlanta bid, appear to have been 
around for years. Let me quote from a Sports Illustrated article 
written way back in 1986 about the bid for the 1992 summer Olympic 
games:
        ``The tactics of Olympic bidders vary somewhat, but they are 
        never very subtle. The most popular strategy is simply to 
        shower everyone on the IOC with gifts, trips and parties . . . 
        No city did better in this area than Paris. Whenever an IOC 
        member felt the need to vacation in Paris for a while, he was 
        instantly sent, airline tickets and given a free room in the 
        elegant Hotel de Crilion, as well as reserved tables at Maxim's 
        or Tour D'Argent with the bill paid in advance. Members 
        traveled everywhere in limousines, sometimes with a police 
        escort, and they were given perfume, raincoats, jogging suits 
        and discounts at some of Paris's finest shops.''
    The 1991 report I cited earlier by the Toronto Ontario Olympic 
Council (who's bid to host the Olympics was unsuccessful) also sounded 
several alarms, some dealing with travel, some dealing with excessive 
gift giving. Let me quote from what Toronto told the IOC in 1991:
        ``No single issue is so open to abuse as gifts and other 
        material inducements to individual IOC members. Perhaps no 
        single issue has the power to undermine the integrity of the 
        IOC as this particular one. Unfortunately, many IOC members 
        expect to receive gifts above and beyond what anyone would 
        judge to be courteous and gracious. Cash, jewelry or other 
        items easily converted to cash, were hinted at on several 
        occasions. We were surprised to discover on more than one 
        shopping trip that the bid city host was expected to pay for 
        all the purchases made by not only the member, but the guest as 
        well.''
    Again, Mr. Chairman, these kinds of reports weren't made yesterday, 
but a decade or more ago. Further, as you review the various 
investigations that followed the Salt Lake City revelations, it appears 
that many of those involved during host-city bids knew this culture 
existed. Yet the IOC chose not to reform, and thus allowed a shameful 
system to continue and even worsen. It is for those reasons that I 
still remain somewhat skeptical that the IOC is serious this time.
    Mr. Chairman, with us today are officials from Atlanta responsible 
for both winning and hosting the 1996 Olympic summer games. While I am 
proud that the United States won the right to host those games, I am 
disappointed with the process Atlanta chose to win that bid. And while 
I'll agree with those that say that the Atlanta bid tactics weren't as 
unrestrained as Salt Lake's, I still believe they went too far. 
Instances of lavish travel, gifts, and other special favors were given 
(or attempted to be given) to IOC members whose vote was critical to 
Atlanta. Do these attempts represent an effort to outright buy votes? I 
can't say. What the evidence does show, however, is that numerous gifts 
and favors were given by Atlanta officials that had little or nothing 
to do with demonstrating the city's ability to host the games.
    Mr. Chairman, what Atlanta officials did to win the 1996 bid was, 
at times, borderline. Atlanta officials claim they played within the 
bid system's culture as they found it. But one might argue that Atlanta 
officials did nothing to help stop or reform an ethically bankrupt 
process. Instead, Atlanta's actions served only to reinforce (if not 
endorse) an already tawdry system that arguably made future bid efforts 
for other cities even more polluted. One can only wonder, if Atlanta, 
or the cities before Atlanta, had blown the whistle on this system, 
whether Salt Lake City would be in this mess today.
    But I'm not here to cast aspersions on Atlanta or anybody else. 
Instead, I'm here because I want to work, with you, Mr. Chairman, the 
other Members of this Committee, and the many witnesses before us to 
fix a system we all agree is broken. I'm looking forward to their 
testimony because we need to know what went wrong in order to support 
meaningful corrections to our own systems, as well as those of the IOC.
    Finally, Mr. Chairman, while I am saddened by the events that took 
place in both Salt Lake City and Atlanta, I must point out that it is 
because of the exposure of those events by this country's governmental 
institutions (including the Congress), free press, and the public, that 
reforms are now being contemplated by the IOC.
    I believe good has come out of this process. By throwing open all 
the files and records of how the bid process worked for two U.S. 
cities--admittedly an often painful and embarrassing experience--we've 
discovered some serious flaws in the IOC's system, and in several of 
our own. Our bid processes will improve because of what we've done over 
the past year, and hopefully, so too will the final reforms adopted by 
the IOC. I only wonder if certain other former bid countries could also 
benefit by examining in closer detail their own bid experiences.
    Let me conclude by saying that while some within the IOC have 
strayed from what the Olympic movement should be about, and have sadly 
used the bid process to seek personal reward, most have not and are 
extremely hardworking and dedicated individuals. In fact, I believe 
that the vast makeup of the IOC care very deeply about the health and 
integrity of the games. I look forward to working with our friends from 
abroad, as well as the many outstanding witnesses before us today to 
build an Olympics that is transparent, accountable, and free of the 
recent activities that have so jeopardized the Olympic flame.
    With that, I yield back.

    Mr. Upton. Yield to the vice chairman on the subcommittee 
Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    Mr. Upton. Before we start, maybe we should ask how your 
son did in football in North Carolina last night.
    Mr. Burr. Twenty-seven to nothing, 5-0. Thank you for 
asking.
    Mr. Upton. The question of putting the real football an 
Olympic team sport is, I know, before the committee. We'll 
pursue that a little bit later.
    Mr. Burr. Clearly you've hit on something of interest to 
me, though, as this is.
    I welcome all of our witnesses. For generations families 
have together watched the majesty and the competition and 
celebration of the Olympic Games. The games make heroes out of 
athletes who have beaten the odds and who have performed 
amazingly under intense pressure. Vivid pictures of triumph are 
forever etched in our minds and in the minds of our children. 
There's nothing more American than watching young children 
being inspired by the stories of these amazing people. These 
athletes represent all that is good in our world, love of a 
skill, and talent, dedication to a goal, the fulfilling of a 
potential destiny.
    We have over the years protected the purity and the 
integrity of the games. Drug testing, professional contract 
arrangements and strict athletic rules are commonplace and 
accepted, all implemented with the intention of keeping our 
games pure.
    Today we are here for no different cause, no lesser motive. 
We're not here to find fault with Atlanta. The culture of the 
International Olympic Committee in a sense left them with no 
options if they wanted to host Olympic Games. Let me be very 
clear. That culture, however pervasive, does not excuse 
Atlanta's choices, and they have found fault themselves with 
their actions. After extensive review, Atlanta has said rules, 
procedures and guidelines in the bidding process did exist. Our 
problem is this: No one abides by these rules. No one enforces 
them. Play the game or lose the process.
    In its response to the committee, Atlanta said of all 
competing cities, it had the best technical bid. And it was 
apparently ranked by the IOC evaluation committee as the best 
bid among competing cities. On its merits alone, Atlanta should 
have won, but that was not the system that votes of IOC members 
were necessarily cast on merit.
    So why are we here? We're here to find out on what basis 
those votes are cast. We're here to find out how the flagrant 
violations of the IOC rules went unnoticed and unquestioned by 
so many. We're here to examine the responsibilities of the USOC 
and whether they endorsed the practice of bidding cities or 
whether they ever raised the questions of violations of IOC 
rules. We're also here to look at the relationship between the 
USOC and the IOC. Last, Mr. Chairman, we're here to look at the 
culture of the governing body in Olympic sports and find the 
answers to the question can they change voluntarily.
    Many here today might ask why Congress doesn't address the 
problem with U.S. cities and leave the IOC alone. It's a fair 
statement. We're not here to dictate policies. Rather we're 
here to question our future involvement and participation in 
the Olympic movement if true reform of the bidding process does 
not take place. Can the Congress continue to allow U.S. 
corporate expenses related to participation in Olympic Games to 
be deductible and supporting a process that allows cities and 
countries to purchase the prestige of hosting an Olympic game? 
We must answer that question.
    Today's hearing is not about the past. It is about the 
future. Because of this scandal, today's hearing is not about 
athletes, it's about ethics. It's not about competition on the 
field, it's about the character of those who write the rules. I 
feel confident I speak for many members of this committee and 
this Congress when I say we want the focus to get back on 
athletes and competition. That's what the Olympics are really 
all about. Until we get to the bottom of this and take steps to 
fix what needs to be fixed, we won't be able to shift that 
focus. In the end we owe it to the athletes, the companies that 
choose to sponsor the games, and the hundreds of thousands of 
Americans that support Olympics through their donations. They 
deserve nothing less than the knowledge that the process they 
are participating in is fair and the money being spent is done 
appropriately.
    Mr. Chairman, I look forward to a very productive day. 
Thank you for this hearing. I yield back my time.
    Mr. Upton. Thank you, Mr. Burr.
    Mr. Waxman from California.
    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
commend you for holding this hearing today. This is an 
important subject. Since last November, we've been reading 
about how members of the International Olympic Committee 
received cash and expensive gifts from cities that were 
competing to host the Olympics. The individual IOC members who 
solicited and received these gifts clearly deserve blame, but 
so, too, does the system that allows such a culture to develop.
    Sadly, the culture of greed and corruption that led to the 
Salt Lake City scandal has been flourishing for years. This 
scandal is now almost a year old, and yet the IOC has been 
remarkably slow in taking the necessary steps to reform itself.
    Back in March a commission led by Senator Mitchell 
recommended a number of reforms, including the banning of 
expensive gift-giving and the periodic reelection of the IOC 
members. These reforms seemed entirely reasonable, but not 
surprisingly, Mr. Samaranch and others at the IOC did not fully 
embrace them.
    Frustrated by the intransigence of the IOC, Congressman 
Lazio and I introduced a bill in April that would strongly 
encourage the IOC to adopt these reforms. Our bill, H.R. 1370, 
would prohibit American corporations, including the television 
networks, from providing any financial support to the IOC until 
the IOC adopted the Mitchell Commission reforms. I believed 
then, and I still believe now, that only the cutoff of American 
corporate money will get the IOC's attention. Quite simply, the 
IOC could not operate without the hundreds of millions of 
dollars that it receives each year from American corporations.
    Six months have passed since our bill was introduced, and 
we are still waiting for the IOC to reform itself. I have been 
told that Mr. Samaranch has been working hard on convincing 
others at the IOC to approve a package of reforms, and that 
these reforms should be in place by December. I really hope 
this is the case, because if necessary steps are not taken to 
restore the integrity of the Olympic Games, I believe that 
there will be a strong bipartisan sentiment in Congress for 
some time--some type of punitive action against the IOC. I 
would remind the IOC that Congress has been quick to impose 
sanctions in the past when it has disapproved of the activities 
of foreign countries, international organizations, and 
multinational corporations. We will be no less willing to act 
when we feel the integrity of the Olympics is being 
compromised.
    I look forward to hearing the testimony of the witnesses 
today, and I eagerly await the announcement of the reforms by 
the IOC. Thank you very much, Mr. Chairman.
    Mr. Upton. The gentleman from Iowa, Mr. Ganske--Dr. Ganske, 
I'm sorry.
    Mr. Ganske. Thank you, Mr. Chairman, for holding this 
hearing. I will be brief because I know our guests want to get 
to their testimony, and I want to take this opportunity to 
welcome all of our distinguished guests, but in particular to 
note the presence of a friend, a fellow Iowan, Mr. Bob Helmick, 
who is a senior law partner at the law firm of Dorsey and 
Whitney, specializing in municipal finance, graduated from 
Drake University Law School with highest honors, and was 
valedictorian. He's received a number of honorary humanitarian 
and law doctorate degrees. He's been active nationally and 
internationally in amateur sport, having served as president of 
three of the largest sports organizations in the world: the 
U.S. Olympic Committee, the International Amateur Swimming 
Federation, and National Amateur Athletic Union. He is a well-
known civic leader in arts and education organizations. He's 
been instrumental in building a nationally recognized public 
finance practice and in drafting the majority of the laws in 
the State of Iowa which relate to cities. He most recently was 
counsel to the State of Iowa in the creation of its fiberoptic 
network, which has received national recognition.
    But in particular, I think in regards to this hearing, many 
will recall that in 1991, Mr. Helmick was the subject of a lot 
of media attention. What is generally not known is that the 
subsequent facts and disclosures cleared Mr. Helmick of any 
wrongdoing. He is the only IOC member in the history of the 
organization to open up his personal records to public 
scrutiny, and so I look forward to his testimony, as I'm sure 
it will be informative, up-front, and full of good Iowa common 
sense. Welcome. And I yield back.
    Mr. Upton. Thank you, Dr. Ganske.
    Mr. Stupak from Michigan.
    Mr. Stupak. Thank you, Mr. Chairman. Thank you for holding 
these hearings.
    Mr. Chairman, the Olympic movement was motivated by the 
idea that Olympic competition between the best athletes from 
around the world would be a unifying force to our globe. The 
Olympics have become more than a mere sporting event. They are 
a testament to the triumph of human spirit. While many of us 
know of Michael Johnson or the Dream Team, there are thousands 
of competitors we will never know who will never win 
endorsement contracts. They compete to honor themselves and 
their country.
    The duty of the ideals underlying the Olympic movement and 
the Olympic Games makes the behavior that is the subject of 
this hearing all the more disappointing. I'm sure many of my 
colleagues will describe the types of activities conducted by 
the Atlanta Committee for the Olympic Games. These activities 
violated the rules of International Olympic Committee, the U.S. 
Olympic Committee and the Atlanta committee itself.
    Some of the violations are particularly upsetting to me 
because they involve the diversion of money for scholarships to 
foreign athletes with the sole purpose of influencing the IOC 
vote of that country. I've long sought the scholarship program 
for athletes that attend United States Olympic education 
training centers here in this country. Many of these Olympic 
athletes give up the opportunity for an education to represent 
their country. These athletes compete with athletic 
scholarships in boxing, biathlons, ski jumping and many other 
sports.
    Since I have an Olympic education training center in 
northern Michigan where many of these athletes train, I 
personally have contacted sponsors of the USOC to urge them to 
help provide scholarships to these athletes. Unfortunately, 
they tell me while they give out scholarships in the name of 
the player of a game such as the Big Ten basketball tournament 
to the USOC, but they can't give a true scholarship for these 
student athletes for education purposes. Instead, the money 
goes to the USOC.
    So if we can't use the money for true education 
scholarships for our own athletes, what happens then? The USOC 
uses the money that the college athletes generate for the 
Olympics and not for educational scholarships, but then they 
use that money to influence or to buy a vote by giving the 
educational scholarships to foreign athletes while the USOC and 
Olympic training centers struggle financially to remain viable.
    Although Congress has passed legislation authorizing 
Olympic education training scholarship programs, no money has 
ever been appropriated. So to see the resources of a USOC not 
being used for education purposes for our own athletes, but 
instead is being used internally, and some of it even being 
diverted to facilitate the purchase of an IOC member's vote is 
very disturbing to me.
    These hearings will accomplish two purposes: First, we need 
to understand the facts involved with solicitations of the IOC 
members' votes both in this country and abroad. While I can 
understand the pressure put on the Atlanta committee due to 
competition from other host cities, we cannot condone or 
justify their behavior. We need to understand where the line 
should have been drawn. Second, we need to examine the current 
reform proposals pending before the IOC. I've read the Mitchell 
report and wish to hear the views of the IOC on these 
suggestions.
    I believe it's important to work with the IOC to ensure 
these reforms are met. I would say to the Director General of 
the IOC and a witness before this subcommittee that we want to 
compliment the IOC reform efforts. This hearing is neither an 
indictment of the IOC or of many members of the IOC or their 
host countries. As the King & Spalding report states, every 
gift has a giver and a receiver. Certainly in the cases of 
Atlanta and Salt Lake City and possibly others, representatives 
of the United States to the Olympics were willing and active 
participants in the culture of inappropriate gift-giving.
    It's my understanding the IOC is meeting in December to 
discuss these reform proposals. I urge the IOC to do more than 
just adopt new rules or regulations. The IOC must change the 
culture in which these bids are conducted through 
accountability and enforcement; otherwise new rules and 
regulations are worthless. I hope that this subcommittee can 
complement those efforts and help ensure the actions taken by 
members of the Atlanta committee will become a footnote to the 
great and wonderful legacy of the Olympic movement.
    Thank you for holding these hearings, Mr. Chairman. I look 
forward to working with you in the future on this issue.
    Mr. Upton. Thank you, Mr. Stupak.
    Mr. Bryant from Tennessee.
    Mr. Bryant. Thank you, Mr. Chairman. Let me tell you before 
I start my statement how much I appreciate your efforts and 
your staff's extraordinary efforts, in preparing and holding 
this hearing.
    Like everyone in the room today, I regret that we have to 
be here on this particular subject, as I would much rather be 
talking about Atlanta's superb presentation of the Olympic 
Games and the world-class athletes that participated in those 
Olympics.
    While I am disappointed to learn about the tainted 
selection process where Atlanta was chosen as the host city, in 
some ways I'm sympathetic to their dilemma. Atlanta did not set 
out to buy or improperly influence the IOC committee that 
selected them. Unfortunately, the, ``playing rules,'' of the 
selection game were not up to the high standard of the Olympic 
Games themselves. And just as unfortunate, Atlanta played by 
these rules, which they felt were expected. As a result, the 
Olympic rings had been decidedly tarnished. It will take a 
concerted effort by all the world's nations to restore their 
past luster.
    I agree with the members of the Special Bid Oversight 
Commission that the IOC must be reformed. I realize this cannot 
be done easily given the power it has to literally direct 
billions of dollars and international prestige to potential 
host cities. But the IOC must change the culture of that 
committee. However, for these reforms to succeed, to be 
expected to succeed, it cannot be done without the cooperation 
of other countries vying for the honor of hosting future 
Olympic Games.
    And I suppose as I sit here and listen to our opening 
statements, I know you did not come up here expecting to hear 
these statements. You came up here prepared to give your 
testimony, and we do look forward to that, but I think about 
the other countries out there that will be and have been in 
competition to host the Olympics, and I wonder sometimes if 
they're sitting there thinking, why is this--why are these 
people in Washington telling us about morals and integrity and 
honesty? And I have those thoughts too, sometimes, but we, I 
think, must strive to set those standards, and I think today's 
hearing will further that to some degree by bringing to light, 
I think, of the American public more of--not necessarily 
Atlanta, because, again, I am a friend of Atlanta. I'm from the 
sister State of Tennessee and very much appreciated Tennessee's 
participation in the siting for some of the actual events for 
the Olympics. But, again, I think we all agree in this room 
that the problem has to do with the International Olympic 
Committee and the people who oversee and govern the activities, 
particularly in the selection process.
    But, again, with the moneys that are at stake here and the 
prestige, I'm kind of dubious at this point that we'll see the 
type of change that we need to see in this selection process 
because I don't know that we can get every nation to agree to 
these correct and right and appropriate playing rules. Again, a 
lot of money is at stake, and a lot of prestige is at stake. I 
simply want to be careful, too, today, that we don't exclude 
the United States from further participation in this selection 
process.
    Again, none of this reform is going to be able to be 
accomplished without the cooperation of the IOC, and, again, 
while I don't condone what has happened in Atlanta, I'm 
concerned that the United States at the same time not 
unilaterally disarm ourselves and ensure that the games will 
never be held in the United States again.
    I look about the room and see so many distinguished people 
from Georgia here today, including members of their delegation 
in Congress, former Senator Nunn, former Judge and Attorney 
General Bell, former mayor and U.N. Ambassador Young, and I 
know I'm probably missing somebody here, but I think there is 
concern. I appreciate very much Atlanta's role in this as some 
of these things have come to surface, their willingness to come 
out fully and participate and to disclose what has happened in 
the interest of trying to improve the situation in the future.
    I look forward to hearing from this very distinguished 
panel. I want to especially, though, thank the oversight 
commission that had Mr. Duberstein on it and others for their 
very thoughtful report. I want to thank also Mr. Bell's law 
firm, King & Spalding, which also included some very good 
suggestions on reforms. I hope we can really learn from these 
hearings as well as take to heart their suggestions on how we 
can begin to influence in any way, as a Congress, the reform of 
the IOC selection process. They've got some good ideas. They've 
been there. I'm sure Mr. Payne will be able to contribute a 
great deal as sort of the point man on the Atlanta effort as to 
what can be done to affect this process, to make it better, and 
to bring it up to the standards and ideals and the goals and 
all those good things that we think of when we think about the 
Olympics.
    Again, I thank all of you for taking the time from your 
extremely busy schedules to be here. I look forward to hearing 
your testimony. Thank you.
    Mr. Upton. Thank you.
    Ms. McCarthy from Missouri.
    Ms. McCarthy. Thank you, Mr. Chairman. I would like to 
thank the witnesses appearing before us today. While I know 
Senator Nunn won't be testifying, I want to acknowledge that 
his integrity will lend a great deal to this effort.
    The International Olympic Committee is charged with 
monumental responsibility. Every 2 years the IOC brings peace, 
hope, goodwill, sportsmanship, and culture exchange to the 
entire world. And for the city that selects to host the games, 
it brings more. The selection of a city means jobs, economic 
expansion, unique opportunity to capture international 
attention. Selection is a wonderful opportunity. It's an 
awesome responsibility.
    I very much hope that our panel members will speak to 
several issues of grave concern. Current IOC rules regarding 
limitation of candidate cities' financial commitments limit 
gifts, ``to documents or other items intended for information 
and/or souvenir articles. Gifts of a value exceeding U.S. $200 
are not permitted.''
    What kinds of reforms are being proposed that will include 
consequences when rules are broken, consequences such as 
sanctions, which were mentioned by Mr. Waxman? How will the IOC 
implement these reforms, and what kind of oversight measures 
can be taken to ensure the integrity of its process for the 
future?
    Mr. Chairman, I thank you for holding this hearing today, 
and I hope that we are able to impress upon the IOC 
representatives who are with us the unacceptability of past 
behavior and the need to implement meaningful reforms for the 
future immediately. Thank you.
    Mr. Upton. Thank you.
    Mr. Barton from Texas.
    Mr. Barton. Thank you, Mr. Chairman. I add my commendation 
to you for holding this hearing. I'm going to be very brief. I 
know we're here today to focus on Atlanta and its effort. I 
want to say that I received a number of very positive character 
references about one of our witnesses, Mr. Payne, from several 
people around the country who have told me what an outstanding 
individual he is.
    The focus of my questions if I'm able to stay for the 
hearing is going to be more on the international committee. I 
think President Samaranch needs to be removed. I think he needs 
to be removed sooner rather than later. I think he's created a 
cesspool at the international level. Until that cyst is 
removed, I see nothing but future trouble for all the other 
cities that want to compete for the international Olympics.
    We hold the Olympics out to be a bright shining star to our 
young people, and it's supposed to be the best about what 
competition and fair play is all about, but anybody who has 
read the Sports Illustrated expose several months ago about the 
way the international committee operates, it amazes me that any 
city that attempts to obtain the games is able to do it in a 
totally fair way.
    So I appreciate your holding these hearings, and I hope 
that we can through our pressure institute some needed reforms 
at the international level.
    Mr. Upton. Thank you.
    Ms. DeGette from Colorado.
    Ms. DeGette. Thank you, Mr. Chairman.
    First of all, I'd like to welcome an old friend of mine 
here today, Bill Hybl, who will be testifying. Bill and I 
served together for 6 years on the Colorado College Board of 
Trustees, our Alma matter. Before Bill had to serve with me for 
those 6 years, his hair used to be dark brown. Now you can see 
it's gray. Hopefully it won't all fall out after the hearing 
today.
    Mr. Chairman, I think that the Atlanta and Salt Lake City 
examples show that the bidding process that has developed 
internationally in recent years has truly tarnished the Olympic 
rings. The bribery that has been catalogued in the reports 
which I have read which were provided to this committee, cast 
dark clouds over the true spirit of the Olympic Games. The 
International Olympic Committee members involved in these 
scandals, frankly in an effort, I believe, to elevate 
themselves to a pseudoroyal status, have forgotten that these 
games are about elite athletes at the pinnacle of their ability 
and about the true triumph of amateur athletics. In an attempt 
to land mega advertising accounts and endorsements, the IOC and 
host cities who fall into this bribery culture forget that 
these games brought together black and white athletes to 
compete for South Africa. They brought the USA and USSR 
together in Seoul in 1988, a year before the Berlin Wall fell, 
and it sees new countries join in the Olympic family every 
year.
    Frankly, we need to get to the bottom of this culture of 
bribery that the IOC has created. While the organization has 
rules, and they seem clear, they are not adhered to in any way. 
In fact, Salt Lake City believed that it lost the 1992 games to 
Nagano because it played by those rules. The culture that has 
developed results in cities and volunteers shelling out 
hundreds of thousands of dollars for IOC officials for shopping 
sprees at Saks, medical treatments for IOC member relatives, 
and college tuition.
    As I said, I've reviewed both the Mitchell report and the 
King & Spalding report. In my view, because of the relatively 
limited scope of the investigation of Atlanta and the fact that 
all witnesses and volunteers were not interviewed, all 
documents were not reviewed, I believe the extent of the 
problem we see in this report is the minimum, and I don't think 
any of us can rule out the conclusion that there were many more 
gifts, bribes, and abuses than have been documented. And 
frankly, I don't think it's worthwhile undertaking a more 
extensive investigation because what we've seen shows that what 
happened was wrong, and we need to work at an international 
level to stop it.
    We're not going to solve this problem today by finger-
pointing and by raking over these old issues. Instead we need 
to work collectively to decide how the United States is going 
to take the leadership role in convincing the IOC to change its 
rules and to make real reforms that we can stick with. I 
applaud the Mitchell Commission for taking the initiative in 
developing a comprehensive plan for reform. I applaud the USOC 
for taking the lead in trying to implement these reforms. I 
believe while we cannot act in a vacuum, we've got to take the 
lead in insisting that the IOC clean up its act. That's the 
thing I'm going to be most interested in hearing from the panel 
today how they think this can happen.
    Let me just conclude by saying a tennis camp in Florida for 
two teenagers from the Republic of the Congo does not give an 
IOC member the sense that a marathon course is going to be good 
for a marathoner or that the food court layout of the city will 
facilitate families' enjoyment of the games, nor does that type 
of an attempt at direct bribery do anything to provide athletic 
equipment for poor children in the country of the Congo. U.S. 
cities, like cities worldwide, have had to perform like dancing 
ponies, and the USOC has been a victim as much as anyone. On 
the other hand, United States cities have participated in this 
type of conduct, and, therefore, it is incumbent on the cities, 
the USOC, and the U.S. Congress to take the lead in putting 
international pressure in cleaning up these practices.
    Mr. Chairman, I'm looking forward to the testimony today. 
As you may know, several members of this subcommittee also sit 
on the conference committee for the important H.R. 10 financial 
modernization, so I would like to apologize if I have to leave 
if they have recorded votes. I know several other members will 
as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Diana DeGette follows:]
Prepared Statement of Hon. Diana DeGette, a Representative in Congress 
                       from the State of Colorado
    Thank you Mr. Chairman. Welcome Bill Hybl.
    Mr. Chairman, I think we can all agree that the Olympic rings have 
been tarnished. The bribery that has been catalogued in the reports 
provided to this committee casts dark clouds over the true spirit of 
the Olympic games. The International Olympic Committee members involved 
in these scandals, in an effort to elevate themselves to a sudo-royal 
status, have forgotten that these games are about elite athletes at the 
pinnacle of their ability. In an attempt to land mega-advertising 
accounts and endorsements, the IOC and the host cities who fall into 
this bribery culture, forget that these games brought black and white 
athletes together to compete for South Africa; the USA and the USSR 
together in Seoul in 1988, a year before the Berlin Wall fell; and sees 
new countries joining the Olympic family each year.
    We need to get to the bottom of this culture of bribery that the 
IOC has created. While the organization has rules, they are not adhered 
to--in fact, Salt Lake City believed it lost the 1992 games to Nagano 
because it played by those rules. This culture results in cities 
shelling out hundreds of thousands of dollars for IOC officials for 
shopping sprees at Saks, medical treatments and college tuition.
    It is time to stop making excuses and apologies--the US cities 
involved and the USOC know what occurred was wrong. We do not solve 
this problem, and insure that the next US bid city is not subject to 
this culture of bribery, by rehashing past wrongs.
    What we must do is stop the culture that requires cities to perform 
these demeaning acts. I applaud the Mitchell Commission for taking the 
initiative and developing a comprehensive plan of reform. I applaud the 
USOC for taking the lead in implementing these reforms. While the US 
and the USOC cannot act in a vacuum, we must take the lead in insisting 
that the IOC clean up its act, reform its ways and cease to place 
themselves, as IOC members, above common decency. Above all, the US and 
the USOC can and must ensure that the athletes regain their proper 
place as the central focus of the Olympic games.
    By no means does a tennis camp in Florida for two teenagers from 
the Republic of the Congo give any IOC member the sense that a marathon 
course is good for a marathoner, that the food court layout will 
facilitate families enjoyment of the games or that the downhill course 
will facilitate a new world record for Picabo Street.
    US cities, like cities worldwide, have had to perform like dancing 
ponies and the USOC has been just as much a victim as anyone. We must 
clean up our act, as the USOC has expressed it is willing to do, so 
that we may lead by example.
    The culture of bribery must stop. We can itemize all the wrongdoing 
today but unless we act to ensure that this culture ends, those who do 
adhere to the IOC rules and behave ethically will already have three 
strikes against them.
    I hope the IOC will begin to act in the spirit of the games it 
represents and move to eliminate this culture.

    Mr. Upton. I would note that a number of members of the 
subcommittee serve on other subcommittees and conference 
committees and will be coming in and out for most of the day.
    Mr. Whitfield from Kentucky.
    Mr. Whitfield. Mr. Chairman, thank you very much. I'm 
delighted that we're having this hearing today. Speaking for 
myself, I must say that I do not pretend to be any sort of 
expert or even understand very well the way the IOC works or 
the U.S. part of that commission works, and I'm delighted that 
we have a number of people here today who have personal 
experience in dealing with this issue, and I'm sure all of them 
are quite distinguished. And we're caught up in the culture, 
but I'm hopeful that they can come forth with some 
recommendations.
    I personally think it will be difficult for the U.S. to 
dictate probably to other countries on this issue, but 
hopefully, as Ms. DeGette indicated, we can take the lead in 
working with other countries and come up with a solution to 
this problem. I think that's the spirit we enter these hearings 
with today is to listen to people who have been involved, 
listen to their suggestions, and from that hopefully come up 
with some meaningful solutions and recommendations. So I look 
forward to hearing from the panels.
    Mr. Upton. Thank you.
    [Additional statement submitted for the record follows:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you Mr. Chairman.
    In May of 1999, when the Committee started its inquiry into the 
Atlanta Organizing Committee's 1996 Olympic bid, we wanted to learn 
whether the events surrounding Salt Lake City's Olympic bid were an 
isolated incident, or part of a larger pattern of misconduct. As we 
have learned, Atlanta actively gathered information about IOC members, 
and armed with this information, broke gift and travel rules in order 
to keep its host city bid competitive. And as Atlanta's organizers will 
testify today, it is highly doubtful that Salt Lake City and Atlanta 
were the only bidding cities engaged in improper gift giving to IOC 
members.
    The improper actions surrounding the Olympic bids of Atlanta and 
Salt Lake City are an affront to the Olympic spirit. The IOC and its 
member organizations must not tarnish the years of hard work and 
training athletes spend in pursuit of the Olympic dream.
    Unethical behavior points to a sad contradiction: Olympic athletes 
must prove that they have not gained an unfair advantage, yet, based on 
what we learned as part of our inquiry into Atlanta's Olympic bid, some 
IOC members expected bidding cities to seek the very same unfair 
advantage. The IOC and bidding cities should take a lesson from the 
athletes who succeed or fail on their own merits in front of the entire 
world.
    Because of the events in Atlanta and Salt Lake City, as well as 
questions about other bidding cities, I believe we all can agree that 
there is a pattern of abuse in the Olympic site selection process. 
Indeed, since December 1998 several groups have been formed to study 
the process used to select Olympic host cities. Also, the Department of 
Justice, has an ongoing investigation that has led to two indictments 
to date. Clearly there is a need for reform in the site selection 
process.
    While all of this attention to new ethics standards and proposals 
that aim to overhaul how Olympic host cities are selected is a good 
start, it is not enough. This conduct did not spring up yesterday, and 
it will not simply go away tomorrow.
    This is why we need to ensure that the outcome of all this study 
and work is actual change, and not window dressing. Verification of the 
compliance with new policies will be critical to rebuilding the 
credibility of the Olympics. I am looking forward to hearing from 
today's witnesses about how they think real change can be introduced, 
and--more importantly--maintained.
    Thank you Mr. Upton for your work on this hearing. I want to thank 
all the witnesses for their appearance here today. I look forward to 
their testimony.

    Mr. Upton. Our first panel today consists of the cochairs 
of the Atlanta Olympic Committee, the Honorable Andrew Young as 
well as Mr. Bill Payne. We also have the former president of 
the USOC, Mr. Robert Helmick, and the current president of the 
USOC, Mr. Bill Hybl.
    If the four of you could take--could come to the witness 
stand. I want to note as you may be aware, this subcommittee is 
an investigative subcommittee, and as such we have always had 
the practice of taking testimony under oath. Do any of you have 
objection to that?
    Seeing none, the Chair also advises you that under the 
rules of the House and of this committee, you are entitled to 
be advised by counsel. Do you desire to be advised by counsel 
this morning?
    Mr. Payne. Yes, sir.
    Mr. Upton. If you could indicate who your counsel is so the 
clerk can make sure she records it accurately.
    Mr. Bell. Judge Bell and Ted Hester of the law firm of King 
& Spalding, and we're representing Mr. Young and Mr. Payne.
    Mr. Upton. Mr. Hybl and Mr. Helmick, do you have counsel as 
well?
    Mr. Helmick. No, sir.
    Mr. Hybl. Mr. Chairman, the general counsel of the U.S. 
Olympic Committee is with us for advice today.
    Mr. Upton. If all of you can stand, counsels included, and 
raise your right hand.
    [Witnesses sworn.]
    Mr. Upton. You're now under oath, and we have two members 
asking to introduce a couple of you, and Mr. Hefley, a member 
from Colorado; Mr. Isakson from Georgia. Mr. Hefley, you may 
proceed.
    Mr. Hefley. Thank you, Mr. Chairman. I can't tell you what 
a thrill it gives me to call you Mr. Chairman. When you and I 
entered Congress here some years ago, we hardly dared to 
imagine this day would come. So it's a great pleasure for that.
    I appreciate your letting me have the honor of introducing 
one of your panelists and also of sitting in on your hearings 
here, which I think are very important.
    I represent the U.S. Olympic Committee. Their headquarters 
are in Colorado Springs. I can't tell you how thrilled I was 
when the Olympic Committee made the decision to come to 
Colorado Springs, because to me the Olympics had always 
represented all that is best in athletics, all that is 
untarnished, all that is good, all that is right. Everyone 
wants to identify with the Olympics. It's a name brand that 
carries a very positive connotation, whether you be Coca-Cola, 
Pepsi, FedEx, the sponsors of the Olympics or whether you be 
other sporting events like the Senior Olympics the Wheelchair 
Olympics the Handicap Olympics, whatever it is you want to 
identify--in fact, the Olympics have problems with that name 
identification sometimes, I know, because everyone wants to get 
in on that. And I was heartsick to learn of the corruption in 
the selection process. At a time when so many institutions are 
tarnished, we can't let that happen with the Olympics. So I am 
delighted to introduce one of the leaders in rooting out that 
corruption.
    Bill Hybl, who in real life is an executive at the 
Broadmoor Hotel and El Pomar Foundation, but his volunteer job 
is as president of the U.S. Olympic Committee. Bill and I have 
been friends for a long, long time. In spite of my indiscretion 
early in our political lives when I supported--Diana, I 
supported Bill's opponent in his race for the State 
legislature. Unfortunately the good sense of the voters of that 
district prevailed, and Bill was elected. They paid no 
attention to me whatsoever.
    Bill was elected to the State legislature, did a wonderful 
job there, although brief, because he went with the Broadmoor 
El Pomar Foundation, and he's doing a magnificent job in his 
volunteer job at the Olympic Movement.
    What you are doing today, Mr. Chairman, is important work, 
and I know that Mr. Hybl stands ready to help you in your 
efforts and, more importantly perhaps, to help in the important 
task of reforming the Olympic movement. So it gives me great 
pleasure this morning to introduce my friend, president of the 
U.S. Olympic Committee, Bill Hybl.
    Mr. Upton. Thank you, Mr. Hefley. I would just note for the 
record that a number of us were glad you stayed out of the race 
when your wife ran for State legislature as well. She was able 
to win despite your handicap.
    Mr. Isakson.
    Mr. Isakson. Thank you, Mr. Chairman. I'm delighted to be 
here today and delighted to be joined by Congressman Chambliss 
and Congressman Bishop with the opportunity to introduce two 
great Georgians, Billy Payne and Andy Young. While my remarks 
today are my own, I am confident I speak for thousands, if not 
millions, of Georgians who admire and respect these two fine 
men. I know the purpose of this meeting is not to lavish praise 
on these men, but neither should it be to condemn them out of 
context or without perspective.
    Billy Payne is my personal friend of more than 40 years. In 
the late 1980's, Mr. Payne and a handful of citizens set out on 
an impossible dream to bring the 1996 Centennial Olympic Games 
to Atlanta, Georgia, and the South. First they had to convince 
the USOC that Atlanta should be America's bid city, and then 
they had to bring the International Olympic Committee and its 
members to the American South to convince them that unpaid 
volunteers could raise $1.5 billion, construct the venues, and 
host over 3 million visitors from around the world.
    The fact that Billy succeeded amazed many, but to those of 
us who have watched him time and again, whether it's to lead a 
successful campaign, to build a new sanctuary for his church, 
or raise scholarships for his beloved University of Georgia, it 
was no surprise at all.
    Andy Young, a former Member of this Congress, former 
Ambassador to the United Nations and former mayor of Atlanta, 
needs no introduction. His ability and integrity are known 
around the world. Andy is also my friend and a man I admire and 
respect. The fact that Andy Young was the only elected official 
to embrace Billy Payne's dream was no surprise, because like 
Billy, Andy knows that dreams can come true if you're willing 
to work and keep the faith.
    The legacy these two men left goes far beyond the memories 
of 16 magic days for the citizens of our city, our State, and 
our country. Today the Olympic Village provides dormitories for 
our students at universities and colleges, the Olympic stadium 
is the home of the Atlanta Braves, and Centennial Olympic Park 
is Atlanta's most significant urban renewal project since 
Sherman's march to the sea. More importantly, the children of 
our State saw firsthand that dreams can come true and that 
regardless of the barriers of language, wealth, or race, the 
world can come together and compete in an environment where 
sportsmanship and mutual respect are the rule and not an 
exception.
    Mr. Chairman, I'm aware of the purpose of this hearing is 
to evaluate Judge Bell's report and the fact that the Atlanta 
committee violated the International Olympic Committee's $200 
gift rule. I do not believe that the end justifies the means or 
the fact that everybody else did it is an excuse or defense. On 
the other hand, I do not believe these men deserve to be 
questioned unless there's the clear understanding that they 
operated in an environment governed and enforced by an 
international committee made up of members who accepted the 
gifts that violated the rules that those members themselves had 
adopted.
    I would hope we would look to the future to determine what, 
if any, oversight this Congress should undertake in the 
governance of future American bid cities rather than dwell on 
what Congress would have done 10 years ago to oversee an 
American bid city competing in an international environment and 
governed by an international committee.
    Mr. Chairman, I'm very grateful of the time you've allowed 
me, and I am honored to introduce two of Georgia's finest 
citizens and my friends, Billy Payne and Andy Young.
    Mr. Upton. Thank you very much.
    Gentlemen, your statements will be made part of the record 
in its entirety. We would appreciate if you could limit your 
opening remarks and summary of your testimony to about 5 
minutes. We have a little light here that works, that turns red 
at the appropriate time.
    Mr. Payne, we'll begin with you. Thank you.

    TESTIMONY OF WILLIAM P. PAYNE, COCHAIR, ATLANTA OLYMPIC 
  COMMITTEE; ANDREW YOUNG, GOOD WORKS INTERNATIONAL, COCHAIR, 
 ATLANTA OLYMPIC COMMITTEE; WILLIAM J. HYBL, PRESIDENT, UNITED 
    STATES OLYMPIC COMMITTEE; AND ROBERT H. HELMICK, FORMER 
           PRESIDENT, UNITED STATES OLYMPIC COMMITTEE

    Mr. Payne. Thank you very much, Mr. Chairman, ladies and 
gentlemen of the subcommittee. Judge Bell's report to which you 
referred often already provides a detailed accounting of our 
efforts in Atlanta to win the right to host the 1996 Centennial 
Olympic Games, and I will not attempt to repeat the detail here 
in my brief opening statement.
    At the outset, ladies and gentlemen, let me say that I 
completely agree that the international process for bidding for 
the Olympic Games is dramatically in need of reform. We are 
prepared to assist this subcommittee and the International 
Olympic Committee in any way possible in making that reform a 
reality.
    In fact, as detailed in our written response, Atlanta's 
bidding effort included excessive actions, even thought 
processes, that today seem inappropriate, but at the time we 
believed it represented the prevailing practice in the 
selection process in an extremely competitive environment. 
Those kinds of practices should not be permitted in future 
Olympic bids. In hindsight, we recognize, I recognize, that 
these excesses by those of us in Atlanta and other bidding 
cities were a mistake, but I hope and believe that they should 
not be allowed to overshadow all that is wonderful about the 
Olympic movement and all that was wonderful about the Atlanta 
games.
    I have long believed and still believe passionately in the 
power of the Olympic movement to bring people together in a 
common sense of celebration of humanity as we all honor the 
greatest athletes in the world. We must do everything possible 
to eliminate these excesses, to reform these processes, but not 
forget, please not forget, and certainly never destroy the 
great promise of the Olympic legacy and America's preeminent 
role. That being said, I would like to briefly comment on our 
bidding activities.
    As you have seen, and your staff as well, from reviewing 
our many documents, we received input from virtually anybody 
willing to talk to us about the process as we were learning 
about it and about their assessment of the process. Those 
assessments, those many assessments, painted a convincing 
picture of a culture that existed within the bidding process 
and, importantly, what we would need to do if we wanted to play 
the game, if we wanted to bid and bring the Olympic Games to 
our home city.
    We learned the following about the selection process: The 
IOC culture itself was a culture of some 70 different countries 
that were the resident countries of the IOC members, and that 
culture existed within a closed system that had been 
historically insulated from many external oversight mechanisms. 
It was, in effect, a world unto its own with no apparent 
accountability. Each IOC member had a totally independent, 
totally subjective voting power and a secret ballot system. 
Lobbying the votes of these members throughout the 2\1/2\ years 
of our efforts was intensely competitive and largely 
uncontrolled among the bidding cities with no limits on overall 
spending, no disclosure requirements, and little public 
scrutiny. The process had proven to be a very expensive one for 
cities aspiring to host the Olympic Games.
    Bid cities routinely lobby each IOC member on a 
personalized and targeted basis. Many, though not all, IOC 
members were customarily given such special treatment. Prior 
Olympic bid efforts were characterized by generous gifts, 
frequent international travel, lavish hospitality, and numerous 
favors and personal accommodations for IOC members. Among those 
familiar with the international bidding process, the general 
consensus honestly was the ritual of courting IOC members was 
not only necessary, but an indispensable undertaking in order 
to have a realistic chance of winning the Olympic Games.
    At that time, going back to 1987, we neither defended nor 
rebuked, as the chairman has pointed out, the site selection 
process and dealt with it as we found it. Instead, we simply 
accepted the reality in the process of bidding for the Olympic 
Games. Our objective was to win for Atlanta and the United 
States the right to host the 1996 games, not at that time to 
reform the International Olympic Committee. But make no 
mistake, and we are the first to admit, that the Olympic Games 
are a huge financial undertaking. Our organizing committee 
agreed to shoulder the responsibility, to raise $1.7 billion 
just to put on the games in our city of Atlanta. And at the end 
of the day, we were proud to say that we accomplished our goal 
of breaking even.
    The U.S. Olympic Committee, as Mr. Hybl will point out, and 
the U.S. athletes benefit significantly when the Olympic Games 
are hosted within our great country. The Atlanta Games provided 
U.S. Olympic Committee and its athletes approximately $230 
million from television, marketing, and sponsorship proceeds, 
including their share of the National Olympic Committee 
distributions from the International Olympic Committee. And as 
we all know, the IOC also benefits from the staging of the 
games by taking a share of virtually every dollar raised, some 
of which is distributed back to the U.S. Olympic Committee 
along with other National Olympic Committees. The IOC controls, 
must approve, and shares in the television rights, 
sponsorships, licensed merchandise, commemorative coins and 
sale of memorabilia. For the Atlanta Games, the IOC retained 40 
percent of the television rights, 5 percent of the fee on all 
merchandise and goods sold, and 3 percent of the revenues from 
the federally permitted Olympic coin. All totaled, the IOC 
received approximately $400 million in cash and value from the 
Atlanta Games.
    Undeniably Atlanta and Georgia and, we hope you would 
concur, America benefited enormously from hosting the 1996 
games. The games stimulated hundreds of millions of dollars in 
permanent capital improvement in Georgia.
    In closing, Mr. Chairman, let me say that we did indeed 
launch and conduct a very aggressive effort as we launched for 
the first time ever really our city's competition in the 
international arena. We generally felt that we had to be 
aggressive in order to prevail. That aggressiveness and our 
inherent enthusiasm contributed to the many excesses which are 
detailed in our report, but we believe honestly that that same 
enthusiasm also contributed to the incredible pulling together 
of the people of Atlanta and America as we together embraced 
the common purpose and shared vision of bringing the Olympic 
Games to our great country.
    I salute once again, Mr. Chairman, your reference to 
safeguard the future of the Olympic movement and importantly 
the opportunity for other American cities to fairly compete for 
the honor of hosting future Olympic Games. Thank you.
    [The prepared statement of William P. Payne follows:]
               Prepared Statement of William Porter Payne
    Good morning, Mr. Chairman and Members of the Subcommittee. I 
understand that the Subcommittee has reviewed and will include in 
today's hearing record the Georgia Amateur Athletic Foundation's (GAAF) 
September 16, 1999 response to Chairman Bliley and Chairman Upton. That 
response provides a detailed accounting of our efforts to win for 
Atlanta the right to host the 1996 Centennial Olympic Games and I will 
not attempt to repeat that detail in my statement here this morning. I 
would, however, like to briefly share with you my thoughts on some of 
the broader questions and larger issues facing this Subcommittee as 
well as the International Olympic Committee (IOC).
    At the outset, let me say that I completely agree that the 
international process of bidding for the Olympic Games is in need of 
reform. I am prepared to assist this Subcommittee and the IOC in any 
way possible in making that reform a reality.
    It is a fact, as detailed in our written response, that Atlanta's 
bidding effort included excessive actions, and even thought processes, 
that today seem inappropriate but at the time, reflected the prevailing 
practice in the selection process and an extremely competitive 
environment. Those kinds of practices should not be permitted in the 
competition for future Olympic bids.
    In hindsight, I recognize that many of these excesses by those of 
us in Atlanta and by other candidate cities in the bidding process were 
a mistake, but they should not be allowed to erase or overshadow all 
that is good about the Olympic Movement and the Atlanta Games. I have 
long believed and still believe in the power and majesty of the 
Olympics to bring people together in a common sense of celebration of 
humanity as we honor the greatest athletes in the world. We must do 
everything possible to preserve and safeguard that potential for future 
generations. We must eliminate the excesses, reform the processes, but 
not forget, and certainly never destroy, the great promise of the 
Olympic legacy and America's prominent role.
    That being said, let me briefly comment on the Atlanta bidding 
effort. On February 8, 1987, I conceived the idea that Atlanta, Georgia 
and the United States of America should be proposed as a candidate to 
host the Olympic Games. For the next three years and seven months, 
together with my friend and colleague Andy Young, I led the effort that 
presented Atlanta's candidacy first to the U. S. Olympic Committee 
(USOC) and then to the International Olympic Committee.
    After our successful selection as the official U.S. candidate city, 
hundreds, and ultimately thousands, of additional volunteers and 
considerable corporate support began marshalling behind this 
``impossible dream''. We were increasingly amazed at the intensity and 
passion with which the people of Atlanta and Georgia began embracing 
this quest. While no one was sure we could win, our community rallied 
together behind the magnificence of the Olympic competition.
    When I first proposed the idea of an Olympic bid, I had no idea 
when the next Olympic Games would be available, had never heard of the 
IOC, and was wholly unfamiliar with the Olympic site selection process. 
Our first task was to learn as much as possible about the site 
selection process at both the USOC and IOC levels.
    From February 1987 until September 1990 when Atlanta was selected 
by the IOC to host the 1996 Games, GAAF received input--both solicited 
and unsolicited--from just about anybody willing to give their 
assessment of the selection process. For example, we received advice 
from USOC members; IOC members; sports federation members; national 
Olympic committee members; journalists; corporate sponsors; and 
individuals from other Olympic bid cities including Los Angeles, 
Anchorage, Barcelona, Athens, Melbourne and Toronto. Taken together, 
they painted a convincing picture of the culture that prevailed in the 
bidding process and, most importantly, what Atlanta would need to do to 
bring home the Olympic Games. We learned the following about the IOC 
site selection process:

<bullet> The IOC culture was the product of the more than 70 cultures 
        of the voting IOC members and existed within a closed system 
        that had historically been insulated from any external 
        oversight mechanism. It was, in effect, a world unto its own, 
        with no apparent accountability;
<bullet> Each IOC member had independent, totally subjective voting 
        power in a secret ballot system;
<bullet> Lobbying for the votes of these members was intensely 
        competitive and largely uncontrolled among the bidding cities. 
        With no limits on overall spending, no disclosure requirements, 
        and little public scrutiny, the process had proven to be an 
        extremely expensive one for the bid cities;
<bullet> Bid cities routinely lobbied each IOC member on a 
        personalized, targeted basis. Many, though not all, IOC members 
        were customarily given such special treatment;
<bullet> To the extent that the IOC had written rules, they were 
        customarily ignored by the bidding cities and were not enforced 
        by the IOC; and
<bullet> Prior Olympic bid efforts were characterized by generous 
        gifts, frequent international travel, lavish hospitality and 
        numerous favors and personal accommodations for IOC members. 
        Among those familiar with the bidding process, the general 
        consensus was that this ritual of ``courting'' IOC members was 
        not only acceptable but also necessary for a city to have any 
        realistic chance of winning the Olympic bid.
    At the time, GAAF neither defended nor rebuked the site selection 
process as we found it. Instead, we simply accepted it as the reality 
of bidding for the Olympics. Our objective was to win for Atlanta and 
the United States the right to host the 1996 Games, not to reform the 
IOC.
    To accomplish that goal, we developed and implemented a strategy 
that reflected much of what we had learned and continued to hear about 
the site selection process. We set out to win a majority of the IOC 
votes primarily by cultivating close relationships with IOC members. We 
recognized early on not only that Atlanta was an underdog, but that we 
would not be able to out-spend the other candidate cities. Instead, we 
decided that we had to do better than the others at ``personalizing'' 
our approaches to IOC members, supported by gifts, travel, and other 
favors tailored to the tastes of the individual IOC members. We 
believed that by doing this, we could create relationships that would 
allow us to gain insight from IOC members regarding our candidacy and 
ultimately increase the level of support for Atlanta among IOC members.
    This strategy, which we first published in our ``Strategic 
Operating And Management Plan'' in December 1988, included plans to:

<bullet> Develop an information file on IOC members;
<bullet> Visit IOC members in their home country;
<bullet> Arrange for IOC members to visit Atlanta;
<bullet> Attend all meetings where three or more IOC members are 
        gathered;
<bullet> Communicate with IOC members on a regular basis; and
<bullet> Establish a personalized gift program to IOC members.
    That strategy, along with the efforts of our many volunteers, 
apparently worked. We will never know the relative importance to 
Atlanta's victory of the technical merit of our bid, but it was ranked 
as the best by the official IOC Evaluation Commission; of intangibles, 
such as its civil rights leadership; of the dedication and tremendous 
enthusiasm of our volunteers and our entire community; and of the 
personal relationships we developed with IOC members, which were 
supported by gifts, travel, entertainment, and other accommodations. We 
do know that the amount of money that GAAF spent on IOC members and 
throughout the selection process was not by itself the deciding factor. 
GAAF spent approximately $7.8 million while it was reported that most 
other cities spent considerably more: Athens, Greece--$25 million; 
Melbourne, Australia--$20 million; and Toronto, Canada--$15 million. 
Most of this money was spent after the fall of 1988, when Lillehammer 
was selected to host the Winter Games.
    Despite the difference in spending, GAAF was able to accomplish its 
goal of winning the Olympic bid, and then successfully staged the 1996 
Games through the tireless efforts of thousands of civic-minded 
volunteers and tremendous community, corporate, and governmental 
support. As a result, both Georgia and the IOC were able to reap the 
benefits of the 1996 Games.
    Make no mistake--the Olympic Games are a huge financial 
undertaking. ACOG agreed to shoulder responsibility to raise and spend 
over $1.7 billion dollars just to put on the Olympic Games in Atlanta. 
At the end of the day, ACOG accomplished its goal of breaking even.
    The United States Olympic Committee and U.S. athletes benefit 
significantly when Olympic Games are hosted in the United States. The 
Atlanta Games provided the USOC approximately $230 million from 
television, marketing, and sponsorship proceeds, including moneys 
received through the IOC. The IOC also benefits from staging the Games 
by taking a share of virtually every dollar raised, some of which is 
distributed back to the USOC along with other national organizing 
committees. The IOC controls, must approve, and shares in all 
television rights, sponsorships, licensed merchandise, commemorative 
coins or memorabilia. For Atlanta, the IOC retained 40% of television 
rights fees, 5% of all merchandise or goods sold, and 3% of the 
revenues from the sale of Olympic coins. All totaled, the IOC received 
approximately $400 million in cash and value from the Atlanta Games.
    In our supplemental report, we indicated that the prize of the bid 
competition ``was enormous: hosting the Olympics brought incalculable 
prestige and potentially billions of dollars in economic impact to the 
winning city.'' In fact, this was precisely the impact on Atlanta as 
the result of the 1996 Games.
    The 1996 Games stimulated hundreds of millions of dollars in 
permanent capital investment in Georgia, with a total economic impact 
for Georgia of more than $4 billion. The 1996 Games stimulated 
approximately 2.5 million square feet of new construction and 
installation of more than 2,000 miles of fiber optic cable. Some of 
Georgia's most popular destinations include two primary Olympic 
legacies--Centennial Olympic Park and Turner Field. Much of that 
investment also brought major infrastructure and facility improvements 
to several Georgia academic institutions. Citizens in other Georgia 
cities still enjoy the Georgia International Park in Conyers, the Stone 
Mountain tennis center, the Columbus softball complex and the Lake 
Lanier rowing center. The 1996 Games helped define Atlanta as an 
``international city'' and dramatically increased domestic and 
international tourism in Atlanta.
    The Olympics clearly have an extraordinary intangible impact as 
well. The 1996 Games allowed Georgia and Americans to experience the 
grandeur of the Olympics first hand. Athletes from all over the world 
visited Atlanta and pushed the very edges of their personal envelopes 
with the whole world watching. Relationships were formed that 
transcended governments and ideologies. We watched Atlanta and Georgia 
learn more about the world, and the world learn more about us. And, 
although the media has recently focused on the negative aspects of the 
Olympic bid process, the media archives are replete with stories 
describing the magnificence of the Olympic spirit so overwhelmingly 
demonstrated in Atlanta and America during the 1996 Games.
    Despite all that is wonderful about the Olympic legacy, I do 
believe that reform is needed in the bidding process, particularly in 
the areas of gifts and travel.
    In the intensely competitive site selection process, the temptation 
is great for bidding cities to offer--and IOC members to accept--
generous gifts. To eliminate this temptation and potential for abuse, I 
believe that all gifts of any value whatsoever should be prohibited in 
the bidding process. Also, IOC members should be required to report any 
offers of gifts from bid cities and the IOC should create and 
vigorously implement some type of enforcement mechanism for these 
rules.
    Our report, and those reports which have detailed the activities 
relating to recent Olympic bids in Toronto, Sydney, and Salt Lake City 
have identified the entire travel and reimbursement area as one 
particularly susceptible to excesses and abuses by bidding cities or 
members of the international sporting family. This potential for excess 
is increased by the significant international travel costs at issue and 
the reluctance of bid cities to interrogate or challenge IOC members 
about their itineraries or backup documentation. To avoid this problem, 
I believe that all travel of IOC members should be paid for directly by 
the IOC and no reimbursement for travel costs should be required of any 
bidding cities in the competition.
    In closing, let me say that we were indeed aggressive as we 
launched our city's effort for the first time ever into the intensely 
competitive international arena. We genuinely felt we had to be 
aggressive in order to prevail in that arena. That aggressiveness and 
our inherent enthusiasm obviously contributed to the excesses detailed 
in our report. That same enthusiasm also contributed to an incredible 
``pulling together'' of the people of Atlanta as we embraced this 
common purpose and shared vision of bringing the Olympic Games to our 
home city.
    I salute your efforts to safeguard the future of the Olympic 
movement and the opportunity for other American cities to compete for 
the honor of hosting the Olympic Games.

    Mr. Upton. Thank you.
    Mr. Young.

                    TESTIMONY OF ANDREW YOUNG

    Mr. Young. Thank you, Mr. Chairman. Let me thank you for 
inviting us to testify before this committee.
    I'd like to go back to the time when we first started this, 
because when we went to Seoul in 1988, we were a small group of 
volunteers operating almost totally on our own funds and 
knowing that we were getting into a rough game, but we heard 
the stories of diamonds and furs exchanged in Olympic 
competitions amongst IOC members. We knew we couldn't play that 
game. But knowing that it might be a dirty game like in a dirty 
game of football, you figure you don't have to play dirty, but 
when you get in it, you expect to win. So we got in the game, 
and we were determined to win.
    We learned two things in Seoul. The first was to our shame 
and surprise, nobody really knew Atlanta. They kept getting us 
confused with Atlantic City. And we had to define ourselves, 
and one of the reasons we went out of our way to get people to 
come to Atlanta was nobody knew Atlanta. People know 
Washington. They know New York. They know California. The only 
thing they knew about the South was civil rights, the Civil 
War, and Disney World. One of the reasons why we openly agreed 
to take people to Disney World was that's what they knew about 
the South. That's what they wanted to see.
    The other thing we learned about at Seoul was that this was 
a very complex process. We watched the bidding for the Winter 
Olympics, and all of the conventional wisdom was that the great 
cities and the great nations would win. Anchorage was the U.S. 
bid. Ostersund was Sweden's bid; Sofia was Bulgaria's bid; and 
there were all kinds of theories. Nobody thought Lillehammer, 
including Samaranch, and when Lillehammer won, nobody could 
figure out why. As we went around to the IOC members to try to 
figure out why, we kept hearing they were such nice people. We 
determined that in five secret ballots, one, you can't buy an 
election in five secret ballots. You have a ballot. People 
don't talk to each other. The low person drops out. Then they 
vote on the next one. The lowest vote drops out. Then they vote 
on the next one. You've got to survive five secret ballots with 
no communication. We decided that was, one, a pretty honest 
process, one that, in order to win, you had to capture the 
hearts of the IOC members. And that's why we set out to do such 
detailed analysis of the personalities.
    Most of the people on the IOC are enormously rich, and 
money doesn't matter, but a lot of the subtleties of their egos 
and ambitions and their interests were important in helping 
them to understand Atlanta. It was also necessary for us to 
demonstrate that we had the capacity to put on the games.
    Now, in dealing with the poorer nations and the poorer 
members, we had another problem, and that is we were known to 
be a rich nation. There was a lot of resentment that our 
athletes were well-trained and well-fed. Their athletes had no 
training facilities. Their athletes had no equipment, and yet 
we were expecting them to come and compete. We were constantly 
challenged to show that we had an interest in the developing 
world's athletes.
    We were able to do that in part because we've always done 
that in Atlanta. We had a training camp for athletes before 
coming to Los Angeles when we had no ambitions for the games 
and no interest for the games. Local businessmen put together 
money, and we sponsored a training camp at Emory University, 
and we allowed athletes to come there and train for 2 or 3 
weeks, for a month, before going to Los Angeles. It was simply 
goodwill. We hosted the Angolan team in Atlanta one summer. 
Local citizens did this just to give Angolans a chance to play 
basketball. We also ended up recruiting a couple of their 
basketball players for our junior college, but it's been 
something we've constantly done, and if there were excesses in 
this direction, those excesses were consistent with our 
practices even before we were involved in the Olympics.
    My family has always been involved in helping people from 
other countries get education. It's part of our church 
tradition because our family was educated by missionaries. So 
we feel a responsibility for several generations to make sure 
that anybody who wants a good education in the United States of 
America ought to be able to have it if they're willing to work 
and study, and when we were involved in things like this, it 
wasn't with the intent of bribing IOC members. It's because 
that's the way we've always done business in Atlanta. If we 
took people to Augusta, it's because that's the way we got 
1,100 businesses into Georgia during the time I was mayor of 
Atlanta, because we bring them on the red carpet tour, and we'd 
show them the best that we had to offer, and we would try to 
impress them with the quality of life that we had, because we 
didn't have tax breaks. We couldn't compete with other States 
in terms of the amenities. So we tried to put the emphasis on 
honesty and efficiency and, yes, southern hospitality. We could 
make you feel at home, and we could treat you better in Atlanta 
than anywhere else in the world. That's the way we've done 
business, and that's the way we've been a successful city.
    We didn't want to lose this, and we probably did overextend 
ourselves and our hospitality, but it wasn't with the intention 
of corrupting the system. It was with the intention of 
demonstrating that we with our diversity represented best what 
the Olympic ideal stood for, and we bragged about our 
affirmative action. We bragged that the Hispanic 
representatives could come; and the president of Coca-Cola was 
Robert Goizueta, a Hispanic; that the president of one of our 
larger engineering firms was born in India; that we had a 
Polish community and an Irish community that would entertain 
people, and no matter what language you were or what your 
cultural background was, we found a way to speak your language 
and to introduce you to Atlanta and make you feel at home.
    That's what we thought we were doing. We think we did it 
successfully, and that's why it's been hard for us to think of 
what we did in the context of a culture of corruption and us 
having been co-opted by a culture of corruption. We have 
problems with that, though we admit that in any international 
ethical environment, whether it's the United Nations, the IOC, 
the International Monetary Fund, the World Bank, there are 
competing standards of ethics. Ours, I think, are the highest. 
We have a responsibility to uphold those and fight for them, 
but in the meantime, we try to play the game as fairly as we 
can on a level playing field and win, and that's what we think 
we did.
    [The prepared statement of Andrew Young follows:]
      Prepared Statement of Andrew Young, Good Works International
    Good morning, Mr. Chairman and Members of the Subcommittee. I am 
delighted to be here with you to discuss our thoughts and your thoughts 
about the Olympic Games.
    Let me first say that I am enormously proud of Mr. Billy Payne and 
the thousands of volunteers who first helped Atlanta to win, then 
prepared Atlanta to host the 1996 Centennial Olympic Games. These past 
few months of discussion and review of the Olympic bid process have in 
no way diminished the pride that I feel for our efforts.
    In my career, I have been involved with countless activities in 
which people from all walks of life joined together for a brilliant 
cause. During the 1960's, people joined together to fight racial and 
economic oppression under the leadership of Dr. Martin Luther King, Jr. 
In the decades that followed, people joined together to fight social 
and cultural oppression in Third World nations across the globe, often 
under the leadership of President Jimmy Carter.
    One common thread that has united and joined people together is the 
Olympic Games. When Atlanta hosted the 1996 Games, nearly 200 countries 
fielded teams, the most participating countries in the history of the 
Games. For nearly three weeks during those Games, virtually every 
country on the planet focused their attention on Atlanta--and on the 
United States--because of one reason: the athletes.
    It is the athletes that embody the deep spirit of the Olympic 
Games. Not the corporate sponsors' Not the Olympic committees or 
federations or the individuals who bid for the Games' Not the 
television producers or commentators. What most excites the athletes 
about competing in the Games? I think it is the chance to experience 
the world, the chance to become friends with their peers from 200 
different countries. And maybe, through their new friendships with 
people who do not share the same language, these athletes can begin to 
understand what they all share--and that is, the diversity of the human 
race.
    Atlanta won its Olympic bid on the strength of its diversity and 
inclusiveness, thus 40 percent of the Olympic related construction 
contracts were awarded to minority- and women-owned firms. Our good job 
of promoting economic diversity led to greatly increased wealth. With 
two billion dollars in spending on the Olympics, Atlanta led the region 
in economic growth during the 1990s. The total economic impact from the 
Olympic Games in 1996 for both Atlanta and Georgia is estimated at more 
than $4 billion.
    As I was about to conclude my second term as mayor of the city of 
Atlanta, things had gone very well for seven years. I had inherited 
from Maynard Jackson a sound base of urban development. We had just 
completed a new terminal at Hartsfield International Airport, the mass 
transit program--which I had helped to start while I served in 
Congress--was moving steadily along and in general, things were in good 
shape.
    I began an effort with the Chamber of Commerce, the Convention and 
Visitors Bureau and the State Commission of Trade and Industry to 
attract new, private investment to the city. In my eight years as 
Mayor, we attracted over seventy billion dollars in private investment. 
This was a city generating wealth not just trying to redistribute 
existing wealth through taxation.
    On the heels of this success, two local attorneys, Horace Sibley 
and Billy Payne, wanted to talk to me about hosting the Olympics in 
1996. Most Atlantans laughed at the notion but I had a vision of the 
Olympics in 1936 in Berlin. I was four years old and my father took me 
to a local theatre to see a Movietone clip of Jesse Owens winning four 
gold medals, defeating in our eyes Hitler's vision of a white master 
race.
    Even so, I hesitated. As Mayor, I was acutely aware of the 
financial debacle inherited by the city of Montreal when it hosted the 
1976 Summer Olympic Games. Jokes were still made about its Olympic 
Stadium, where the Montreal Expos had since played baseball, and that 
for every hot dog the fans bought, another penny went to reducing the 
city's Olympic debt. Many pennies were required--the taxpayer burden 
approached one billion dollars. The Atlanta Games would have to be 
privately funded. I would not allow Atlanta's taxpayers to owe one 
penny.
    But Billy was persistent. Billy and I were both men with a 
religious sense of service. Billy says that he first had the dream of 
bringing the Olympics to Atlanta during dedication services for a $1 
million addition to his church in Dunwoody. He and his wife, Martha, 
spearheaded the capital improvement campaign and he liked the notion of 
public service and wanted to do more on a bigger scale. Bringing the 
Olympics to Atlanta was certainly that and more.
    Atlanta had the airport, transit system, 6,000 hotel rooms, a 
massive convention center, a new domed stadium, and the ideal site for 
the Olympic Village--all needed to win the Olympic bid. However, 
Atlanta's global contribution was--and remains--clearly in the area of 
human rights and the ability of people from many divergent backgrounds 
to live together in harmony.
    More than 1,000 churches offered hospitality to families of 
visiting athletes during the Olympics and thousands upon thousands of 
volunteers helped put on the Games. Volunteers ``made a witness to the 
world'' during the bidding and the preparation of the Games. All of the 
volunteer efforts were strictly volunteer, with no monetary gain.
    Volunteers helped clean up the city beforehand, took tickets and 
drove dignitaries and officials to venues and hotels. Doctors 
volunteered at the Olympic Village, homemakers and students volunteered 
wherever needed, and the city's business community donated time, money 
and goodwill.
    The strategy to promote Atlanta as the host for the Centennial 
Olympic Games was developed largely by local volunteers who understood 
the universal appeal of the American South's reputation for hospitality 
and graciousness. During our bid effort, these volunteers helped 
educate visiting members of the International Olympic Committee about 
the virtues of Atlanta. Rather than entertain the IOC members in fancy 
restaurants, volunteers all over Atlanta invited them into their homes. 
Here, they saw that the top executive of our largest company, Coca-
Cola, was Hispanic, and Atlanta had business and civic leaders whose 
ethnic backgrounds were as diverse as could be imagined.
    These members of the International Olympic Committee also were 
impressed by Atlanta's, and in particular my own personal experience, 
with Dr. Martin Luther King Jr., and his courageous leadership of the 
American Civil Rights Movement. I spent many moving hours with the IOC 
representatives from Africa and from other destitute nations around the 
world. What they knew of Dr. King was nothing short of legendary. He 
and his work inspired them in their own countries, even as they were 
faced with unspeakable poverty, ethnic hatred and violence, and 
deplorable living conditions.
    I shared with these IOC members that our Movement began as a 
struggle for freedom. But despite important gains in education and 
economic opportunity, for black Americans without education, political 
power, or wealth, their condition remained as Martin once described, 
``a lonely island of poverty in an ocean of material wealth and 
affluence.'' The IOC members from Africa and other Third World nations 
understood this perfectly, because their island of poverty was very 
real.
    The people in these countries had nothing. When asked by the IOC 
delegate from the Republic of the Congo if I could help children in the 
Congo get soccer balls and gym shorts, I tried to help them. For this, 
Atlanta's Olympic bid effort has been scrutinized. Mr. Chairman, I have 
dedicated my life to helping children like these, and I am at peace 
with myself that this act of human kindness was appropriate. If I had 
failed to help these children--who even with new soccer balls still 
competed in games in their bare feet--I would not be at peace. The 
issue of whether or not this was within the gift-giving guidelines of 
the Olympic bid process was not my primary concern. Nor was the issue 
of winning a vote for Atlanta. We saw a need to help an impoverished 
people, and we helped them.
    The Atlanta Olympic Organizing Committee donated money to a South 
African anti-apartheid organization. This organization was fighting the 
single greatest obstacle to the African continent and needed help. This 
organization was not even affiliated with any Olympic group, because 
South Africa at that time was banned from Olympic competition. Why? 
Because of apartheid. The issue of whether or not this was a 
questionable gift was not my primary concern. We saw a need to bring 
apartheid to an end, and in a small way, perhaps we helped.
    I cannot tell you how excited I was when the South African athletes 
marched into the Atlanta Olympic Stadium during the Opening Ceremonies 
on July 19, 1996. But my spirit was truly lifted when--on the final day 
of competition on August 4, 1996--a young South African athlete won the 
Gold Medal in the final event of the Olympics, the men's marathon.
    Let me briefly digress: I urge the Subcommittee to remember that in 
determining a city to host the Olympic Games, the selection process by 
the IOC is a series of secret ballots, taken in silence, one at a time. 
The low vote getter is dropped and new ballots are marked until one 
city gets a majority. With Atlanta, it took five secret ballots, and 
from the small number of votes cast by the IOC members for Atlanta in 
the early rounds of balloting, it is apparent that Atlanta did not buy 
the vote. We had determined from the beginning that the only way to win 
was to become the ``emotional'' favorite. With five secret ballots, 
people voted their hearts as well as their heads. The ballots occurred 
as follows:

<bullet> Round 1: Athens 23, Atlanta 19, Toronto 14, Melbourne 12, 
        Manchester 11, Belgrade 7
<bullet> Round 2: Athens 23, Melbourne 21, Atlanta 20, Toronto 15, 
        Manchester 5
<bullet> Round 3: Athens 26, Atlanta 26, Toronto 18, Melbourne 16
<bullet> Round 4: Atlanta 34, Athens 30, Toronto 22
<bullet> Round 5: Atlanta 51, Athens 35
    We also believe that Atlanta spent less than one-third as much as 
some of our competitors in our bid process. Since few people--even in 
Atlanta--thought we could win, there was no incentive to spend more.
    As we all discuss ways to make the Olympic bid process more 
transparent and accountable, I hope that wise ideas will be presented. 
The IOC should be applauded for taking its reform efforts. But perhaps 
even bolder and wiser ideas should be considered. For example, one way 
to eliminate excesses in Olympic bid activities is to eliminate the bid 
process--by selecting two cities on each continent to be permanent 
sites for the Games. One city for the Summer Games and one city for the 
Winter Games. Cities wishing to be considered could apply to the 
International Olympic Committee through a streamlined and well-
supervised process. The Games would rotate to each city, giving each 
city the host responsibilities once every 20 years. This is not unlike 
the way football's Super Bowl goes to small selection of cities each 
January.
    But whatever reforms are enacted, it is incumbent upon this body--
and all other oversight groups--to let the Games be about the athletes. 
It should not be easy to overlook the athletes. Some will say that the 
Olympic Games are now just a big business, like all other professional 
sports and many amateur sports organizations. However, for the 
athletes--especially the Olympic athletes--it is all about the business 
of athletic competition and human achievement. And through their 
competition and achievement, we as the citizens of the planet are 
touched and inspired to do great deeds ourselves.
    I believe Atlanta has a magical sense of destiny that motivates us 
to excel. Billy Payne's sincerity and my own spiritual faith led us to 
believe deeply in the power of sport to make a change in the world.
    Billy and I shared a dream about the Olympics that went beyond any 
economic gains for the city. We firmly believed that the Olympics could 
help young people to dream, hope and believe in more than the common 
everyday life, which sometimes isn't that fulfilling to them. When you 
look into the heart of the Olympics, you will see a spiritual ideology. 
I believe that, other than the American Civil Rights Movement, which 
counts Atlanta as its birthplace, the campaign for the Olympics was the 
greatest single spiritual experience in Atlanta's history. Sports can 
promote human development, as a means of breaking barriers, racial, 
ethnic, and economic. Sports help nurture and sustain community values.
    In times of greatness in human history, men and women have been 
able to find a way to bring their lives and the lives of their 
generation in tune with the Spirit of God, in harmony. When 
civilizations have made sense, they have somehow found a way to live in 
harmony with a spiritual basis of life.
    What the Olympic Games have contributed to this spiritual basis of 
life is hard to measure, but I know that it has been a great 
contribution. Thank you very much.

    Mr. Upton. Thank you.
    Mr. Hybl.

                  TESTIMONY OF WILLIAM J. HYBL

    Mr. Hybl. Mr. Chairman, I'm Bill Hybl, president of the 
U.S. Olympic Committee. I certainly appreciate the opportunity 
to address the committee today.
    At the outset, let me say that the U.S. Olympic Committee 
is one of 200 National Olympic Committees around the world, and 
in that capacity this particular National Olympic Committee has 
a mission, and our primary mission is to support assistance of 
U.S. athletes who compete in the Olympic Games, summer and 
winter, the Pan American Games, and certainly the para-Olympic 
Games.
    Under the rules the International Olympic Committee has 
currently, an NOC, National Olympic Committee, like the United 
States may put forward one candidate seeking to host the games. 
It's the responsibility of the U.S., just as it did with 
Atlanta, to select one city and then to oversee that particular 
city in terms of what is done after the bid goes on.
    By 1997, it was apparent that the U.S. Olympic Committee 
was going to select a bid city for the 2012 games and also a 
bid city to compete for the 2007 Pan American Games. What we've 
done for the Pan American Games will be obvious this month as 
the U.S. Olympic Committee will select that city on October 23. 
Mr. Chairman, we will provide as we receive today the report, 
some hundred or so pages, of the bid evaluation committee under 
the new procedures that we are using. In fact, we go back to 
February 1997, 33 cities from throughout the United States 
decided that they would like in some form or another to 
participate in what the U.S. Olympic Committee was doing as far 
as a bid city goes. Now, we established a bid city office at 
that time, and that has gone forward.
    We were interrupted, of course, by the bid city scandal 
from Salt Lake City, which occurred in November and December 
1998. The U.S. Olympic Committee reacted on two fronts. Before 
the end of that month, the USOC established the Mitchell 
Commission, which has been alluded to earlier, and great 
membership, individuals who really cared about the Olympic 
movement and making a difference.
    At the same time, USOC also initiated an independent and 
really thorough investigation to review what role the USOC may 
have had in Salt Lake City. In March 1999, the Mitchell 
Commission's recommendations were tendered on the first day of 
the month. The executive committee convened on the second day 
of March 1999 in Washington and adopted all of the 
recommendations by the Mitchell Commission. We felt it was 
important to move quickly and decisively, particularly because 
we had such good guidance from the Mitchell Commission.
    With the issuance of the King & Spalding report on 
September 16, we now have new information revealing that some 
of the excesses of Salt Lake City also occurred in Atlanta. 
USOC has not conducted its own independent investigation, but 
as you can tell from the reading of your report, the issues 
remain the same.
    What we have done in terms of reform within the U.S. 
Olympic Committee is, No. 1, future American bid cities will be 
prohibited from creating or maintaining any sort of 
international assistance program.
    No. 2, the USOC will strictly apply its criteria for grants 
awarded by the International Assistance Fund, and this will be 
monitored by the in-place Office of Compliance of the U.S. 
Olympic Committee.
    The USOC has created this Office of Compliance, and it's 
not only responsible for ensuring compliance with the rules 
applicable to the bid process, but also with a comprehensive 
set of revised conflict of interest proposals.
    Four, the USOC has strengthened its rules and contracts 
that govern that domestic selection process. We've addressed 
all 15 recommendations in this area by the Mitchell Commission.
    The USOC also has strengthened its direct oversight 
policies and its contract with the city so that, in fact, the 
USOC will be a partner ever present for bid cities in the 
future.
    Meetings of the USOC Board of Directors are now open. That 
includes the executive committee, and we're making all of our 
documents, our minutes, public after they're adopted. We think 
this really projects an image of openness and also gives 
everyone an opportunity to see what the USOC is doing.
    We've required a series of other things as set out in the 
testimony which has been submitted.
    We think the USOC has acted decisively in this regard in 
implementing all of the Mitchell Commission reform 
recommendations, but the USOC could have done more. The USOC in 
its effort to oversee Atlanta and Salt Lake City fell short. If 
we had done what we have in place today, we probably wouldn't 
be here before the committee.
    I want to assure the members of the committee, Mr. 
Chairman, that the U.S. Olympic Committee stands ready to 
assist in whatever way possible to ensure that this situation 
does not occur again and, more importantly, we create the sort 
of atmosphere that athletes from the United States and around 
the world can continue to be proud to be an Olympian and 
participate in the game.
    [The prepared statement of William J. Hybl follows:]
   Prepared Statement of Bill Hybl, President, United States Olympic 
                               Committee
    Good morning, I am Bill Hybl, President of the United States 
Olympic Committee. I appreciate the opportunity to address you today.
                i. bid city selection process background
    Under the rules of the International Olympic Committee, a nation's 
National Olympic Committee may put forward one candidate city seeking 
to host the Olympic Games. It is the responsibility of the USOC to 
first select the U.S. bid city, if any, that will be put forward to the 
IOC and to then oversee that city's candidacy during the selection 
process governed by the IOC.
    By 1997, it was apparent that the United States Olympic Committee 
was going to select a city to bid for the 2012 Olympic Games and the 
2007 Pan American Games. Before those site selection processes 
commenced, and well in advance of any knowledge of the Salt Lake City 
bid scandal, the USOC recognized the need to guide and oversee the 
process for U.S. bid cities for the 2012 Olympic Games and the 2007 Pan 
American Games so that difficulties would not arise. This resulted in a 
February 1997 orientation, in Philadelphia, for 33 potential bid 
cities, the subsequent establishment of a bid cities office within the 
USOC and the creation of a series of undertakings and agreements, 
copies of which, as they existed prior to the eruption of the Salt Lake 
City bid scandal, have been made available to your staff.
    When news of the Salt Lake City bid city scandal broke in December 
1998, the USOC reacted on two fronts. Before the end of the month, the 
USOC established the Special Bid Oversight Commission (the Mitchell 
Commission), chaired by Senator George Mitchell, with vice chairs Ken 
Duberstein and Don Fehr, and members Roberta Cooper Ramo and Jeff Benz, 
to review the circumstances surrounding Salt Lake City's bid to host 
the Olympic Winter Games with a view to improving the policies and 
procedures related to bid processes. At the same time, the USOC also 
initiated an independent and thorough investigation and review of its 
role in the Salt Lake City scandal. In March 1999, the USOC's Executive 
Committee accepted all the recommendations of the Mitchell Commission 
and began the process of reform implementation based upon both the 
Mitchell Report and its own investigative findings.
                         ii. report on atlanta
    With the issuance of the King & Spalding report of September 16, 
1999, we now have new information revealing that some of the excesses 
of Salt Lake City also occurred in Atlanta. The USOC has not conducted 
an investigation of the Atlanta bid and therefore cannot comment on the 
accuracy or completeness of the King & Spalding report. There is 
nothing in the report, however, that would cause us to change our 
response to the bid scandal. If anything, the King & Spalding report 
supports the view of the Mitchell Commission that gifts and excesses 
have increased over time. The lesson of Atlanta is the same as the 
lesson of Salt Lake City, and it is a lesson that we have taken to 
heart.
                   iii. status of usoc reform efforts
    Let me briefly review with you what we have accomplished, to date.
    1. Future American bid cities will be prohibited from creating or 
maintaining international assistance programs. (Authorizing resolution 
approved by the USOC's Executive Committee on March 2, 1999.)
    2. The USOC will strictly apply its criteria for grants awarded by 
the International Assistance Fund, with adherence monitored by an 
office of compliance. (Authorizing resolution approved by the Executive 
Committee on March 2, 1999.)
    3. The USOC has created an office of compliance that is responsible 
for ensuring compliance not only with rules applicable to the bid 
process, but also with a comprehensive set of revised conflict of 
interest policies. (These revised policies will be voted on at the 
USOC's October 23rd Board of Directors Meeting.)
    4. The USOC has strengthened the rules and contracts that govern 
the domestic selection process. These revisions address all 15 of the 
recommendations proposed by the Mitchell Commission. (Authorizing 
resolution approved by the Executive Committee on March 2, 1999.)
    5. The USOC will strengthen its direct oversight policies and its 
contract with the city chosen as the United States' candidate in the 
international selection process. These revisions will also address all 
of the recommendations proposed by the Mitchell Commission. 
(Authorizing resolution approved by the Executive Committee on March 2, 
1999.)
    6. Meetings of the USOC's Board of Directors and Executive 
Committee are now open to the public. Minutes of these meetings are now 
available to the public upon adoption. (Authorizing resolution approved 
by the Executive Committee on March 2, 1999.)
    7. All members of the USOC's Board of Directors and Executive 
Committee will be required to attend 75% of the meetings either in 
person or by telephone, subject to exceptions approved by the President 
or Secretary General. (Resolution approved by the Executive Committee 
on March 2, 1999, with further authorizing action pending.)
    8. The USOC will seek to enhance the participation of athletes in 
its governance at the officer level. (Approved by the Executive 
Committee and currently being reviewed by the USOC's Constitutional 
Review Task Force.)
    9. An independent management study tasked to recommend ways to 
enhance the USOC's governance, including a specific view to encourage 
the participation of athletes, minorities, disabled, and women at the 
Executive Committee level, is now complete. (The recommendations of the 
study have been approved by the Executive Committee, in principle, and 
will be presented for review at the October 23rd Board of Directors 
Meeting and for approval early in 2000.)
    10. The Executive Committee requested the President of the United 
States to issue an Executive Order naming the IOC as a ``public 
international organization'' within the meaning of the Foreign Corrupt 
Practices Act in a March 3, 1999 letter.
    The USOC has acted decisively in an effort to ensure that in the 
future no U.S. city engages in the conduct that has been reported from 
Atlanta and Salt Lake City. The impact of our reforms, however, will be 
reduced if there is not concurrent and meaningful change within the 
IOC. I know that Dr. Kissinger and Mr. Duberstein intend to address 
that subject, Dr. Kissinger in his capacity as a member of the IOC 2000 
Reform Commission and Mr. Duberstein as Vice Chair of the Mitchell 
Commission.
                    iv. assessment of reform efforts
    In reviewing the events and actions that have transpired over the 
past 10 months, I would like to make the following observations:
    1. The USOC could have done more to oversee the Atlanta and Salt 
Lake City bid processes. If we had done so, we would probably not be 
here today.
    2. The establishment of a USOC bid cities office and the 
restructuring of U.S. bid process, both of which occurred well before 
the eruption of the scandal, and the adoption of the Mitchell 
Commission's recommendations, in March 1999, represent a forceful 
response to abuses that took place in the past and a significant 
deterrent to any such activity in the future.
    3. United States efforts within the IOC reform process have been 
productive and, while the results of the December Special IOC Session 
will be the measure of merit, good progress has been made by the IOC to 
date.
    4. In less than a year, the USOC has aggressively implemented its 
own major reforms and will present to its Board of Directors, on 
October 23rd, a design for an independent United States drug-testing 
agency. In early 2000, a complete reorganization of the USOC's basic 
management structure will be presented to the Board of Directors for 
its approval. During this same time period, the USOC has also provided 
significant impetus to the pace and direction of the IOC's reform 
efforts, as reflected in the IOC's positive responses, to date, to the 
Mitchell Commission recommendations.
    5. Overall, significant progress has been made in a short period of 
time and I am confident that we are on the road to constructive reform 
within not only the USOC, but also the entire Olympic Movement.

    Mr. Upton. Thank you very much.
    Mr. Helmick.

                 TESTIMONY OF ROBERT H. HELMICK

    Mr. Helmick. Thank you. I appreciate the opportunity to be 
here and provide you with information. It is sad that we must 
be here, but we must be here, and I really applaud your efforts 
and the endeavors which are bringing public attention to this 
situation that must be corrected. It's through efforts like 
this of bringing public attention that we can support and 
expedite the parties that need to make the reforms that we 
need.
    You asked my comments concerning the relationship between 
the U.S. Olympic Committee and Atlanta Bid Committee and also 
of the Atlanta Bid Committee's relationship with USA delegates 
to the IOC. I was the president of the U.S. Olympic Committee 
and IOC member from 1985 through 1991 during this bid process, 
and I've been involved in the organization and administration 
of every Olympics since Munich in 1972, when I was chef de 
mission of our water polo team, which brought home a bronze 
medal. I wish it were gold. A bronze medal to the United 
States.
    First as President Hybl has mentioned, the U.S. Olympic 
Committee is charged with the responsibility of selecting one, 
and only one, city that may present itself as a nominee for 
receiving the Olympic Games. Once the U.S. Olympic Committee 
selects that city, that city puts together a bidding committee, 
which at this time was comprised of leading citizens from the 
city itself. At that point it was the bid committee and not the 
USOC that was responsible for this lobbying effort, but I 
quickly say that--Atlanta called upon our knowledge and 
experience and help to--with their lobbying effort--had to put 
together the technical bid. Atlanta quickly became familiar 
with this process, and pretty much from there on out the 
lobbying effort was theirs and not ours.
    We did support them in some of these areas which you have 
noted. For instance, in the area of training athletes, in 1985, 
the U.S. Olympic Committee adopted an aggressive international 
relations program for what we call the friendship fund, and we 
would have athletes from foreign countries come to the United 
States to train. We felt it was in the hands of the national 
governing bodies; any such exchange had to be approved by the 
national governing body as furthering those sports programs. 
Those triggered in some cases IOC members would ask Atlanta to 
help them train their athletes, and they would come to the 
USOC. We assisted, but I want to tell you with Atlanta's 
concurrence the final decision and those training camps 
supported by the U.S. Olympic Committee went through our 
national governing bodies to be sure there was a valid reason 
for doing that.
    A great deal has been said about the excessive gifts, the 
lavish travel arrangements. I'd like to make a very important 
point, because this has been contested internationally. 
Excessive gifts and extravagant visits were not conceived or 
begun by any American city. This culture developed over a long 
period of time. I personally witnessed it. What happened is we 
had disaster after disaster from Mexico City, the student riots 
in Montreal, the massacre in Munich, the horrible death, and 
finally the awful situation, the political award of the games 
to Moscow in 1980 and the boycott. The games were a shamble. 
Nobody wanted them when Los Angeles bid for them, and nobody 
else would take them.
    Finally Los Angeles came, and we showed that the games 
could be run in a businesslike manner and make a profit, and 
suddenly everybody wanted a piece of the action. Let the games 
begin, because at that point, starting with Barcelona and Paris 
in 1986, the gifts became lavish, and they increased from that 
point until Nagano was awarded the games in 1991 amidst cries 
that the games were bought.
    Atlanta started--came into the scene just at this point, 
before Nagano. The excessiveness had not--the gift creep had 
not increased, as mentioned in the Mitchell report, at that 
time, but what happened, it grew over the years. Atlanta was 
sort of caught in the middle. There were certain rules, certain 
reactions by the IOC like this $200 rule. Please, that was not 
a rule, because it was adopted and yet never enforced. There 
was never any attempt to enforce, and indeed, as one of the 
vice presidents of the IOC said, it was a guideline. So Atlanta 
should not be hung out on whether something cost $300 rather 
than $200. They came in, as they have testified, and said they 
came into this culture, and what they did, frankly, I have to 
say, and not to excuse it at all, it was commonplace, and, in 
fact, they did modestly compared to other cities at that time.
    You asked my comments on the relationship between Atlanta 
and the IOC members. It's customary for bid cities to ask the 
IOC members from a country to assist in the bids to arrange 
meetings, and indeed sometimes to participate in the lobbying 
effort. It is a matter of personal preference to what extent 
the IOC member will actually become involved in the boosterism. 
The IOC member from that country wants to and should help 
support that bid.
    I have to say I think this is something that you will be 
interested in. We, IOC members and leaders, we spend a lot of 
time with a bid committee. Of course we were aware of what was 
going on. You can't spend that amount of time not being aware. 
Of course, this excessiveness was known to everyone in the IOC. 
I'm not here to say we would necessarily know about each 
transaction that occurred or whether a dog was offered that was 
worth $700 or $50, but certainly this whole culture was well 
known at that time, well reported. I think some of the 
attitudes of members, my own, were reported in the press at 
that particular time.
    I'd also like to make a final comment concerning Atlanta. 
Please keep in mind that they did a wonderful thing for this 
country in the bidding process whether they won the games or 
not. The prior Olympics represented entertainment and business. 
This bid committee represented how the United States citizens 
could bridge differences in culture, racial backgrounds and 
come together and do a remarkable thing. I applaud them.
    Likewise, I applaud Bill Hybl, President Hybl's efforts. 
The USOC has a history of reacting appropriately and decisively 
to these types of crises, and they've done a great job.
    Bill, I don't know how you could have done a better job.
    They're to be applauded. That's not to say there's more 
that should be done.
    I would like to end up by saying the true reform will only 
come if we demand a commitment by all the parties, the IOC, the 
Olympic committees, international federations aided by the 
athletes that--that we'll have--that will bring about checks 
and balances. It's only through a true commitment from all 
these parties to reform. It's not making commissions and making 
rules. It's through a true commitment of all parties. I thank 
you very much for your interest.
    [The prepared statement of Robert H. Helmick follows:]
 Prepared Statement of Robert H. Helmick, Past President of the USOC & 
                           Former IOC Member
                              introduction
    My name is Robert H. Helmick. I am an attorney in the City of Des 
Moines, and a senior partner in the international law firm of Dorsey & 
Whitney LLP. You have requested my testimony regarding the relationship 
of the United States Olympic Committee, the International Olympic 
Committee and its delegates, and the Atlanta Bid Committee with respect 
to Atlanta's bid during the period of time that I was president of the 
United States Olympic Committee and a member of the International 
Olympic Committee.
           atlanta's and usoc's procedure to obtain the games
    The IOC Charter and the Ted Stevens Olympic and Amateur Sports Act 
set out the USOC's responsibility for the selection of a United States 
city to hold the Olympic Games:
    1. Interested cities go through a bidding process before the USOC 
to prove their capacity and abilities to seek the award of the Olympic 
Games from the IOC.
    2. The USOC then selects one city to be its candidate to the IOC 
for the Olympic Games.
    3. If successful, that city forms a bidding committee comprised of 
individuals from the city which actively bids for the Games.
    4. If the IOC awards the Games to that city, it must form an 
organizing committee comprised of individuals from the city, 
representatives of the USOC and the country's IOC members as required 
by the Olympic and Amateur Sports Act and the IOC.
               relation of the usoc to the bid committee
    Once selected by the USOC, the Atlanta Bid Committee was in charge 
of the preparation of the complex bid document and the lobbying effort. 
The USOC rules required no representation on the Bid Committee. 
However, the USOC, its officers, sports federation and the IOC members 
played a significant role in Atlanta's bidding procedure.
                          the lobbying effort
    Although the USOC and its sport federations (the ``National 
Governing Bodies'' or ``NGBs'') are highly involved in the technical 
aspects of the preparation of the bid, it was the Bid Committee, and 
not the USOC, that was responsible for the lobbying effort. Because of 
the knowledge and experience of members of the USOC and the NGBs, they 
were called upon by the Bid Committee for assistance. However, the Bid 
Committee very quickly learned what must be done to promote its bid, 
and became familiar with the IOC members who would make the decision.
    In asking the USOC and NGBs for their assistance, the Bid Committee 
was primarily interested in obtaining votes and winning the Games. The 
USOC and NGBs, although keenly supportive of that effort, were focused 
on the long-term effects the assistance would provide for their sport 
and development of our athletes.
    As an example, when an IOC member requested the USOC (through 
Atlanta) to arrange a joint training program with athletes from the IOC 
member's country, our NGBs approved or rejected the program based upon 
whether the program was in the best interest of our athletes, or 
furthered its sports program, while still being supportive of the 
efforts of the Bid Committee.
    In short, the focus of the USOC and the National Governing Bodies 
was primarily on United States athletes, developing a pool of 
international qualified athletes, sports programs and facilities, and 
on the technical aspects of the bid; not on the strategies and 
techniques of Atlanta's lobbying efforts with the IOC members.
                  the olympic environment of 1985-1991
    To better understand the relationship between the USOC and the 
Atlanta Bid Committee it is important to consider the status of Olympic 
sport at that time.
    The Atlanta bid followed a decade of Olympic disasters until the 
success of Los Angeles in 1984.
    Only Los Angeles was interested in holding the 1984 Olympic Games 
(Tehran entered a bid but then withdrew). The reason was clear: 
disaster after disaster had beset the Games. In 1968 Mexico City was 
marred by student riots and demonstrations. Four years later the Munich 
Games were nearly ended because of the massacre of the Israel athletes. 
Then in 1976 Montreal left a devastating financial burden and debt on 
its citizens. The 1980 Moscow Games, clearly a political maneuver 
reminiscent of the Berlin 1936 Olympics, were wrecked by boycotts.
    When in 1984 Los Angeles proved to the world that the Games could 
be run by applying sound business principles and could yield a 
substantial profit, the rest of the world sought a piece of the action. 
Whereas there was only one bidder a few years earlier, as Atlanta 
started its bid process in 1987, dozens of cities started lining up, 
anxious to garner the votes of the IOC members necessary to bring the 
Olympics, with their glamour and profits, to their own country. I 
personally witnessed this development having been involved in the 
organization and administration of each Olympics since Mexico City.
    Except for the required formalities, there was no need for Los 
Angeles to lobby IOC members: the IOC had no choice. Excessive gifts 
and extravagant visits were not conceived or begun by American cities. 
They started to become common place in 1986 as the battle for the 1992 
Games between Paris and Barcelona began. This excess grew over the next 
several years prompting a major United States television news magazine 
to characterize Nagano as having ``bought'' the Games at the IOC 
meeting in 1991 by gifts, perks and multi-million dollar donations to 
the Olympic Museum, a pet project of the IOC's President. This was a 
glaring example of a selection that put athletes last, considering 
Nagano's facilities and the weather. It was at this time the culture of 
excess was getting clearly out of hand.
    But Atlanta entered the international Olympic bidding process in 
the spring of 1988 and was selected in September of 1989 before the 
``gift creep,'' as Senator Mitchell put it, grew to the extremes 
recently reported in the 1992-1995 campaign by Salt Lake City.
    Simply stated, Atlanta was not under the pressure that subsequent 
cities, such as Salt Lake City felt, following its 1991 loss to Nagano, 
to match and raise the gifts and incentives to win the votes. 
Therefore, Atlanta needed and sought much less assistance from the 
USOC.
          role of the usa ioc delegates in the bidding process
    The IOC members from a bid city's country are expected to, and do, 
support the efforts of the Bid Committee. We United States members, as 
part of the USOC, participated in the USOC's selection of Atlanta and 
became familiar with its merits.
    It is customary for the Bid Committee to request the USA IOC 
members to intervene with arranging meetings and even participate in 
some discussions with their IOC colleagues and the Bid Committee. It is 
a matter of personal preference as to the extent an individual IOC 
member becomes involved in the true ``boosterism'' aspect of the 
lobbying effort.
    Although the American members of the IOC may not have been aware of 
the details, they certainly were aware of the discussions, or at least 
rumors, of the propensity of some of their fellow IOC members and other 
Bid Committees to engage in inappropriate conduct.
    On a personal basis, although I am not surprised that there may 
have been certain technical violations of the IOC rules as written (but 
not followed by the IOC) I was favorably impressed with the efforts of 
Atlanta to abide by the rules even in face of rumors or known instances 
of outrageous abuses by other bid cities. As an example, in one 
conversation with a Bid Committee executive we discussed their effort 
to find a gift that would show a personal concern for the interests of 
an IOC member. The $200 rule was discussed and several suggestions 
eliminated because their cost would have exceeded the rule. In my 
experience, Atlanta seemed to be doing the best they could in this 
climate with respect to the written rules.
                            the atlanta bid
    I would like to take this opportunity to make a comment concerning 
the Atlanta bid and the attention now being given to it.
    Throughout the bid process all of us, as members of the USA Olympic 
family, were proud of Atlanta, what it stood for and the impact it had 
on our colleagues around the world. The Bid Committee came in contact 
not only with international sports leaders but business and political 
leaders around the world. They represented Atlanta and the United 
States. They did it well.
    While the Los Angeles Olympics was known for its entertainment and 
business prowess, Atlanta became known as a community demonstrating the 
American capability of obtaining the unimaginable by the cooperation 
and efforts of a diverse people working without regard to racial, 
cultural or social background.
    Whether they had won the Games or not, we all had reason to be 
proud of the Atlanta bid efforts.
                  response of the usoc to the scandal
    I have carefully reviewed the suggestions from the Mitchell report 
and the actions and the response and actions taken by the USOC under 
Bill Hybl's able leadership. Based on my experiences, I wholeheartedly 
agree with the observations and conclusions of the Report. The USOC is 
on the right track and I applaud it and President Hybl's prompt 
response. Consideration might also be given to whether the Olympic and 
Amateur Sports Act should specifically require oversight by the USOC of 
bid city activities and the USOC's participation and representation 
within any bid committee.
    I would only add an observation based upon my 30 years of 
experience that it will only be through a change of attitude and 
culture within the IOC and the international Olympic movement that 
there will truly be a change. The USOC can be a leading force to bring 
that about. Merely adopting rules and appointing commissions won't do 
the trick. We must demand a commitment by all parties, the IOC, the 
Olympic Committees, the International Federations, and the athletes to 
true reform.
    Thank you for this opportunity to appear.

    Mr. Upton. Thank you all. I would like to note for the 
other members of this subcommittee that we're probably going to 
have at least two rounds of questions. We'll each have 5 
minutes. We'll use that same light. I'll be a little quicker 
with the gavel for us.
    I would note that as part of the committee's investigation, 
we have assembled a group of documents that illustrate the 
process Atlanta followed and the culture in which it competed. 
I'm going to ask unanimous consent that this group of documents 
be entered into the record, and I would note that we will work 
with the Atlanta organizer's law firm to redact any sensitive 
or personal information before the documents are printed in the 
record.
    Mr. Klink. Without objection.
    Mr. Upton. That is so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0363.001
    
    [GRAPHIC] [TIFF OMITTED] T0363.002
    
    [GRAPHIC] [TIFF OMITTED] T0363.003
    
    [GRAPHIC] [TIFF OMITTED] T0363.004
    
    [GRAPHIC] [TIFF OMITTED] T0363.005
    
    [GRAPHIC] [TIFF OMITTED] T0363.006
    
    [GRAPHIC] [TIFF OMITTED] T0363.007
    
    [GRAPHIC] [TIFF OMITTED] T0363.008
    
    [GRAPHIC] [TIFF OMITTED] T0363.009
    
    [GRAPHIC] [TIFF OMITTED] T0363.010
    
    [GRAPHIC] [TIFF OMITTED] T0363.011
    
    [GRAPHIC] [TIFF OMITTED] T0363.012
    
    [GRAPHIC] [TIFF OMITTED] T0363.013
    
    [GRAPHIC] [TIFF OMITTED] T0363.014
    
    [GRAPHIC] [TIFF OMITTED] T0363.015
    
    [GRAPHIC] [TIFF OMITTED] T0363.016
    
    [GRAPHIC] [TIFF OMITTED] T0363.017
    
    [GRAPHIC] [TIFF OMITTED] T0363.018
    
    [GRAPHIC] [TIFF OMITTED] T0363.019
    
    [GRAPHIC] [TIFF OMITTED] T0363.020
    
    [GRAPHIC] [TIFF OMITTED] T0363.021
    
    [GRAPHIC] [TIFF OMITTED] T0363.022
    
    [GRAPHIC] [TIFF OMITTED] T0363.023
    
    [GRAPHIC] [TIFF OMITTED] T0363.024
    
    [GRAPHIC] [TIFF OMITTED] T0363.025
    
    [GRAPHIC] [TIFF OMITTED] T0363.026
    
    [GRAPHIC] [TIFF OMITTED] T0363.027
    
    [GRAPHIC] [TIFF OMITTED] T0363.028
    
    [GRAPHIC] [TIFF OMITTED] T0363.029
    
    [GRAPHIC] [TIFF OMITTED] T0363.030
    
    [GRAPHIC] [TIFF OMITTED] T0363.031
    
    [GRAPHIC] [TIFF OMITTED] T0363.032
    
    [GRAPHIC] [TIFF OMITTED] T0363.033
    
    [GRAPHIC] [TIFF OMITTED] T0363.034
    
    [GRAPHIC] [TIFF OMITTED] T0363.035
    
    [GRAPHIC] [TIFF OMITTED] T0363.036
    
    [GRAPHIC] [TIFF OMITTED] T0363.037
    
    [GRAPHIC] [TIFF OMITTED] T0363.038
    
    [GRAPHIC] [TIFF OMITTED] T0363.039
    
    [GRAPHIC] [TIFF OMITTED] T0363.040
    
    [GRAPHIC] [TIFF OMITTED] T0363.041
    
    [GRAPHIC] [TIFF OMITTED] T0363.042
    
    [GRAPHIC] [TIFF OMITTED] T0363.043
    
    [GRAPHIC] [TIFF OMITTED] T0363.044
    
    [GRAPHIC] [TIFF OMITTED] T0363.045
    
    [GRAPHIC] [TIFF OMITTED] T0363.046
    
    [GRAPHIC] [TIFF OMITTED] T0363.047
    
    [GRAPHIC] [TIFF OMITTED] T0363.048
    
    [GRAPHIC] [TIFF OMITTED] T0363.049
    
    [GRAPHIC] [TIFF OMITTED] T0363.050
    
    [GRAPHIC] [TIFF OMITTED] T0363.051
    
    [GRAPHIC] [TIFF OMITTED] T0363.052
    
    [GRAPHIC] [TIFF OMITTED] T0363.053
    
    [GRAPHIC] [TIFF OMITTED] T0363.054
    
    [GRAPHIC] [TIFF OMITTED] T0363.055
    
    [GRAPHIC] [TIFF OMITTED] T0363.056
    
    [GRAPHIC] [TIFF OMITTED] T0363.057
    
    [GRAPHIC] [TIFF OMITTED] T0363.058
    
    [GRAPHIC] [TIFF OMITTED] T0363.059
    
    [GRAPHIC] [TIFF OMITTED] T0363.060
    
    [GRAPHIC] [TIFF OMITTED] T0363.061
    
    [GRAPHIC] [TIFF OMITTED] T0363.062
    
    [GRAPHIC] [TIFF OMITTED] T0363.063
    
    [GRAPHIC] [TIFF OMITTED] T0363.064
    
    [GRAPHIC] [TIFF OMITTED] T0363.065
    
    Mr. Upton. I will now start my time. I've learned to use 
this clock a little bit. I am going to try to ask all my 
questions shortly and let each of you respond to the questions.
    First of all, I very much appreciate Judge Bell's report. 
We thoroughly went through this report, found that it is chock 
full of lots of different things and did a very good job. I 
appreciate that and also certainly the willingness of both Mr. 
Payne and Mr. Young to agree that this was the proper thing.
    In that report it makes the point, Mr. Helmick, that you 
just mentioned here, and I quote, more significantly within the 
IOC culture, the rules were widely disregarded. There was a 
competition governed by the IOC. The IOC had the responsible--
had the responsibility to both write and enforce the rules. No 
city or IOC member was disqualified or sanctioned for exceeding 
the written gift or travel rules.
    What I'd like to hear from you, and based on some of the 
other testimony, too, particularly as you relate back to other 
cities--Mr. Young, in particular, you referenced going to Seoul 
and how other cities were giving lavish gifts as well. I'd like 
to know if you can remember specifics that other cities may 
have presented or offered to any of you. I would like to know 
what your sense is of the reforms that are before the reform 
committee, whether they will, in fact, address the situation as 
detailed in both the Bell report as well as the Mitchell-
Duberstein report, and particularly for you, Mr. Hybl, as you 
are a member of that reform committee and will be voting on it 
later this month in preparation for the recommendations of the 
full IOC, what your sense is of where the votes are. Will that 
reform package be passed both by the subcommittee--by the 
committee, and if so, what standing will that have before the 
full IOC when they vote in December.
    As you know, Mr. Samaranch sent his top deputy here, Mr. 
Francois Carrard, who is here and will testify on the later 
panel. It was Mr. Samaranch's view that he wanted to spend his 
time making sure that the votes were there. He wants to 
cooperate with this committee and will appear once that vote is 
taken, hopefully an affirmative vote. And will that correct the 
abuses that were detailed both in the Mitchell-Duberstein 
report as well as in the Bell report, too?
    Mr. Payne, would you like to start?
    Mr. Payne. Yes, sir. Thank you. With respect to the first 
portion, Mr. Chairman, about what we know specifically about 
the history of generous gift-giving, lavish entertaining as it 
existed within the Olympic movement, I think Mr. Helmick 
characterized at least the beginning of our knowledge shortly 
following the success of the Los Angeles Games, the Olympic 
Games, for the first time, and perhaps a decade and a half once 
again became an asset of great value to many countries and 
cities around the world. And bidding accelerated to the point 
where the bidding for the 1992 games, which were ultimately 
awarded to Barcelona, came down to a competition principally 
between Paris and Barcelona, and I believe at that time there 
were no rules which governed this.
    The consequence of the nonexistence of any rules 
apparently--and I say apparently because I was not involved in 
the Olympic movement--gave rise to a very straightforward 
competition among those two cities, lavish gifts, incredibly 
expensive receptions, of the things that Mr. Helmick has 
referred to, and I'm sure perhaps he can answer better as he 
was on the IOC at that time.
    During the time of our competition, which followed that, we 
did not pay close attention ourselves to what our competition 
was doing, but we, of course, and as you have seen detailed in 
many of the documents, were told by many people that in the 
process and in being entertained by other cities who were 
candidates, they had received rather excessive gifts.
    Mr. Upton. Will you detail any of those gifts?
    Mr. Payne. I can only detail, sir, that which is part of 
the record that we have submitted to you, which once again is 
what was told to us by third parties. I cannot--in the same 
spirit, I guess, sir, of redacting names, do you want me----
    Mr. Upton. I don't need to know necessarily the countries 
or the cities, but I'd like to know of some of the values of 
the gifts. As we look through this report, Judge Bell prepared 
for us, it is just full of things, whether it be golf clubs, 
trips, it is detailed, but if you were aware of competitions 
with, say, Athens or somebody else that provided a similar type 
thing. Where were you in the ballgame? I've heard that Atlanta 
spent lots of money on some of these gifts, but some of these 
other cities that failed spent considerably more.
    Mr. Young. Mr. Chairman, we spent $6.5 million putting our 
bid together. Toronto spent close to $20 million; Melbourne, 
$25 million; Athens, reportedly $35 million.
    Mr. Upton. I've heard those same numbers.
    Mr. Young. So we didn't--we knew we couldn't be in this 
game----
    Mr. Upton. But what were they doing that was more than you? 
That's sort of my question.
    Mr. Young. I'm not sure, but the thing I'd like to point 
out is that we looked at it, and I'm trying to separate the 
corruption of people maybe, and I'm trying to defend the 
process, because, see, Congressman Waxman or somebody said that 
nobody can outspend Paris, but Barcelona won, even though Paris 
was doing the spending and had much more to offer. Seoul beat 
Nagoya and the rich--there was a pattern of the rich cities 
lavishing the gifts, but losing.
    Mr. Upton. What were some of the specifics that you must 
have seen? I'm trying to be fair with my own red light. I'm 
going first. I'll turn it off.
    Mr. Young. I think, Congressman, if you'll forgive me, I 
think that's the wrong question. I shouldn't do that, but what 
I see happening here is a resentment of democracy on the part 
of the IOC. What you had was for the first time all of these 
decisions were influenced mostly by the poor nations, and it 
meant that poor nations had a say, and the little European 
blue-blooded elite couldn't dominate the system anymore. And so 
while the system was corrupt, it was, in fact, democratic, and 
that the five secret ballots where nobody knows is one of the 
ways that you can have a free and fair election.
    Mr. Upton. When you say it was democratic, was it 
democratic because everyone was taking the gifts, and therefore 
it didn't really influence the votes because everyone was 
getting about the same thing?
    Mr. Young. I think it was democratic because the money did 
not make any difference and----
    Mr. Upton. When you talk about Athens, $35 million----
    Mr. Young. We've been in politics, and we know about people 
eating your barbecue and voting for your--it happens all the 
time. That's what's happening in the IOC. What I'm most 
concerned about is that what I think is beginning to evolve 
into a very democratic system, where the checks and balances 
between the rich nations and the poor nations is gradually 
working itself out, that under the pressure from the U.S. 
Congress, we play into the hands of the old European elite and 
do away with some of the democratization that has come with the 
present Olympic movement.
    Mr. Upton. Mr. Hybl, since my time is close to expiring, if 
you could just answer the question as to whether you think the 
reforms presently before the reform committee will, in fact, 
end the abuse and the culture of corruption, and whether or not 
you think the votes are there not only to pass it in both 
bodies, the committee and the full IOC. If you could just 
comment briefly, and I will yield to my friend Mr. Klink.
    Mr. Hybl. The current reforms before the IOC which were 
adopted by the executive committee of the reform commission 
will be taken to the full 80-person commission on October 30 
and 31. The fact is that they do provide what you indicated 
earlier, transparency, accountability. They do provide a whole 
series of democratic processes for representatives from the 
athletes, from the National Olympic Committee, and from the 
International Federations. They have age limits. They have 
terms that have to be renewed. The fact is they've come--the 
IOC has done a lot, particularly because of their leadership in 
going forward.
    The fact is, sitting in on those hearings and those 
meetings, there is diverse opinion among the members of the 
IOC. These will be great for the IOC and the Olympic movement 
if they're adopted. I think that the IOC members could probably 
address the question whether they will be, but December 11 and 
12 is the critical time for this and the U.S. Olympic committee 
and our representatives--you'll hear, of course, from Dr. 
Kissinger this afternoon--continue to support the reforms, and 
it's up to the IOC whether they're adopted or not.
    Mr. Upton. Is it your sense that they'll pass if you were a 
betting man?
    Mr. Hybl. Actually, I am a betting man, Mr. Chairman.
    Mr. Upton. I know Mr. Hefley is not, so I didn't want to 
cast judgment.
    Mr. Hybl. I would give the chance for adoption of the 
reforms as they are currently proposed at something a little 
better than 50 percent.
    Mr. Upton. Thank you.
    Mr. Klink.
    Mr. Klink. I thank the chairman for his insight, and I 
would request a little leniency with the red light, if you can, 
because there's a lot to cover here from the chairman's 
questioning.
    Let me start with Mr. Young because I'm a little troubled 
by where we have headed here. What I've heard from the comments 
was this: In deference to Judge Bell, I think you've really 
done a great job in your report. You've helped us a great deal. 
Senator Mitchell has helped us a great deal as well. What I'm 
left to believe here is what we are now being told is, look, we 
took a whole heck of a lot more from a lot of other people, and 
then we stiffed them. We didn't give them what they thought 
they were going to get. So my question is this: Were the 
members of the IOC really taking people in some of these--$35 
million in investment from the Greeks, and how much from the 
people in Paris, and how much from the Canadians, and Toronto 
didn't get the games as well. That's what really remains to be 
told is, A, what were all of those gifts, and were these people 
being taken as rubes, set up to have their barbecue eaten and 
then vote for the opponent? That is just as troublesome as 
anything that might have happened to Salt Lake City, might have 
happened to Atlanta. I would ask that Mr. Payne and Mr. Young 
would respond.
    Mr. Young. Thank you very much, Congressman. I think what 
we're dealing with also is a general gift-giving culture around 
the world; that people are used to receiving gifts wherever 
they go, and those are not considered bribes. So I think that 
while they were generous gifts, I think the members of the IOC 
received those gifts, but did not take it as bribes. They also, 
Mr. Chairman, almost everywhere I went, and we tried to visit 
every IOC member in their home, everywhere I went people 
presented us with some kinds of gifts.
    Mr. Klink. Let me ask Mr. Payne, in terms of ethical 
conduct, what difference do you see in what occurred in the 
Atlanta Bid Committee and their operation and what happened in 
Salt Lake City? Specifically what do you think Salt Lake City 
did that you didn't do? Help me draw the line there.
    Mr. Payne. Yes, sir. I'm obviously reluctant to do that 
because I don't have personal knowledge, sir, of what Salt Lake 
did.
    Mr. Klink. I'm asking you to go from public information. 
Things have been published. I'm sure you've read about it.
    Mr. Payne. Yes, sir. I think what we did, sir, is evidenced 
in quite extensive detail in the report that Judge Bell 
prepared and submitted, and notwithstanding the fact that there 
were excesses, I believe the scale and scope of those excesses, 
sir, would pale in comparison to what's been reported not only 
at Salt Lake, but perhaps other Olympic cities as well. So I 
think I would be required to say in first response, sir, there 
was quite a significant quantitative difference, which does not 
excuse us getting over $200 at all, but yet----
    Mr. Klink. In other words, we had--I'm sorry to cut you 
off. We're on kind of a timeframe here. What you're saying, Mr. 
Helmick talked about, was gift creep. If anything happened 
between Atlanta and Salt Lake City, it was that the extent of 
the gifts got much larger and much more numerous.
    Mr. Payne. From what has been publicly reported, yes, sir.
    Mr. Klink. The end of your written statement, your remark, 
you believe reform is needed in the bidding process, 
particularly in the areas of gift and travel. When did you 
start to reach that conclusion?
    Mr. Payne. I guess within the last year, sir, when our 
actions, which we had always been so very proud of, came under 
scrutiny and had been criticized. While we had believed that we 
had subjected them somewhat to a sense of reasonableness, all 
of a sudden they were found in great disfavor, and so I guess I 
began concluding that the way to eliminate that problem is to 
eliminate gifts and travel expense reimbursement altogether so 
that no future cities would have to deal with this 10 years 
after the fact like we're doing here today.
    Mr. Klink. What I'm left with is kind of, Mr. Chairman, the 
old saying--and my kids have done it as well, still continue to 
do it because they're young enough--they say, Mommy and Daddy, 
everybody is doing it. The old saying is, well, if they jumped 
off a bridge, would you do that, too? That's really what we're 
left to. No one really wanted to blow the whistle.
    I want to walk you through some of the travel and 
accommodations that you provided to just one IOC member and in 
the end have you explain the logic behind the spending. Page 
21, exhibit K, travel section of the King & Spalding report, 
this is for an IOC official named O'Flanagan. I was going to 
walk through this. Between April 30 and May 5, 1989, checks 
number 540 and 725 went for nearly $5,371 for airfare. For the 
same period, there's a $4,150 hotel charge paid by Atlanta; 
then on May 4, 1989, several more checks cut for an Augusta 
trip totaling $5,291. In March 1990, you then pay $5,420 trip 
for Mr. O'Flanagan that includes the itinerary of Dublin; 
Atlanta; West Palm Beach, Florida; Atlanta; and back to Dublin. 
Then on March 21, 1990, you paid $2,092 for airfare for Mr. 
O'Flanagan that included the itinerary of Atlanta, Zurich, 
Geneva; on March 14, 1990, another hotel charge for Mr. 
O'Flanagan and for a Mr. Hickey for $1,480; and then on March 
16, 1990, you paid $1,100 in Savannah for Mr. O'Flanagan to 
stay in a hotel in Savannah. On March 18, 1990, there's another 
charge for Mr. O'Flanagan, and now Mr. Hickey at Sea Island for 
another $1,790. For the same period there's a hospitality 
charge for Mr. O'Flanagan and a guest and Mr. Hickey for 
$1,655. Then back in May 1989, there appears to be an offer 
made to visit Atlanta and play golf at Peach Tree Country Club. 
It's not clear whether the offer was accepted.
    You spent thousands of dollars on this IOC member, and 
there are many others like this. The question is were you 
trying to buy his vote?
    Mr. Payne. No, sir, we were not. I hope there are not too 
many like this one. It is very extensive. It's evident that he 
was one of the IOC members that came to Atlanta more than once.
    Mr. Klink. Unfortunately there are--let me just run through 
this very quickly, Mr. Chairman. According to the King & 
Spalding report, Atlanta officials paid $11,989 for the IOC 
official from Libya to travel from Tripoli, to Zurich, to 
Geneva, back to Zurich, to Atlanta, then to Chicago, back to 
Atlanta, then to Zurich, then to Malta and back to Tripoli. The 
question is why did Atlanta have to pay for travel to Malta, 
Chicago, Zurich and Geneva? Then you paid a cash reimbursement 
of $12,204 to the IOC official from Morocco to fly from 
Casablanca, Paris, Atlanta, New York, Paris, Casablanca. Why 
did Atlanta have to pay to send this official to New York and 
Paris?
    You also paid $2,649 for the Australian IOC official to 
stay at the Grand Cypress Resort. Other IOC members also 
apparently went to that resort. That's in Florida, not Atlanta.
    What about $1,878 for an IOC official to stay in a hotel in 
Coral Gables? You paid $1,745 on tab K, page 15 to provide 
limousine service in Washington, DC, for an IOC official from 
France. There was another trip for an IOC official from 
Finland. It involved travel from Chicago, to Bloomington, to 
Peoria, to Boston, to Bangor, to Newark and Toronto. Atlanta 
paid for at least part of that trip, yet Atlanta wasn't even on 
the trip. And the question is did this trip also involve the 
use of a vacation home owned by the GAAF member in Maine? We 
need to know why Bangor, Maine, was on that trip.
    I threw a lot at you. These are some questions in the 
limited amount of time I've got to have the answers to them. 
We're going to submit these questions to you. We want you to 
pursue these for us and try to find out why this was done. It's 
puzzling.
    Mr. Upton. A quick response.
    Mr. Payne. The quick response is I believe we have provided 
explanations as best we could to your staff, sir, and I think 
most of them do have explanations. I'm unable, however, with 
the rate at which you enumerated those excesses to come back to 
you with them on a seriatim basis.
    Mr. Klink. Unfortunately, Mr. Payne, we have more excesses. 
It is unfortunate that, our time and your time, that we don't 
have time to get into the details of this. I know that unfairly 
I rushed those by you, but we need to get more of this nailed 
down in writing. We need to find out what has happened.
    I think beyond that we also need to take a look, chairman, 
at what has happened in some of the other cities that did lose 
that were not looked as closely at in some of these reports 
that we have in front of us.
    Mr. Upton. It sounded like you used to work for Federal 
Express with that ad.
    Mr. Klink. I could go faster.
    Mr. Upton. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    Mr. Payne, let me ask you, based upon what Mr. Hybl said 
about reforms at the USOC, had the USOC reformed prior to the 
Atlanta bid or to the Salt Lake City bid, and you adhered to 
those changes, would any U.S. city--would either of those U.S. 
cities have won their bid based upon the culture at the IOC 
today?
    Mr. Payne. That's a difficult question, sir. I really don't 
know how to answer it. I think----
    Mr. Burr. I would suggest to you that the answer is 
probably we wouldn't, because that's the assumption I think 
that Atlanta made, and even in the first response by Mr. Bell, 
there were four instances to questions where the answer was 
we're not aware of any IOC guideline and provisions for health 
services, athletic training, covered provisions of athletic 
sporting equipment to disadvantaged people guidelines, and 
provisions of scholarship. I think that somebody perused it 
pretty well, and certainly your follow-up has suggested that 
the culture there--and I'm not faulting Atlanta, I'm a 
businessman, this is just a temporary position--you do it to 
win, you do it to be successful, and I think that Atlanta 
should not be faulted for that.
    I guess I would ask you how many times did the IOC or the 
USOC tell you you were in violation and warn you that you 
shouldn't lobby as aggressively?
    Mr. Payne. I don't believe we were ever specifically 
advised of anything we had done, sir. I have been made aware of 
routine letters that were sent to all bid cities or IOC members 
with respect to adherence to the rules, the very same rules, 
sir, that we did exceed in the times we've enumerate.
    Mr. Burr. Let me read for you and Ambassador Young a 
September statement by an IOC spokesperson who was quoted as 
saying, ``Atlanta pushed those favors and gifts on to IOC 
members under the pretext of friendship, and the delegates were 
not used to this systematic approach to lobbying.''
    Would either of you care to comment on whether that 
statement is accurate based upon----
    Mr. Young. I'll say that we were probably both very guilty 
in that, that we didn't have to push anything on them, but as 
Congressman Klink has said, we were also in a position that 
when somebody wanted--when we asked somebody to visit us, and 
we offered to reimburse them for the travel, if they had reason 
to go to some other places, there are explanations for a lot of 
these, and some of them make sense. Some of them are excessive. 
Libya, because of the boycott, you couldn't go directly here, 
so he had to go a roundabout way. He also--we were trying to 
get him to accept softball, an American sport, so there was a 
softball federation or something meeting in Chicago.
    Mr. Payne. We won the gold medal when we got in.
    Mr. Young. But I'm saying when we wanted people to come to 
visit us, and we extended the invitation, and we knew these 
were people who were not on salaries--and that's one of the 
reforms I would recommend to the IOC, that they put everybody 
on a salary and let them give it back if they don't want it. 
But when people come and they then submit you an excessive 
bill, you really can't reject it.
    Mr. Burr. In the follow-up response from the committee to 
the committee's questions, let me just read on page 3 just out 
of your report, subjective votes of IOC members and a system 
known to welcome generous gifts and travel allowances. It 
doesn't give me the impression as you've gone back that 
anybody's recollection was that it was forced.
    Page 4, same report. In the marketplace Atlanta competed 
according to its understanding of the IOC's expectations. That 
certainly does not give an impression on further review that 
there was any pretext on your part that you had pushed or had 
done something that was not expected of the IOC. No reference 
to the IOC's guidelines or rules.
    Mr. Helmick, you were head of the USOC at the time.
    Mr. Helmick. Yes.
    Mr. Burr. Did you ever counsel Atlanta that there were 
potential violations that were occurring or notified the IOC of 
concerns that you had as the head of USOC?
    Mr. Helmick. I notified the IOC NBG inside the executive 
committee of concerns, as did others, of the excessiveness, 
particularly after Paris and Barcelona. As to Atlanta, please 
keep in mind that personally we spent a great deal of time 
together all over the world. I do remember one occasion I 
believe it was Ginger Watkins and I were going through a list 
of personal gifts to be given. I became very aware that this 
Atlanta bid person was very careful about the so-called $200 
gift rule, frankly excluded a couple of gifts that I had 
suggested, personalized gifts, because of it.
    And so, yes, indeed, they were counseled about it and felt 
that these gifts were appropriate.
    Mr. Burr. Do you know how IOC members are chosen?
    Mr. Helmick. IOC members are basically--they're on the 
surface elected by the IOC. They're--basically a great deal of 
it is hand-picked by the president.
    Mr. Burr. And they serve until death or at 80, whichever 
comes first?
    Mr. Helmick. Whichever comes first.
    Mr. Ganske [presiding]. The gentleman's time has expired. 
Let's have one last answer.
    Mr. Burr. I think he answered that question. My point, Mr. 
Chairman, is twofold. One, I question in an atmosphere like 
that whether the culture can change voluntarily, and I would 
also say to the Ambassador that though there is a democratic 
vote, I question whether true democracy can work in a system 
that its membership is elected without what seems to be 
accountability, that goes along with it, and with that I yield 
back to the chairman.
    Mr. Ganske. Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I've 
listened with a great deal of distress to your presentations 
and this whole--this whole view, this whole business is a 
pretty tawdry business. What I think has to happen is the IOC 
has got to change its ways. It's got to reform itself, and 
we've had recommendations by the panel that Senator Mitchell 
chaired to do exactly that.
    Now the IOC, which basically sounds like a bunch of hand-
picked people by President Samaranch, is going to meet in 
December, and we've been told that we ought to let them meet, 
we ought not to interfere in any way, let them reform 
themselves. Now, we've been told that already for quite a bit 
of time. But if they come back, Mr. Hybl, in December having 
failed on what you think is basically a 50/50 proposition, I 
proposed legislation, and my legislation would say we would 
prohibit American corporations, including the TV networks, from 
providing any financial support to the IOC until the IOC adopts 
the Mitchell Commission reforms.
    Do you think that legislation would drive the point home to 
them that--their failure to adopt reforms is not going to be 
acceptable in this country, and do you--would you support our 
doing that if they don't reform themselves?
    Mr. Hybl. Congressman, as I indicated earlier, the fact is 
that I'm probably not the best person, not being an IOC member, 
to judge what they're going to do and how they're going to 
react.
    Mr. Waxman. Whatever they do they're going to do. If they 
succeed, fine. We'll hope that things will be better for the 
future. But if they fail, do any of you think we should just 
let it go and say that this is a system that will continue on 
as stinking as it is, or do you think we ought to take action 
in the United States if other countries don't want to do it, at 
least in the United States to make the IOC pay the penalty of 
not getting support from our American corporations?
    Mr. Hybl. I would suggest that from the comments that are 
made to me by IOC members, they are listening to what is being 
said, and not only the Congress, but--well, in the House and 
the Senate. Our job is trying to make sure that we can garner 
the support for the U.S. athletes as--it's all private support. 
We don't receive government funding. And I hope that the 
reforms will be adopted. We're doing everything we can to 
encourage that because we see the danger to the athletes and to 
the movement in the United States if this does not happen, and 
I believe you've made them certainly aware of that, and I 
believe they're going to respond at the IOC level.
    Mr. Waxman. I sure hope so.
    Mayor Young, if they don't respond, don't you think the 
Congress has to act, and at least in the United States we ought 
to say, if you're not going to reform yourself, we're going to 
put sanctions on the IOC, not on the American Olympic 
Committee, but on the International Olympic Committee, that 
they can't come here and get our American corporations and 
networks to give them money?
    Mr. Young. I agree with Mr. Hybl that I think reform is in 
process, and I think you have another panel this afternoon that 
will probably go into that in much more detail.
    Mr. Waxman. Yes. But if they don't adopt reforms, what do 
you suggest we do?
    Mr. Young. Then I think we have to help them adopt reforms 
with some congressional action.
    Mr. Waxman. How about you, Mr. Payne?
    Mr. Payne. I personally am confident, sir, that this 
inquiry, others that have been similar, the Mitchell report, 
the efforts ongoing in USOC will cause reform successfully 
within the IOC, within the time period that's acceptable to 
you.
    Mr. Waxman. And if not, you feel that we in this country 
should take action?
    Mr. Payne. I would defer to your leadership, sir, and that 
of the Congress, but I think it would be important to ensure 
that the integrity would permit future American cities to have 
the same honor that we did in hosting the games.
    Mr. Waxman. Mr. Helmick?
    Mr. Helmick. I don't share the confidence, but I certainly 
share the hope that the reform will come. Certainly election of 
IOC members is absolutely essential to change the environment. 
If nothing happens, I think you had an excellent model in 1978, 
and you need to have congressional action to urge further 
reform. In 1978, I heard of many people say, well, the 
international community will not accept reforms that we had in 
the Stevens Olympics Sports Act, and indeed within a year or 2, 
they accepted those reforms, and our representatives' 
international federations were changed. I think the same thing 
can happen here.
    Mr. Waxman. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Ganske. The Chair will exercise his prerogative, since 
I was next anyway, to ask a question. I want to follow up along 
Mr. Waxman's line. One of my neighbors is vice president for 
Pioneer Hybrid, which--and he travels around the world seeking 
business for a major international firm. Now, he has to follow 
a United States law called the Foreign Corrupt Practices Act. 
This basically make it is illegal for U.S. corporations to get 
involved with bribes overseas in order to get business. One of 
the great advantages of doing business in our country is that 
this has not been a common practice that in order to get a 
contract, you have to provide a bribe.
    Now, yes, there is a, ``gift-giving culture'' around the 
world, but I think everyone here is also--also realizes that 
there are countries where it exceeds a simple gift of goodwill 
and gets deeply into corruption practices, and that has 
significant potential in terms of doing business.
    Now, last year Congress enacted a law to enable the 
President to designate by Executive Order the IOC or other 
organizations to be subject to the Foreign Corrupt Practices 
Act. I want to ask each of you, the President today has not yet 
acted on that authority. Should the President apply that by 
Executive Order to the IOC? Mr. Payne?
    Mr. Payne. To be very truthful, sir, I have not thought 
about nor studied that issue, and I would just have to defer to 
the wisdom of Congress. I really don't have an opinion on that 
issue, sir.
    Mr. Ganske. Mr. Young?
    Mr. Young. It's a difficult issue, and the Foreign Corrupt 
Practices Act is difficult. Attorney General Griffin Bell at 
the time of that act reminded us that there was in the 
legislative language an understanding that grease payments 
might be acceptable. Most of what you talk about here would not 
be--most of what we're talking about would not be covered under 
the Foreign Corrupt Practices Act, and it's very difficult for 
American businessmen, even in relationship to their own laws, 
trying very desperately to uphold those laws, to deal with 
questions like travel reimbursement and things like that.
    I don't know that the IOC can be reformed from outside by 
force. I think the kind of pressure that you're bringing on 
this hearing and the kind of public testimony that's being made 
is what is needed to get them to reform themselves.
    Mr. Ganske. I need to get down the roll a little bit 
because I'm going to have to go for a vote here pretty soon.
    Mr. Hybl, I think on March 3, 1999, you took a different 
position. I think you stated the U.S. Olympic Committee fully 
supports the recommendation and respectfully request--this was, 
I believe, a letter to the President--request that you issue 
such an order. Is that correct, and is that still your 
position?
    Mr. Hybl. That's still our position. It's based on the 
fact, Mr. Chairman, that what you have is 22 different nations 
hosted the Olympic Games. Twenty of those are signatories to 
the OECD, and we think only Russia and Bosnia that hosted the 
games would be outside that. We believe this is one vehicle 
that would help level the playing field, not place the American 
cities or athletes at any disadvantage, and we did send that 
letter on the March 3--in fact, I sent it, and we stand by that 
position. To their credit, the IOC has requested of the OECD 
based in Paris that they be included on some basis, which I 
think they probably will define this afternoon, so that is 
going forward.
    Mr. Ganske. Mr. Helmick, do you have a position on that?
    Mr. Helmick. Yes, I fully support that.
    Mr. Ganske. My time--I'm going to have to run for a vote 
pretty soon. I just want to ask one last question.
    Mr. Helmick, if you were Mr. Samaranch, how would you--what 
would be the recommendations that you would make to clean up 
this process?
    Mr. Helmick. I think, first of all, it has to be something 
that's reasonable. The end process must be having the IOC 
members responsible for their constituents back home. We know 
that here in Congress. So elections, I would predict existing 
IOC members would probably be reelected. That's not going to 
happen overnight. Phase in some programs, but ultimately you 
have to have the IOC so that, just like all of you, that you're 
subject to being responsive and responsible to a constituency, 
and there's nothing like the loyal opposition and other people 
nipping at your heels to get your job that keeps these things 
clean and open.
    Mr. Ganske. Should the IOC salary members who evaluate the 
sites; should they pay for their travel and should they have a 
strict gift limit similar to what we have in Congress?
    Mr. Helmick. Absolutely. It was at one point--and this is 
why there's some frustration being inside the IOC--I believe, 
and perhaps Mr. Carrard can correct me, for a brief period of 
time when I was on the executive committee, we actually 
required that all ticketing go through the IOC travel agent, 
which was a good way to control this. My suggestion would be 
just no gifts whatsoever, and enforce it, and have a culture so 
that it is okay to turn down a request for a gift because 
nothing was forced.
    It was very, very difficult for Atlanta to refuse that type 
of trip that was itemized, but the culture has to be that you 
can report this type of activity, and sanctions and threats 
will be made against you.
    I would say absolutely no gifts. I think the visits are 
primarily silly. They don't really help the IOC member, nor do 
they help the bid city. I think the IOC has recognized this and 
has made some attempts to limit it, but I would continue on 
that way.
    Mr. Ganske. I thank the panel. We're going to go into 
recess. We'll try to get back here just as soon as we can. And 
so the committee is in recess.
    [Brief recess.]
    Mr. Burr [presiding]. The Chair would ask the witnesses to 
return to the table.
    The Chair has been informed that Ambassador Young will be 
here shortly. I've asked Mr. Stupak, who is the next in turn, 
if he would prefer to wait. He said, no, he could go ahead. So 
at this time the Chair would recognize the gentleman from 
Michigan for 5 minutes.
    Mr. Stupak. Thank you, Mr. Chairman.
    I'm looking at the report here from King & Spalding. I've 
read it with great interest, as I'm sure everybody on this 
panel has. And throughout this report, I see on page 11 it 
says, Atlanta's bid was submitted as a joint application with 
the USOC. So USOC, while we focus on Atlanta, if you're jointly 
involved in this whole operation, they are one and the same, 
the way I look at it.
    The part that bothers me throughout this report, and going 
anyplace where you want under any subsection, we continue to 
see GAAF, that's the Georgia Atlanta, whatever it was, but the 
Atlanta folks indicate they did not incur any expenditures in 
connection with this donation, or GAAF volunteers assisted or 
offered or attempted to steer financial assistance for 
relatives or friends. There's always a third party or 
volunteers who did the things on behalf of GAAF or the USOC.
    It seems like in this report what we acknowledge wrong, we 
can't account for anything because we don't know because of 
volunteers or third parties did it. So when you gave us the 
figure of $6.5 million that Atlanta spent, now, was that just 
what Atlanta spent, or does that include what the volunteers 
and relatives and friends gave, too?
    Mr. Payne. Yes, sir. Thank you. I think volunteers 
throughout that report, sir, is used generically to describe 
not only the community in general as they helped us, but the 
actual people working full time, because they were, in fact, 
for that 3-year period all volunteers even though we work full 
time. So that is--that's not to--that's not to defer 
responsibility, but to attribute it to the leadership group as 
well.
    Mr. Stupak. My question is the $6.5 million you speak of, 
does that include----
    Mr. Payne. I believe, sir, it was actually--I don't want to 
disagree with the Ambassador, but I believe it was actually 
$7.8 million including cash and value in kind, and I believe to 
the fullest extent possible that includes other unidentified 
third parties or other--the people about which you are 
inquiring, what they may have contributed in support as well.
    Mr. Young. I used $6 million because the million dollars 
extra was the bill they gave us for the party after we won. But 
to win, we were around $6, $6.5 million.
    Mr. Stupak. The report goes on, and it's on page 4, I think 
it says same thing in the summary on the last panel. Many of 
Atlanta's expenditures would have been improper. That's water 
over the dam, but the part that continues to bother me is this: 
Instead, GAAF volunteers believed during the bid process and 
continue to believe today that their expenditures were within 
the bounds of acceptability under the circumstances and were 
the minimum required to remain competitive in a bid with other 
cities. Basically--and when they summarize, they say, well, we 
realize that some people may look at it as being wrong. We 
believe, and we continue to believe today, that what they did 
was within the bounds of that culture. In fact, I'm reading 
from page 19. Those involved believe and still believe today 
that they conducted their bid within the bidding culture of the 
time, and their conduct was within the bounds of culture.
    In hindsight their effort can be reviewed as excess by some 
respects, but they still don't believe they've done anything 
wrong.
    Mr. Stupak. I guess I'm trying to get at this culture. Even 
if you do new rules come December 12 or 13, it's really not 
going to change anything, is it, if the culture is the same?
    Mr. Payne. I think with the rules, sir, must also be 
included sanctions and procedures to ensure their observance 
and enforcement, and so I think there will be a difference, 
yes, sir.
    Mr. Stupak. Who's going to do the enforcement?
    Mr. Payne. I think the choice now is the IOC itself, 
acceptable to the participants around the world or other 
governments, as you are suggesting, that would choose to have 
some part in the enforcement for the protection of the Olympic 
athletes and the movement in their own respective countries.
    Mr. Stupak. Well, to take--for example, it's listed at page 
15--other accommodations. In one case two volunteers transport 
money into the United States the IOC member from Jamaica could 
not have brought in himself without addressing certain 
reporting requirements.
    Mr. Payne. Address that?
    Mr. Stupak. That's not even within the culture. That's in 
violation of U.S. law. Do we go so far that we violate the 
United States currency laws?
    Mr. Payne. I'm not sure, sir, that that is an absolute 
assessment that violates the law. I know it was done 
innocently, although mistakenly.
    Mr. Stupak. Explain to me if a Jamaican person is coming 
into this country, why would he need two volunteers to bring 
money into this country and somehow that's a mistake? Why 
wouldn't the Jamaican bring in the money?
    Mr. Payne. He was not coming within time that he needed to 
pay a legitimate bill and asked them to do it for him, sir.
    Mr. Stupak. These volunteers, are they considered--were 
they paid people?
    Mr. Payne. No, sir, they were not paid people. They were 
full-time volunteers.
    Mr. Stupak. Well, but they were obviously directed by the 
Atlanta committee and all that, right?
    Mr. Payne. With respect to that transaction? No, sir.
    Mr. Stupak. They weren't?
    Mr. Payne. No, sir. They made an honest, innocent mistake.
    Mr. Stupak. How would the person from Jamaica contact two 
volunteers to do this if they're not at some direction from 
somebody with the Atlanta committee?
    Mr. Payne. The question asked were they under our direction 
with respect to that specific transaction, which would mean to 
me did we know about it. The answer is no, sir. The response 
was that they were there visiting him and were requested to do 
that, and they made an honest mistake when they agreed to do 
it.
    Mr. Stupak. Well, Mr. Payne, do you know a Ginger Watkins?
    Mr. Payne. Yes, sir.
    Mr. Stupak. Shannon Chandler?
    Mr. Payne. Yes, sir.
    Mr. Stupak. Were they volunteers?
    Mr. Payne. Yes, sir.
    Mr. Stupak. Reviewing some of the files, I see memos from 
you to these so-called volunteers. You certainly had control 
over these volunteers.
    Mr. Payne. Absolutely sir. I'm not disputing that, nor 
discounting any responsibility even for the mistakes of others.
    Mr. Young. There's some question about whether he had 
control of them, though. These are women in our community who 
gave their own money, their own time, and I would say they 
controlled us more than we controlled them, and what they did, 
they did with the utmost sense of integrity and discretion, I 
think.
    Mr. Stupak. I just really have trouble, the culture, the 
so-called volunteers; it seems like there's a shift when things 
look bad, well, it must have been a volunteer. We don't know 
the amount of money because that was a volunteer.
    Mr. Young. You know, we did what we said we did. And we're 
not trying to----
    Mr. Stupak. Where are the limits? Let's go back to this 
Jamaica situation.
    Mr. Young. We exceeded reasonable limits of this committee.
    Mr. Stupak. You also exceeded U.S. law. The Jamaican person 
was one who brought in $15,000, so what you had to have is two 
volunteers because you had to break up the $15,000 because the 
most you can bring into this country is $10,000 that you have 
to declare when you come in back and forth to this country.
    Mr. Payne. Sir, we've already said that Andy and I had 
nothing to do with that transaction. We believe it was an 
honest mistake by two very fine gentlemen.
    Mr. Stupak. I guess my time is up. Seeing that this culture 
is going to change when we--that may be the culture within the 
IOC or whoever it may be, but we even violate U.S. law to in 
hopes to get a vote on the IOC for Olympic Games.
    Mr. Young. He didn't even vote for us. He never----
    Mr. Stupak. It makes it look even more foolish.
    Mr. Whitfield. Thank you, Mr. Chairman. I am sorry that I 
missed the statements of the panel members, although I have 
read some of them in advance, and I know Mr. Payne's statement, 
one thing that came through perfectly clear is that there is a 
culture that has developed in the efforts to win the votes of 
these members to determine where these games will be located. 
As I said in my opening statement, which was quite brief, we 
are just trying to get some background information to have a 
better understanding of the way some of this took place.
    But in some of the documents that were provided to us, and 
I know I am sure this is not unusual and other cities have done 
it as well, but there was a document that Mrs. Samaranch, how 
do I pronounce the same Samaranch, Samaranch, okay, Mrs. 
Samaranch was in Atlanta and Charleston, S.C., and I guess our 
committee, the Atlanta committee maybe paid more than $12,000 
for her and a friend to visit, and first of all I don't know 
that that is true, but that is in here somewhere.
    Mr. Young. Yes, sir, that is true.
    Mr. Whitfield. Was that trip in and of itself a violation 
of any of the IOC travel rules?
    Mr. Payne. I don't believe so, sir, but I guess you will 
have the opportunity later today to find out. We did not 
believe it was.
    Mr. Upton. Was Mr. Samaranch an IOC member herself?
    Mr. Payne. No, she is not. She is the wife of the 
president.
    Mr. Whitfield. Did president Samaranch know about that 
particular trip, or do you know?
    Mr. Payne. Yes, I would assume he knew she was coming to 
Atlanta, yes, sir.
    Mr. Whitfield. How did that trip actually come about? You 
may not have been personally involved in it, but I assume that 
since he is the president, there must have been a feeling that 
if we accommodated her and helped her visit Atlanta and helped 
in any way we could, that that would be a good influence.
    Mr. Young. Yes, sir. I will not discount that at all. I 
think--it was important for us to impress her as well.
    Mr. Whitfield. That probably was the basis of that whole 
trip and decision to do that.
    Mr. Young. Yes, sir.
    Mr. Whitfield. And then I am assuming that is why Atlanta 
did pay for that trip then.
    Mr. Payne. We were actually billed for the trip by the IOC. 
They sent us a bill for reimbursement.
    Mr. Whitfield. They paid for her to come and sent you a 
bill for the trip and you all reimbursed her?
    Mr. Payne. I believe that is so, sir.
    Mr. Whitfield. Now, in your testimony, I know you had 
talked a lot about the--it is like you are out to win votes and 
you want to influence these people and give them a good 
impression of your community. So I am assuming that you all 
probably gathered quite a bit of information and intelligence 
on individual IOC members. Would that be accurate or not?
    Mr. Payne. Various members of our early bid team, sir, met 
extensively with people, some of which volunteered information, 
others which we sought out, I think as Andy has described 
earlier, to find out all we could so that we could later 
formulate our own strategy.
    Mr. Whitfield. Right. Do you all know, does anyone on the 
panel know how the IOC members themselves are selected to 
serve?
    Mr. Payne. I believe Mr. Helmick knows, sir.
    Mr. Helmick. Yes, sir, they are elected by the IOC 
membership, but it is really most of them are hand picked by 
the president or the executive committee members.
    Mr. Whitfield. By the president----
    Mr. Helmick. Of the IOC.
    Mr. Whitfield. So the president, he has the authority and 
the power?
    Mr. Helmick. He does not have the authority and power, but 
his influence is very great. My experience has been in most 
every case it is a hand selection, he makes the final decision, 
and I have never known him to put forth a name that did not 
pass, including some very controversial names.
    Mr. Whitfield. Right. And how long has he served as 
president of the IOC, Mr. Samaranch?
    Mr. Helmick. My recollection, since 1980. Mr. Carrard could 
correct me.
    Mr. Whitfield. The red light went on. Maybe I will get 
another round.
    Mr. Upton. You will. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. Mr. Young, you 
testified today that there were five rounds of balloting and 
you did not believe that there would be any way you could 
unduly influence the election of which city was selected 
because of the process, correct?
    Mr. Young. Correct.
    Ms. DeGette. Now, I guess I would like you to answer this 
then: If this cannot be influenced, why then did Atlanta and 
Salt Lake and all these other cities participate in this gift 
giving and scholarship offering and all of this, if it has no 
influence on the balloting?
    Mr. Young. It has influence, but there is no quid pro quo 
attached to it.
    Ms. DeGette. No direct quid pro quo. But I assume that the 
IOC just as the U.S. Congress and many other bodies recognizes 
that lavish gift giving and international travel and so on can 
be--can give an undue influence because they have all enacted 
rules against it. For example, all of us are prohibited from 
taking gifts over $50. I assume that is because there is some 
inference that it could exert an undue influence, isn't that 
correct?
    Mr. Young. That is the assumption. But that didn't happen 
here until 1974.
    Ms. DeGette. I think we all agree it is increasing.
    Let me ask you this. You mentioned in response to 
Congressman Stupak's question that these volunteers, I believe 
you said ``these women,'' but some of course were men, in your 
community, controlled you more than you controlled them. Did 
you explain the rules that at least were on the books of the 
IOC to these volunteers?
    Mr. Young. No, they explained them to me.
    Ms. DeGette. The volunteers explained them to you. Did they 
seem to be aware, for example, that the IOC had at least on the 
books a rule that said there was only one trip allowed, and 
only to the city itself? Did they explain that to you?
    Mr. Young. Yes.
    Ms. DeGette. And did these volunteers explain to you that 
the 1996 and 1998 rules as well as the 1988 rules stated 
explicitly that gifts of a value exceeding U.S. $200 are not 
permitted? Did the volunteers explain that to you?
    Mr. Young. They explained that that was honored only in the 
breach and we tried to stay----
    Ms. DeGette. So the volunteers were aware, according to 
your testimony--excuse me, sir, let me finish my question. The 
volunteers were aware that these rules were on the books, and 
they explained that to you?
    Mr. Young. Yes.
    Ms. DeGette. So everybody knew that at least this was 
supposed to be what was happening, although everybody agreed 
that it happened only in the breach, according to your sworn 
testimony.
    Mr. Young. We were volunteers too.
    Ms. DeGette. I understand. And, you know, I am not 
inferring anything illegal was done here, but the point is 
everybody knew these rules, and yet they were doing what they 
had to do.
    Mr. Young. And we admitted we knew the rules, we knew 
everybody else was breaking them. We weren't going to do 
anything that violated our consciences. But we were going to 
win.
    Ms. DeGette. I get you. Thank you, sir. Mr. Helmick, let me 
speak with you for a moment. You are a former member of the 
IOC. Would you agree with the perception I have and many others 
have that this gift giving and this lavish travel and so on has 
been increasing worldwide over the last 20, 25 years? Or has 
this always gone on in the Olympic movement?
    Mr. Helmick. An exponential curve. Giving gifts has always 
been a part of international competition. When I was playing 
water polo, you don't speak the language, so you have small 
gifts that you give. So the idea of gift exchange, they became 
excessively exponential following Los Angeles and particularly 
as we got into 1986 with the Barcelona.
    Ms. DeGette. Was that about the time that the IOC at least 
on paper adopted the $200 gift rule and the traveling only one 
time and only to the potential host city and all of the other 
rules?
    Mr. Helmick. Yes. My recollection is starting in 1985, 
perhaps in 1986, there were a series of memos from Mr. Gap, 
from Mr. Carrard, Mr. Zwiffel, and even the president to the 
members that talk about that. The word ``rule'' has been 
stated. One of the most influential IOC vice presidents has 
several times called those ``guidelines.''
    Ms. DeGette. I know. You said that before in your testimony 
today, sir, so I went back to my report here, and it says quite 
clearly a number of times in various written documents that 
were sent to the Atlanta committee, it says gifts offered to 
IOC members by and on behalf of candidate cities should be 
limited to documents or other items intended for information 
and/or souvenir articles. Gifts of a value exceeding U.S. $200 
are not permitted.
    Mr. Helmick. That is correct.
    Ms. DeGette. That doesn't sound like a guideline to me.
    Mr. Helmick. It doesn't sound like a guideline to me 
either. That is why I am very surprised that the IOC vice 
president said that.
    Ms. DeGette. That is nowhere in writing that I have. Has 
anybody received a document that says this is only a guideline?
    Mr. Helmick. It is not written, no, ma'am.
    Ms. DeGette. You said as a member of the IOC and in 
assisting Atlanta that you reviewed the gift list and that you 
said some were okay and some weren't. Is that an accurate 
characterization of your testimony?
    Mr. Helmick. In reference to a full conversation I had with 
one of the members where we were reviewing personal gifts, that 
is correct.
    Ms. DeGette. You said some were excessive and some weren't?
    Mr. Helmick. In our joint conversation, whether she said 
that or I said that, I don't know. She was struggling with 
that.
    Ms. DeGette. The concern I have, and then I am done, Mr. 
Chairman, is we have in our documents prepared by King & 
Spaulding, lengthy lists of gifts in excess of $200 in value 
which apparently no one had a problem with.
    Mr. Helmick. I would have a lot of problems with a lot of 
those gifts, but particular--the particular instance was the 
final gift.
    Ms. DeGette. You didn't see lists like that?
    Mr. Helmick. I am very surprised with that list. What 
bothers me is the consistency of it, the pressure put on the 
Atlanta to just give more than one $200 gift. But all of those 
gifts, time and time again, you see 80 or 100 gifts of $100 to 
$200 or $300. That is really what is excessive, is the number.
    Ms. DeGette. The aggregate amount. You weren't aware that 
was going on?
    Mr. Helmick. Yes, I was. It was consistent with the 
expectations and is the thing that a lot of us spoke out 
against and said you have to stop it because there are a lot of 
countries that cannot afford that.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. I have listened to 
most of the testimony and expressed concern in my opening 
remarks about this culture that exists out there in the Olympic 
community, and I am going to speak very broadly now, that 
apparently exists in terms of this instance of selecting host 
committees.
    I see a city like Atlanta having to go through some of 
these hoops unfortunately to get to the end that they want, but 
I think, Mr. Hybl, once Atlanta is picked as the city in the 
United States that would bid for this, that the USOC becomes a 
team player with them and an advocate for them, I trust, and 
hopefully an adviser in terms of what you can and cannot do.
    I suspect that the USOC is aware, and probably Atlanta was 
aware to some extent, of this culture within the broader IOC of 
the way things are done. I know in the business community, I 
have business friends who go overseas, and in some countries 
things are done differently.
    So I don't know what our answer is. I do to some extent 
though think the USOC ought to exercise more authority in its 
role as I assume the intermediary between Atlanta or any other 
city, Salt Lake City and the international committee, in trying 
to be an advocate to follow the rules out there. It doesn't do 
any good to have $200 gift limitations if they are not 
enforced, and obviously none of that is done. But my overall 
concern, again as I mentioned in my statement, and I would like 
perhaps a comment from one of the gentleman from Atlanta 
representing a host city viewpoint, and Mr. Hybl, you as the 
representative of the U.S. Olympic Committee, I am concerned 
about this, again, the unilateral disarmament and how we ever 
being affected here.
    Th IOC, what is their attitude to this hearing, to this 
investigation? Is it going to hurt us as a country in future 
selections? And how in the world are we going to enforce 
standards uniformly when we have to rely on other nations to do 
that? Is that feasible? Are other countries going to play by 
the rules if we play by the rules?
    I am not advocating we don't play by the rules, but I am 
just wondering as a matter of practicality, are we going to 
have any chance at success in future Olympics if this reform is 
not uniformly accepted and followed around the world?
    Let me just maybe, Mr. Hybl, you go first and Mr. Young or 
Mr. Payne follow.
    Mr. Hybl. Well, first of all, we concur, Mr. Bryant, with 
the question that the reform is needed. We also as a practical 
matter are aware of the fact that it really has to be broad-
based with other countries also if the United States is going 
to compete on a level playing field. This was the reason behind 
the recommendation from the Mitchell commission which was sent 
to President for the OECD recommendation for the Foreign 
Corrupt Practices Act that would be adopted. I believe there 
are 34 nations that are subscribers right now to the OECD, 
which would ensure that in virtually every case others would 
also be subject to the international rules against bribery.
    I would say that we wouldn't be proceeding with bids for 
the 2012 games if we thought that the United States had no 
possibility of being the designated city. The fact is that we 
don't know what the atmosphere will be 7 years out, which is 5 
years from now basically, 5\1/2\, and we are encouraged because 
of the quality of the U.S. cities that are competing, as we 
think U.S. cities have done in the past, that ultimately the 
games will return to the United States and we will host games, 
because we think it is good for the country.
    Mr. Bryant. You don't see any retaliation or any backlash 
from the IOC in terms of what we are doing in this country in 
terms of investigating and bringing to light some of these 
abuses?
    Mr. Hybl. The comments that have been made to me would 
suggest that there are those that are not particularly happy 
with the United States and the process that has gone on, but I 
think as time goes on, the U.S. will be able to compete 
effectively.
    Mr. Bryant. Mr. Chairman, could I ask unanimous consent for 
1 minute perhaps where Mr. Payne or Mr. Young--I know it was a 
rambling question, but if you have any thoughts. If you don't, 
that is fine.
    Mr. Young. One of the things about the American people, as 
you well know, Congressman, is we love to compete and we don't 
even mind accepting a handicap if competing. We thought we were 
competing with a handicap, and our excesses I think were our 
trying to be too creative. I think American cities like the 
Olympics, the American people like the Olympics. It was a $5 
billion windfall for Atlanta, that 1 year, and they are still 
building in Atlanta because of the influence we garnered from 
the Olympics.
    So American cities are going to go after it and are going 
to win it. We would be helped by a fair process, but if it is 
fair, it has to be enforced, and it is hard to know how to 
influence things internationally.
    Mr. Bryant. Thank you.
    Mr. Upton. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. Mr. Payne and Mr. 
Young, clearly any money that the IOC officials spent should 
have been spent we think to make it clear that Atlanta was the 
best city to host Olympics, and according to the King & 
Spaulding report, certain things happened that I would like to 
ask you to comment on, if you would.
    In Exhibit O on page 1 there is evidence that Atlanta 
officials discussed with the IOC official from Sweden a 
cleaning contract for Olympic venues in buildings with a 
company owned by the IOC official's friends. That contract I 
understand was not taken. But how do you view such a move as a 
way to demonstrate Atlanta's ability to be the best host city 
for the Olympics?
    Mr. Payne. Do you want me to go?
    Sir, on several occasions we were asked if we could 
facilitate an interview, set up a prospective business meeting 
with IOC members' acquaintance with somebody in Atlanta, 
somebody they heard of or whatever, and we did that on I think 
a couple of occasions. We honestly thought nothing was wrong 
with it. We didn't recommend or insist that anything come out 
of it. I am not even sure that the follow-up calls were even 
made in many of those instances. But the answer, sir, we did 
not believe that was an inappropriate thing to do.
    Mr. Strickland. Thank you for your answer. There is also 
evidence that efforts were made to secure job interviews for 
IOC officials' children, that various offers were made for 
medical care or medical evaluations, and would your answer be 
the same to those matters as well?
    Mr. Young. Mine would, sir, because if you are from 
Swaziland and the only place you can get your heart treated is 
South Africa, and you happen to be black, you recommend that 
you get your treatment when you come to Atlanta.
    We had doctors who were glad to treat people freely. We 
didn't consider that bribes. We were operating in the real 
world and we were dealing with the real conditions of people's 
lives. We had four people who had been run out of their homes, 
political exiles, and we probably did more for them than we 
would have done for others.
    But that was part of the way we were expressing our 
friendship.
    The other thing is we thought we were dealing with our own 
money. We didn't have the taxpayers' money here, very little of 
it. We knew what we were doing, we were raising money from our 
friends, from volunteers, who committed themselves to go after 
the Olympic games. We also knew the prize.
    So we thought these were minuscule favors that didn't cost 
us anything. I would go on further to say that most of the 
hospitals would not send us bills. They saw that as part of 
their contribution for the Olympics.
    Now, maybe that is wrong, but that was the spirit in which 
we engaged in this, is trying to help people anyway we could.
    Mr. Payne. May I add to that answer, I would add to 
conclude Andy's remarks, there were no jobs that were given, 
and I don't believe, except for my friend who I took to my 
personal doctor because I was afraid of this hocus-pocus 
medicine he was taking for heart disease, did we render any 
medical care except of an emergency nature when something went 
wrong while somebody was there.
    Mr. Strickland. Thank you for those answers. Mr. Payne, I 
think this question may have already been asked you, but if it 
was, I was not here and I apologize for repeating it. But for 
me it is an important question.
    Toward the end of your written statement you remarked that 
you believe that reform is needed in the bidding process, 
particularly in the areas of gifts and travel.
    Mr. Payne. Yes, sir.
    Mr. Strickland. I am wondering at what stage of this 
process in your own experience you reached that conclusion and 
what sort of reforms you would, as a result of your experience, 
what sort of reforms would you suggest are most needed?
    Mr. Payne. Yes, sir, that question was asked and my answer 
was when we ourselves came under attack for what we did, that 
I--and we were so criticized that I started thinking that what 
we thought at the time was perfectly appropriate to do in the 
context, other people didn't like, people we respect and honor, 
and so, you know, that was the first time I personally had the 
thought, well, let's just do away with all the gifts and just 
reform the process dramatically. So about a year ago----
    Mr. Strickland. And do you think that is possible?
    Mr. Payne. Yes, sir, I believe--I am not sure I am in the 
majority here today, but I believe there will be dramatic 
reforms announced in the short term.
    Mr. Strickland. And my friend on the other side asked if 
the rest of the world would concur with reforms that we may 
embrace and whether or not it would place us at a disadvantage. 
Is it your impression that the IOC at large will agree to these 
kinds of reforms?
    Mr. Payne. I am sure they will speak for themselves later 
on, sir, but I am the eternal optimist, and I believe the 
relative importance of this country to the Olympic movement, as 
viewed as a cooperative, not a combative relationship, will 
emphasize the need of those reforms, and that they will be 
undertaken in a way that satisfies everybody and will be 
accepted. That is my personal opinion, sir.
    Mr. Strickland. Thank you. If I can just make a comment 
regarding Mr. Young's testimony, and I read that you provided 
soccer balls for the impoverished children and so on, I can 
understand why you felt the need to do that. I guess what 
troubles me is that these are sort of select individuals who 
may have access to an individual like you or to resources that 
the IOC committee would have, and I guess it is better to do 
something that affects a small group of people, but it seems to 
me like the rationale there is a limited rationale in terms of 
its outcome.
    Mr. Young. For instance, Congressman, we arranged to send 
food supplies to 13 different countries because the heads of 
state told us there was a shortage of protein for the athletes 
training. We got free food delivered from American companies 
and shipped to these countries for their athletes.
    The soccer balls that we took, we took them ourselves and 
we passed them out in villages. I mean, that is what we thought 
was American friendship.
    Mr. Klink. Would the gentleman yield to me for one moment.
    Ambassador Young, look, if all that had occurred was taking 
food to hungry people and taking soccer balls to Third World 
countries, we would not be sitting here. The reality is in the 
case of Mr. Ganga, the evidence shows that the money was put in 
his personal account, some $50,000 I think.
    Mr. Young. Not from us.
    Mr. Payne. No, sir.
    Mr. Klink. By Salt Lake, in that case. That wasn't you 
guys. But the fact of the matter is that there is so much 
beyond that going on here, I laud you for that. I wish I would 
have been there to see the soccer balls arrive and to see what 
occurred and to see what happened when the foodstuffs arrived. 
But it gets far beyond that. We are far, far, far beyond the 
pale with this.
    Mr. Strickland. Thank you, sir.
    Mr. Upton. I want to follow up on a couple points that were 
made. Mr. Helmick and Mr. Hybl, you both through your testimony 
and certainly the report that we heard from the Mitchell 
Duberstein report indicated that virtually everyone knew the 
abuses were taking place, and I am just curious, particularly 
Mr. Helmick, as you think back 10, some 10 years ago, if they 
were well-known to everyone, what did you do then? Did you do 
anything? What went through your mind as you watched all this 
happening, particularly as you had seen from other cities that 
had not participated in this type of thing? I think you 
indicated you thought it started in Barcelona, that is when it 
started going, and Paris, Barcelona, and it has escalated since 
then. Where were you as this thing was happening?
    Mr. Helmick. Well, I was there, and I spent a great deal of 
time thinking about that question, and obviously I should have 
done more. I was in a unique position to have done more. 
Anything I say at this point sounds like an excuse. There are 
some things we did. You have to keep in mind that we had 
another bid city going at that point. We were focused on 
changing the amateur rule. The scandal at that point was we 
can't compete evenly with the Soviets. There were a lot of 
other things on our plate. That is sounding like an excuse.
    The things we did were not sufficient. We should have done 
more. We did do some things. At that point it was obvious to 
me, having been at most of the IOC sessions since Athens in 
1978, that it had to come within the IOC. I felt it was awfully 
important that the president of the U.S. Olympic Committee be 
an inside member of the IOC. I still feel that way. Bill Simon 
before me felt that way. We started to do some things inside 
the executive board. The rule was good. My recollection is 
having the IOC take care of travel arrangements were good. 
Obviously those were not sufficient. We should have done more. 
That is the only way I can answer you.
    Mr. Upton. Mr. Hybl, in the Mitchell-Duberstein report, 
``It is difficult to believe that members of the executive 
committee or individual trustees did not become aware through 
these encounters that a large number of IOC members and their 
relatives were visiting, attending schools and finding 
employment around Salt Lake City.'' it goes on.
    I would sense that you would think that you have looked at 
this report and you sense it is accurate. With all this 
evidence there, I am still astounded that your earlier comment 
that you thought only 50 percent of the members, you thought it 
was only about a 50 percent chance that the reforms will be 
adopted, knowing the pattern of abuse is as widespread as it 
is?
    Mr. Hybl. Mr. Chairman, I think the odds are greater than 
50 percent. As I indicated, it was for the complete package of 
reforms that are in front of the IOC.
    Now, some of the reforms will undoubtedly be adopted, but 
our view is that the package as presented by the Mitchell 
commission, there may be some differences in there, but should 
be reflected in a policy as in the USOC at the IOC level. It is 
for that complete package that I say that the odds are just a 
little better than 50 percent, in my view, that they would be 
adopted.
    Mr. Upton. I want to touch base a little bit on this 
international assistance fund. I am not sure when it started. 
Did it start while you were president, or was it around for a 
long time, the IAF?
    Mr. Hybl. I believe it started when Bob was president.
    Mr. Helmick. Yes, it was a response to the Los Angeles 
organizing committee.
    Mr. Upton. How is it funded?
    Mr. Helmick. Initially it was funded from profits from the 
Los Angeles Olympic Committee. It was the village fees, by 
about $4 or $5 million.
    Mr. Upton. Would you agree with my sense of things, 
particularly in some of the things mentioned in the report, 
that this could be construed as a slush fund?
    Mr. Helmick. No. It started out as an athlete training fund 
which was governed by our national governing bodies and was 
strictly monitored only for legitimate cross training for 
athletes. It grew out of hand.
    Mr. Upton. Tom Wilkinson was quoted as saying that the IAF 
grant to train Sudanese athletes ``doesn't look like a wise 
investment unless IOC votes are involved. It seems to me there 
was a deal, and Sudan delivered. Sudan, again, in the future, 
don't burn bridges. This is not a good investment of USOC 
dollars. It is a payback for Salt Lake City votes.''
    Mr. Helmick. What was the timeframe of that? I believe that 
was after I was president.
    Mr. Upton. It was after.
    Mr. Helmick. That is why I said it grew out of what was a 
good idea, and it is like the gifts grew into something that 
was then being abused.
    Mr. Upton. Mr. Hybl, was this one of the things you touched 
on in your testimony. This function of this IAF, is it going 
away?
    Mr. Hybl. We have certainly tightened that down. That does 
not mean that we will not have international assistance, but it 
will not be tied to any bid city.
    I would say that the comments that you just read were not 
only inappropriate, I don't believe that they reflect the 
position of the U.S. Olympic Committee.
    Mr. Upton. Mr. Young, I just want to follow up on something 
that you said. You indicated that none of these gifts, I 
believe this is what you said, none of these gifts that were 
offered would violate your conscience.
    Mr. Young. I probably said that, yes.
    Mr. Upton. I mean, again, I give great credit to Judge Bell 
and the report that he put together. You know, as I look 
through some of these exhibits and I see that, you know, 
$16,000 for CD players, $10,000 for handbags, $11,000 for 
pewter cups, $10,000 for bathrobes, I mean, I don't know--and I 
see one of the dossiers that you did on a fellow that no longer 
is a member of the IOC, Mr. Ganga, and in your own dossier that 
was done on him you were involved in the strategy, at least as 
documented in this, and the observation is ``greedy, will try 
to rip you off, can be bought. Will tell you what you want to 
hear.''
    Later on in the Salt Lake City investigation it says, 
during many trips to Salt Lake City Mr. Ganga and his family 
members received extensive medical care, and in fact it talks 
about to the tune of Mr. Ganga is the IOC member who most took 
advantage of the bid committee's and communities' generosity. 
Indeed, bid committee and SLOC expenditures attributable to the 
Ganga family totaled more than $250,000.
    I suspect that this--with this particular individual, he 
didn't change from Atlanta to Salt Lake City.
    Mr. Young. No, but what happened, Congressman, was during 
the period between Atlanta and Salt Lake City's bid, he was 
driven out of his home. His whole country was destroyed. He was 
a government official. There was a kind of communist military 
cabal. Everything he had was destroyed and he was very 
vulnerable during that period.
    Now, he also has a reputation of being a very aggressive, 
outspoken Africanist, and has been fighting with the IOC 
establishment since 1968. We knew that. Our appeal to him was 
not through his personal need or greed, but through his African 
nationalist sentiments.
    One of the reasons we gave money to South Africa was 
because the Africans were always saying to us, you just come to 
us and get our votes. You never do anything for us. When we get 
through voting, it is just like in Congress, when you get 
through voting, we never see you any more until election time 
comes.
    So we tried to do some things to help African athletes. But 
we didn't do anything directly to help Ganga except try to get 
an interview for his son for a job. But there was no guarantee 
for a job. He did not get the job. He was a very well trained 
accountant, spoke two languages. We thought there might be an 
Atlanta company that might want to hire him.
    Mr. Upton. Mr. Klink.
    Mr. Klink. First of all, Mr. Helmick, I am a recovering 
journalist, so I just want to give you a chance to clear 
something up, something that stuck in my ear. One of my friends 
here on the Democratic side asked you a question about how you 
became troubled by this excessive gift giving, and your exact 
quote was you thought this would have to stop because a lot of 
countries couldn't afford it. I assume you meant there were 
other reasons than that to stop?
    Mr. Helmick. Absolutely.
    Mr. Klink. I want to give you a chance to clear that up, 
because our friends at the press table, I did not want 
anybody--I know you didn't mean just that and I wanted to give 
you a chance to clear that up.
    Mr. Helmick. Thank you very much, sir.
    Mr. Klink. I am kind of troubled by, I remember as a young 
man, and I was young at one time, reading a book about Jim 
Thorpe and his unfortunate Olympic experience when he had his 
medals taken from him because they found out one time he had 
played professional baseball and had gotten a couple of bucks, 
and it was no more than a couple of bucks. To think we have 
gone from that to a time now when such extravagant expenditures 
have to be made in order to compete for whether or not you get 
the games, and as we said, you have to pay to play, but when 
you do pay, there is no guarantee you are ever going to get to 
play in this Olympic game. We have seen examples, Ambassador 
Young told us, of cities that have spent a lot more money that 
never got to host Olympics.
    I am troubled by all of this. Let me just ask you, Mr. 
Payne, who is Charlie Battle?
    Mr. Payne. Charlie Battle, sir, was one of the full-time 
volunteers who worked with us for the entirety of the bid and 
the games.
    Mr. Klink. What does Mr. Battle do?
    Mr. Payne. He runs a private foundation, the benefactor of 
which is one of his cousins.
    Mr. Klink. What is his background?
    Mr. Payne. A lawyer.
    Mr. Klink. A lawyer. Was he with a big law firm?
    Mr. Payne. Yes, sir, he was with the Atlanta firm of King & 
Spaulding.
    Mr. Klink. When we get back to this point about an honest 
mistake being made in regard to this $15,000 in cash, I was 
troubled by this handwritten memo from Charlie Battle to the 
file, and in this he says that since you are permitted to bring 
into the United States cash the amount of which does not exceed 
$10,000, I, Charlie Battle, brought in $8,000 and Bobby brought 
in $7,570. I took this money to a trust company, a bank, and 
received a cashier's check, et cetera, et cetera. Then he goes 
on to say I truly believe that no laws were broken.
    Now, if he had been an accountant or had been a dentist or 
had been something else, I would have less problems with this. 
But the reality is that he quotes right in his own memo that 
the law says you can't bring in more than $10,000, and then a 
few lines later he handwrites I don't think the law was broken.
    My problem is, what was going on there? Did they think this 
was a suggestion by the Federal Government that you cannot 
bring in more than $10,000? I would question also as to who all 
saw this and what action was taken. If this was ever brought to 
somebody's attention, that you had a lawyer with this well-
known law firm that by his own admission in his own handwriting 
admits that he circumvented the law, and then at the end of the 
memo, writes I don't think the law was broken.
    Can you enlighten me on that?
    Mr. Payne. May I confer with Judge Bell?
    Mr. Klink. If it were me that had to answer the question, I 
would want to confer with Judge Bell too. Judge Bell, could you 
sit down where we could hear you at the microphone, sir.
    Mr. Bell. It is my understanding that memorandum was not 
written until just a few months ago. It was written after Salt 
Lake City. Mr. Battle has a lawyer of his own, so I am not 
wanting to interfere in any way in this. But since you asked 
the question, as I understand it, he said that after Salt Lake 
City he started wondering if he had ever done anything wrong 
while he was working in on this group, volunteer group. He was 
on a leave of absence from the law firm because he was so 
interested in getting the Olympics. So he wrote down in the 
last 3 or 4 months, he wrote this memorandum. It was 10 years 
after this happened.
    Mr. Klink. There are no dates on it, so you----
    Mr. Bell. I just found that out recently when I was doing 
the investigation. So I thought you would want to know that. 
Again, as I say, he has a legal advisor of his own.
    Mr. Klink. Well, it is something we----
    Mr. Bell. I don't want to interfere in that.
    Mr. Klink. It is something we may want to have answered.
    Mr. Payne, this discussion about, and I thought it was 
interesting that Ambassador Young mentioned the fact that you 
are directed more by the volunteers than you direct them. I 
guess I can appreciate that to a certain extent.
    But I was also interested in this memorandum from you, 
August--this is one of many, I just pulled one, it could have 
been anyone, but August 20, 1990, to Ginger Watkins and Shannon 
Chandler, subject, personal gifts. Attarbulsi, I hope I said 
that right, I know I butchered that, an offer from Emory Clinic 
acknowledging that we would like him to come to Atlanta for 
medical treatment whenever he needs it and an offer to pay his 
air transportation. Follow-up for Dibos and Mendoza. Follow-up 
with American airlines for free complimentary tickets. Gafner, 
perhaps an agreement to publish his novel in English. De Leon, 
de Leon bought clothes at L.A. Town in Korea. We could call 
Johnny Liu and have him make a suit. Mbaye, perhaps a letter 
showing support for Atlanta signed by all members of the United 
States Supreme Court. O'Flanagan, a signed card from hundreds 
of school children in Savannah, which invites him back to grand 
marshal another parade, which includes a picture of him during 
the parade. Von Schoeller, call Campbell about some kind of 
horse memorabilia. Pal Schmitt, get a letter from the 
University of Georgia offering a scholarship to his daughter.
    Well, no wonder your volunteers were leading you all the 
wrong direction if the direction they were getting from you was 
to perform this kind of personal gift giving. That is the 
problem here, that it appeared that this closed culture of the 
Olympics was being instructed from the very top.
    Mr. Payne. Well, as I have said before, sir, we don't--we 
are not trying to assign any responsibility. That memo has been 
a source of embarrassment to me before, as have others in the 
files, and the only one we did on that was the suit for Mr. de 
Leon, which came within the gift rules and limits, and they 
were bad ideas, sir, which were quickly pointed out to me by 
these other volunteers and no action was taken.
    Mr. Klink. Thank you.
    Mr. Upton. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I am struck as I have 
read the reports and the memos and the various investigatory 
results of the similarities between this and the way football 
recruiting used to be in the Southwest Conference. Bear Bryant, 
who coached at Maryland and Kentucky and where I went to 
school, Texas A&M and then Alabama, his biography makes no 
bones about the fact that his fundamental job was to win 
football games, and in order to win football games he had to 
have players on the field. If he needed to get an alumni to get 
somebody a job, buy a car or get him a girlfriend or get a 
couple of hundred dollars for a flight, he did it. And when you 
read the testimony and you read the reports, it strikes me that 
Atlanta basically decided to compete for the Olympics, and they 
went out and hired the best advisers that they could, and the 
advisers told them if you want to get the Olympics, here is the 
way you have to do it.
    There is a legal criteria, and then there is the real 
world. Now, am I fundamentally missing the program, Mr. 
Ambassador?
    Mr. Young. We didn't hire any advisers, you know.
    Mr. Barton. Well, the report that Mr. Bell prepared says 
that early on you retained an adviser that had represented 
Anchorage and paid him $19,000. You also extensively talked to 
people who had been involved in the process.
    Mr. Young. Yes, sir.
    Mr. Barton. I am not being disparaging. I am just trying to 
set the stage. The goal was to get the Olympics to Atlanta, and 
you found out what the rules say and then what do we really 
have to do, and you decided to do what you really have to do. 
Does anybody fundamentally disagree with that?
    Mr. Young. I think that is a very good illustration.
    Mr. Barton. Okay. Now, I believe that if you are going to 
solve the problem, you have got to have fundamental reform, and 
if you are going to have fundamental reform, you have to start 
at the top. My understanding is that the president of the 
International Olympic Committee at the time is this gentleman 
from Spain, Mr. Samaranch, is that correct?
    Mr. Payne. Yes, sir.
    Mr. Barton. Now, again, in Judge Bell's report that he 
supplied to the committee, it shows that Mrs. Samaranch came to 
Atlanta and took side trips to Savannah and Charleston and the 
total cost that is reported for all that with her friends is 
over $12,000.
    Now, did she have a vote? She didn't have a vote.
    Mr. Payne. No, sir.
    Mr. Barton. So this is no official reason to be paying for 
airfare and side trips to the president's wife and her friend, 
is there?
    Mr. Young. Yes.
    Mr. Barton. And----
    Mr. Young. I mean, again, you said it. We wanted to get 
anybody who could influence him. He is very hard to get to.
    Mr. Barton. I understand that. That is exactly my point.
    Mr. Young. If his wife wants to come to Atlanta, well, 
we're glad to have her come.
    Mr. Barton. Here is my point. It is hard for him to claim 
public outrage and shock and amazement that we have got all 
these problems if his wife and her friend flew to Atlanta, took 
a side trip to Savannah and Charleston, all at the expense of 
the Atlanta Olympic Committee. So why is he still president of 
the International Olympic Committee? Anybody want to answer 
that question?
    Mr. Young. He gets the majority of the votes. He gets 
reelected and--but in fairness to him, he is an old line 
European aristocrat who has brought the Olympic movement a long 
way on some issues. One, he has brought more minorities, the 
diversity of the Olympic movement under his leadership----
    Mr. Barton. Which is a good thing.
    Mr. Young. Is a good thing, and that is one of the reasons 
he gets support.
    Mr. Bartlett. My guess is he is not the only one who could 
do that.
    Mr. Young. He is the only one who did. It was a white male 
old boy's club until he took it over. The athletes on the 
Olympic Committee, the anti-doping efforts, the difficulties of 
keeping--he had been Ambassador to Russia, so he was one of 
those that was influential in helping to keep the Russians in 
the Olympics.
    Mr. Bartlett. My time has expired.
    Mr. Young. There are good reasons why he is still the 
president.
    Mr. Barton. There are no good reasons that I can tell. You 
need fundamental reform. It is not going to happen in my 
opinion as long as he is president. I think you need to reform 
the voting process. I think you ought to have an open vote. It 
is pointed out in Judge Bell's report on the first ballot 
Atlanta got 19 votes and they didn't get anywhere close to 
competitive until the last ballot. If you made it an open vote 
process, you prevent these 86 members of the International 
Olympic Committee from promising everybody something. In other 
words, you got to put your vote on the board like you told 
somebody you are going to put your vote on the board. I think 
you need to reform the mechanism for who puts you on the 
International Olympic Committee. From what I can understand, 
President Samaranch has quite a bit of influence on who gets on 
the International Olympic Committee. So I am not here to 
chastise the Atlantans, but if I am still here when we get the 
IOC, I am going to chastise them significantly, because I think 
that is where the problem is.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Barton. I have been generous with 
the time, as you can see, that everyone has lots of questions 
and many of us still to ask. I am going to ask all members if 
they can to submit questions to you all in writing. I have two 
members, each of which want to ask questions very desperately, 
and I will yield at this point to Ms. DeGette and then to Mr. 
Burr, and at that point we will excuse this panel and begin the 
next.
    Ms. DeGette. Thank you, Mr. Chairman. This kind of wraps it 
up a little bit. We all have a pretty clear picture from 
reading the documents and hearing you testify here today what 
happened in Atlanta, what has been escalating since the 1980's, 
and I would like to place a question to Mr. Hybl, and it is as 
follows.
    We have written policies that the IOC apparently adopted in 
the late 1980's and has reiterated throughout the 1990's, 
particularly with respect to travel and with respect to gifts. 
We also have an acknowledged recognition by host city members 
that they knew of those rules going in and that they knew that 
the rules weren't followed by anybody, and also that the rules 
were never enforced by the IOC.
    So my question to you is, what reforms do you think that 
the IOC could adopt that could and would actually have some 
hope of being enforced? And what would the mechanism look like 
to actually have real reform versus paper reform?
    Mr. Hybl. Well, let me answer that two ways, if I may. The 
first is the U.S. Olympic Committee now has experience with our 
new reform process, as we bid for the Pan Am Games. The cities 
have been visited, the USOC paid all the expenses, with the 
exception of a couple lunches and one reception within the 
community. We paid the airfare for our people to go to the 
city, we paid for their expense also while they were there, we 
have a limit of $25 on gifts. But in these cases there were no 
gifts.
    Let me tell you, no matter who wins, on October 23, whether 
it is Raleigh, NC or whether it is San Antonio, Texas, these 
rules are working.
    Ms. DeGette. I don't mean to interrupt you. I know that 
within the United States we are doing this and enforcing it. 
Maybe you can extrapolate internationally. I know the chairman 
has said we don't have much time.
    Mr. Hybl. Second, it would be my view there is probably no 
real reason for individuals to visit a host city if in fact it 
can be done by an evaluation team who then makes a 
presentation. If people are not visiting, you certainly don't 
have the problem with receiving excessive gifts.
    The second thing is, and the IOC is making I believe great 
strides here, is representation for the athletes that are 
elected by the athletes, because there is no better catalyst 
for change within any organization than these--in the Olympic 
movement--than having the athletes actively participating, 
advocating change, and certainly being a positive force for the 
whole movement.
    I believe that is going to happen. I think change will 
evolve quickly in some areas, but over the long term, the 
prognosis is very good.
    Ms. DeGette. Thank you.
    Mr. Upton. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. Ambassador, I am not 
going to ask you how you knew the Jamaican voted in a closed 
voting session, but clearly that is one I will still be curious 
on. Let me ask you, Mr. Payne, did Atlanta have competition in 
the U.S. to be the site pushed by USOC?
    Mr. Payne. Yes, sir. We had extensive competition.
    Mr. Burr. How did the USOC make their choice?
    Mr. Payne. By a ballot cast at an election process in 
Washington DC. On April 28.
    Mr. Burr. Was that an open vote?
    Mr. Payne. I believe it is a secret ballot, is it not, Bob?
    Mr. Helmick. I believe it was a secret ballot.
    Mr. Burr. Let me ask you a question and ask you to think 
about it long and hard before you answer. Did Atlanta have to 
do anything other than be the best site to receive the USOC 
endorsement?
    Mr. Payne. I think we were the best site. I think that 
determination, that selection, was assisted by introducing 
members of the U.S. Olympic Committee executive committee to 
the people of Atlanta and their enthusiasm for the Olympic 
movement.
    Mr. Burr. Was there any discussion prior to their vote 
relative to splits of their participation in the games as it 
related to any of the concessions?
    Mr. Payne. I believe we were required to sign as a 
preliminary to the vote, as were all cities, an agreement which 
basically said the division of the big revenues are A, B, C, 
and we will negotiate later all the details.
    Mr. Burr. Let me ask you, Mr. Hybl, how important is it 
that if there is an American city in the process that that 
American city win versus a foreign city to the USOC?
    Mr. Hybl. I think for the promotion of sport in our 
country, particularly Olympic sports, it is important that an 
American city win.
    Mr. Burr. Is there a financial advantage for the USOC if a 
U.S. city wins the bid process?
    Mr. Hybl. Yes, the answer is yes, because of the 
attractiveness of being a sponsor of the U.S. Olympic Committee 
and it's at least----
    Mr. Burr. Don't get a cut if it is in a foreign city?
    Mr. Hybl. The U.S. Olympic Committee participates in a 
variety of ways through the IOC TOP program, through television 
revenues in the United States, no matter whether the games are 
here or not.
    Mr. Burr. But you wouldn't get a percentage of the sale of 
concessions, for instance, if it were held in Athens versus 
Atlanta, am I correct?
    Mr. Hybl. Well, the fact is that with a joint marketing 
agreement which we had with Atlanta and also that we do have 
with Salt Lake City, there is a participation. But this is 
strictly based on revenues that are raised jointly, not what 
Atlanta would be doing.
    Mr. Burr. That you wouldn't get jointly if it were in 
Athens?
    Mr. Hybl. That is correct.
    Mr. Burr. Okay. Now, you have been associated with USOC, 
looking at your background, I think since 1981. Is that about 
the right time?
    Mr. Hybl. That is correct.
    Mr. Burr. Let me ask you, as president, are you paid 
anything?
    Mr. Hybl. No.
    Mr. Burr. As USOC president?
    Mr. Hybl. I am paid expenses, and I have an allowance for 
two staff members.
    Mr. Burr. Are any of the officers or board members paid?
    Mr. Hybl. No. None of the officers are paid. The staff is 
paid, headed by an executive director.
    Mr. Burr. Let me ask you, given the structure in the USOC 
of unpaid positions for board members, is in fact duplicative 
of the IOC structure, one of you or both of you said earlier 
one of the reforms that has to happen is the IOC has to pay 
their board members. Did I dream that? It was the Ambassador 
that said that. Let me ask the two of you then to comment on 
whether that is a needed reform that must take place.
    Mr. Hybl. The U.S. Olympic Committee is in the process of 
an evaluation of our management by Mackenzie and company and we 
will be moving much of the authority that has been incumbent I 
guess on the president and the officers to the paid staff to 
really put the president, the position I am in, more as 
chairman of the board, which means that we wouldn't have the 
decisionmaking process as much within the volunteer staff. I 
don't believe the volunteers should be paid.
    Mr. Burr. Let me, Mr. Payne, ask you one last question. 
There is no predetermined answer to this one.
    If there was not a tremendous amount of U.S. corporate 
money and U.S. TV rights that went along with Olympic Games 
today, do you believe the IOC would be at the point that they 
are as it relates to efforts to reform the process?
    Mr. Payne. I am not sure that the amount of money derived 
from U.S. sources is as relevant to the reform as it has been 
historically to the success and the growth of the IOC. I 
believe that the corporate support from American companies is 
absolutely critical, absolutely critical, to the worldwide 
success in meeting the legitimate objectives of the IOC to 
support.
    Mr. Burr. So if by not performing they lost support of U.S. 
corporations or U.S. TV contracts, that would put in jeopardy 
the success of the Olympics; they would respond?
    Mr. Payne. That would be my personal opinion, sir.
    Mr. Burr. I would take that as a yes, they are responding 
because there is pressure.
    Mr. Payne. There is pressure and I believe you will find, 
sir, that they do believe reform for its own right and merit is 
needed.
    Mr. Burr. Let me take this opportunity once again to thank 
the four of you but to especially thank Ambassador Young and 
Mr. Payne, the folks in Atlanta for going through I know what 
has to be a grueling process of trying to remember 10 years ago 
and also to have to publicly go out and say there's some things 
we did that don't look good and that's not always fun but it's 
an important part of the process. Did you want to say 
something?
    Mr. Young. Yes, Congressman. I've sounded like I'm 
defending a lot of things that I don't--that are indefensible. 
I defend paying the board members of the IOC in large measure 
because about half of them are from very poor countries and one 
of the things that has happened in sport--I mean, we are 
responsible for the big money culture around sport and we tend 
to be ashamed of money as rich folks but it has given so many 
opportunities. I say the commercialization of sport has also 
been the democratization of sport, that a kid who can run, who 
can jump or who will train doesn't have to be rich. Before the 
U.S. corporations got interested in sport, you had to be born 
rich to compete in the Olympics. You had to have somebody to 
take care of you. I always wanted to go to the Olympics but I 
could never take off and do nothing but train for 2 or 3 years, 
whereas the Soviet athletes had government support. Now all 
athletes have support. American corporations have been very, 
very helpful to sport.
    Mr. Burr. As an individual that did not grow up in a 
wealthy family but was the recipient of a football scholarship 
to Wake Forest when it was the only way I could go, I treasure 
the opportunity that I had and the ability to achieve that and 
by the same token now 25 something years since I graduated look 
at the experience that just went on at Florida State and wonder 
how can it continue and where is the supervision. I think we 
share the same concern but we also share the same goal and 
that's excellence for the next generation of potential 
athletes.
    Mr. Chairman, I yield back.
    Mr. Upton. The gentleman's time has expired. Gentlemen, we 
appreciate your being with us for the greater part of the day 
today. We appreciate your answers. We certainly appreciate the 
testimony you provided in accordance with committee rules in 
advance. I do know of a number of members that have additional 
questions and we will be communicating that in writing. If you 
could communicate back in a fairly short order, that would be 
terrific. You're excused. Thank you very much.
    Our next panel includes Mr. Francois Carrard, Director 
General of the IOC; Ms. Anita DeFrantz, Vice President of the 
IOC, and Mr. Jim Easton, a member of the IOC. Members of the 
next panel, as you heard from the first panel, we have a long-
standing practice of taking testimony under oath. Do any of you 
object to that? I also advise you that under the rules of the 
House and of this committee, you're also entitled to be advised 
by counsel. Do you desire to be advised by counsel? And if so, 
could you identify those individuals.
    Mr. Carrard. Mr. Chairman, Mr. Culvahouse.
    Ms. DeFrantz. Mr. Oparil.
    Mr. Upton. I just want to make sure our clerk is able to 
get the names. Mr. Easton.
    Mr. Easton. Mr. Newhouse.
    Mr. Upton. If you could all stand and raise your right 
hand.
    Thank you, you are now under oath. As you know, our format, 
I'm going to be try to be a little stricter. We're going to use 
this clock. Your full testimony is made a part of the official 
record in its entirety. If you could limit your remarks to 
about 15 minutes, that would be terrific. Mr. Carrard, we'll 
start with you. Welcome to the subcommittee.

TESTIMONY OF FRANCOIS CARRARD, DIRECTOR GENERAL, INTERNATIONAL 
     OLYMPIC COMMITTEE; ANITA L. DeFRANTZ, VICE PRESIDENT, 
 INTERNATIONAL OLYMPIC COMMITTEE; AND JAMES L. EASTON, MEMBER, 
                INTERNATIONAL OLYMPIC COMMITTEE

    Mr. Carrard. Thank you, Mr. Chairman, members of the 
committee. My name is Francois Carrard, I'm a Swiss citizen. 
I'm the Director General of the International Olympic 
Committee. My language is French and I ask for understanding if 
now and then I have a slip of tongue because I learn hard 
English thanks to a scholarship in California many years ago, 
but it's not my language. Thank you for your invitation to 
appear and let me tell you outright that it is the IOC's strong 
determination to fully cooperate with your committee. It is Mr. 
Samaranch's equally strong determination to cooperate and to 
appear in front of this committee in December.
    Before addressing shortly our crisis and our result action 
for in-depth reform, let me say a few short words about the 
Olympic movement and the IOC. The Olympic movement is the 
concerted action of all those in the world, and we are speaking 
of hundreds of millions of people, who accept to be guided by 
the principles and the rules of the Olympic charter. All these 
people are integrated fundamentally into three different 
constituencies: First of all, the international federations 
which are international nongovernmental bodies governing sports 
at world level; the National Olympic Committees, this is the 
second constituency, 199 of them in the world, one of them the 
most important being the U.S. Olympic Committee; and last, the 
International Olympic Committee, the IOC, which is of course 
today in the heart of the matter.
    The IOC coordinates the entire Olympic movement in 
accordance with the Olympic charter. It is a nongovernmental 
international organization privately funded, privately funded. 
Its legal structure is that of an association under Swiss law 
with headquarters in Lausanne, Switzerland. The present 
membership consists of 103 individuals coming from 77 different 
countries, 103 from 77 countries. Total independence, totally 
free of their acts, entirely not paid and their meeting 
constituents, the supreme body, the general assembly which we 
call the session. Session elects the executive body, elects 
president and chooses the host cities for the Olympic games. 
The session also approves the changes in the charter which 
would be necessary for the reform process. Their entire reform 
process under way will be submitted to the session on December 
11 and 12. A two-thirds majority is required and I can say that 
fundamental, unique, unheard of changes will be submitted. It 
is a formidable challenge after 105 years for Mr. Samaranch and 
all those committees to reform.
    A few words about the crisis. The crisis has to do with 
people with structures and with procedures. We were aware of 
the--as soon as we had evidence and that was the key word, 
evidence, of misconduct. We took immediate action in late 1998. 
Immediate internal investigation was ordered. Shortly 
afterwards, a commission was set up, the so-called ad hoc 
commission chaired by Vice President Pound dealing with the 
problems of the people. Within 3 months we reviewed all the 
files of all the members, and the result is that an 
extraordinary session was convened in March 1999, practically 
after 3 months, and this led to the exclusion, the expulsion of 
six members and to the resignations of four others.
    So practically for the first time in 105 years, the IOC did 
cutoff the 10 percent of its membership for misconduct. This 
was, Mr. Chairman, very harsh action.
    We further studied and took into account as soon as we 
received it the Mitchell commission report and took immediate 
measures for transparency, accountability. Our accounts, 
audited according to international standards, were disclosed. 
We opened the next session which took place in June 1999 to the 
media at large, for the first time in 105 years. The decision 
was taken immediately, no trips, no visits anymore for the 
ongoing campaign which led to the decision for the 2008 games 
because that's--we saw it as quite an important matter. We 
applied following the recommendation of the Mitchell commission 
to OECD to be governed by the regulations internationally, 
because we're a worldwide organization, on corruptions. We 
established an ethics commission composed for a vast majority 
of leading senior independent persons with a very strong action 
and inference. And then there is a reform process, the IOC 2000 
reform going on.
    Many of the reforms proposed are absolutely radical, 
introducing age limits. We are proposing 70 years old. Term 
limits, a new nominations committee, more members from outside 
including athletes and athletes democratically elected by their 
peers, and there will be new procedures also on the 
candidacies. Anita DeFrantz will speak of that.
    I thank you, Mr. Chairman, members of this committee for 
your time. We consider this investigation as necessary. It's 
not easy for us but useful and constructive and positive 
contribution to our reform process. We are very thankful also 
to Senator Mitchell, Mr. Duberstein for all the time they have 
taken as well as for the leading, the leading American 
personalities who are helping us with this process.
    We have a crisis. Yes, there have been abuses. Yes, there 
have been excesses, but we're fully committed to deliver for 
the end of the year fully newly renovated IOC.
    Thank you.
    [The prepared statement of Francois Carrard follows:]
Prepared Statement of Francois Carrard, Director General, International 
                           Olympic Committee
                              introduction
    Mr. Chairman, Members of the Committee, my name is Francois 
Carrard, and, as Director General of the International Olympic 
Committee (IOC), I am here to represent the IOC and its President.
    I want to thank you for the courtesy you and other Members of the 
Committee extended to me last week during our meetings. I also want to 
reiterate the IOC President is absolutely prepared to testify before 
your Committee after the IOC Session meets to vote on reform December 
11 and 12. I want to thank you for understanding his need to 
concentrate on building the necessary consensus among our multicultural 
organization for the acceptance of our reform package. As you know, 
changes to the Olympic Charter require a two-thirds majority vote for 
passage.
                          the olympic movement
    The International Olympic Committee was established in 1894 to 
revive the spirit and competition of the Olympic Games celebrated in 
ancient Greece. Since then, the IOC has coordinated and supervised the 
celebration of the modern Games and the growth of the Olympic Movement. 
In the most simple terms, the Olympic Movement is made up of those 
people who agree to uphold the Olympic Charter. Although the Movement 
consists of many partners, most notably the Olympic athletes, the three 
leading elements of the Olympic Movement are the International Sports 
Federations (IFs) that manage sport on a global level, the 199 national 
Olympic committees (NOCs) that coordinate the Olympic Movement within 
their own countries, and the IOC.
    The IOC is organized as an association having legal personality 
under Swiss law and is headquartered in Lausanne, Switzerland. Its 
activities and relationships are governed by the terms of the Olympic 
Charter, and it has a permanent staff of over 100. The IOC has 103 
members from 77 different countries, which means they also come from 
different backgrounds, cultures, races, and religions. Nineteen members 
come from North and South America, 19 from Asia, 13 from Africa, 48 
from Europe, and four from Oceania.
    Each member serves as an independent trustee of the Olympic 
Movement. This independence is a hallmark of the IOC and has allowed 
the Olympic Movement to survive political pressure inconsistent with 
the Olympic values. While all different, their common bond is their 
love of sport--one out of four is an Olympian--that drives them to work 
as unpaid volunteers for the development of sport around the world. I 
should also mention that six of the eleven members of the Executive 
Board are Olympians.
                         crisis as opportunity
    Over the past Century, the Olympic Movement has faced several major 
challenges--from the World Wars to the boycotts. Today, we are gathered 
to discuss the most important challenge--most important because it is 
leading to fundamental change in the organization. It is the IOC 
President's firm conviction that this crisis has a positive side 
because it has generated the political will to make overdue changes.
    To the IOC's credit, the Olympic Games have grown into the most 
important sports event in the world. Unfortunately, while the Games 
evolved, our organizational structure did not keep up with the pace of 
change. In effect, we did not realize we were going through a growth 
crisis.
    The result of an old-fashioned structure managing modern Games was 
not corruption, but a situation in which some of the less responsible 
members--a small minority--showed poor judgement and abused the system.
    Our problems were caused by weak people, structures, and 
procedures. This is why the International Olympic Committee is now 
engaged in a comprehensive and unique review and reform process.
                                 people
    The revelations coming out of Salt Lake City and Atlanta show us 
there were both givers and takers among the organizations involved. The 
IOC has taken responsibility for the behavior of its members, and where 
that behavior stepped over the line, the IOC levied the harshest of 
sanctions.
    Immediately after it became clear there were improprieties involved 
with the selection of the host site for the 2002 Winter Olympic Games, 
the IOC President took steps toward organizing an internal probe. The 
IOC was the first to act and the first to report. As a result of its 
investigation, six members were expelled, four resigned under pressure, 
and one passed away before the beginning of the investigation. Ten 
others were sanctioned with warnings of varying degree of severity.
    Expelling six members by vote of their peers and leading four 
others to resign was a most painful moment for the International 
Olympic Committee; yet these actions were overwhelmingly endorsed by 
the membership.
    Regarding the Atlanta allegations, the IOC President has referred 
the response known as the Bell Report (by the Georgia Amateur Athletic 
Foundation) to your Committee to the newly established permanent and 
independent IOC Ethics Commission, a majority of whose members are 
senior, independent voices from outside the IOC. They will make 
recommendations to the IOC Executive Board if disciplinary action is 
required. I should mention, many of those referred to in the Bell 
Report are the same people that were disciplined earlier this year.
                               structure
    Once we dealt with these problems, we turned our attention to key 
structural changes. We already have seen substantial progress and some 
results.
Ethics Commission.
    The first key change in terms of structure was the creation of the 
permanent and independent Ethics Commission. The IOC membership voted 
to create the IOC Ethics Commission at its 108th Session in Lausanne in 
March 1999. The Ethics Commission is charged with ensuring the ethical 
standards for IOC members are clear, applied, and enforced.
    The Commission is headed by Judge Keba Mbaye, former vice president 
of the International Court of Justice and an IOC member since 1973. He 
is joined on the Commission by five independent, international 
personalities:

<bullet> Howard Baker, former U.S. senator;
<bullet> Javier Perez de Cuellar, former United Nations secretary 
        general;
<bullet> Robert Badinter, former president of the French Constitutional 
        Court and former French minister of justice;
<bullet> Kurt Furgler, former President of Switzerland; and
<bullet> Charmaine Crooks, a five-time Olympian from Canada.
    IOC members Kevan Gosper, who is a former chairman and CEO of Shell 
Australia, a former Melbourne city executive, as well as a Silver 
Medallist, and Chiharu Igaya, another Silver Medallist and a member of 
a number of corporate boards, also serve on the Commission.
    The Commission's initial work resulted in the adoption of a Code of 
Ethics and changes to the Olympic Charter at the 109th Session in June 
1999.
    The IOC Code of Ethics will govern the actions of IOC members as 
well as those of officials of candidate cities and Organizing 
Committees of the Games (OCOGs) as they interact with IOC members. 
Among other provisions, the new Code limits gifts to items of nominal 
value and hospitality to the prevailing customs in the host country. 
The amendments to the Charter enhanced and clarified the powers of the 
IOC Executive Board to sanction and suspend members for unethical 
behavior.
IOC 2000
    Further changes to the IOC's structure are being contemplated by 
the IOC 2000 reform commission, and we are on schedule to enact 
fundamental reforms on December 11 and 12, 1999.
    The IOC 2000 Commission was established by the IOC's March 1999 
Session with a broad mandate to review all facets of the organization, 
including its structures, rules, procedures, and host city selection 
process.
    IOC 2000's general membership of 80 is led by a 26-member Executive 
Committee, comprised equally of IOC members and external personalities. 
(Of the thirteen external personalities on the Executive Committee, 
five are from the United States.) IOC 2000's plenary commission 
includes top leaders of international sports organizations, senior 
business executives, academics, sponsor and television broadcast 
partner representatives, and other internationally known public 
figures.
    The IOC 2000 Commission also includes the ten members of the IOC 
Athletes Commission, democratically elected by their peers during the 
last Summer and Winter Olympic Games.
    Among the members are:

<bullet> Henry Kissinger, former US secretary of state;
<bullet> Boutros Boutros-Ghali, former UN secretary general;
<bullet> Paul Allaire, chairman, Xerox;
<bullet> Michel Barnier, European Commissioner;
<bullet> Dick Ebersol, chairman, NBC Sports;
<bullet> Peter Ueberroth, former Olympic Games organizer and Major 
        League Baseball commissioner; and
<bullet> Thomas Stoltenberg, former foreign minister of Norway.
    The IOC 2000 plenary commission met on June 1 and 2, and its three 
working groups have met three times since then.
    The three IOC 2000 working groups' preliminary recommendations 
include several key elements to revising the structure of the IOC. They 
are:

<bullet> setting the membership to 115 members which will include 15 
        members who come from the ranks of the International Olympic 
        Sports Federations, 15 from among national Olympic committee 
        presidents, and 15 active Olympic athletes. The athlete members 
        would be elected by their peers at the Olympic Games;
<bullet> lowering the age limit to 70 years old;
<bullet> establishing a nominations commission that would review the 
        qualifications for people considered for election or reelection 
        to the IOC;
<bullet> setting the term of service at eight years, after which 
        reelection to the IOC is required; and
<bullet> setting the term of the President of the IOC at eight years 
        after which he or she could be reelected to serve only one 
        additional term of a yet to be determined length.
    The IOC 2000 Commission will meet October 30 and 31 in Lausanne to 
finalize its recommendations for reform. The plenary meetings will be 
open to the media, and the full roster of recommendations will be made 
public at that time. IOC members will review and vote on this set of 
final recommendations at the IOC Session on December 11 and 12.
                         policy and procedures
    The third major area of reform is revision of IOC policy and 
procedures.
Transparency
    Perhaps the most obvious shift of policy is the IOC's stronger 
embrace of transparency. In March, the IOC published its financial 
statements that were audited by PriceWaterhouseCoopers. A couple of 
months later, we opened the IOC 2000 Commission plenary meetings to the 
media. Then in June, we took a further step by opening the IOC's annual 
membership meeting, the IOC Session, to the media for the first time. 
And we have made an incredible amount of information available on our 
web site, www.olympic.org. I think the media will concur that we are 
making major strides in this area of openness, and I hope you will see 
the IOC President's willingness to come to Congress to explain the 
reform as yet another step toward greater transparency.
OECD
    Earlier this month, the IOC President instructed me to send a 
letter to the Organization for Economic Cooperation and Development 
(OECD) asking that the IOC be covered by the organization's anti-
corruption convention. Some members of the Senate Commerce Committee as 
well as the Mitchell Commission urged the IOC to find ways it could be 
covered by the US's Foreign Corrupt Practices Act. After consultations, 
we determined a direct application to the OECD would be the best 
approach for the IOC, as we could circumvent the need to apply to each 
of the OECD's member nations one by one.
    At this point, I would like to thank the members of the Mitchell 
Commission, especially Senator Mitchell and Ken Duberstein, who have 
made themselves available to meet with us and provide input on how they 
feel the IOC reform efforts should be directed. In this same vein, I 
would like to say we appreciate the interest this Committee and your 
Senate colleagues have taken in the reform of the IOC.
Host City Selection Process
    Perhaps the most important reforms in terms of procedure are the 
fundamental changes being contemplated for the host city selection 
process. IOC Vice President Anita DeFrantz, who was the chairman of the 
IOC 2000 working group addressing this area, is here to provide 
detailed testimony on the proposed changes to the process.
                               conclusion
    Mr. Chairman, I hope in the time provided I was able to give you 
and your colleagues a basic understanding of how substantial a reform 
effort is underway at the IOC. Senator Mitchell has commented that the 
reforms his commission recommended alone would be hard enough to 
implement, and IOC 2000 has a much broader mandate to review all 
aspects of the IOC.
    I respectfully submit that the IOC is undergoing a reform process 
that is unprecedented in both scope and pace for a 105-year-old, 
multicultural organization. Let me repeat: the IOC leadership is fully 
committed to ensuring the reform efforts growing out of this crisis 
result in a fully renovated IOC that will be better able to lead and 
serve the Olympic Movement.
    Mr. Chairman, that concludes my formal statement. I look forward to 
taking your questions following the testimony of Ms. DeFrantz and Mr. 
Easton.

    Mr. Upton. Thank you. As you may have heard, we have those 
buzzes and lights that indicate that we have a vote on the 
House floor so we're going to temporarily recess and we'll come 
back promptly at 2 for Ms. DeFrantz. Thank you.
    [Brief recess.]
    Mr. Upton. There are members who are trying to sneak a 
sandwich and do a number of things. A number of subcommittees 
are meeting. But I think we'll continue. Mr. Carrard, thank you 
very much for your testimony. Ms. DeFrantz, we'll begin with 
you. Welcome.

                 TESTIMONY OF ANITA L. DeFRANTZ

    Ms. DeFrantz. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify today on a topic of great 
importance to me. I also want to thank you and the members of 
the committee for the constructive dialog of the International 
Olympic Committee. My name is Anita L. DeFrantz, I'm an 
executive committee member of the U.S. Olympic Committee. I'm 
Vice President of the International Rowing Federation, FISA, 
and I'm Vice President of the International Olympic Committee.
    My involvement in the Olympic movement has been continuous 
since I first rowed for the U.S. Olympic team. I am an 
Olympian. I represented our country in the games of the 21st 
Olympiad in Montreal in 1976 and I'm proud to say we were able 
to win a bronze medal that year in rowing. I was also a member 
of the 1980 Olympic team which was not allowed to compete in 
Moscow. Since then I have served in a various--a variety of 
volunteer positions within the USOC. I also worked as a vice 
president for the Los Angeles Olympic organizing committee 
which put on the 1984 Olympic Games in Los Angeles and I was 
elected to the IOC in 1986. Today my work is as President of 
the Amateur Athletic Foundation of Los Angeles, which is the 
legacy of the 1984 Olympic Games.
    I have stayed involved with the Olympic movement because I 
believe in what the Olympic movement stands for, which is, as 
written in the Olympic charter, building a peaceful and better 
world by educating youth through sport, practiced without 
discrimination of any type of any kind and in the Olympic 
spirit, which requires mutual understanding with a spirit of 
friendship and fair play.
    Most people think of the Olympic movement only when they 
watch the games every 2 years. While the games do bring 
together the world in a celebration of human excellence, it's 
what the International Olympic Committee does to promote 
international sport leading up to and in between the games that 
makes me proud to be a member of the IOC.
    Through the moneys generated from the sale of broadcasting 
rights worldwide and worldwide sponsorships, the International 
Olympic Committee helps fund training programs to enhance the 
national sports organizations around the world. The programs 
seek not only to prepare athletes to compete in the Olympic 
Games but also to train their coaches in the latest techniques 
and to teach the national sports administrators to better 
manage their country's sports programs.
    As a result of these programs, athletes who could not 
afford the training much less the airplane ticket to the games 
now compete alongside their peers from wealthier nations. Due 
to the success of these programs, we now have athletes from 199 
National Olympic Committees participating in the Olympic Games 
and I'm happy to say that more than 40 percent of those 
athletes are women.
    There is a whole list of programs which are undertaken 
under Olympic--what we call Olympic solidarity. There are 
programs for administrators, for coaches, for athletes, sport 
for all, women in sports, sport and the environment, 
Olympafirca, and these programs are funded through our 
sponsorship. I must also point out that the U.S. Olympic 
Committee and their four U.S. athletes are major beneficiaries 
of the moneys generated through the worldwide sale of broadcast 
rights and sponsorships.
    From the IOC's worldwide sponsorship program, the TOP 
program, the first 20 percent of revenues are distributed 
directly to the USOC. The first 10 percent of television 
rights, U.S. television rights goes directly to the United 
States regardless of where the games are held. Perhaps it is 
because I am so proud of the work of the International Olympic 
Committee that I am so disappointed about what we have learned 
during this past year. It is also why I have given so much of 
my time to help advance the reform process.
    Mr. Chairman, I am here to assure you the process for 
selecting the host cities in the future will be dramatically 
different from the recent past. Following the revelation of 
problems with the 2002 bid process, the IOC took immediate 
action. An inquiry panel was immediately formed to examine the 
actions of IOC members who had abused their trust. Ten members 
resigned or were expelled from the organization. Ten others 
were warned. The IOC president then put in place a reform 
process with the development of a new interim procedure for 
selecting the 2006 Olympic Winter Games site, the creation of 
an independent and permanent Ethics Commission and the IOC 2000 
Reform Commission.
    Recognizing the urgent need for action on the bid process, 
the system for the selection of the 2006 Olympic Winter Games 
was immediately changed. Under that interim system, gifts and 
visits were prohibited and a selection college chose two 
finalist cities. The winner was elected by secret ballot cast 
by each member of the IOC.
    If the reform process goes forward as planned, the host 
city of the 2008 games will be elected through an even more 
thorough and improved selection process.
    Although the Ethics Commission has existed for only 6 
months, it has already made an impact on the future host site 
selection process through the ethics code it drafted. The 
members of the International Olympic Committee adopted this 
code in June. You should note the code lays out ethical 
standards for the interaction of the members of the 
International Olympic Committee with the members of the bid 
committees, and the National Olympic Committees. Second, it 
limits gifts to those of nominal value; third, it limits 
hospitality to that of the prevailing local customs. The new 
ethics code will be enforced by the independent Ethics 
Commission of which Senator Baker is a member.
    With the ethics code as the backdrop, the IOC 2000 Reform 
Commission is revising the process by which the International 
Olympic Committee will elect future Olympic host cities. First 
we have proposed changes to make clear the responsibilities of 
the National Olympic Committees in the bidding process. We 
found through the Mitchell report that there was no legal 
leverage over the bid committees and no mechanisms to compel 
the National Olympic Committees to assert closer control over 
the activities of the bidding committees. Second, we will add a 
new phase to the process called the bid acceptance phase. In 
the past, any National Olympic Committee could propose a city 
and that city would be declared a candidate for the games. In 
the future, the IOC with the assistance of technical experts, 
athletes, representatives of international federations, and 
National Olympic Committees will screen the cities to determine 
whether that city can be considered a candidate to host the 
games in question.
    After the bids are accepted--I'm sorry, a very important 
step at that point is that there will be a contractual 
relationship with the bid cities. The leverage that was not in 
place in the past will be there in the future.
    After the bids are accepted, they'll go through a more 
thorough evaluation process. The third major change. The 
International Olympic Committee has long studied the 
qualifications of the bid through the work of the evaluation 
commission. However, we have recommended the expansion of that 
commission to involve more technical consultants, athletes, and 
other representatives of the federations and National Olympic 
Committees.
    Under the previous system after the distribution of the 
evaluation reports, the IOC members would visit the cities. The 
executive committee of the IOC 2000 reform has recommended that 
we eliminate the member visits to the bid cities which would be 
the fourth major change. If the number of candidate cities is 
too large at this point the IOC executive board would have the 
authority to limit that field.
    Mr. Chairman, I hope you will see that the International 
Olympic Committee has been working to reform one of our most 
important procedures. Choosing the site of the next Olympic 
Games is a serious responsibility, as it determines where the 
dreams of future Olympians will be realized. We are making sure 
that the choice is being made under the best circumstances. 
Thank you.
    [The prepared statement of Anita L. DeFrantz follows:]
Prepared Statement of Anita L. DeFrantz, Vice President, International 
                           Olympic Committee
    Mr. Chairman, Members of the Committee, I want to thank you for the 
opportunity to testify today on a topic of great importance to me. I 
also want to thank you and other Members of your Committee for the 
constructive dialogue with the International Olympic Committee.
    My name is Anita L. DeFrantz, and I am an executive committee 
member of the U.S. Olympic Committee (USOC) and a vice president of the 
International Olympic Committee (IOC). I am also vice president of the 
International Rowing Federation, FISA. I am an Olympian. I represented 
our country at the Games of the XXI Olympiad in Montreal in 1976 and 
was proud to win a Bronze Medal in rowing. I also was a member of the 
1980 US Olympic team that did not get a chance to compete in the Moscow 
Olympic Games.
    My involvement in the Olympic Movement has been continuous since I 
first rowed for the US Olympic team. I have served in various volunteer 
positions within the USOC. I worked as a vice president for the Los 
Angeles Olympic Committee for the 1984 Olympic Games. I was elected to 
the IOC in 1986. I am currently employed as president of the Amateur 
Athletic Foundation of Los Angeles.
    I have stayed involved because I believe in what the Olympic 
Movement stands for, which as written in the Olympic Charter is, ``. . 
. building a peaceful and better world by educating youth through 
sport, practiced without discrimination of any kind and in the Olympic 
spirit, which requires mutual understanding with a spirit of friendship 
and fair play.''
                          the olympic movement
    Most people think of the Olympic Movement as the Games they watch 
every two years. While the Games do bring the world together in a 
celebration of human excellence, it is what the International Olympic 
Committee does to promote international sport leading up to the Games 
that makes me proud to be a member of the IOC.
    Through the monies generated from the sale of broadcasting rights 
and world-wide sponsors, the International Olympic Committee helps fund 
training programs to enhance the national sports organizations around 
the world. The programs seek not only to prepare athletes to compete in 
the Olympics but also to train their coaches in the latest techniques 
and to teach the national sporting administrators to better manage 
their countries' sports programs. As a result of these programs, 
athletes who could not afford the training, much less the airplane 
ticket to the Games, now compete alongside their peers from wealthier 
nations. Partly due to the success of these programs, we now have 
athletes from 199 national Olympic committees participating in the 
Olympic Games, and I am happy to say that more than 40 percent of the 
athletes are women.
    The goal is to ensure both today's and tomorrow's athletes from all 
nations continue to compete on the world stage.
    Among these programs are:

<bullet> For Administrators
    <bullet> Assistance to Continental Associations
    <bullet> Grants for NOC operating costs
    <bullet> Preparation for and participation in the Olympic Games
    <bullet> International Olympic Academy
    <bullet> Programs with the Medical Commission
    <bullet> Training for sports administrators
<bullet> For Coaches
    <bullet> Olympic scholarships for coaches
<bullet> For athletes
    <bullet> Preparation for and participation in the Olympic Games
    <bullet> Sydney 2000 programs
    <bullet> Olympic scholarships for young, promising athletes
    <bullet> Programs with IFs
<bullet> For sport in general
    <bullet> Sport for All
    <bullet> Women in Sport
    <bullet> Sport and Environment
    <bullet> Olympafirca
    The United States Olympic Committee, and therefore the U.S. 
athletes, are major beneficiaries of monies generated through the 
world-wide sale of television rights and sponsorships. From the IOC's 
corporate sponsorship program, the TOP program, the first 20% of 
revenues are distributed directly to the USOC. And, no matter where the 
Olympic games are held, 10% of the U.S. television rights fee goes 
directly to the USOC.
  international olympic committee action in response to recent crisis
    Perhaps it is because I am so proud of the work of the 
International Olympic Committee that I am so disappointed about what we 
have learned during this past year. It is also why I have given so much 
of my time to help advance the reform process.
    Mr. Chairman, I am here to assure you the process for selecting the 
host cities in the future will be dramatically different from the 
recent past.
    Following the revelation of problems with the 2002 bid process, the 
International Olympic Committee took immediate action. An enquiry panel 
was formed to examine the actions of IOC members who had abused their 
trust. Ten IOC members have resigned or have been expelled as members.
    The IOC President immediately put in place a reform process with 
the formation of the IOC 2000 Reform Commission and a permanent and 
independent Ethics Commission.
    One of the goals of the IOC 2000 Reform Commission is to examine 
the bid process and make recommendations for change. I was appointed 
chair of this working group.
                    2006 host city election process
    Recognizing the urgent need for action on the bid process, the 
system for the selection of the 2006 Winter Games was immediately 
changed. Under that interim system, gifts and visits were prohibited 
and a selection college chose two finalist cities. The winner was 
elected by secret ballot cast by each member of the IOC. If the reform 
process goes as planned, the host city of the 2008 Olympic Games will 
be elected through an even more thorough and improved selection 
process.
        ethics commission's impact on host city election process
    Although the Ethics Commission has existed only for six months, it 
already has made an impact on the future host site selection process 
through the Ethics Code it drafted. The members of the International 
Olympic Committee adopted this Code in June. With your permission, I 
would like to enter it into the record. First, you should note the code 
lays out ethical standards for the interaction of members of the 
International Olympic Committee with members of bid committees and 
national Olympic committees. Second, it limits gifts to those of 
nominal value. Third, it limits hospitality to that of the prevailing 
local customs.
    The new Ethics Code, enforced by the independent Ethics Commission 
of which Senator Baker is a member, will govern the behavior of all 
involved in the host city election process.
           ioc 2000 reform to the host city election process
    With the Ethics Code as the backdrop, the IOC 2000 Reform 
Commission is revising the process by which the International Olympic 
Committee will elect future Olympic host cities. We have devised a 
process that will work well into the future and address the issues with 
which this Committee is concerned.
    First, we have proposed changes to make clear the responsibilities 
of the national Olympic committees in the bidding process. We found, as 
did the Mitchell Report, that there was no legal leverage over the bid 
committees and no mechanism to compel the national Olympic committees 
to assert closer control over the activities of the bidding cities. The 
Olympic Charter clearly states that the national Olympic committees are 
responsible for the bid city they propose. As we have found, there was 
a varying degree of involvement in both the initial preparation and 
ongoing oversight of the bid cities. The proposed procedure will 
mandate that involvement.
    Secondly, we will have a new phase, called the bid acceptance 
phase. In the past, any national Olympic committee could propose a city 
and that city would be declared a candidate city for the Games. In the 
future, the IOC with the assistance of technical experts, athletes, and 
representatives of International Federations and NOCs will screen 
cities to determine whether that city can be considered a candidate to 
host the Games in question. This step will assess whether there is the 
necessary infrastructure to host the Games in place now or can be 
reasonably expected in seven years time. If not, the city will be 
encouraged to work toward improving its chances for the future.
    After the bids are accepted, they will go through a more thorough 
evaluation process--the third major change to the system. The 
International Olympic Committee always has studied the qualifications 
of the bid through the work of the Evaluation Commission; however, we 
have recommended the expansion of the Evaluation Commission to involve 
more technical consultants, athletes, and representatives of the 
International Federations and NOCs. The added input will provide a more 
thorough evaluation.
    Under the previous system, after the distribution of the evaluation 
reports, the members of the IOC would have visited the cities. The 
executive committee of the IOC 2000 Reform has recommended that we 
eliminate the member visits to the bid cities--the fourth major change.
    At this point, if the number of candidate city is too large, the 
IOC Executive Board will reduce the field to a manageable number on the 
basis of the Evaluation Report. It will then present those candidates 
to the membership for the final vote.
                               conclusion
    Mr. Chairman, I hope you will see that the International Olympic 
Committee has been working to reform one of our most important 
procedures. Choosing the site of the next Olympic Games is a serious 
responsibility, as it determines where the dreams of future Olympians 
will realized. We are making sure the choice is made under the best 
circumstances.
    Thank you, Mr. Chairman, that concludes my statement. I'm happy to 
take questions.

    Mr. Upton. Thank you. Mr. Easton?

                  STATEMENT OF JAMES L. EASTON

    Mr. Easton. Mr. Chairman, members of the committee, my name 
is James L. Easton. Before I start, I would like to ask you if 
the four documents that we brought could be a part of the 
record.
    Mr. Upton. Without objection they will be made part of the 
record in their entirety. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0363.066
    
    [GRAPHIC] [TIFF OMITTED] T0363.067
    
    [GRAPHIC] [TIFF OMITTED] T0363.068
    
    [GRAPHIC] [TIFF OMITTED] T0363.069
    
    [GRAPHIC] [TIFF OMITTED] T0363.070
    
    [GRAPHIC] [TIFF OMITTED] T0363.071
    
    [GRAPHIC] [TIFF OMITTED] T0363.072
    
    Mr. Easton. Thank you. Together with Ms. Anita DeFrantz, I 
have the honor of representing the IOC in the United States. I 
would like to thank you for the opportunity to address the 
committee and for your concerns of the Olympic movement and the 
athletes we represent.
    Briefly, my background is I'm chairman and chief executive 
officer of James D. Easton, Inc., a manufacturer of sports 
equipment. I'm also president of the International Archery 
Federation, FITA. And I was elected president of that 
association in 1989 and have been reelected for my third term. 
My previous involvement with the Olympics goes back to 1976 
when I filmed the archery competition as the official film 
maker for archery at that Olympic Games.
    My next involvement was in the organization and operation 
of the 1984 Olympic Games in Los Angeles, where I served as 
mayor of the Olympic village for athletes at UCLA and also was 
a commissioner of the archery competition.
    As an IOC member of the United States, I also serve on the 
management committee of the Salt Lake Olympic organizing 
committee and the executive committee of the U.S. Olympic 
Committee.
    From September 1995, when I was elected to the IOC, through 
1996, I also served on the Atlanta committee for the Olympic 
Games, on their executive board. International sports 
federations are one of the three pillars of the Olympic 
movement. We are the guardians of our respective sports. We 
promote and develop the sports internationally. We set the 
rules for competition internationally so those rules are 
consistent. We train the judges to enforce those rules and we 
sanction and oversee competitions internationally, including 
the Olympic Games. In short, we make sure our rules are fairly 
applied and our athletes are protected and our sport grows.
    Although FITA is one of the smaller international sports 
federations, I consider this an advantage as I am able to get 
to know many of the competitors on a personal level. This 
connection with the athletes along with my lifelong love for 
the sport of archery keeps me focused on the most important 
part of the Olympic movement: The athletes.
    Mr. Chairman, and members of the committee, I'm strongly in 
favor of reforming the IOC to prevent any future occurrences of 
inappropriate actions by bid committees and IOC members.
    I understand that proposals are being considered by the new 
IOC Ethics Commission and the IOC 2000 Commission. These 
proposals will be presented in early December at the 
extraordinary session of the IOC and I look forward at that 
time devoting on these necessary--voting on these necessary 
reforms and also committed to help convince other IOC members 
that they should vote for them also.
    We must not and will not fail the Olympic movement. I'm 
grateful that the IOC has given me the opportunity to work for 
the athletes across the globe, and I look forward to continuing 
my efforts on their behalf.
    Before I close, I'd just like to make another statement, a 
personal statement, that I'm troubled by the statements that 
have been made here today that all IOC members are guilty or 
have been guilty of accepting or requesting excessive gifts. 
From my personal experience, I have not seen that. I can state 
that these statements are not true and I believe they unfairly 
condemn many IOC members who have a high level of ethics and 
would not do many of the things that had happened in the past. 
And I just wanted to say that because there are many of us who 
do fit that mold and it is I believe unfair that every one of 
us is condemned with that same unethical activity.
    I'd like to thank you and I would be pleased to answer any 
questions you have.
    [The prepared statement of James L. Easton follows:]
 Prepared Statement of James L. Easton, Member, International Olympic 
                               Committee
    Chairman Upton, Members of the Committee, my name is James L. 
Easton. Together with Anita DeFrantz, I have the honor of representing 
the International Olympic Committee (IOC) in the United States.
    Thank you for the opportunity to address this Committee and for 
your interest for and concern with the Olympic Movement and the 
athletes that we represent.
    Briefly, my background is as follows. I am Chairman and CEO of Jas. 
D. Easton, Inc. (Easton). We manufacture sporting goods equipment. In 
addition to being a member of the IOC, which I have had the privilege 
of being since 1994, I am also the President of the Federation 
Internationale de Tir a l'Arc (FITA) otherwise known as the 
International Archery Federation. I was first elected to this post in 
1989 and am currently serving my third term as president. My 
involvement with the Olympic Games goes back to the organization and 
operation of the 1984 Olympic Games in Los Angeles. In addition to 
other duties, I had the privilege of serving as the Mayor of UCLA 
Olympic Village and as Commissioner of the Archery Competition.
    As an IOC member in the United States, I also serve on the USOC 
Executive Board and am I a member of the Management Committee of the 
Salt Lake Olympic Organizing Committee (SLOC). From the time of my 
election to the IOC until 1996, I also served on the Executive Board of 
the Atlanta Committee for the Olympic Games (ACOG).
    The international federations are an important part of the Olympic 
Movement. We are, in effect, the guardians of our respective sports. We 
promote all aspects of our sports, assure that the rules are applied 
evenly and fairly and oversee the conduct of our sanctioned 
competitions, including the Olympic Games. In short, we make sure that 
our athletes are protected and the welfare of the sport is safeguarded.
    Although FITA is one of the smaller International Federations, I 
consider this an advantage, as I have been privileged to get to know 
many of the competitors on a personal level. It is this connection with 
the athletes, along with my life-long love for the sport of archery, 
that keeps me focused on what really matters in the Olympic movement: 
the athletes and the Games.
    Mr. Chairman and Members of the Committee, I am strongly in favor 
of reforming the IOC to prevent any future occurrences of inappropriate 
actions by bid committees or by IOC members. I understand that 
proposals are being considered by the new IOC Ethics Commission and the 
IOC 2000 Commission. These proposals will be presented to the IOC 
Executive Committee and then to the full IOC membership in early 
December 1999. I look forward to voting on these necessary reforms in 
December, and have personally committed to working diligently to secure 
the necessary approval of two-thirds of my IOC colleagues. We must not 
and will not fail the Olympic Movement.
    I am grateful that the IOC has given me the opportunity to work for 
the athletes across the globe, and I look forward to continuing my 
efforts on their behalf.
    I would be pleased to answer any questions you may have.

    Mr. Upton. That was perfect timing with the clock. Again, I 
appreciate all of you being here, particularly Mr. Carrard, 
whose international travel has been able to bring him before 
this subcommittee today and you'll be here, as I understand it, 
again in December with Mr. Samaranch. So we very much 
appreciate that.
    We have a number of questions. First of all, I guess Ms. 
DeFrantz, Mr. Easton, it's my understanding, correct me if I'm 
wrong, but in the past you have been voting members of the 
selection committee; is that correct? Ms. DeFrantz, have you 
cast a vote in favor of one city or another in past Olympics 
and if so, which ones?
    Ms. DeFrantz. Since I was elected to the IOC in 1986, I did 
not vote in that election. I was elected at the end of the 
session, although I'm pictured as a part of the session.
    Mr. Upton. With which Olympics have you helped select as a 
member of the voting body?
    Ms. DeFrantz. From--in 1988 we elected the site of the 1994 
Olympic Winter Games. In 1990 we selected the site of the 1996 
Olympic Games. In 1991 we selected the site of the 1998 Olympic 
Winter Games. In 1993 we selected the site of the 2000 Olympic 
Games and in 1995 we selected the site of the 2002 Olympic 
Winter Games and this year we selected the site of the 2006.
    Mr. Upton. So you have been present for six votes of the 
cities and throughout all that, you were aware, were you not, 
of the $200 gift rule that was in place I believe for all of 
those? Is that correct?
    Ms. DeFrantz. Mr. Chairman, the rules changed a little bit, 
but essentially that is correct.
    Mr. Upton. Were you ever in a position where you saw cities 
come to you and offer gifts that exceeded the $200 gift rule?
    Ms. DeFrantz. Mr. Chairman, I had a particular approach to 
this. I believed that my responsibility was to find out from 
every bid city what they were going to provide for the 
athletes. So I always ask for technical information. Gifts were 
not of interest to me. I paid no attention to them and indeed I 
usually left them in the room if they came to me.
    Mr. Upton. So you were never--yes or no. Were you offered 
gifts that exceeded $200?
    Ms. DeFrantz. I don't know because I didn't accept gifts.
    Mr. Upton. You accepted no gifts but the question was were 
you offered gifts? Were there gifts that were offered to you 
that you might have turned down that were in excess of $200?
    Ms. DeFrantz. Mr. Chairman, it's difficult for me to 
answer. If I didn't open a box or look at a gift, I can't tell 
whether it was over $200 or not but I can tell you that I 
understood that the rule was gifts were okay as long as they 
were under $200.
    Mr. Upton. Mr. Easton, were you ever in a position to also 
vote on the selectionsite of cities?
    Mr. Easton. Yes, I was. I voted on the 2002 Winter Games 
and I voted on the 2004 Summer Games.
    Mr. Upton. Did you ever have a member from another--from 
the United States or any other country ever come to you and 
offer you a gift in excess of $200?
    Mr. Easton. Not that I was ever aware of. They never looked 
to me like that they exceeded that value. Like Anita DeFrantz, 
most of them were things you didn't want to take home. I left 
many of them in the rooms.
    Mr. Upton. I remember when Congress was under a great 
examination a few years ago and in reference to your closing 
statement as part of your testimony, one bad apple can spoil 
the whole bunch. And certainly no one is accusing you or anyone 
else specifically of abuse. But one of the things that we did 
when Congress was under attack was to pass a very strict ethics 
rule and in fact for a good part of the last number of years, 
there in essence has been a no gift rule all together. Maybe a 
T-shirt and a baseball hat but not a meal where you could sit 
down, and as part of the enforcing mechanism we have an ethics 
committee that's bipartisan. It's equal in numbers. A number of 
members in fact missed votes last week on the Dingell-Norwood 
HMO bill because they were meeting to discuss and review at 
least one case before them but that ethics committee works, I 
think, in most cases pretty well. I know that the Senate has 
one, too. Would you say that even though that $200 gift ban was 
in place that because there was no ethics committee until now 
recommended before the IOC that that was what may have rendered 
it somewhat infective?
    Ms. DeFrantz. There were two parts that made it 
ineffective. Certainly having no Ethics Commission was a huge 
problem but equally important there was no leverage. There was 
no contractual relationship with the bidding city and we intend 
to change that so that there will be such a relationship and so 
that the bidding city, the National Olympic Committee as well 
as the IOC members will be under the guidance of the Ethics 
Commission.
    Mr. Upton. I have a followup question but I'm going to 
adhere to this clock.
    Mr. Klink.
    Mr. Klink. Let me first start off with Mr. Easton. I don't 
know if you were in the room for my opening statement, but my 
concluding paragraph was, let me conclude by saying that while 
some within the IOC have strayed from the Olympic movement, 
from what the Olympic movement should be about, and have sadly 
used the bid process to seek personal award, most have not and 
are extremely hard working and dedicated individuals. In fact, 
I believe the vast makeup of the IOC care very deeply about the 
health and the integrity of the games. You might have missed 
that.
    Mr. Easton. I appreciate that statement.
    Mr. Klink. You may not appreciate that because there are 
some questions that have to be asked of all of you. And that 
is, if you are hard working individuals, and I believe you are, 
and all of this was going on, not only in the cities that were 
awarded as the previous panel showed us but in the cities that 
lost to spend tremendous amounts of money, why didn't you know 
what was going on? What kind of blinders, not just you, but 
what kind of blinders did people in the Olympic movement have 
on that you weren't aware that millions, tens of millions of 
dollars was being spent on courting the members of the IOC 
around the world?
    Ms. DeFrantz, we'll start with you. You testified, I think, 
you've been with the Olympic movement since 1976. That's 24 
years, is that correct?
    Ms. DeFrantz. Yes, as an athlete first and as an 
administrator second.
    Mr. Klink. You never saw anything that raised your 
suspicions?
    Ms. DeFrantz. Well, certainly, raised suspicions as well as 
I read the memos from Francois Carrard, from Madam Zheifel, 
from Mr. Gafner who wrote to the bidding cities always 
attempting to control, but again we did not have the leverage 
in place. That was the flaw. There was no way other than to 
send a memo saying please adhere to the rules. We understand 
that there are expenses being made that are totally 
unnecessary. The receptions, the dinners and things like that, 
we wanted to stop that, but we failed to have in place what we 
will have in place starting in December of this year, which is 
a way to sanction the bid cities. There was no contractual 
relationship at that time.
    Mr. Klink. My difficulty is we've got this report of the 
International Olympic Committee by the Toronto, Ontario Olympic 
Council. This is dated the January 9, 1991. This is after they 
lost. Maybe you'd say they're sore winners but they outline--
and I'll get to this a little later on. Mr. Carrard, maybe can 
you tell me. The thing that bothers me is that it prompted the 
Salt Lake City scandal. It prompted the United States press, 
the Department of Justice, and the Congress making this 
investigation before anybody came forward to try to do 
anything.
    We're looking at Salt Lake City and Atlanta. The question 
is have you at the IOC taken a close look at the bids 
surrounding--the activities surrounding the bids for Nagano, 
Athens, Sydney and perhaps other cities, even cities that were 
not awarded? Were there similar serious wrongdoings or bid 
irregularities like what happened in Salt Lake City, like what 
was alluded in Atlanta. I can't believe these are two exclusive 
situations. What happened at Nagano or Athens or Sydney? My 
understanding is Nagano, the records are burned. They're gone. 
They're destroyed.
    Mr. Carrard. Congressman, we did ask from all National 
Olympic Committees involved because some of these organizations 
have been dissolved and liquidated since then to report to us 
any possible facts or any possible form of misconduct. This was 
done of course early this year. We did receive reports from I 
think all countries involved. I would say that reported to us 
were a few minor flaws but nothing of substance. In the Nagano 
case, we were told by the Japanese that the records were 
burned. We certainly--we learned it like the rest of the world. 
And whatever we received from those other foreign countries is 
immediately passed on to the newly established Ethics 
Commission.
    Mr. Klink. The credibility of your investigation is in 
question. If in fact you're not able to go back--we heard from 
the first panel. Atlanta said this was widespread. We were 
simply doing what everyone else was doing. We were in fact 
doing less of it because if you look at how much we spent, all 
of these other cities spent that much more. The difficulty is 
how do we get to the bottom of this to make sure the intent is 
really to clean this up.
    I've got the red light and I understand, but I just want to 
end with the investigation that has occurred here in the U.S. 
We've had discussions with you and you've had discussions with 
us. You've been cooperative in trying to get to the bottom of 
this. But the other thing that troubles me is that in pursuing 
this, we have been told, staff had been alluded to the fact 
that the United States is going to pay a price for the pressure 
that we have put on the IOC and our attempts to clean it up. We 
have heard some say that because the U.S. is so aggressively 
pushing reforms in the International Olympic Committee, that it 
could be decades before a United States city sees another 
Olympics. Whether that would be something planned or not or 
whether that would be the other members of the IOC would simply 
say, look, on our own, doesn't have to be any great plan or any 
correlation of plans but just say, look, we're not going to 
vote for the U.S. if they're going to put us through all this. 
We had a good thing going. We got to travel for free. We got 
medical supplies for free. We got gifts. We got watches. We had 
champagne, shopping trips. Our wives didn't have to pay for it. 
We traveled all over the world.
    We went where we wanted to. We had the use of houses, 
condominiums and now the stupid people in the United States are 
causing things to end. Why is the U.S. having to do all the 
dirty work? Where was everybody else in cleaning up all of 
this? What is going to occur? How are you going to convince us 
you really want to get to the bottom of this?
    Mr. Carrard. I can assure you, Congressman, we want this 
thing solved and fundamentally reformed. And the U.S. is a 
major constituent in the Olympic movement. The Olympic movement 
is universal and certainly it is our aim to get this done, 
clean the house, and get on with the Olympic movement in a 
universal way.
    Mr. Klink. Where was everyone else? Why are we doing the 
heavy lifting here? Why do we have to be the bad people of the 
International Olympic Committee? Where has every one else been? 
Where have your people been? You just can't have not been 
realizing there was a problem. Someone had to know all of these 
things was going on. Leverage can't be the only thing. 
Certainly leverage is the press. You go to the press, the best 
antiseptic is sunlight. And you go to the press, you say this 
is what's going on. It's a stacked deck. This is the way 
they're doing business. This is not the way the world views the 
Olympic Games. Amateur competition among athletes. It's not 
over tens of millions of dollars in gifts.
    Why did it take us to get to the bottom of it? And why are 
we the bad people. I still haven't heard why the rest of the 
world hasn't repudiated this activity over the decades it has 
been going on.
    Mr. Carrard. Congressman, I cannot speak for the rest of 
the world because I don't represent them. I can say that as 
soon as we had for the first time, thanks to the United States, 
thanks to your power of investigation and your laws, the first 
evidence which came from Salt Lake City which was about in 
1998, we immediately acted and since then we have been acting 
non-stop.
    Mr. Klink. First evidence was 1991. This is a report and I 
have no evidence of anyone did anything about it.
    Mr. Carrard. There was no name of any member of the IOC. 
What we have been trying, Congressman, was to obtain names. 
We've been trying to obtain evidence. The cities file a report 
like Toronto but when we were asking please bring evidence, 
please give me a witness, please give me a name----
    Mr. Klink. There are three names on the front of this 
report. You're telling us Mr. Henderson, Mr. Eagleton and Mr. 
Seagram wouldn't give you the names of the people who did this?
    Mr. Carrard. That's exactly accurate, Mr. Congressman, and 
no city ever wanted to give us a name. It's one thing to have 
rumors and allegations. It's another thing, and that was our 
difficulty, was to secure evidence.
    Mr. Klink. I think, Mr. Chairman, I might suggest to you we 
attempt to see if we can get some cooperation from the people 
who signed this report.
    Mr. Upton. Thank you. Mr. Burr.
    Mr. Burr. Mr. Carrard, we're not here talking about rumors 
or innuendos here today. We're talking about things that are 
substantiated that do have names and do bring credibility to 
the Toronto report, at least in the spirit of how that report 
was written.
    Ms. DeFrantz, let me ask you what exists today that would 
in these proposals that we've been given that won't allow 
anything like this to happen in the future?
    Ms. DeFrantz. Several things exist. Well, actually December 
11 and 12 will be finalized but what exists today is the 
proposals that will go to the session that No. 1, when a city 
is proposed by a National Olympic Committee before it can 
declare itself a candidate city, they will have to be accepted. 
In other words, they will have to show they have the technical 
capability now or feasibly within the 7-year period.
    Mr. Burr. That in some way assures us that there's no 
violation of the gift rules?
    Ms. DeFrantz. I'm getting to that, sir.
    Mr.  Burr. Would you get there quickly, please.
    Ms.  DeFrantz. I will. We will make certain that only the 
evaluation commission goes to visit the cities. We will have a 
contract with the bidding city, the National Olympic Committee 
and the city that is bidding with the IOC, assuring that they 
understand they're under the code of ethics and subject to 
actions by the Ethics Commission, and that is a significant 
difference. Before we had no leverage. There was no mechanism. 
There will be a mechanism so no city can be a bidding city 
without entering into a contractual agreement, which will 
ensure that they'll abide by our code of ethics. We also have 
changed the process so there won't be the travel and there 
won't be the gifts.
    Mr. Burr. Let me ask Mr. Carrard, an IOC spokesperson in 
September is quoted as saying Atlanta pushed those favors and 
gifts on IOC members under the pretext of friendship and the 
delegates were not used to the systematic approach of lobbying. 
Were you that IOC spokesperson?
    Mr. Carrard. No, sir.
    Mr. Burr. Do you know who it was?
    Mr. Carrard. No, sir.
    Mr. Burr. Do you believe that Atlanta pushed those gifts 
and favors on IOC members?
    Mr. Carrard. Sir, I think the best answer we have today was 
given by Ambassador Young on exactly what happened at that 
time.
    Mr. Burr. I'm asking you do you think as the IOC--excuse me 
for not knowing your title--executive director--Director 
General, excuse me, do you believe that Atlanta pushed favors 
and gifts on IOC members?
    Mr. Carrard. I didn't follow myself the Atlanta campaign 
because at the time I was rather new shortly before the vote. I 
never went to Atlanta before the vote.
    Mr. Klink. Would the gentleman yield.
    Mr. Burr. I would be happy to yield.
    Mr. Klink. I have a news article in front of me. The IOC 
spokesperson Franklin Schriver, it's in the second paragraph if 
you're referring to that news article.
    Mr. Burr. Do you know a Franklin Schriver?
    Mr. Carrard. Yes, of course.
    Mr. Burr. Did he work for the IOC?
    Mr. Carrard. Yes.
    Mr. Burr. Does he still work for the IOC?
    Mr. Carrard. Yes.
    Mr. Burr. He believes Atlanta pushed the favors and the 
gifts on IOC members.
    Mr. Carrard. Well, he started working with us last year so 
he wasn't there either.
    Mr. Burr. Let me ask, Ms. DeFrantz, you were involved in 
the Atlanta process, weren't you?
    Ms. DeFrantz. Yes. I live in Los Angeles but as a member of 
the IOC in the U.S., I was supportive of the USOC's interest in 
yet again hosting the games----
    Mr. Burr. Did you ever see anything on Atlanta's part that 
would have broken in the spirit or the letter the gift ban or 
the gift rule of the IOC?
    Ms. DeFrantz. I did not see the gifts----
    Mr. Burr. Did you hear about it?
    Ms. DeFrantz. I did not hear about it. I was advised from 
time to time by the bid committee of who might be coming to 
town as they asked me if I could be there but the list of gifts 
was not shared with me.
    Mr. Burr. Did you ever see Salt Lake City break the gift 
rule of the IOC?
    Ms. DeFrantz. During their very first bid, I noticed that 
they were given a jacket which to me seemed a tad--looked like 
it might be more than $200 worth of jacket and I asked them 
were they abiding by the rules and the response was yes, they 
bought them in bulk and they were significantly less than $200.
    Mr. Burr. But other than the jacket, there was never an 
indication that you saw as an IOC member that Atlanta or Salt 
Lake City was working out of the guidelines or the rules of the 
IOC?
    Ms. DeFrantz. Not in my purview, sir.
    Mr. Burr. I would take for granted from that that you've 
never expressed to the IOC of any violation that existed by 
either of those two bidders or any other city that you've been 
involved in the bid process?
    Ms. DeFrantz. When on occasion for example--actually, we 
were in meeting--I can't remember where now. But in my room 
arrived something that seemed to me beyond the rule. I took 
that item down to the office which was then in place of 
coordination of bids. The IOC started a process to coordinate 
the bids. That happened in the middle 90's. By the way, this 
visiting process is rather new. It started in the late 80's so 
it hasn't been decades. And that also gives me great hope----
    Mr. Klink. Will my friend yield for a moment.
    Mr. Burr. I'd be happy to.
    Mr. Klink. Your question gets to where I was headed with 
this. In a February 1, 1999 article I think the majority has it 
if you don't we'll share it with you. It talks about the 
excessive gifts during Nagano and Salt Lake City. It says all 
members have been lavished with extravagant last minute gifts 
from the various bid cities. Expensive Italian luggage, Stetson 
hats, hand blown glassware, laptop computers, enough stuff that 
the IOC set up a parcel post station in the hotel to make it 
easier for delegates to send their booty home. My question is, 
why didn't somebody see it?
    Mr. Burr. You never saw that, Mr. Carrard?
    Mr. Carrard. I beg your pardon?
    Mr. Burr. Mr. Carrard, did you ever see what Mr. Klink just 
reported?
    Mr. Carrard. The parcels, I know exactly what it's all 
about. It is customary at the end of an IOC session of the 
Olympic Games which has for a long time, they get a lot of 
material, they get a lot of documents. They have their thick 
files and things like that. They also ask to have some special 
parcels for----
    Mr. Burr. Mr. Easton entered into the record this IOC code 
of ethics. Is this the new code of ethics?
    Mr. Carrard. Absolutely.
    Mr. Burr. With indulgence, Mr. Chairman, I just ask for a 
clarification. Under integrity, I'll read No. 2, only gifts of 
nominal value in accordance with prevailing local customs. 
Could one of you define nominal value or what prevailing local 
customs might give us a yardstick as to how to follow what the 
guideline is?
    Ms. DeFrantz. Certainly in this House I think, as was said, 
a cap and a T-shirt in this country would work but we would 
leave that to the Ethics Commission.
    Mr. Burr. In South Africa, would that include diamonds? I 
don't ask it to be a joke. Mr. Young said earlier he couldn't 
compete with diamonds and furs. Therefore, I think somebody 
must have supplied those before.
    Mr. Carrard. With your permission, Congressman, the code of 
ethics you're referring to is new and has been operated by the 
Ethics Commission and you will I think hear Senator Baker, who 
is a member, and they interpret their own rules. We don't.
    Mr. Upton. The gentleman's time has expired. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. Prevailing local 
custom is a very unusual term to use when the prevailing custom 
of IOC members was to take lavish gifts. I wonder if we're 
going to have this kind of interpretation of those words. I say 
that facetiously, not as a question.
    Mr. Carrard, I was amazed at your testimony a minute ago 
where you said thanks to the Congress, thanks to the 
investigations of Salt Lake City, we now know about these kinds 
of practices. How could you not have known about these 
practices? This is like the scene from Casablanca when the man 
comes out and says gambling here in this establishment? How 
could you not know? There are stories with people coming with 
three empty suitcases and leaving with them full. How could you 
not know?
    Mr. Carrard. There were three steps, Congressman. First and 
foremost, I would say at the end of your 80's, we were 
concerned only with trying to keep the amount of the expenses 
made by the candidate cities to reasonable figures because we 
figured out we had 10 candidates for instance, nine were going 
to lose. Nine out of 10 we knew that and we said, please, 
please do not spend too much. They were the most eager to 
spend. It was their own money. Sometimes they were rich. 
Sometimes they were poor. At that time we were not concerned 
about the IOC members at the beginning. I'm just explaining the 
chronology.
    Second steps, Congressman, there began to be rumors, rumors 
in the media, rumors in the press. We started looking for 
evidence because the IOC members are, as I said, 103 totally 
independent persons, unpaid. They're volunteers. They are not 
under contract and this is going to be changing with the 
reform, but they are absolutely not accountable, they were not 
accounting to anybody but their own conscience.
    Mr. Waxman. I only have a limited amount of time. You 
really didn't answer my question. But I'm going to ask the 
questions and I'd like an answer if I can get them. Because it 
seems to me you don't need an investigation in the United 
States to recognize that what was going on were bribes. Now, 
maybe it just became the prevailing custom--obviously it became 
the prevailing custom and that's what has gotten us so 
disturbed.
    I just have to say this to everybody. In reading these 
reports, I've become so disturbed about what's going on in the 
Olympics that I introduced a bill saying that American 
corporations also ought to be prohibited from putting any money 
into the IOC until the Mitchell reforms are in fact enacted. 
And I don't agree with Congressman Bob Barr. You may not 
appreciate this but the Americans who follow politics will know 
that he and I are not particularly on the same wavelength 
politically, but he has joined me on this legislation and I'm 
convinced that if the IOC does not adopt those Mitchell reforms 
in December, the Congress is not going to have any patience any 
longer to leave the IOC to reform itself.
    I want to ask Ms. DeFrantz and Mr. Easton, you're Americans 
on this panel. Do you agree with the fact that the Congress of 
the United States should act if the IOC is not going to take 
responsibility to end this culture that they've developed?
    Ms. DeFrantz. Well, as a constituent of yours in southern 
California, I live in Santa Monica, I'm pleased to tell you 
that I don't think you're going to have to worry about that we 
are going to reform. We're going to make this happen. We 
understand fully that we have a responsibility to the athletes 
of the world and we will make it happen.
    Mr. Waxman. Mr. Easton?
    Mr. Easton. Well, I agree with Anita but I also think that 
participating in the Olympic Games is voluntary. If we were to 
pass a bill that no Americans can participate in the Olympic 
Games, that would solve the problems also. But I don't think 
that's what we want to do. What we want to do is try to reform 
what we have, make it better, and I think we are heading in 
that direction and we will be there. I don't think we need any 
other incentives to do so.
    Mr. Waxman. I want to tell you I think that's a really 
insulting answer that you've just given me. We don't do 
anything that would affect the athletes. What we do is we say 
to the IOC they no longer will have all the revenues they get 
from American corporations, including our networks. And I think 
that's the money that subsidized the lifestyle of Mr. Samaranch 
and some of the others at the IOC in addition to the booty that 
they've been able to collect every time a city wants to try to 
attract the Olympics to be held in their site.
    My time is up. I want to put this on the table: You already 
had a gift limit, and that was never enforced. I want to be 
sure that if the IOC is going to make some changes in December, 
that there is an enforcement mechanism, because rules that are 
not enforced or ethics committees that don't act independently 
to make sure that the rules are obeyed, become fairly 
meaningless. I don't think the American people are going to 
tolerate that kind of sham, if that is later called a reform 
that doesn't really get enforced.
    Thank you very much, Mr. Chairman.
    Mr. Upton. We will continue. Again, we have votes on the 
House floor. We will come back at 3 o'clock.
    [Brief recess.]
    Mr. Upton. We will get started again.
    I know Mr. Strickland has some questions, but I think I 
will start. Ms. DeFrantz, I wanted to go back to my question I 
ended on in the first round, and that was you indicated that 
you were never approached with gifts. Were you aware of other 
members that were approached of the IOC with gifts exceeding 
$200? Did you ever hear any stories from any of your peers?
    Ms. DeFrantz. Did I ever hear any stories from my peers? 
No, they didn't tell me. No.
    Mr. Upton. You mentioned in your testimony a little bit 
earlier to another member, I don't remember which one it was, I 
think you indicated that you thought that you had received a 
gift, you didn't describe it, and you sent it away. Can you 
tell what that gift was?
    Ms. DeFrantz. Sure. It was a briefcase which appeared to me 
to be close to $200 limit, and I simply turned it in to the 
coordination office of the bidding cities.
    Mr. Upton. Based on your testimony, Mr. Easton, you were 
not aware either of other members of the IOC being approached 
with offers of gifts, is that true?
    Mr. Easton. I never heard of any excessive gift offers to 
any IOC member. I am not sure I would have. I continue to think 
if they were doing something that was improper, it would not 
have been very public.
    Mr. Upton. So would you say then when the Salt Lake City 
report came out detailing a number of abuses, that that was the 
first you had heard of that?
    Mr. Easton. I was very surprised. It was the first I heard 
of that.
    Mr. Upton. Ms. DeFrantz, in your testimony that you gave 
before Senator McCain's committee earlier this year, I think 
you testified that it was--that you agreed with the comments 
made by the Mitchell-Duberstein report that there was a culture 
of corruption. At what point did you think--was it the 
initiation of that report that brought you to that conclusion, 
or were there events in earlier years that began to lead you to 
that conclusion?
    Ms. DeFrantz. Mr. Chairman, I think I said there was at 
least a sub-culture of corruption. Not everyone was corrupt. I 
do not consider myself to be corrupt.
    Mr. Upton. I am certainly not casting any bad finger at 
you.
    Ms. DeFrantz. Thank you, sir. Overtime, with memos from the 
directorate saying to the bidding cities we want to make sure 
that you abide by the rules, that was the regulations, that was 
the indication to me. The cities in the United States did not 
show me the list of things they were doing. They asked me to 
come and support them, which I did when I had the time, but I 
sadly was not privy to the things that they did.
    When someone offered a gift, the rules were the gift being 
offered should not be of more than $200 of value, and that was 
my understanding of the way they should comport themselves. All 
of the bidding cities.
    Mr. Upton. What is your estimate as to--you are a member of 
the reform committee that will be voting later this month. What 
is your sense of where the votes are? Will it pass or fail?
    Ms. DeFrantz. I believe it will pass, and I am going to 
work very hard to make sure that it will pass.
    Mr. Upton. Mr. Easton, you are not a member of the reform 
committee, as I understand it, but you will be voting in 
December, is that correct?
    Mr. Easton. That is correct.
    Mr. Upton. And if the reform, assuming that Ms. DeFrantz is 
correct and the vote passes in the reform committee, do you 
think that there will be sufficient votes to pass it by a two-
thirds vote as required?
    Mr. Easton. I think there will be, and I think a lot of us 
are going to be working and talking to our colleagues to try to 
convince them, those that are not already in favor of it.
    Mr. Upton. Mr. Carrard, would you share the predictions by 
these two members, both in terms of the committee and assuming 
that that takes place, that it would pass in December?
    Mr. Carrard. I stopped making predictions, but I work very 
hard to make this reform pass.
    Mr. Upton. Okay. What is the penalty for those that violate 
the gift rule in the future? I know that a new ethics committee 
is established, I think it will be led by Senator Howard Baker. 
He certainly will be a member of that panel.
    What is, as there are tough sanctions, as there should be, 
for Members of Congress when they violate ethics rules, one of 
the things that has come out in the testimony today is that 
before there was a $200 threshold, there really wasn't a 
penalty that was sanctioned. What will the sanction be if and 
when someone violates that new threshold? Can anybody tell me?
    Ms. DeFrantz. We will have--of course, any violation will 
be turned to the ethics commission on which Senator Baker does 
serve. The scale of sanctions is anything from a reprimand all 
the way up to expulsion, just as was the case this last year. 
We have one member at present who is still a member, but has 
been stripped of all his responsibilities as a member, save 
coming to the session. So there is a range of possibilities, 
including expulsion.
    Mr. Upton. Will that member be able to vote in December?
    Ms. DeFrantz. Yes.
    Mr. Upton. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. Mr. Carrard, 
according to your testimony, the IOC recently sent a letter to 
the OECD asking that the IOC be covered by the organization's 
anti-corruption convention. To your knowledge, has OECD 
responded to the IOC and has there been any progress in this 
matter?
    Mr. Carrard. Not yet to my knowledge, Congressman, but this 
letter is very recent, I think it is September 24, to be 
specific, and we certainly hope that we will get a favorable 
response.
    The question, if I dare say so, which was not as easy maybe 
to raise, that is why it took some time, is that we are not an 
international governmental organization. We are a non-
governmental organization. That creates--we are in a situation 
which is not classical, so-to-speak.
    We are referring, and this was suggested to us by Senator 
Mitchell and Mr. Duberstein, we are asking for the same 
treatment as the Red Cross from OECD. We hope to have a 
favorable response and we are following up on that closely.
    Mr. Strickland. Thank you. In your judgment, sir, how will 
the IOC respond to the King & Spaulding report?
    Mr. Carrard. In which sense? I am not sure I understand the 
question, Congressman. How would we respond?
    Mr. Strickland. Yes. Will the IOC respond to the King & 
Spaulding report?
    Mr. Carrard. Yes, I am sorry. The IOC immediately passed on 
the King & Spaulding report made by Judge Bell to the ethics 
commission, and now this report is in the hands of the ethics 
commission. And let me be clear, I don't even know what they 
are doing, because they are totally independent in the sense 
there is a majority of outsiders, like Senator Baker and other 
leading personalities. They are dealing with it. They will take 
whatever action they think is fit and appropriate. They have 
the means to investigate, and they will make whatever 
recommendations at the end which they feel appropriate. But I 
don't know what they are doing with it. They don't tell me. 
That is proper.
    Mr. Strickland. Okay. One other question, and then I have a 
question that I would like to address to all three panelists.
    Mr. Carrard, if the IOC felt it was important to examine 
what happened in Salt Lake City and in Atlanta, to gain lessons 
learned that can be used to improve, does the IOC intend to 
also examine activities which may have surrounded bids by 
Athens and Sidney and perhaps other cities, or do you know the 
answer to that question?
    Mr. Carrard. Congressman, from the moment we knew of what 
occurred in Salt Lake City, we did ask from every national bid 
committee involved with any bid for, I don't remember, as many 
years as possible, I think we were--we touched at least 36, if 
my recollection is accurate, or if not more bids. We asked for 
a report. We have asked for facts. We have asked for evidence.
    We did receive answers I think from all of them. We 
received a couple of reports where I would say there was some 
minor flaws, but nothing substantial, including, I must say, 
the first report, the first answer from Atlanta.
    Mr. Strickland. A question I would like to ask all three of 
you for your personal opinions. If a level of corruption has 
existed at a certain level within the IOC regarding the cities 
that are trying to attract the games and so on, is it 
reasonable for us to be concerned that that atmosphere or 
attitude which could be referred to as corruption or ethical 
breaches, or there may be other ways to describe it, could also 
affect the actual games themselves and the way the athletes are 
able to participate?
    Is there reason to be concerned that the games themselves 
are influenced by unethical or questionable behavior on the 
part of the IOC? That is a judgment that I am asking you to 
give me.
    Mr. Carrard. I think I would first like to hear my vice 
president, which is an athlete and who is an Olympian.
    Ms. DeFrantz. The answer would be no. I can tell you when I 
first competed, after practice 1 day one of my teammates said 
if we win a medal we will get it from the Lord. I said well, 
yes, divine providence is very good to have. She said no, you 
nitwit, the President of the IOC, the Lord Callahan. As an 
athlete, you really don't care about the IOC, you care about an 
opportunity to compete. The International Federation, the rules 
of the federation are what are in place during the time of the 
games. The IOC selects a city. The organizing committee 
organizes it, provides the venues, provides them with someplace 
to work, gets the athletes to the venues and the actual conduct 
of the sporting event is under the rules of the International 
Federation.
    So what is happening with the IOC is something we are 
ashamed of, but we are fixing, we have gotten fixed. We have 
changed the way we selected the 2006 site of the games. We have 
an ethics commission in place, and I am absolutely certain that 
the athletes who are training understand that their chances to 
compete in Sidney are going to be fair and safe.
    Mr. Strickland. Is that something that you would like to 
speak to, Mr. Easton?
    Mr. Easton. Just to embellish that a little bit. As the 
president of an international sports federation, we do control 
the competitions, so if you are concerned, and I think it is a 
valid concern that you can have with this thing by what you 
have heard so far, that is totally out of the hands of the IOC. 
It is in the hands of the individual sports federations who 
supply the judges and who supply the rules and who really 
oversee action of the athletes on the field.
    Mr. Strickland. Thank you. That is reassuring. Thank you 
very much.
    Mr. Upton. Mr. Klink.
    Mr. Klink. Thank you. Again, the problem here with having 
other countries do investigations and counting on them is, 
Nagano, what they did was get rid of the records. They cleaned 
up everything by burning it. The question is what, and why the 
IOC didn't take some action.
    I want to tell you, I talked just briefly a few moments 
ago, I want to get back to this 1991 report, that I understand, 
I have looked through it, it does not have names in it. Go back 
to the Sports Illustrated article. Sports Illustrated, a pretty 
widely read magazine. I would imagine people in the Olympic 
community were aware of this article, talking about the tactics 
of Olympic bidders, varies somewhat, but they are never very 
subtle. The most popular strategy is to simply shower everyone 
on the IOC with gifts, trips and parties. IOC. I am sorry, I 
get a little confused this late in the day, Mr. Chairman. Thank 
you for babysitting me.
    Continuing, no city did better in this area than Paris. 
Whenever an IOC--IOC member--I did it again--felt they needed a 
vacation in Paris for a while, they were instantly sent airline 
tickets and given a free room in the Eliont Hotel and reserved 
tables at these restaurants. Bills were paid in advance. 
Members traveled everywhere in limousines, sometimes with a 
police escort. Given perfume, raincoats, jogging suits, 
discounts at some of Paris' finest shops.
    I would think that somebody in the IOC would have read 
that, would have wanted to. Even if you--maybe I need to go to 
Mr. Carrard on this. Even if you didn't know the names of the 
people who were doing this, doesn't it bring up the question of 
what kind of systems you have in place to make sure that this 
doesn't occur? And when you see the 1991 report, you have to 
assume that there is some credibility here again.
    It talks about members obtaining airline tickets from local 
sources at sometimes discount prices, then demanding hard 
currency in return for the unused first class passes. Obtaining 
combination air tickets to several cities on a single trip and 
demanding cash equal to return first class tickets between 
their countries and in each bid city. Demanding and receiving 
full fare tickets, failing to arrive and cashing in those 
tickets. Coupling a trip paid by a bid city with a trip to a 
session paid by the IOC and converting the city's passes to 
cash.
    It says it is our estimate that all of the aforegoing 
abuses associated with the IOC members' visits, talking about 
the Toronto committee, may have cost between $700,000 and 
$800,000 in 1991.
    Given the published reports in Sports Illustrated, given 
this report given you by the city of Toronto, we don't know 
what else was out there. Wasn't there at least something that 
occurred between the late 1980's when this article in Sports 
Illustrated was there, the early nineties when this report was 
made, that you said at the IOC we want to put a system in place 
where we have checks and balances. Let us check our system to 
see if IOC members are able to cash in plane tickets, if they 
are receiving all these lavish gifts.
    Why does it fall upon us to cause some action to occur?
    The second part of that question is how do we know that you 
are really going to follow through if we are not looking? If 
you didn't fix it when we didn't know it was going on, and 
there is every evidence that a lot of people at IOC did, how do 
we know you will when we are not looking that you are going to 
do something now?
    Mr. Carrard. Well, to the first part of your question, 
Congressman, late eighties, as I said earlier, there was a 
concern of an escalation of expenses by all the candidate 
cities, and there was the desire to put them on an equal 
footing, and you must understand that when we are dealing with 
the candidate cities, they all got together with us to discuss 
the whole process. They discussed the whole process with us, 
and at the same time we tell them, look, we don't want these 
expenditures, and they also attended, and that is where I 
confess we failed, to police each other, because we always tell 
them, these are the instructions which you are getting and for 
which you sought on this limitation of expenses. We expect you 
to tell us if anything goes wrong. We were also counting to a 
certain degree to one city saying the other city is 
misbehaving. We have seen a little bit of that, but too late.
    We started with that in the late eighties. We tried, for 
instance, to put in place a system under which we would control 
all the tickets issuing for any visits of members. These 
instructions were aimed at members making one visit to prepare 
their vote.
    We had everybody complaining, these cities. Everybody said 
it doesn't work because they had free tickets from their 
sponsors which they wanted to use and reduce their cost, and it 
was practically extremely difficult, I must say. I am not 
saying we were successful. I am not saying we did all what we 
should have done, because in retrospect we see what happened.
    But what I can tell you, this is the second part of your 
question, Congressman, is that the mechanism which is now being 
put in place, the first immediate decision, immediate decision 
which was taken, was no trips, no gifts. This was the first 
reaction of our President, Mr. Samaranch, because a lot of 
these problems are linked with the traveling and the 
hospitality and the lavishness on the exchanges of these 
visits.
    This was the first step taken. Again, with an independent 
ethics commission working fully independently as described 
earlier, with authority to take swift and hard actions with new 
sanctions voted, I think we can reasonably say we are committed 
to succeed.
    Mr. Klink. Ms. DeFrantz, I have to say you have risen to a 
very strong position within the IOC, and it seems absolutely--
you seem like a very nice person, but it seems incredible to me 
you have been with the Olympic movement all this time, the 
published report was out, this stuff was out, and you come 
before the committee today and say you didn't know any of this 
stuff was going on. If the IOC does not vote for reforms, 
should Congress then take direct action?
    Ms. DeFrantz. Well, let me say that we expelled 10 members 
and they were the 10 members who were doing the wrongdoing. We 
sanctioned 10 more, and we are looking at them and all their 
activities for the future will be under a microscope. Should 
Congress take action, programs. I don't know what action you 
would intend to take, so it is hard for me to say yes. I 
believe that the IOC will do what needs to be done. I honestly 
believe that, and I am going to work every moment of December 
10, 11, and 12 to make sure that that happens.
    Mr. Klink. I thank the chairman.
    Mr. Upton. Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman. I apologize once 
again for being in and out, but I did--you may have already 
covered this, but I want to ask Mr. Carrard a question or two 
if I could.
    Mr. Carrard, you are the Director General of the IOC, and 
in that position I am assuming it is your responsibility, you 
are maybe the chief executive officer. Could you explain what 
your responsibilities are?
    Mr. Carrard. It is somehow comparable to chief executive 
officer.
    Mr. Whitfield. Good. I know that as a result of the 
revelations, some of the revelations at Salt Lake City and 
Atlanta, that the IOC has taken some action to address some of 
these concerns.
    Would you expand on that a little bit? Perhaps you have 
already covered it, but the IOC has taken some action already, 
is that correct? Or is that not correct?
    Mr. Carrard. Oh, yes, indeed, Congressman. As soon as we 
had the evidence, as I said, which was about late November of--
I think late November, the first action was to order a full 
investigation, because we had evidence. We immediately 
appointed an ad hoc commission to investigate all files of the 
members, because we were getting at last files. We were getting 
the files on the members, on the figures, on the behaviors and 
the patterns. Because in the United States everything is a 
matter of public record and you have laws which allow that, 
which is not the case in most of the rest of the world where 
these actions are not illegal or not even alleged to be 
illegal. They are wrong, but they are not illegal and we have 
no authority. We are not a government. We have no power. The 
judges would not act on our request.
    We immediately appointed our ad hoc commission which in 
less than 3 months, and there was a holiday season to exchange 
the files, as the Vice President recalled now, it led to the 
departure of 10 members, 6 expelled, 4 resigned, and more 
sanctions on 10 members.
    Immediately it was said no more visits and trips for the 
ongoing campaign, 2006. This was effective immediately. And in 
March we had an extraordinary session. At that time the 2000 
commission for reform was put in place, the ethics commission 
was put in place, independent, as I said, with the senior 
outsiders to control the process, a code of ethics was voted by 
our session in June, and the process is going on. The schedule 
was set by the President to end up on December 11 and 12 with 
an extraordinary session.
    So we have been acting nonstop since then.
    Mr. Whitfield. And did you say that 10 members, or 20 
members were either sanctioned or dismissed from the IOC, is 
that correct?
    Mr. Carrard. Ten members left the IOC, that is to say 6 
were expelled by decision of their peers where they had to 
present their case, 4 resigned in anticipation of most likely 
exclusion, and 10 others got other sanctions like warnings, 
reprimands, and, as Ms. DeFrantz said, are under control.
    Mr. Whitfield. The 2000 committee, who appointed members to 
that committee?
    Mr. Carrard. The 2000, IOC 2000 Commission, is a vast 
commission composed of 80 members, 40 of them IOC members, and 
40 others being outsiders who are contributing and helping the 
Olympic movement by their highly welcome participation. I see 
Henry Kissinger is one of them, just entered now.
    It is a broad commission which is studying all the reform 
processes divided into three working groups, one dealing with 
the structures, the other with the activities, and its third 
one with the reform of the bidding process of the candidate 
cities.
    That is the commission, with half of its members being 
outsiders, that will discuss the very many proposals for 
further reforms on October 30 and 31, and these proposals will 
then have to be submitted to final approval by an extraordinary 
IOC session in December.
    Mr. Whitfield. The IOC is not bound in any way to implement 
these recommendations, but I am assuming that they would be 
considered seriously and many of them would probably be 
adopted.
    Mr. Carrard. Congressman, you can be sure they will be 
considered very seriously, and we are all working toward that.
    Mr. Whitfield. Thank you.
    Mr. Upton. Thank you, Mr. Whitfield. I have a couple more 
questions before we move to panel 3. Mr. Carrard, it is my 
understanding that you and Mr. Samaranch sent a letter back in 
1990 to all of the cities competing in bids that they--a 
reminder that they should follow the rules. Do you remember 
that letter?
    Mr. Carrard. Is there any way I could see it?
    Mr. Upton. I will have someone bring it down to you. I will 
come back to this question.
    Mr. Carrard. I am sure there have been many letters.
    Mr. Upton. I want you to look at the letter and get a 
response. Are you satisfied that the reforms before the reform 
committee and those that will then hopefully be taken up by the 
full IOC will satisfy this--listening to the hearing this 
afternoon and this morning, are you convinced that if those 
reforms are adopted, that in fact that will satisfy all if not 
most of the concerns raised by members on this subcommittee?
    Mr. Carrard. I believe so, Mr. Chairman. Let us never 
forget there is human nature.
    Mr. Upton. I will let you look at that and come back to you 
in just a second.
    Ms. DeFrantz, when you appeared before Mr. McCain's 
committee in the Senate in the spring, an individual by the 
name of Mr. Jennings, an author who wrote the Lord of the Rings 
book, testified, and he says it had been a cultural fear that 
they could not get the Olympic games in the future if they told 
the truths that they knew, somewhat going back to the report 
perhaps that the folks in Canada had written.
    Do you feel that our actions here have been helpful in 
pushing the reform process forward and to adopting necessary 
reforms that are needed?
    Ms. DeFrantz. I think it is very important to talk about 
these issues, and especially in this country it is very 
important to better understand how the Olympic movement worked, 
how it has worked in the past, and what we intend to do to make 
sure it is strong in the future for the athletes. So, yes, sir.
    Mr. Upton. One of the things that he wrote about in his 
book, he talked about some boxing matches in Seoul, and I 
remember those well as a TV viewer, the fact that I felt our 
country was not--did not receive the medals that they should 
based on the performance of the boxers. There was quite an 
outcry then. As I recall in his book, he references that and 
indicates that it is because of some penalty that the U.S. 
might have taken not on the athletic scene that brought about 
some of the decisions by those judges.
    Are you aware of that?
    Ms. DeFrantz. Actually, I am not.
    Mr. Upton. Have you read his book?
    Ms. DeFrantz. I read some of it. It became so--well, I read 
some of it. I will leave it at that.
    Mr. Upton. I may communicate with you. I may cite those 
chapters and ask for you to respond back. I might ask a follow-
up question. Have you heard because of our committee action 
today and inquiries that we made, is there any sense that in 
fact that same type of activity that I believe did happen in 
Seoul might happen in future Olympic games that would 
discriminate against our athletes?
    Ms. DeFrantz. I certainly hope not, Mr. Chairman, and I 
will work with my colleagues. I am a vice president of an 
international federation, so I understand that there is a 
difference between the IOC and how the various sports are run. 
I will tell you that in 1980, because we weren't there, rules 
were changed and the best example is that prior to 1980, you 
could have three swimmers from any one country. Of course, the 
United States was very, very strong in swimming. Because there 
was no presence of the United States during those games, rules 
were changed in the Congress of the international federation so 
there could be only two swimmers per country.
    If you were to step back and say that is better for the 
whole world, that means there is one more space because the 
U.S. wouldn't get three athletes, you could say that it was 
really an improvement for the entire world. But I believe that 
that was done as a bit of a punishment for the U.S. for trying 
to bring down the games in 1980.
    Mr. Upton. So you have not heard of any evidence at this 
point based on our committee action, you have heard it has only 
been constructive? Would that be a proper----
    Ms. DeFrantz. I am doing my best to make sure that if 
someone asks a question about what is happening in the United 
States, that is my answer. It is to make the Olympic movement 
stronger.
    Mr. Upton. I have one further question before I get back to 
Mr. Carrard with regard to that letter. I had heard a report, 
an allegation, that in Japan during the final selection vote 
process when Atlanta was awarded the city, and we heard 
testimony from the first panel that they had, I think it was 
Mr. Young indicated that Atlanta had spent $7 million on the 
games, but other cities had spent considerably more. I had 
heard a report that, I believe it was Greece, had prepared some 
rather lavish gifts for the members of the voting IOC that 
included a black pearl necklace, antique coin, diamond studded, 
done by one of the finest jewelers in the world.
    Were you aware of that gift that might have been presented 
to some of the members of the IOC at that time?
    Ms. DeFrantz. Mr. Chairman, in my case----
    Mr. Upton. I am not talking about your case, and I am not 
at all accusing you and have no reason to believe that you 
accepted such a gift or that it was even offered to you. My 
question is, were you aware that other members, not yourself, 
of the IOC may have been presented a gift of that nature, that 
certainly exceeded the $200 mark, and probably even the $10,000 
or $15,000?
    Ms. DeFrantz. Mr. Chairman, I was not present when any such 
gift was given to any----
    Mr. Upton. I don't doubt that answer. I wouldn't have 
expected you to be present. The question is, were you aware of 
any IOC member being given that type of gift? You didn't have 
to be present to have heard about it.
    Ms. DeFrantz. Well, sir, the rumors abounded, and rumors to 
me are just that. There were rumors, yes.
    Mr. Upton. Did you hear that rumor?
    Ms. DeFrantz. Well, yes, you heard rumors that every city 
was doing something.
    Mr. Upton. Did you hear about that specific lavish gift 
that may have been offered to members of the IOC?
    Ms. DeFrantz. No.
    Mr. Upton. Okay. Mr. Carrard, just a last question with 
regard to that letter. What might have prompted you to send 
that letter at that time?
    Mr. Carrard. Well, Mr. Chairman, I see the letter is April 
1990. I think we wanted--I am trying to recall, we were in 
Belgrade. In Belgrade we had an executive board meeting, I 
think, not a session.
    We were, and I was personally concerned, as I said again, 
by this escalation of expenses. At the time, to be absolutely 
candid, the concern was not misbehavior by IOC members, but 
keeping these costs down. And in my function, I have no 
authority over the IOC members, I knew of tricks. The classical 
trick was what, you prohibit the organization of a cocktail 
party to a candidate city. Then it comes back that the 
Ambassador of country X, Y, Z throws a lavish party and invites 
all IOC members. It is becoming insulting to refuse an 
invitation of the Ambassador. I knew very well that it was the 
reappearance of the party I had been trying to avoid. So again 
and again we were reminding the bidding cities of these 
practices, and that is the context in which, Mr. Chairman, that 
letter was sent, as far as I can remember, because it has been 
close to 10 years.
    Mr. Upton. I appreciate that. I just want to go back to my 
earlier question and Dr. Ganske is going to ask a quick 
question and we will move to panel 3. Apparently an L.A. Times 
story, Ms. DeFrantz, as you indicated you are from California, 
I don't know if you saw this, May 25, 1999, there was, and I 
quote here, ``recently calls,'' I guess this individual is from 
Australia, ``hit more trouble when his former wife said she 
received expensive jewelry in 1990 from a businessman connected 
with Athens' failed 1996 Olympic bid,'' that is the end of the 
quote, which would have been that opportunity in Japan. So you 
still have no--you are not aware of this at all until today?
    Ms. DeFrantz. I am sorry, sir, I thought you meant at the 
time. I was in fact a member of the executive board and we 
discussed the case, so I was aware of it in this year. But 
excuse me, I thought you meant at the time when people were 
visiting the cities which would have been for the 1996 games in 
1990.
    Mr. Upton. Did I accurately describe this gift of this 
necklace?
    Ms. DeFrantz. Well, the issue became did she receive the 
necklace and was it worth that much or not.
    Mr. Upton. And were other members offered a similar gift?
    Ms. DeFrantz. This question wasn't raised, sir. We were 
specifically looking at the case of Mr. Coles, and there was an 
allegation made by his former wife that she had indeed received 
these gifts and later it was found that in the divorce decree 
there was no indication of gifts of any value, so there was a 
question as to whether they were costume jewelry or not. So 
that discussion was all within this last year, sir.
    Mr. Upton. Dr. Ganske.
    Mr. Ganske. Thank you, Mr. Chairman. According to Atlanta's 
supplemental response to the committee, exhibit K, Mrs. 
Samaranch and a guest made a trip from Barcelona to Savannah, 
Georgia, and Charleston, South Carolina, from April 4 through 
April 8, 1990. According to Atlanta, the cost of the trip to 
them was more than $12,000.
    Mr. Carrard, were you Director General of the IOC in 1990?
    Mr. Carrard. Yes, sir.
    Mr. Ganske. Mr. Carrard, do you know who initiated this 
trip? Was it Atlanta, Mrs. Samaranch or IOC President 
Samaranch?
    Mr. Carrard. I don't know, because when Mr. Samaranch 
travels, it is his staff. He has his own staff and secretary, 
about three people. They take care of all of his scheduling, 
traveling. He receives numerous invitations all the time as IOC 
President, and I am not informed--I mean, I am informed. I see 
his schedule, particularly when I try to meet with him, but I 
am not at all involved in the scheduling or organization of his 
own traveling.
    Mr. Ganske. Do you know whether IOC President Samaranch was 
aware that Mrs. Samaranch and her friend took a trip at 
Atlanta's expense?
    Mr. Carrard. Congressman, I do not know it, but I would 
reasonably assume that he would know what his wife does.
    Mr. Ganske. But you were not aware?
    Mr. Carrard. No.
    Mr. Ganske. Did President Samaranch accompany his wife on 
that trip? Again you don't know.
    Mr. Carrard. I don't know. I heard what was said in the 
deposition here, and I assume----
    Mr. Ganske. The answer is no. Mr. Carrard, has Mrs. 
Samaranch or her friend ever been a member of the IOC?
    Mr. Carrard. No.
    Mr. Ganske. Well, if they were not IOC members and 
President Samaranch did not accompany them, in your opinion was 
this trip in violation of IOC rules in place in 1990?
    Mr. Carrard. No.
    Mr. Ganske. Why not?
    Mr. Carrard. Because the rules, which are instructions and 
guidelines, were established, and I confess they were badly 
written, absolutely, but were established with a clear target. 
It was to organize the trips of the members who wanted to visit 
candidate cities to make up their opinion to prepare their 
vote.
    Mr. Ganske. But she is not a member. You just testified she 
is not a member. So would it not be a violation if----
    Mr. Carrard. No, no, because--excuse me, these instructions 
were not concerning, and they should have said it very clearly, 
I would say two categories of people. There was the president 
and his wife, who was traveling constantly invited. He may go 
5, 6 times to a bidding city for other reasons, because he 
represents the Olympic movement, and he takes his wife or she 
represents him on a number of occasions. You had another 
category, you had members of the IOC in the candidate country 
who had to travel a lot back and forth.
    Mr. Ganske. Do you think it was appropriate for Mrs. 
Samaranch to make that trip at Atlanta's expense?
    Mr. Carrard. I don't know in which circumstances she was 
invited, because I wasn't involved at all in that, so I will 
not pass comment.
    Mr. Ganske. Would that be allowable under the rules you are 
considering instituting?
    Mr. Carrard. Excuse me?
    Mr. Ganske. Would that be allowable under the tightening of 
the rules that you are talking about?
    Mr. Carrard. We should ask the--as I said earlier----
    Mr. Ganske. Can spouses travel at the expense of a city?
    Mr. Carrard. I think Ms. DeFrantz knows more.
    Ms. DeFrantz. Yes, if I may, Congressman, the rules will--
the working group had two proposals, and the executive 
committee chose one of the two, and in neither proposal was 
anyone but the IOC member allowed to visit.
    Mr. Ganske. You are quite clear you are not going to allow 
that kind of behavior in the future? Is that right?
    Ms. DeFrantz. That is correct.
    Mr. Ganske. Why do you feel that way?
    Ms. DeFrantz. As a matter of fact, as I was preparing for 
this, as I was trying to find a document, a letter from Atlanta 
said we have finally been able to prevail upon Mrs. Samaranch 
to come and visit, we are quite excited and look forward to 
having her there. They clearly were working hard to get her 
there. She clearly decided, finally decided to come, and it is 
now an issue in a hearing before the U.S. Congress.
    Mr. Ganske. Mr. Carrard, are you aware of any other trips 
Mrs. Samaranch may have taken to cities bidding to host 
Olympics at the city's expense, and, if so, which cities?
    Mr. Carrard. No, I am not aware of it.
    Mr. Ganske. According to documents produced to the 
committee, Mrs. Samaranch's trip to Savannah and Charleston was 
at least 2 months in the making. Atlanta's organizers attempted 
to make sure all details were looked after. In one document, 
February 5, 1990 memo to the file by Billy Payne, it should be 
before you, and it should be in the book, Mr. Payne makes the 
following notes and instructions: ``Mrs. Samaranch does not 
like adhering to President Samaranch's very tight schedule and 
prefers to shop (line up a Saks and Lord & Taylor visit with 
the store managers and when she selects something, make them 
insist that it is on the house because she is such an important 
person, et cetera. Make it convincing by prior arrangement with 
the respective stores.''
    Now, I understand that that shopping trip did not take 
place, but clearly the intent to provide gifts that would have 
been in excess of rules for the IOC was there.
    Mrs. Samaranch wasn't even an IOC member, nor was President 
Samaranch with her. All of this planning to make Atlanta's bid 
look attractive. Atlanta was one of only three cities competing 
at this stage.
    Mr. Carrard, do you know of any instances where a city 
competing to host games provided gifts or travel in excess of 
IOC rules to Mrs. Samaranch?
    Mr. Carrard. I am not aware of it.
    Mr. Ganske. Only a month after Mrs. Samaranch and her 
guests traveled to Savannah and Charleston her husband, IOC 
President Samaranch, sent a letter to IOC members asking them 
to strictly adhere to IOC rules. Mr. Carrard, do you know if 
President Samaranch had a specific instance of an improper gift 
giving or traveling in mind when he wrote that letter?
    Mr. Carrard. Could I see that letter? It is in there? I am 
sorry.
    Mr. Ganske. Staff can probably provide you with the page 
number. It is coming right here behind you.
    Mr. Carrard. Thank you very much. Oh, yes, I know that 
letter.
    Mr. Ganske. Let me repeat my question. Do you know if 
President Samaranch had a specific instance of improper gift 
giving or travel in mind when he wrote that letter?
    Mr. Carrard. No, because do you have the reference on top 
of it, FCD, and it is my reference. This is typically the 
letter I was writing to the candidate cities to remind them of 
our desire to generally fight against escalation of costs. I am 
the author of this letter. That is my reference, and if you 
look at the first paragraph, it says as you remember, the 
escalation of costs incurred by candidate cities in connection 
with the preparation, promotion and presentation of bids for 
the Olympic games raised here, et cetera.
    Mr. Ganske. So you are asking us--you wrote the letter, is 
that in the first place?
    Mr. Carrard. I drafted it for the President. I wanted the 
President to remind the bidding cities that they had to comply 
with the then existing instructions.
    Mr. Ganske. So your concern was that the cities not have 
any additional expense.
    Mr. Carrard. The concern was placed to make sure that they 
were limiting the expenses, and, as I said earlier in an 
example, the concern, I am saying quite frankly, was not then 
about possible misbehavior by IOC members. But by the tricks I 
was alleging to the parties which were not allowed and 
organized by embassies and sometimes foreign governments and 
even the cities to curb the rule. That was the major concern.
    Mr. Ganske. Let's go back to my original series. At least 
today you think it would be unethical for the wife of the 
President, President Samaranch, to be traveling at the expense 
of potential host cities, and you are going to make sure that 
that doesn't happen in the future.
    Mr. Carrard. Certainly in nearly all cases I know, the IOC, 
if the wife of the President travels, picks up the bill.
    Mr. Ganske. I thank you.
    Mr. Upton. Thank you. Well, this completes our questions 
for you all. We appreciate your willingness to come. I just 
might note that members may have written questions for you as 
we did with the first panel. We would appreciate your 
timeliness in getting a response back. Just one thing I would 
like to add, we certainly appreciate Mr. Carrard, your coming 
again from overseas to be with us today. We look forward to 
your presence on December 15 with Mr. Samaranch. Though many of 
us here would have preferred that he would be here with you in 
early November so that we could help make sure that this vote 
comes out the right way, we surely expect that you will come 
back with good news, and if any message had to go back to Mr. 
Samaranch, I think it was well expressed, certainly by Mr. 
Waxman and others, that should this vote not happen, I think 
you can expect bipartisan legislation here to make sure that in 
fact we are successful in cleaning up the taint that we found 
from the Olympics in the past.
    We appreciate your willingness to cooperate and to be here 
with us again. Thank you very much. You are all excused.
    Our final panel will include two individuals, Dr. Henry 
Kissinger and Mr. Ken Duberstein. I would note that because of 
the length of the hearing, Senator Howard Baker was unable to 
remain with us for the day, but has agreed to come back when we 
reconvene on this topic on December 15.
    As both of you individuals know, this has been a 
longstanding tradition in this subcommittee to take testimony 
under oath. Do either of you have objection to that? Also under 
both House and committee rules, you are allowed to have 
counsel. Do either of you desire or did you bring counsel? 
Terrific. If you would both stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Upton. You are both under oath. Your testimony will be 
made complete in the record. We would like you, if you could, 
to summarize it in no more than 5 minutes or so, and this light 
will give you that time indication.
    Dr. Kissinger, welcome. It is a pleasure to have you here 
today.

    TESTIMONY OF HENRY KISSINGER; AND KENNETH M. DUBERSTEIN

    Mr. Kissinger. Mr. Chairman----
    Mr. Upton. If you might bring the mike just a little 
closer.
    Mr. Kissinger. Mr. Chairman and members, I only returned 
from Europe last evening, so I did not have time to prepare a 
formal statement. If you will forgive me, therefore, if I talk 
more or less extemporaneously. Also if I keep to 5 minutes, you 
can all say you were present at an historic occasion.
    Mr. Upton. Go ahead.
    Mr. Kissinger. Mr. Chairman, my relationship to the IOC is 
of very recent vintage. I am a sports fan and I read about it 
in the newspapers and I read all the accounts that brought you 
here, but I have no personal knowledge of any of the events 
that I have read about and some of which I heard while I was 
waiting to testify.
    I was asked to join the Forum 2000 for the purpose of 
reforming the IOC and the operation of the Olympics. In order 
to do this, I talked to individuals whom I greatly respect who 
had studied some of these issues, like my colleague here, Ken 
Duberstein, Senator Mitchell, Donald Fehr, who were members of 
the Mitchell committee. I also talked to General McCaffrey 
about the drug problem, and I tried to inform myself not so 
much about the past as about the future. Also I had many 
conversations with Mr. Uberoth.
    Now, it became apparent that there was a need for 
significant changes, one, in the organization of the committee; 
second, in some of the methods of operation; third, with 
respect to some of the financial accounting procedures; and 
also in the manner in which some of the expenses were being 
handled.
    I had no preconceived notions on how to tackle this. As you 
know, there were three working groups formed and all of us on 
these working groups, at least all of the active members, have 
spent a fair amount of time on it, usually giving up weekends 
to do so. I must say that the leadership of the IOC under 
President Samaranch and his colleagues have given useful 
support in these efforts.
    As you know, the process is not completed. We have to meet 
with the executive committee at the end of October and then 
there is a meeting of the whole IOC in December, and it is sort 
of a tricky problem to get the people who have to change 
procedures and indeed have to modify their terms in office to 
vote for some fairly significant changes.
    I believe that if the recommendations by the three working 
groups are accepted, then many of the--I would say almost all 
of the abuses that I read about will be eliminated. That is 
certainly our intention. The non-IOC members have certainly no 
other interest in this except to bring about exactly that 
situation. If, frankly, for any reason either the executive 
committee or the full IOC were not to go along with these 
recommendations or watered them down, certainly I, and I know 
my friend Ken Duberstein and Senator Mitchell and all the 
others who have spent a fair amount of time working on this, 
would be heard from, and you would hear from us.
    So at this point, I am quite optimistic that we will 
succeed. President Samaranch, whatever may have happened in the 
past, has been fully supportive, and we have achieved at least 
in the working groups a degree of agreement that many people 
were skeptical about having the ability when we started.
    So this is the essence of where I come from. Of course, I 
will be delighted to answer questions about either what I said 
or about some specifics. I want to thank you for giving me this 
opportunity to express my views.
    Mr. Upton. Thank you very much. Mr. Duberstein.

               TESTIMONY OF KENNETH M. DUBERSTEIN

    Mr. Duberstein. Mr. Chairman, members of the subcommittee, 
I want to echo what Dr. Kissinger said. I am betting on Henry 
Kissinger. I am grateful for this invitation to participate in 
the hearing. I do so on behalf of the independent special bid 
commission appointed by Bill Hybl, President of the USOC, which 
was chaired by former Senator George Mitchell and included Don 
Fehr and myself as vice chairman, along with members Roberta 
Cooper Ramo and Jeff Benz.
    I request that my written statement, Mr. Chairman, be made 
part of the record, along with a copy of the report of our 
commission dated March 1.
    Our commission reviewed the circumstances surrounding Salt 
Lake City's bid to host 2002 Olympic Winter Games. We did not 
address Atlanta, but we found that a culture of improper gift 
giving extended beyond Salt Lake City and predated Salt Lake 
City's participation. Our principal mandate was not to 
investigate, but to make recommendations for reform at all 
levels of the Olympic movement, local, national and 
international.
    The U.S. Olympic Committee moved quickly to adopt 
substantially all of our recommendations. They took the 
medicine we prescribed. The IOC unfortunately needed more than 
time release capsules. They required major surgery.
    Our recommendations for the IOC call for fundamental 
structural changes which are set forth in detail in our report. 
These changes necessarily require a period of study and 
consensus building prior to adoption. The IOC appears to have 
undertaken that process in earnest with the appointment of the 
IOC Reform 2000 Commission, which includes Dr. Kissinger, Peter 
Ueberroth, Paul Allaire and Dick Ebersol, as well as a new 
ethics committee which includes in its membership my old 
colleague Senator Howard Baker.
    Although it is too early to draw any firm conclusions, we 
are encouraged by the progress the IOC has accomplished to 
date. Former Senator Mitchell and I met with Juan Antonio 
Samaranch and Francois Carrard, the President and Director 
General of the IOC, in early July. At that time they provided 
us with a report outlining the IOC's preliminary actions in 
response to our recommendations. The meeting was both 
encouraging and positive. We were reassured of Mr. Samaranch's 
personal commitment to the need and urgency of reforming the 
IOC. We were heartened in recent days when the IOC formally 
requested the assistance of the OECD in becoming a public 
international organization within the meaning of the OECD 
convention on combatting bribery of foreign public officials in 
international transactions. We applaud them for this 
initiative.
    While these efforts are to be commended, there is still 
much more work that needs to be done. The IOC Reform 2000 
effort deserves close monitoring and frequent checkups as they 
approach finalizing their recommendations by the end of October 
and then again for the full IOC on December 11 and 12. The 
IOC's progress and continuing commitment to reform I think must 
be closely evaluated. I am reminded of a Russian proverb that 
my old boss, President Ronald Reagan, referred to from time to 
time. ``dovy eye no provey eye.'' trust but verify.
    I encourage this subcommittee to verify the IOC's ongoing 
efforts to systematic reform. The proof is in the pudding. They 
must do more than just reassure sponsors. They must face 
realities, not create illusions. They need to manage what they 
promise.
    At this point, therefore, I would grade them the following 
way: I would give them an I for incomplete for the reforms are 
not quite done. I would give them an O for outstanding effort, 
including the work of Dr. Kissinger. And I would give them a C 
for careful, be careful in evaluating the end product at least 
until we see specifically what the IOC Reform 2000 recommends 
at the end of October. I share with each of you the hope and 
expectation that the Olympic flame must burn clean once again 
in those words that completed our report back in March 1.
    Thank you, Mr. Chairman.
    [The prepared statement of Kenneth M. Duberstein follows:]
 Prepared Statement of Kenneth M. Duberstein, Vice Chair, USOC Special 
                        Bid Oversight Commission
    Mr. Chairman and members of the subcommittee, I want to thank you 
for the opportunity to participate in this hearing. I respectfully 
request that my written statement be made a part of the record of this 
hearing, along with a copy of the Report of the USOC's Special Bid 
Oversight Commission dated March 1, 1999.
    The Salt Lake City bid scandal came to light in December of last 
year. Very shortly thereafter, the United States Olympic committee 
appointed a Special Bid Oversight Commission (the ``Commission''). The 
Commission's charge was to review the circumstances surrounding Salt 
Lake City's bid to host the Olympic Winter Games, and thereafter to 
make recommendations for improving the process by which cities are 
selected to host the Games of the Olympiad and the Olympic Winter 
Games. Senator George Mitchell acted as Chairman of the Commission, Don 
Fehr and I were Vice-Chairs, Roberta Cooper Ramo and Jeff Benz were 
members.
    The Commission presented its recommendations on March 1 of this 
year. Very generally, our recommendations called for the elimination of 
the improper gift-giving practices that have grown out of any 
reasonable bounds, and for the IOC to make fundamental structural 
changes. Our recommendations were directed to both the IOC and the 
USOC.
    The USOC moved quickly to adopt substantially all of our 
recommendations. They took the medicine we prescribed. The IOC needed 
more than just medicine--they needed major surgery.
    Our recommendations for the IOC are far greater in scope than our 
recommendations for the USOC. Many of them require significant changes 
to the structure of the IOC, and necessarily require a period of study 
and consensus-building prior to adoption. The IOC appears to have 
undertaken that process in earnest. The IOC 2000 Commission and working 
groups thereof have met regularly since late May. A final meeting is 
scheduled for October 30-31, at which time recommendations will be made 
to the IOC. Although any reforms recommended by the IOC 2000 Commission 
will be subject to the approval of the full IOC in December, I think we 
will learn a great deal from the final recommendations that come out of 
IOC 2000.
    Although it is too early to draw any conclusions, I am encouraged 
by what the IOC has accomplished to date. Senator Mitchell and I met 
with President Samaranch and Francois Carrard, the Director General of 
the IOC, in early July. At that time, they provided us with a report 
outlining the IOC's preliminary reaction to the Commission's 
recommendations. I trust that your staff has shared that report with 
you. Because the work of IOC 2000 is not yet finished, it is not timely 
to publicly comment on the views expressed in the report. We did, 
however, share our comments with the IOC.
    Some of the changes that we recommended to the IOC are not 
difficult to implement. By way of example, the following actions have 
already been taken by the IOC:

1. The IOC's audited financial statements are now available to the 
        public at large.
2. The IOC has appointed an Ethics Commission chaired by Judge Keba 
        Mbaye, a former member of the International Court of Justice. 
        Senator Howard Baker is a member of the Ethics Commission.
3. The IOC Ethics Commission has adopted a Code of Ethics. The new Code 
        of Ethics prohibits gifts of more than nominal value.
4. Certain meetings of the IOC are now open to the public.
    I am also encouraged by the fact that, subsequent to our meeting, 
the IOC formally requested the assistance of the OECD in becoming a 
``public international organization'' within the meaning of the OECD 
Convention on Combating Bribery of Foreign Public Officials in 
International Transactions.
    When the Commission appeared before the Senate Commerce Committee 
in April, Senator Mitchell stated that the end of this year is a 
reasonable deadline for IOC action. The IOC is on schedule to meet that 
deadline. It is important, however, that we evaluate the IOC's progress 
at each step of their journey. I am reminded of a Russian proverb that 
my former boss, President Reagan, referred to on occasion.
    Trust, but verify. While I am encouraged by what the IOC is doing, 
I also believe that they should be closely and frequently monitored. We 
will have an opportunity to do that later this month.
    Thank you, Mr. Chairman.

    Mr. Upton. Thank you both. As you heard, the buzzers sound. 
We have a vote on the floor. Dr. Ganske has been over to vote 
and when he returns, I will be gone and he will continue so 
that we can try to finish this. I'm going to do some questions 
and Dr. Ganske is going to come back so that we can keep this 
flowing. Mr. Duberstein, in your written testimony submitted in 
your appearance in the Senate last April before Senator McCain, 
you were particularly hard on the IOC. In fact, you said and I 
quote, the pace and the scope of the IOC's reform actions are 
disappointing, expelling a few rank and file members, allowing 
a handful to resign but leaving the two most prominent culprits 
who sit on IOC's executive board to escape with a gentle slap 
on the wrist is not encouraging, end quote.
    Would you say that today based on the grades that you gave 
and if you assume, to take Dr. Kissinger's words, that they 
will succeed in adopting these reforms, that if in fact that 
happens, they will restore the shine on the rings and you'll be 
proud of the Olympic movement again?
    Mr. Duberstein. Mr. Chairman, I think that the efforts 
under way with IOC Reform 2000 are fundamentally sound. That 
does not mean that they meet every one of our recommendations 
but the thrust is very much in the right direction. I am 
encouraged by the personal commitment of Mr. Samaranch. I am 
even more persuaded by the participation of Dr. Kissinger and 
Mr. Ueberroth and Mr. Allaire as well as others. I think that 
bodes very well.
    I would not retract there my statement the fact that some 
of the members of the executive committee received only a slap 
on the wrist. I felt strongly at the time that more harsh 
punishment was in order, but I think as far as looking forward 
to making sure that we do not have a repeat of what happened in 
Salt Lake City and other places, I think they have made great 
strides and I look forward to them fulfilling this commitment.
    Mr. Upton. I don't know if you've actually seen the actual 
reforms that are in place. I know you've had some discussions 
with Mr. Carrard and others. If you were able to add an 
amendment that could be adopted by that reform committee, how 
would it read?
    Mr. Duberstein. If I were to add any recommendations, I 
would look toward more athlete participation in greater numbers 
on the IOC, and I would be very concerned about the 
interlocking directorate so that some people in fact could be 
appointed not simply as IOC representatives but to represent 
their countries to the IOC.
    Mr. Upton. Dr. Kissinger, what would your response to that 
be?
    Mr. Kissinger. First of all, I want to also point out that 
the chairman of the USOC, Bill Hybl, has been tremendously 
helpful in this process and has made a very significant 
contribution and I want to thank him.
    I believe the recommendations that Ken Duberstein just 
made, that we can go a long way toward meeting them if not 
meeting them completely. Basically all I knew about what needed 
to be done I learned from him and Senator Mitchell and his 
report, and however pleasant he is when he testifies to you he 
sort of stays on our back all the time to make sure that we are 
properly performing.
    I think the members of the executive committee, there will 
be a rotation very quickly if these reforms are carried out 
because while it may be necessary to have a period of 
transition for the whole IOC in the top positions, it is 
foreseen in this reform program that all the limitations and 
changes take effect immediately.
    Mr. Upton. Though I know Mr. Duberstein is not a member of 
the Reform 2000 Committee, how--you do know, I'm sure, all of 
the members on that committee. How receptive have they been to 
the reforms that have been proposed?
    Mr. Kissinger. Well, I would think that some--that some 
people feel that the IOC has constituted a fairly comfortable 
operation and do not have an overwhelming desire to go into 
barricades and change it but the fact is that our reports of 
the working groups have been unanimous and that some of the 
established individuals who have had leadership positions have 
cooperated with drafting in a way that meets the technicalities 
of the IOC and I believe in the working groups we will 
certainly succeed. Now, the next hurdle will be the executive 
committee and I have not met with them, but I agree with Ken. I 
will take the same position that Ken has indicated here that I 
will--no halfway house is really feasible that does not reflect 
on the Olympic movement. So I really expect that these working 
group reports will be accepted with only the most minor 
modifications.
    Mr. Upton. We hope that that's true. As you know, we have a 
vote on. I am getting to go vote. You going to make this vote?
    Ms. DeGette. I'll make this vote. I just have a couple of 
questions.
    Mr. Upton. As long as you don't steal this gavel you may go 
ahead and when you finish we will recess until Dr. Ganske gets 
here.
    Ms. DeGette. Mr. Hybl will tell you I always behave.
    Mr. Duberstein, first of all I know I can speak for the 
entire panel when I thank you and Senator Mitchell for the 
outstanding job you did in putting this report together. I 
fully endorse the recommendations that you've made and I think 
most of us do. Of course, the problem is that there's been 
public knowledge of the lavish gift giving of the IOC for 
years, and as I asked several of the previous panels, I know 
Dr. Kissinger wasn't here. I don't believe you were either. We 
have had written rules in effect by the IOC for many years 
since the 1980's which should have prevented the kind of 
profligate gift giving that has been going on.
    For example, in terms of gifts, there is a strict rule that 
says gifts of value are not permitted and that it strictly says 
gifts of value exceeding $200 U.S. are not permitted but yet 
the previous panel's testified and your report accurately 
represents everyone completely ignored this and in fact it was 
quite the opposite. If your recommendations are adopted, what 
is it about these particular recommendations that you think 
will actually make them be observed versus existing only on 
paper only as the previous rules have been?
    Mr. Duberstein. I believe the acceptance by the IOC of the 
recommendations of the working group and the prestigious 
members who are on the working group will in fact infect world 
opinion. We have a microscope right now on the IOC. We have 
heard President Samaranch's firm commitment to Senator Mitchell 
and to me that he wants to leave as his legacy for the IOC a 
reformed IOC. I think you will in fact find by the end of this 
year the IOC will approve the reforms.
    Ms. DeGette. Let me stop you. They may approve the reforms 
but do you think that they will be observed?
    Mr. Duberstein. Yes.
    Ms. DeGette. Is there anything about the structure you're 
recommending that will make it more likely that they will be 
observed or do you think it's because the world opinion will be 
shifted?
    Mr. Duberstein. I think world and national opinion here 
will be such that in fact they will have to abide by these 
rules, by these guidelines.
    Ms. DeGette. So there's nothing inherent in your----
    Mr. Duberstein. There's no enforcement.
    Ms. DeGette. Dr. Kissinger?
    Mr. Kissinger. May I make a point here. Each member of the 
IOC will be given--has a fixed term now. They're not appointed 
for life or until the age of 80 if these reforms are accepted. 
And each member will have to go before a selection committee 
which will be composed of both IOC and non-IOC members. So if 
there are credible allegations, it would be amazing if they 
were not brought up when a member's name comes up for renewal 
before the selection committee.
    Ms. DeGette. Do you think that world opinion has begun to 
shift in any way as a result of the light that's been shed on 
the Salt Lake City and Atlanta bids?
    Mr. Duberstein. I think there is a strong view that in fact 
the IOC needs to clean up its act. I think President Samaranch 
is now committed to that and I think a lot of that has to do 
with opinion throughout the world.
    Ms. DeGette. Just one last question. We asked the first 
panel what they thought the likelihood of these new rules being 
adopted is. Do you have any sense? We were told slightly 
greater than 50 percent.
    Mr. Duberstein. No, I don't have any magic wand that says 
85 percent or 90 percent. I'm not a betting man but I believe 
that President Samaranch that Mr. Carrard and others will work 
diligently to getting them approved and with the kind of 
prominence that is on the IOC Reform 2000 panel that it will be 
very difficult for the IOC to turn back.
    Ms. DeGette. Dr. Kissinger, do you have any sense how 
likely you believe it is?
    Mr. Kissinger. I have--I'm new in this so I have not 
encountered the full membership of the IOC and I've had only 
one session with the preliminary executive committee. I have 
operated on the assumption that we will get these reforms 
through. That's the position I've taken in the working group 
and that's the position I will take at the end of October. I 
also have reason to believe that President Samaranch will 
support it but there are a number of senior people in this 
group, Allaire from Xerox and Yellay from Fiat and non-IOC 
members will be united in supporting these recommendations. So 
it would be quite a responsibility to turn them down.
    Ms. DeGette. Let me just say because I have to now go vote, 
I do not have any faith at all that the international community 
will simply believe people are prominent and therefore they 
will follow these rules. I think that some of the 
recommendations of the structure will help. I think, as Dr. 
Kissinger said, the term limits will help, but I think that 
there needs to be more vigilance because after all, as long ago 
as the 1980's, many prominent people said that the rules had to 
be changed. The rules were changed on paper and people still 
completely disregard it.
    Thank you, gentlemen, both for coming. I apologize for 
having to leave. I appreciate it.
    Mr. Ganske [presiding]. The Chair recognizes himself.
    Well, doctor, one of my prerogatives, well, Dr. Kissinger, 
you're the diplomat so I won't ask you to make a comment on 
Mrs. Samaranch's trips, but I do want to ask you in light of 
the fact that it was the events in Salt Lake City that served 
as the catalyst for the present atmosphere of IOC reform, have 
you detected any anti-American sentiment during your work with 
the IOC 2000 commission?
    Mr. Kissinger. Yes. There is a feeling that the Americans 
are trying to impose their standards, that we are picking on 
the smaller developing nations. I wouldn't suggest that it is 
this attitude among some members and I've heard statements to 
that effect. They have not prevailed and I don't expect them to 
prevail.
    Mr. Ganske. Well, Dr. Kissinger, in light of some of those 
anti-American sentiments, I understand that the IOC 2000 
commission is now finalizing its recommendations and will 
announce them at the end of the month and that the IOC will 
vote on these recommendations in December of this year. 
However, these are only recommendations. Is the IOC obligated 
to adopt any of the commission's recommendations?
    Mr. Kissinger. No, the IOC is not obligated to adopt the 
committee's recommendations, but they would lose the support of 
the non-IOC members and I think the games next year would be 
under shadow if the IOC rejected the recommendations that were 
so far as I can see unanimously endorsed by a group of 
individuals who have given a fair amount of their time and who 
have no ax to grind.
    Mr. Ganske. What do you think will be the result if the IOC 
adopts only the least intrusive, least controversial 
recommendations and ignores the ones with real clout?
    Mr. Kissinger. Well, if you called me back before this 
committee, I would express my disappointment strenuously and I 
can't believe that that will happen. In fact, I don't believe 
that President Samaranch will take it quietly. Not only I but a 
number of the individuals that we have mentioned giving up--
have given up a number of weekends, traveled long distances. 
We're doing it again at the end of October. We'll do it again 
in December. And our only interest in this is to have an 
Olympic Games that the world can be proud of, that Americans 
can be proud of participating in and we have absolutely no 
reason to compromise and we won't.
    Mr. Ganske. I'll be with you in just a minute, Mr. 
Duberstein. If the IOC only adopts some face saving measures 
but not the full chest, I'm sure, Dr. Kissinger, you're aware 
that we have a law called the Foreign Corrupt Practices Act 
which makes it illegal for American companies, individuals to 
bribe foreign officials or businesses. Now, the IOC is not 
covered by that law. However, last year Congress enacted a law 
to enable the President to designate by executive order the IOC 
or other organizations to be subject to the Foreign Corrupt 
Practices Act.
    Would you recommend that the president do this if the IOC 
does not act in good faith to clean up their own act ?
    Mr. Kissinger. I would expect the IOC to clean itself up. 
Second, I expect the IOC to accept the principles of the 
Foreign Corrupt Practices Act, even if it doesn't use its exact 
language so that it does not seem to be submitting to a law of 
one particular country. And so if that circumstance arose, we 
might be in a situation where our law might be implemented but 
I don't--I really would be disappointed if we reached that 
point.
    Mr. Ganske. Your preference would be for us not to have to 
do that but you wouldn't rule it out as an appropriate action 
at some time?
    Mr. Kissinger. I wouldn't rule out if there were a 
conviction that the principles of the Foreign Corrupt Practices 
Act, never mind whether it applies legally, if the principles 
were being violated, I would understand it if the Congress made 
its views felt.
    Mr. Ganske. I thank you.
    Mr. Duberstein, in his report to the USOC, the Mitchell 
commission concluded, quote, that the USOC shares 
responsibility for the--this is the USOC shares responsibility 
for the improper conduct of the bid and organizing committees 
in Salt Lake City, end quote. The report also recommends 
several steps the USOC should take to strengthen its oversight 
of the site selection process. However, a more stringent 
oversight role in the site selection process may leave the USOC 
open to a conflict of interest. If a U.S. city's bid to host 
the games is successful, it's like the USOC may benefit in the 
form of increased television and sponsorship revenues. While 
the USOC and its members do not personally gain in this 
scenario, it's hard to argue with the lure of the additional 
sums or funds to help train athletes or promote amateur sports 
in the U.S.
    Mr. Duberstein, you served as vice chair of the Mitchell 
commission. Is it possible for the USOC to balance a more 
stringent oversight role against the benefits that it would 
gain as a result of a U.S. city hosting the games?
    Mr. Duberstein. Mr. Chairman, we were very heartened within 
a few days after our commission's recommendations that the 
USOC, the executive committee of the USOC, unanimously went for 
every one of our recommendations and I believe Mr. Hybl when he 
testified this morning made reference to that. I think the 
oversight clearly was lacking. I believe that they now have the 
message. I think that what they have enacted based on our 
recommendations in fact ensures that the USOC will be far more 
mindful so that you don't get into the situations as you 
described.
    Mr. Ganske. I think I'd like to hear from both of you in 
answer to this question. Dr. Kissinger, in light of the fact 
that you testified today that you think there is an anti-
American feeling because of the exposure on this issue, do you 
think that this could affect U.S. cities getting the Olympic 
site in the future?
    Mr. Kissinger. Not really because whatever the anti-
American feeling exists is balanced by the realization that the 
majority of the funds come from the United States and the 
incentive--it's one thing to needle us, it's another to 
antagonize us.
    Mr. Duberstein. I subscribe to exactly what Dr. Kissinger 
said.
    Mr. Ganske. What a great diplomatic response. My time is 
finished. I will yield to Mr. Klink.
    Mr. Klink. Thank you, Mr. Chairman. Mr. Duberstein, in your 
statements you reiterated that old chestnut of President 
Reagan's trust but verify. You say that that adage now applies 
to your monitoring of what they are doing at the International 
Olympic Committee. This is kind of a follow up to the last 
question. We might say we want to verify but other countries 
might say, well, it's the U.S. meddling, imposing their will on 
us, overreaching.
    Do you think that we have a right and a responsibility to 
actively monitor the progress that the IOC makes in this reform 
process? Specifically, let me ask you what should the U.S. role 
be in all this?
    Mr. Duberstein. I think we need to verify each one of these 
actions. I think when we see at the end of October what the 
working panels recommend, we will take another step in 
evaluation. When our commission testified before Senator 
McCain's Commerce Committee, we were asked about legislative 
remedies and what we said was let's see what the IOC does. 
Let's give them to the end of the year. I think that caution is 
still worthwhile now, but I do think that we have an obligation 
and a responsibility whether it's the USOC or the U.S. Congress 
to make sure that the IOC not only enacts rigorous reform as I 
expect that they will do but also that they match the practice 
with the words.
    Mr. Klink. Are you as troubled as I was--I don't know how 
much of the hearing you have been present for--but I brought up 
to some of the other committees that I'm troubled that it took 
the United States, took our Justice Department, took our press, 
took our Congress out there exposing this when it--the gifts 
became so exorbitant and the problem became so obvious with 
Salt Lake City. And then we sat here today in a very public 
fashion and we had Ambassador Young and others here and talked 
about what happened in Atlanta, yet there doesn't appear to be 
anyone else at the International Olympic Committee that are 
looking at what has happened in their country.
    My example would be what happened in Nagano or Sydney or 
Athens or Barcelona or cities that weren't successful, like 
Toronto or Melbourne or Manchester or Belgrade. We have 
reformed what we--the way we operate the U.S. Olympic 
Committee. We appear to be headed that way. Reforms are in 
place but what happens to the rest of the National Olympic 
Committees and what happens to their introspective look if 
we're the only ones that are policing this?
    Mr. Duberstein. I don't think we're the only ones that are 
the police. I think the litany that you delivered failed to 
mention the U.S. Olympic Committee. That's who appointed the 
Mitchell commission. It was Bill Hybl who said everything that 
I have seen from Salt Lake City says we need to get on this and 
get on it now, not to do an investigation. That's left to the 
Justice Department and to others. But to come up with 
recommendations so this will never happen again.
    I think we're very much on our way to that. I think the 
world opinion will in fact rally behind if the IOC does the 
right thing and doesn't do lip service, doesn't just worry 
about reassuring sponsors but in fact runs an ethical and 
trustworthy Olympic movement which will be good for all the 
cities and all the countries.
    Mr. Klink. Dr. Kissinger, again we mentioned this during 
the hearing today. We had the ``Sports Illustrated'' article 
from 1986 that mentioned all of the lavish gifts and all the 
things that occurred back then. We have the 1991 report that 
the people in Toronto who were unsuccessful filed. Yet all of 
these things were ignored. What confidence do we have now that 
once your back is turned and our back is turned and other 
people's backs are turned, that people who ignored these 
problems for decades, in fact allowed them to proliferate, get 
more serious until Salt Lake City pushed this over the edge, 
what confidence do we have that we're not going to then relax 
back into a standard where we have this closed culture where 
these things are allowed to proliferate?
    Mr. Kissinger. Well, I believe that first of all it would 
be very appropriate for this committee to keep an eye on the 
process. Second, the previous organization of the IOC was sort 
of a family kind of organization where members who are for life 
or later were changed till the age of 80 and there was an 
attitude that they were responsible as far as I can understand 
to each other and that made it of course very difficult to 
investigate allegations carefully. I think the rotation in 
office but I am impressed by what I've heard here. I will 
discuss when I get back to Lausanne in 2 weeks the creation in 
the office of the president of some mechanism that audits--the 
auditing of finances is taken care of but the performance of 
the reform, I think that's a very good point that we ought to 
try to take into account.
    You understand I'm speaking for myself because I don't know 
what the reaction will be, but this is a reasonable proposal it 
seems to me.
    Mr. Klink. Suppose you can help us with one housekeeping 
person. Mr. Samaranch has responded back to the committee's 
request that he testify. He told us at the IOC bid process--
about the IOC bid process to Congress. We asked him to come and 
talk to us. He said we're going through trying to talk to all 
of these countries. I don't want to appear that I'm heavy 
handed by coming in and testifying before Congress when this is 
going. In your expert opinion as persons that are affiliated 
with this Olympic reform movement, when would be the 
appropriate time for Mr. Samaranch to come and testify before 
the subcommittee?
    Mr. Kissinger. I will tell you I recommended to him to 
appear after the process is completed and I'm happy that a date 
apparently has been fixed for December 15. He will be the key 
person in maneuvering these reforms through the committee. 
Whatever we outsiders do he's the indispensable element on the 
parliamentary level. This will require some very careful 
maneuvering with tender egos, and I think it is better for 
everybody if we can come here and put before you a completed 
project and know that he will be tested by your questions 
rather than speak in a preliminary way where he may have to be 
very careful about what he is free to talk about.
    So I frankly am partly to blame for his view that he should 
appear after he has something to present to this committee and 
I also believe that this will be a major contribution by this 
committee to spur the reforms because he will be in a very 
difficult position if he has to explain--some compromises may 
have to be made but if they are significant and go to the core 
of it, I would expect the members of the committee to proceed 
with a relentlessness as has been exhibited in my brief stay 
here.
    So I think this is the best time, December 15, that I'm 
grateful for the committee for having to agree to the session.
    Mr. Duberstein. I think what is absolutely critical is that 
Mr. Samaranch has agreed to appear before this committee. Some 
of us may have wanted him to appear after the IOC Reform 2000 
report is done at the end of October. Some have suggested that 
he not come until December. I think the fact that he is coming 
before this committee is a mark not only of his commitment to 
reform but his willingness to sell this to you and I think that 
is very encouraging news.
    Mr. Klink. Thank you.
    Mr. Upton. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Duberstein, you 
also make reference in your testimony to the July 14 interim 
report done by the IOC on your and Senator Mitchell's report. 
It's called the IOC paper on the recommendations made by the 
U.S. Olympic Committee special bid oversight commission in its 
report on March 1, 1999. None of the reactions made in that 
report are carved in stone and of course are subject to change.
    When will we really know which of the Mitchell's report 
recommendations are being adopted by the IOC? Is there going to 
be a plenary session October 31.
    Mr. Duberstein. You're going to have a strong indication 
October 30, 31 but full IOC is meeting on December 11 and 12. 
So we will know both from the former date as well as the 
latter.
    Mr. Stupak. Would it be--should all of them be adopted in 
its--are there some of them that should be adopted, some of 
them that aren't you can live with? Could you try to give us a 
little bit more insight as to----
    Mr. Duberstein. We think all of our recommendations are 
important. Clearly some are more critical than others. 
Financial accountability, term limits, age. The ruling out of 
visits to the bid cities, all of that getting tied up so that 
in fact the process of selecting bid cities as well as the 
accountability, responsibility of the IOC itself, the 
structural reforms I think are all taken as one, Congressman 
Stupak.
    Mr. Kissinger. And the creation of an auditing system that 
Mr. Allaire from Xerox considers equal to those of 
multinational corporations would be a complete innovation.
    Mr. Stupak. Would that be like an inspector general type 
function?
    Mr. Duberstein. No, it's an independent audit by outsiders, 
not by the inside, publicly released is what we called for. We 
also called for open meetings which I believe the IOC is now 
doing. It's all of that that the sunshine comes.
    Mr. Stupak. That sunshine, that's audits but let's get to 
enforcement then. How would the enforcement come other than 
public scrutiny?
    Mr. Duberstein. It's public scrutiny.
    Mr. Kissinger. Rotation in office and the submission of 
each--even existing members have to in addition to the age 
limit have to be rotated at periodic intervals and have to go 
before the selection committee where they are compared with 
other candidates, plus the fact that more athletes are being 
added, the international federations, the national committees 
so that there will be a number of groups that are new that were 
not previously represented institutionally on the committee.
    Mr. Stupak. Will any of these groups then, these new 
groups, will they have investigative powers within the IOC of 
any alleged wrongdoing?
    Mr. Kissinger. The athletes of course have a vested 
interest in the Olympics being clean and they also have the 
greatest interest in the doping issue, and I have noticed of 
the working groups that the athletes are among the most vocal 
and concerned and constructive members of the working groups.
    Mr. Duberstein. In addition, you also have the creation of 
a new independent ethics committee for the IOC which I think 
speaks volumes.
    Mr. Stupak. Let me put it this way. After let's say the IOC 
reforms are implemented, what will actually be set up to detect 
any wrongdoing other than rotating people and the athletes are 
concerned about it. Is there any mechanism there that we can 
point to? You see, my problem here is with this culture we have 
seen here and it's a culture thing. Everyone does it. This is 
the way you do it. This is the way you get host cities. How do 
you change that culture? You may change the rules but if 
there's no accountability and responsibility and some 
enforcement, I don't see how we change the culture.
    Mr. Kissinger. I think a number of you members have raised 
this point, and I will certainly bring that back when I go to 
the executive committee meeting and I think in the president's 
office or the executive committee some mechanism has to be set 
up on the--at least I would think ought to be set up on the 
basis of which these questions can be answered.
    Mr. Duberstein. I also think that you should address some 
of this to Senator Baker when he comes here as a member of the 
ethics committee as far as an ongoing role in overseeing not 
only the reform effort but the governance of the IOC.
    Mr. Stupak. You've got to have a hotline, inspector 
general, someone there to enforce it. You've got to have a 
watchdog there somewhere I believe anyways.
    Mr. Upton. Before I yield to Mr. Strickland I just want to 
ask, do you know if the reform committee meeting in the end of 
October of this month and again in December, is that open to 
the public? Or is it a closed meeting?
    Mr. Kissinger. It was last time. The first plenary session 
was open to the public.
    Mr. Upton. Thank you. Mr. Strickland.
    Mr. Duberstein. Mr. Stupak, the answer from the IOC it is 
open, according to Mr. Carrard.
    Mr. Upton. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. I have one 
question and then I will make a comment and then I will stop. 
You've been kind in giving us of your time. I would like to ask 
you if you would share with us your reaction to what happened 
in Atlanta. We heard from the Atlanta folks earlier today and 
in your judgment, if your commission had used Atlanta's bid as 
opposed to Salt Lake City, do you think you would be making the 
same sort of recommendations to the USOC and the IOC as you are 
making?
    Mr. Duberstein. Congressman, I did not hear the testimony 
of Atlanta today but just from the flavor of what I have read 
and heard, we said in our commission report it did not begin in 
Salt Lake City. These are the nature of the same kind of 
allegations. So I don't think our report would have changed one 
iota as far as our recommendations for fundamental systemic 
reform of the USOC, the IOC, and the handling not only of the 
bid process but the governing of the IOC.
    Mr. Strickland. Thank you, sir. And if I could just make a 
comment. I don't want to be offensive to anyone, certainly not 
my colleagues, but as I was sitting here listening to folks 
today and what we're talking about is the selling or the 
purchasing of influence, I think, and it is proper, I think, 
for those of us who are concerned about this to sit in some 
judgment on what has happened and to be concerned about reforms 
and making recommendations for the future, but just in fairness 
to those who may have been caught up in this, you both have 
been around Washington for a long time and you've observed the 
functioning of Congress and I wonder if you see any 
similarities between some of the things that we've talked about 
today and been concerned about today and maybe some of the 
practices that exist within our own governmental bodies in 
terms of decisionmaking and influence buying and so on.
    Mr. Kissinger. Well, collegial bodies have a tendency to 
cover up for each other. That is--and in fact what then later 
an investigation looks like covered up is an attempt to help 
out friends with whom one has worked and isn't perceived this 
way. So this is something that is built into any bureaucratic 
and--on the other hand, one shouldn't go to the other extreme 
of starting a culture of investigations so that everybody feels 
under permanent threat. So I would think that if it is very 
successful reforming the system and if then there is some 
procedure by which one can check on the performance internally, 
then the outside pressures should still continue but they 
should not be the form of a permanent investigation but 
something like a periodic checkup to see, and after all by now 
there's a fairly wide body of people who have been involved in 
the reform or in the investigations who have, as I said before, 
have no other interest except seeing this thing cleaned up.
    Mr. Duberstein. I think when we have seen the lack of 
accountability, it leads to problems. When we got into the 
Mitchell commission, we got into this. One of the things that 
we were startled with was what we thought was a total lack of 
accountability. I think that's as true in Lausanne as it is in 
Washington. Those are the seeds for problems. We often deal 
with perceptions and in this town especially perceptions become 
reality. What we found, though, as far as Salt Lake City and 
before is that the perceptions were reality. The misdeeds were 
taking place. I don't think that that calls for a permanent 
investigation. That's why in my opening statement I talked 
about periodic checkups. I think it is worth dialing into from 
time to time.
    Look, when I appeared before Senator McCain's committee, I 
was a critic. I doubted that the IOC was as committed as I 
hoped that they would be. I have learned in several months 
trust but verify that when you have people involved, whether 
it's Bill Hybl or Henry Kissinger or Peter Ueberroth or Dick 
Ebersol or Paul Allaire and they are pushing the same 
direction, when my friend and former colleague Howard Baker 
joined the ethics committee, that is another indication that 
the IOC got the message.
    Business as usual is no longer. You have to move on. You 
have to turn the page. And I think that's as applicable in 
Washington as it is in Lausanne.
    Mr. Strickland. Thank you both. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Bilbray, do you have questions?
    Mr. Bilbray. Thank you, Mr. Chairman. You know, I think 
first of all we need to clarify again, and again one of our 
colleagues pointed out that a lot of this discussion is about 
the world Olympic committees and the multinational not to tar 
and feather the U.S., not that we don't have points that we 
need to get included. I guess the argument of my colleague 
about the fact that maybe we look at ourselves, the issue of 
gifts and everything else have been discussed here in the House 
hasn't been entrusted to the executive branch as much recently. 
But in California we've got a full disclosure and I guess this 
is where it gets to Mr. Kissinger's issue about you don't want 
to have a Spanish inquisition but you also don't want to have 
major cover-ups. In California one of the things we said is 
anybody in the field of trust just publicly publishes 
everything they've received unless it's under certain 
categories and that sort of makes sure that at least somebody 
knows--it may be a happy medium and that's what you talked 
about before. But growing up on the frontier in the Southwest, 
I'm worried about we talk about this culture within the Olympic 
International Committee but can we expect the culture of the 
committee to be any different than the culture of the world 
that it's working within and that may now seem abstract but I 
know for one thing that Governor Rufo of Baja, California, the 
first freely elected Governor of Mexico in 67 years, made a big 
deal about the corruption and the corrupting influence of 
society just within his state. And about what a struggle it is 
in a lot of these countries to try to get out of a culture of 
mordida, the culture of this is the way business is done. And I 
think it's rather inappropriate for us to be so naive to think 
that the American standard or the Western European standard is 
just universally the only standard that is going to apply.
    How do we address this issue within the Olympic Committee 
when it is obviously going to continue to be influenced by the 
world culture experience that there is these what we perceive 
inappropriate influences and decisionmaking?
    Mr. Duberstein. Let's get over October 30 and 31 and 
December 11 and 12. Let's get these reforms done and then we 
can come back and address that question. But I would rather 
focus on getting the reforms in place and then implemented and 
I think that you will then see other parts of the world saying 
the IOC is in fact leading the way. I think that helps.
    Mr. Kissinger. Also this is a question that after the 
reform should be discussed with the president, with the new 
executive committee in due course with the new president 
because that is how it will have to be implemented. It is not 
at all a trivial question. There's no doubt that in major parts 
of the world we here consider unacceptable behavior is the 
normal way by which influence is established. So one has to 
take--it will work best if it is done under the aegis of the 
IOC rather than as a demand from the United States. And we 
hope--I speak here for Ken as well, that we cannot change the 
world but we might be able to make a contribution to changing 
the atmosphere in which the Olympic Committee operates.
    Mr. Bilbray. I hope we have that sensitivity when we look 
at that. My family is from Australia. I grew up on the frontier 
with Latin America. I look at Americans' rather critical review 
of certain cultural traditions in Mexico but at the same time 
my cousins in Australia believe that trying to tip a waiter is 
a bribe and is immoral and is wrong. And we sort of chuckle at 
that. I think there may be people all over the world that would 
sort of look at our perception about mordida, about a gift, 
what we saw as an inappropriate deed and sort of chuckle at 
that too and I think we just need to desensitize that and try 
to move into it.
    I appreciate that, Mr. Chairman. I just feel as we address 
this issue, we've got to remember that we are working within a 
world culture and maybe, maybe we can start the process of 
helping to influence a world cultural experience in a positive 
manner. God bless Governor Rufo. He left office frustrated with 
the fact that he couldn't change something that he saw as a 
cancer in his culture that he was trying to remove.
    But thank you, Mr. Chairman. I yield back.
    Mr. Upton. Thank you. In closing, I'd like to say a couple 
of things. First of all to both of you we appreciate your time 
and your very hard work and to those that were not able to 
come, Senator Mitchell, Senator Baker, we know that their 
spirit and their work help lend great credence to this hearing. 
I also want to thank all of the members that participated on 
both sides of the aisle and the staff who worked countless 
hours getting documents, doing questions, really helping us 
understand the issue.
    I talked to Senator McCain yesterday with regard to the 
hearings that he held in the spring and I intend to talk to him 
yet this evening before he goes to conduct his hearing that 
he's going to have next week as well. And I guess the reason--
and he thanked me for holding this hearing today. And as I see 
it, this hearing does provide the setting. It initiates the 
momentum, it helps send a message. It rallies the troops that 
will be casting these votes later this month and again in 
December to make sure that the votes will be there so that we 
are all proud, not only as Americans but as citizens on this 
planet. And I would hope that in your discussions and in your 
work, particularly Dr. Kissinger as a member of that committee 
and others in this room that will be voting as well, that you 
will convey that message and that spirit in a constructive way 
in terms of the work that this committee is trying to do.
    I have a daughter who wrote a letter to the local city 
schools complaining that the gymnastics program was being 
canceled and that if it was canceled, if indeed they followed 
through on that recommendation, that they would lose a future 
Olympian who at some point in the future would be in those 
Olympics. It is in that spirit that we're all here because 
we're proud of the Olympics, whether it be a Jesse Owens, 
whether it be a Mohammad Ali, a Mark Spitz, anyone in the world 
that can triumph in those world games and what they mean to all 
of us.
    And so it is in that ethics, with that integrity that we 
urge you to carry on your mission. We appreciate the work that 
you have done and as they say in Ann Arbor, thanks for coming 
to the big house today.
    Mr. Klink. Would the gentleman yield for one moment.
    Mr. Upton. The gentleman from Pennsylvania.
    Mr. Klink. Thank you for that. That was a fine closing 
statement. I see Mr. Carrard is still here. I want to thank you 
for coming today as well. I see we've got some of our other 
witnesses that stayed around. I'm not speaking for Chairman 
Upton but I'm sure he agrees with me. We have doors on the 
front of our office and they are open. If we can help you to 
clean this up, if there's something that we can do, I would 
suggest that you get in touch with us. We want to see this 
done. There's not a lot of fun in what we did today. We'd 
rather sit down and talk to all of you about how wonderful 
these games are and how wonderful they're going to be. We did 
not enjoy this, and the same to Dr. Kissinger and Mr. 
Duberstein; if there's some way that you see that we in 
Congress have the ability to positively impact this plan to 
clean up the International Olympic Committee, let us know what 
we can do. We're here to work with you. We have not had fun 
today.
    Mr. Upton. This hearing is adjourned.
    [Whereupon, at 5 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
            Prepared Statement of Hon. Howard H. Baker, Jr.
    Chairman Upton, Ranking Member Klink, and members of the 
subcommittee, I thank you for inviting me to discuss my views on the 
International Olympic Committee's response to the many well-publicized 
allegations of wrongdoing in connection with the site selection process 
for the Olympic Games.
    IOC President Samaranch invited me to become an original member of 
the IOC Ethics Commission, which was established this past March to 
strengthen the IOC's ethical guidelines and thereby provide a clear 
standard of conduct for all members of the Olympic Family. The Ethics 
Commission was also charged with ensuring that these guidelines are 
reflected in the policies and practices of the IOC, National Olympic 
Committees and organizations associated with efforts to host the 
Olympic Games. Furthermore, the Commission takes responsibility for 
considering specific allegations of ethical violations by organizations 
and individuals within the Olympic Family.
    I am joined on the Commission by Javier Perez de Cuellar of Peru, 
former United Nations Secretary General; Kurt Furgler of Switzerland, 
former Swiss President; Robert Badinter of France, former President of 
the French Constitution Court; and Charmaine Crooks of Canada, a five-
time Olympian. Three current IOC members were also appointed to the 
Commission: Judge Keba Mbaye of Senegal, Chairman of the Commission and 
former Vice President of the International Court of Justice, R. Kevan 
Gosper of Australia, IOC Vice President and Chairman and Chief 
Executive Officer of Shell Australia; and Chiharu Igaya of Japan. 
Notably, a majority of the Commission members are not IOC members.
    As an indication of the IOC's commitment to actively promoting a 
culture of ethics within the Olympic Family, the Ethics Commission met 
twice during the month of May and approved a new Code of Ethics that 
was adopted by the IOC Executive Board in June. This Code sets forth 
the basic ethical guidelines to be followed by the entire Olympic 
Family, including IOC members and those representing cities bidding to 
host the Olympic Games. It also establishes that the IOC will play an 
important and ongoing role in monitoring and enforcing these 
guidelines.
    While the IOC did have ethical guidelines in place prior to the 
adoption of the new Code this year, they were not actively communicated 
or enforced. Under the new ethics regime, the IOC will aggressively 
educate members of the Olympic Family about the new Code, exercise an 
oversight function, fully investigate alleged violations of the Code, 
and impose sanctions where necessary.
    To ensure the active involvement of the IOC in maintaining high 
ethical standards, I proposed that the Ethics Commission adopt a set of 
guidelines to govern the implementation, monitoring and enforcement of 
the Code of Ethics. The Commission accepted my recommendation and asked 
me to work with a fellow Commission member (Kevan Gosper of Australia) 
to develop bylaws to the Code that would accomplish this purpose. My 
intention is to establish permanent mechanisms through which clear 
standards for ethical behavior will be communicated by IOC leadership 
to the entire Olympic Family. I would also like to develop the basic 
infrastructure that will ultimately accommodate the processing of 
complaints and the regulation of compliance issues, as well as the 
reporting of same to the Ethics Commission and the IOC. This process is 
ongoing and will be discussed during the next Ethics Commission meeting 
on October 28.
    As the Ethics Commission has worked toward establishing stronger 
ethical guidelines for the Olympic Movement, it has also considered 
individual cases where violations of the existing rules have been 
alleged. Accordingly, the Commission will review the Atlanta situation 
as well which of course was the subject of earlier panels. I know that 
Judge Bell has put together a comprehensive and straightforward report 
that was submitted to the IOC President, who subsequently asked the 
Ethics Commission to conduct a review. Since this review will commence 
during the October 28 Commission meeting, it would be inappropriate for 
me to comment on the substance of the report at this time.
    Concurrent with the efforts of the Ethics Commission, I know that 
many other steps have been taken in the overall effort to reform the 
IOC and address prior allegations of unethical conduct. The IOC itself 
has taken a number of actions during the past several months. After 
conducting an internal investigation of allegations arising out of the 
Salt Lake City matter, the IOC expelled and accepted the resignations 
of several members found to have been engaged in unethical behavior, 
while sternly warning others. As part of a broad effort to reform the 
site selection process, the IOC has prohibited visits by IOC members to 
candidate cities and visits by candidate city representatives to IOC 
members. It has also banned gift giving, in connection with the bidding 
process. Ultimately, the IOC plans to develop a permanent site 
selection process to promote clarity, consistency and, of course, 
ethical behavior. In addition, the IOC has responded to criticisms 
about the secrecy of its financial affairs by releasing a financial 
report that was audited by a major US accounting firm, an action that 
will now be repeated every two years.
    To comprehensively review the IOC's policies and practices and 
recommend necessary changes, the IOC established the IOC 2000 Reform 
Commission, with Dr. Henry Kissinger among its members. Dr. Kissinger 
will no doubt share his thoughts on IOC 2000 during his testimony. In 
my view IOC 2000 has done an outstanding job. I am happy that the good 
work done by the Special Bid Oversight Commission chaired by Senator 
Mitchell and Vice-Chairman Ken Duberstein has been received and given 
serious consideration. I know that IOC 2000 reported preliminary 
recommendations this summer and plans to submit a final report to the 
IOC for its consideration during a special session in December. I am 
hopeful that the IOC will fully support it.
    While I was initially skeptical about whether the IOC would 
undertake serious ethical and structural reforms in a fairly short 
period of time, I am now convinced that the IOC and its membership 
understand and accept the need for meaningful change. The IOC's actions 
thus far are consistent with my belief It has also become clear to me 
that all international bodies, National Olympic Committees and 
individuals that are part of the Olympic Movement must join with the 
IOC in accepting responsibility for conducting themselves in a manner 
that will preserve the integrity of the Movement for generations to 
come. The IOC certainly cannot in any way encourage a ``culture of 
corruption'' as many have alleged, but a concurrent obligation exists 
on the part of the entire Olympic Family to recognize and follow the 
highest ethical standards. Ultimately, we all want the Olympics to be 
about the athletes and the competition, not about ethical scandals.
    Going forward, the IOC must send a very clear message that its 
members cannot and will not be unduly influenced during the site 
selection process for the Olympic Games. Those cities and countries 
bidding to host the Games must correspondingly abstain from any 
activities that might even be perceived as improper. In my view, this 
kind of cooperative effort is required if we are to see lasting change 
and the long term preservation of the integrity of the Olympic 
Movement.
    Thank you for allowing me to express my views.


    [GRAPHIC] [TIFF OMITTED]60363.073
    
    [GRAPHIC] [TIFF OMITTED]60363.074
    
    [GRAPHIC] [TIFF OMITTED]60363.075
    
    [GRAPHIC] [TIFF OMITTED]60363.076
    
    [GRAPHIC] [TIFF OMITTED]60363.077
    
    [GRAPHIC] [TIFF OMITTED]60363.078
    
    [GRAPHIC] [TIFF OMITTED]60363.079
    
    [GRAPHIC] [TIFF OMITTED]60363.080
    
    [GRAPHIC] [TIFF OMITTED]60363.081
    
    [GRAPHIC] [TIFF OMITTED]60363.082
    
    [GRAPHIC] [TIFF OMITTED]60363.083
    
    [GRAPHIC] [TIFF OMITTED]60363.084
    
    [GRAPHIC] [TIFF OMITTED]60363.085
    
    [GRAPHIC] [TIFF OMITTED]60363.086
    
    [GRAPHIC] [TIFF OMITTED]60363.087
    
    [GRAPHIC] [TIFF OMITTED]60363.088
    
    [GRAPHIC] [TIFF OMITTED]60363.089
    
    [GRAPHIC] [TIFF OMITTED]60363.090
    
    [GRAPHIC] [TIFF OMITTED]60363.091
    
    [GRAPHIC] [TIFF OMITTED]60363.092
    
    [GRAPHIC] [TIFF OMITTED]60363.093
    
    [GRAPHIC] [TIFF OMITTED]60363.094
    
    [GRAPHIC] [TIFF OMITTED]60363.095
    
    [GRAPHIC] [TIFF OMITTED]60363.096
    
    [GRAPHIC] [TIFF OMITTED]60363.097
    
    [GRAPHIC] [TIFF OMITTED]60363.098
    
    [GRAPHIC] [TIFF OMITTED]60363.099
    
    [GRAPHIC] [TIFF OMITTED]60363.100
    
    [GRAPHIC] [TIFF OMITTED]60363.101
    
    [GRAPHIC] [TIFF OMITTED]60363.102
    
    [GRAPHIC] [TIFF OMITTED]60363.103
    
    [GRAPHIC] [TIFF OMITTED]60363.104
    
    [GRAPHIC] [TIFF OMITTED]60363.105
    
    [GRAPHIC] [TIFF OMITTED]60363.106
    
    [GRAPHIC] [TIFF OMITTED]60363.107
    
    [GRAPHIC] [TIFF OMITTED]60363.108
    
    [GRAPHIC] [TIFF OMITTED]60363.109
    
    [GRAPHIC] [TIFF OMITTED]60363.110
    
    [GRAPHIC] [TIFF OMITTED]60363.111
    
    [GRAPHIC] [TIFF OMITTED]60363.112
    
    [GRAPHIC] [TIFF OMITTED]60363.113
    
    [GRAPHIC] [TIFF OMITTED]60363.114
    
    [GRAPHIC] [TIFF OMITTED]60363.115
    
    [GRAPHIC] [TIFF OMITTED]60363.116
    
    [GRAPHIC] [TIFF OMITTED]60363.117
    
    [GRAPHIC] [TIFF OMITTED]60363.118
    
    [GRAPHIC] [TIFF OMITTED]60363.119
    
    [GRAPHIC] [TIFF OMITTED]60363.120
    
    [GRAPHIC] [TIFF OMITTED]60363.121
    
    [GRAPHIC] [TIFF OMITTED]60363.122
    
    [GRAPHIC] [TIFF OMITTED]60363.123
    
    [GRAPHIC] [TIFF OMITTED]60363.124
    
    [GRAPHIC] [TIFF OMITTED]60363.125
    
    [GRAPHIC] [TIFF OMITTED]60363.126
    
    [GRAPHIC] [TIFF OMITTED]60363.127
    
    [GRAPHIC] [TIFF OMITTED]60363.128
    
    [GRAPHIC] [TIFF OMITTED]60363.129
    
    [GRAPHIC] [TIFF OMITTED]60363.130
    
    [GRAPHIC] [TIFF OMITTED]60363.131
    
    [GRAPHIC] [TIFF OMITTED]60363.132
    
    [GRAPHIC] [TIFF OMITTED]60363.133
    
    [GRAPHIC] [TIFF OMITTED]60363.134
    
    [GRAPHIC] [TIFF OMITTED]60363.135
    
    [GRAPHIC] [TIFF OMITTED]60363.136
    
    [GRAPHIC] [TIFF OMITTED]60363.137
    
    [GRAPHIC] [TIFF OMITTED]60363.138
    
    [GRAPHIC] [TIFF OMITTED]60363.139
    
    [GRAPHIC] [TIFF OMITTED]60363.140
    
    [GRAPHIC] [TIFF OMITTED]60363.141
    
    [GRAPHIC] [TIFF OMITTED]60363.142
    
    [GRAPHIC] [TIFF OMITTED]60363.143
    
    [GRAPHIC] [TIFF OMITTED]60363.144
    
    [GRAPHIC] [TIFF OMITTED]60363.145
    
    [GRAPHIC] [TIFF OMITTED]60363.146
    
    [GRAPHIC] [TIFF OMITTED]60363.147
    
    [GRAPHIC] [TIFF OMITTED]60363.148
    
    [GRAPHIC] [TIFF OMITTED]60363.149
    
    [GRAPHIC] [TIFF OMITTED]60363.150
    
    [GRAPHIC] [TIFF OMITTED]60363.151
    
    [GRAPHIC] [TIFF OMITTED]60363.152
    
    [GRAPHIC] [TIFF OMITTED]60363.153
    
    [GRAPHIC] [TIFF OMITTED]60363.154
    
    [GRAPHIC] [TIFF OMITTED]60363.155
    
    [GRAPHIC] [TIFF OMITTED]60363.156
    
    [GRAPHIC] [TIFF OMITTED]60363.157
    
    [GRAPHIC] [TIFF OMITTED]60363.158
    
    [GRAPHIC] [TIFF OMITTED]60363.159
    
    [GRAPHIC] [TIFF OMITTED]60363.160
    
    [GRAPHIC] [TIFF OMITTED]60363.161
    
    [GRAPHIC] [TIFF OMITTED]60363.162
    
    [GRAPHIC] [TIFF OMITTED]60363.163
    
    [GRAPHIC] [TIFF OMITTED]60363.164
    
    [GRAPHIC] [TIFF OMITTED]60363.165
    
    [GRAPHIC] [TIFF OMITTED]60363.166
    
    [GRAPHIC] [TIFF OMITTED]60363.167
    
    [GRAPHIC] [TIFF OMITTED]60363.168
    
    [GRAPHIC] [TIFF OMITTED]60363.169
    
    [GRAPHIC] [TIFF OMITTED]60363.170
    
    [GRAPHIC] [TIFF OMITTED]60363.171
    
    [GRAPHIC] [TIFF OMITTED]60363.172
    
    [GRAPHIC] [TIFF OMITTED]60363.173
    
    [GRAPHIC] [TIFF OMITTED]60363.174
    
    [GRAPHIC] [TIFF OMITTED]60363.175
    
    [GRAPHIC] [TIFF OMITTED]60363.176
    
    [GRAPHIC] [TIFF OMITTED]60363.177
    
    [GRAPHIC] [TIFF OMITTED]60363.178
    
    [GRAPHIC] [TIFF OMITTED]60363.179
    
    [GRAPHIC] [TIFF OMITTED]60363.180
    
    [GRAPHIC] [TIFF OMITTED]60363.181
    
    [GRAPHIC] [TIFF OMITTED]60363.182
    
    [GRAPHIC] [TIFF OMITTED]60363.183
    
    [GRAPHIC] [TIFF OMITTED]60363.184
    
    [GRAPHIC] [TIFF OMITTED]60363.185
    
    [GRAPHIC] [TIFF OMITTED]60363.186
    
    [GRAPHIC] [TIFF OMITTED]60363.187
    
    [GRAPHIC] [TIFF OMITTED]60363.188
    
    [GRAPHIC] [TIFF OMITTED]60363.189
    
    [GRAPHIC] [TIFF OMITTED]60363.190
    
    [GRAPHIC] [TIFF OMITTED]60363.191
    
    [GRAPHIC] [TIFF OMITTED]60363.192
    
    [GRAPHIC] [TIFF OMITTED]60363.193
    
    [GRAPHIC] [TIFF OMITTED]60363.194
    
    [GRAPHIC] [TIFF OMITTED]60363.195
    
    [GRAPHIC] [TIFF OMITTED]60363.196
    
    [GRAPHIC] [TIFF OMITTED]60363.197
    
    [GRAPHIC] [TIFF OMITTED]60363.198
    
    [GRAPHIC] [TIFF OMITTED]60363.199
    
    [GRAPHIC] [TIFF OMITTED]60363.200
    
    [GRAPHIC] [TIFF OMITTED]60363.201
    
    [GRAPHIC] [TIFF OMITTED]60363.202
    
    [GRAPHIC] [TIFF OMITTED]60363.203
    
    [GRAPHIC] [TIFF OMITTED]60363.204
    
    [GRAPHIC] [TIFF OMITTED]60363.205
    
    [GRAPHIC] [TIFF OMITTED]60363.206
    
    [GRAPHIC] [TIFF OMITTED]60363.207
    
    [GRAPHIC] [TIFF OMITTED]60363.208
    
    [GRAPHIC] [TIFF OMITTED]60363.209
    
    [GRAPHIC] [TIFF OMITTED]60363.210
    
    [GRAPHIC] [TIFF OMITTED]60363.211
    
    [GRAPHIC] [TIFF OMITTED]60363.212
    
    [GRAPHIC] [TIFF OMITTED]60363.213
    
    [GRAPHIC] [TIFF OMITTED]60363.214
    
    [GRAPHIC] [TIFF OMITTED]60363.215
    
    [GRAPHIC] [TIFF OMITTED]60363.216
    
    [GRAPHIC] [TIFF OMITTED]60363.217
    
    [GRAPHIC] [TIFF OMITTED]60363.218
    
    [GRAPHIC] [TIFF OMITTED]60363.219
    
    [GRAPHIC] [TIFF OMITTED]60363.220
    
    [GRAPHIC] [TIFF OMITTED]60363.221
    
    [GRAPHIC] [TIFF OMITTED]60363.222
    
    [GRAPHIC] [TIFF OMITTED]60363.223
    
    [GRAPHIC] [TIFF OMITTED]60363.224
    
    [GRAPHIC] [TIFF OMITTED]60363.225
    
    [GRAPHIC] [TIFF OMITTED]60363.226
    
    [GRAPHIC] [TIFF OMITTED]60363.227
    
    [GRAPHIC] [TIFF OMITTED]60363.228
    
    [GRAPHIC] [TIFF OMITTED]60363.229
    
    [GRAPHIC] [TIFF OMITTED]60363.230
    
    [GRAPHIC] [TIFF OMITTED]60363.231
    
    [GRAPHIC] [TIFF OMITTED]60363.232
    
    [GRAPHIC] [TIFF OMITTED]60363.233
    
    [GRAPHIC] [TIFF OMITTED]60363.234
    
    [GRAPHIC] [TIFF OMITTED]60363.235
    
    [GRAPHIC] [TIFF OMITTED]60363.236
    
    [GRAPHIC] [TIFF OMITTED]60363.237
    
    [GRAPHIC] [TIFF OMITTED]60363.238
    
    [GRAPHIC] [TIFF OMITTED]60363.239
    
    [GRAPHIC] [TIFF OMITTED]60363.240
    
    [GRAPHIC] [TIFF OMITTED]60363.241
    
    [GRAPHIC] [TIFF OMITTED]60363.242
    
    [GRAPHIC] [TIFF OMITTED]60363.243
    
    [GRAPHIC] [TIFF OMITTED]60363.244
    
    [GRAPHIC] [TIFF OMITTED]60363.245
    
    [GRAPHIC] [TIFF OMITTED]60363.246
    
    [GRAPHIC] [TIFF OMITTED]60363.247
    
    [GRAPHIC] [TIFF OMITTED]60363.248
    
    [GRAPHIC] [TIFF OMITTED]60363.249
    
    [GRAPHIC] [TIFF OMITTED]60363.250
    
    [GRAPHIC] [TIFF OMITTED]60363.251
    
    [GRAPHIC] [TIFF OMITTED]60363.252
    
    [GRAPHIC] [TIFF OMITTED]60363.253
    
    [GRAPHIC] [TIFF OMITTED]60363.254
    
    [GRAPHIC] [TIFF OMITTED]60363.255
    
    [GRAPHIC] [TIFF OMITTED]60363.256
    
    [GRAPHIC] [TIFF OMITTED]60363.257
    
    [GRAPHIC] [TIFF OMITTED]60363.258
    
    [GRAPHIC] [TIFF OMITTED]60363.259
    
    [GRAPHIC] [TIFF OMITTED]60363.260
    
    [GRAPHIC] [TIFF OMITTED]60363.261
    
    [GRAPHIC] [TIFF OMITTED]60363.262
    
    [GRAPHIC] [TIFF OMITTED]60363.263
    
    [GRAPHIC] [TIFF OMITTED]60363.264
    
    [GRAPHIC] [TIFF OMITTED]60363.265
    
    [GRAPHIC] [TIFF OMITTED]60363.266
    
    [GRAPHIC] [TIFF OMITTED]60363.267
    
    [GRAPHIC] [TIFF OMITTED]60363.268
    
    [GRAPHIC] [TIFF OMITTED]60363.269
    
    [GRAPHIC] [TIFF OMITTED]60363.270
    
    [GRAPHIC] [TIFF OMITTED]60363.271
    
    [GRAPHIC] [TIFF OMITTED]60363.272
    
    [GRAPHIC] [TIFF OMITTED]60363.273
    
    [GRAPHIC] [TIFF OMITTED]60363.274
    
    [GRAPHIC] [TIFF OMITTED]60363.275
    
    [GRAPHIC] [TIFF OMITTED]60363.276
    
    [GRAPHIC] [TIFF OMITTED]60363.277
    
    [GRAPHIC] [TIFF OMITTED]60363.278
    
    [GRAPHIC] [TIFF OMITTED]60363.279
    
    [GRAPHIC] [TIFF OMITTED]60363.280
    
    [GRAPHIC] [TIFF OMITTED]60363.281
    
    [GRAPHIC] [TIFF OMITTED]60363.282
    
    [GRAPHIC] [TIFF OMITTED]60363.283
    
    [GRAPHIC] [TIFF OMITTED]60363.284
    
    [GRAPHIC] [TIFF OMITTED]60363.285
    
    [GRAPHIC] [TIFF OMITTED]60363.286
    
    [GRAPHIC] [TIFF OMITTED]60363.287
    
    [GRAPHIC] [TIFF OMITTED]60363.288
    
    [GRAPHIC] [TIFF OMITTED]60363.289
    
    [GRAPHIC] [TIFF OMITTED]60363.290
    
    [GRAPHIC] [TIFF OMITTED]60363.291
    
    [GRAPHIC] [TIFF OMITTED]60363.292
    
    [GRAPHIC] [TIFF OMITTED]60363.293
    
    [GRAPHIC] [TIFF OMITTED]60363.294
    
    [GRAPHIC] [TIFF OMITTED]60363.295
    
    [GRAPHIC] [TIFF OMITTED]60363.296
    
    [GRAPHIC] [TIFF OMITTED]60363.297
    
    [GRAPHIC] [TIFF OMITTED]60363.298
    
    [GRAPHIC] [TIFF OMITTED]60363.299
    
    [GRAPHIC] [TIFF OMITTED]60363.300
    
    [GRAPHIC] [TIFF OMITTED]60363.301
    
    [GRAPHIC] [TIFF OMITTED]60363.302
    
    [GRAPHIC] [TIFF OMITTED]60363.303
    
    [GRAPHIC] [TIFF OMITTED]60363.304
    
    [GRAPHIC] [TIFF OMITTED]60363.305
    
    [GRAPHIC] [TIFF OMITTED]60363.306
    
    [GRAPHIC] [TIFF OMITTED]60363.307
    
    [GRAPHIC] [TIFF OMITTED]60363.308
    
    [GRAPHIC] [TIFF OMITTED]60363.309
    
    [GRAPHIC] [TIFF OMITTED]60363.310
    
    [GRAPHIC] [TIFF OMITTED]60363.311
    
    [GRAPHIC] [TIFF OMITTED]60363.312
    
    [GRAPHIC] [TIFF OMITTED]60363.313
    
    [GRAPHIC] [TIFF OMITTED]60363.314
    
    [GRAPHIC] [TIFF OMITTED]60363.315
    
    [GRAPHIC] [TIFF OMITTED]60363.316
    
    [GRAPHIC] [TIFF OMITTED]60363.317
    
    [GRAPHIC] [TIFF OMITTED]60363.318
    
    [GRAPHIC] [TIFF OMITTED]60363.319
    
    [GRAPHIC] [TIFF OMITTED]60363.320
    
    [GRAPHIC] [TIFF OMITTED]60363.321
    
    [GRAPHIC] [TIFF OMITTED]60363.322
    
    [GRAPHIC] [TIFF OMITTED]60363.323
    
    [GRAPHIC] [TIFF OMITTED]60363.324
    
    [GRAPHIC] [TIFF OMITTED]60363.325
    
    [GRAPHIC] [TIFF OMITTED]60363.326
    
    [GRAPHIC] [TIFF OMITTED]60363.327
    
    [GRAPHIC] [TIFF OMITTED]60363.328
    
    [GRAPHIC] [TIFF OMITTED]60363.329
    


    THE OLYMPIC SITE SELECTION PROCESS: REVIEW OF THE REFORM EFFORT

                              ----------                              


                      WEDNESDAY, DECEMBER 15, 1999

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2123 Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Barton, Burr, 
Bryant, Waxman, and DeGette.
    Also present: Representative Oxley.
    Staff present: Jan Faiks, majority counsel; Clay Alspach, 
legislative clerk; and Chris Knauer, minority investigator.
    Interpreters present: Alexandre Schiavo and Fernando van 
Reigersberg.
    Mr. Upton. Good morning, everyone, and welcome. We are 
sorry for the slight delay this morning. We have a number of 
members that are stranded at a variety of different airports 
around the country, and at this point, I will ask that their 
remarks be included by unanimous consent as part of the record.
    And I know that a number of members are still going to try 
to get here for the hearing that will go much of the day. So we 
wish for them to have safe travel and get here as fast as they 
can.
    We are here today because the Olympic Games are too 
important to allow a culture of corruption to be whitewashed 
and perpetuated by a piece of paper called ``reforms.'' The 
record is riddled with evidence of over a decade's worth of 
blatant abuse which was ignored by those who consistently, 
arrogantly, unbelievably, turned a blind eye to the ugly truth. 
Now, after being dragged under the magnifying glass, the IOC 
reports to have turned over a new leaf. They say they have seen 
the light. They say action has been taken. The question is, can 
we trust that the reforms will be vigorously enforced once the 
spotlight has dimmed? How can we be sure that business as usual 
has truly ended?
    In May of this year, when the committee started its inquiry 
into the Atlanta organizing committee's 1996 Olympic bid, we 
wanted to learn whether the events surrounding the Salt Lake 
City's Olympic bid were an isolated incident or part of a 
larger pattern of misconduct. At the first hearing, the Atlanta 
organizers and other witnesses testified that Atlanta actively 
gathered information about IOC members and, armed with this 
information, broke gift and travel rules in order to keep its 
host city competitive.
    Additionally, the committee learned that IOC members 
requested and received numerous gifts, travel and other perks 
from Atlanta organizers. Based on the testimony and records 
presented in the first hearing, including the 1991 Toronto 
report, it is clear that Salt Lake City and Atlanta were not 
the only bidding cities engaged in improper gift giving. Sadly, 
this culture of corruption has existed for more than a decade. 
Today, we will hear directly, for the first time, from the man 
who has headed the IOC since 1980, Juan Antonio Samaranch.
    As we all know, the IOC voted on a reform package this past 
weekend, and Mr. Samaranch has received kudos for steering 
these reforms through. Today, however, he must do more than 
merely outline what the reforms are intended to do. He must 
detail exactly how he will personally enforce what is written 
on paper. The conduct by IOC members in the bidding cities did 
not spring up yesterday, and it will not go away simply because 
there are new rules written on a piece of paper. The rules on 
paper, no matter how tough or complete, are just that.
    Frankly, it is hard to have confidence in the success of 
these reforms, given some of the disturbing statements in the 
media the last couple of days. These include the IOC Ethics 
Commission declaration that they, ``Do not plan to initiate 
investigations and probably would not take up any new cases 
that develop out of the Salt Lake City probe.''
    Another panel member, Robert Badinter, says, ``We will not 
be detectives or Scotland Yard or the General Attorney of the 
United States.''
    Mr. Samaranch has declared, ``The new millennium will see a 
new International Olympic Committee.''
    We are at a point where we want to believe, based on 
enactment of these reforms, a new day has dawned. The bottom 
line needs to be trust, but verify, verify, verify.
    Along those lines we will hear also today from Senator 
Howard Baker, who is the only American member on the new IOC 
Ethics Commission. The Ethics Commission is charged with 
ensuring that ethical standards for IOC members are clear, 
applied and, in fact, enforced. We want to learn whether the 
Ethics Commission will be strong enough to end the mentality 
that rules are made to be broken.
    On the second panel we will also hear from Senator George 
Mitchell and Dr. Henry Kissinger. Senator Mitchell chaired the 
USOC's Special Bid Oversight Commission to review the 
circumstances surrounding the Salt Lake City bid and to make 
recommendations to improve the process. Dr. Kissinger is, in 
fact, a member of the IOC 2000 Commission.
    The bidding process was eroding away from an evaluation of 
the true merits of a bid city into an auction awarding the best 
bidder. The qualifications of a city began to matter less and 
less. How many gifts given to IOC members mattered more and 
more. Only after the Salt Lake City scandal erupted and was 
exposed on the world stage did the IOC finally step up to the 
plate and address the need for reform.
    My concern about the IOC's commitment is based upon their 
response and President Samaranch's reaction, in particular, to 
over a decade of serious warnings and allegations that 
improprieties were occurring. The Toronto report was presented 
in 1991 to a group of IOC executive committee members, 
including Mr. Samaranch, and yet no serious follow-up 
investigation occurred that the author of the report, Mr. 
Henderson, is aware of. Certainly no one asked to see Toronto's 
records, which were public at the time.
    Additionally, Mr. Bob Helmick, an IOC executive committee 
member, never received from the IOC a copy of Toronto's report, 
and he is not aware of any further investigation into the 
allegations. The report should have served as a clear warning 
shot across the bow. Was no one looking? Was no one standing 
watch? Or was this shot simply ignored?
    In fact, there is documentation on this culture of 
corruption dating back to the mid-1980's. Peter Ueberroth's 
biography ``Made in America'' describes the bidding process for 
the Seoul games that Ueberroth saw as tantamount to bribery.
    The 1987 L.A. Times details a luxurious life-style enjoyed 
by an elite few in which travel is in grand manner, every 
expectation is fulfilled, and it is ``all on the house.''
    In 1992, another Washington Post article states, ``Cities 
often go to great lengths to impress its members, who have been 
given the opportunity to play golf at Augusta National, ski in 
the Alps, or have their names engraved on a plaque on the Great 
Wall.
    In September, 1997, the Post discusses South African 
officials forced to apologize for offering first class airplane 
tickets to wives of 19 IOC officials. Yet nothing was really 
done to adequately address these problems. In fact, we know of 
one instance when the lavish gift-giving was showered on 
President Samaranch's wife. Mrs. Samaranch and a friend were 
flown by Atlanta organizers to Atlanta with a stopover in 
Charleston, South Carolina, for a cost of more than $12,000. 
The trip included a private fashion show for their enjoyment as 
well.
    The fact that President Samaranch was informed of this trip 
and allowed it to occur does not give me great confidence that 
he is prepared to address similar abuses in the future. 
Consequently, imagine my surprise when I read a recent Time 
magazine article regarding an interview with President 
Samaranch, when he was asked about his wife's trip to Atlanta 
and whether she would make another trip to a bidding city, when 
the response was, ``Maybe. It depends. After all, my wife is 
the wife of the president.''
    Why should I or any member of this panel believe that the 
IOC leadership is serious about implementing these reforms now? 
We need to make sure that the mistakes of the past are not 
repeated.
    Our last panel today features some of the finest athletes 
in the United States, and I am proud to represent a district 
that some Olympians have called home, including Jesse Owens and 
Muhammad Ali. These men and women practice many, many years, 
often overcoming tremendous odds to compete for Olympic 
victory. On behalf of today's Olympic athletes, past Olympic 
competitors, and athletes throughout the world striving to be 
Olympians, this committee will maintain its vigilance over the 
IOC reform effort. The athletes represent the very best in the 
Olympic movement and they deserve no less than the best from 
the IOC and its leadership.
    I will yield to the acting ranking member of this 
subcommittee, as Mr. Klink is stranded in Pittsburgh, Ms. 
DeGette, from Colorado.
    [The prepared statement of Hon. Fred Upton follows:]
   Prepared Statement of Hon. Fred Upton, Chairman, Subcommittee on 
                      Oversight and Investigations
    Good morning and welcome. We are here because the Olympic Games are 
too important to allow a culture of corruption to be white-washed and 
perpetuated by a piece of paper called reforms. The record is riddled 
with evidence of over a decade's worth of blatant abuse which was 
ignored by those who consistently, arrogantly--unbelievably--turned a 
blind-eye to the ugly truth. Now, after being dragged under the 
magnifying glass, the IOC purports to have turned over a new leaf They 
say, they have seen the light. They say, action has (finally) been 
taken. The question is: can we trust that the reforms will be 
vigorously enforced once the spotlight has dimmed? How can we be sure 
that the business-as-usual era has truly ended?
    In May of this year, when the Committee started its inquiry into 
the Atlanta Organizing Committee's 1996 Olympic bid, we wanted to learn 
whether the events surrounding Salt Lake City's Olympic bid were an 
isolated incident or part of a larger pattern of misconduct. At the 
first hearing, the Atlanta organizers and other witnesses testified 
that Atlanta actively compiled personal profiles detailing likes and 
dislikes of IOC members, and armed with this information, broke gift 
and travel rules in order to keep its host city bid competitive. 
Additionally, the Committee learned that IOC members requested and 
received numerous gifts, travel and other perks from the Atlanta 
organizers.
    Based on the testimony and records presented in the first hearing, 
including the 1991 Toronto Report, it is clear that Salt Lake City and 
Atlanta were not the only bidding cities engaged in improper gift 
giving. Sadly, this culture of corruption has existed for more than a 
decade. Today, we will hear directly--for the first time--from the man 
who has headed the IOC since 1980, Juan Antonio Samaranch.
    As we all know, the IOC voted on a reform package this last weekend 
and Mr. Samaranch has received kudos for steering these reforms 
through. Today, however, he must do more than merely outline what the 
reforms are intended to do. He must detail exactly how he will 
personally enforce what is written on paper. The conduct by IOC members 
and the bidding cities did not spring up yesterday, and it will not go 
away simply because there are new rules written on a piece of paper. 
Rules on paper, no matter how tough or complete are just that. Frankly, 
it's hard to have confidence in the success of these reforms given some 
of the disturbing statements in the media in the past few days. These 
include:

<bullet> The IOC Ethics Commission declaration that they ``do not plan 
        to initiate investigations and probably would not take up any 
        new cases that develop out of the Salt lake City probe.''
<bullet> Another panel member--Robert Badinter--says ``we will not be 
        detectives or Scotland Yard or the General Attorney of the 
        United States.''
    Mr. Samaranch has declared ``the new millennium will see a new 
International Olympic Committee.'' We are at a point where we want to 
believe--based on enactment of these reforms--a new day has dawned. The 
bottom line needs to be trust but verify, verify, verify.
    Along those lines, we will also hear today from Senator Howard 
Baker, who is the only American member on the new IOC Ethics 
Commission. The Ethics Commission is charged with ensuring that ethical 
standards for IOC members are clear, applied, and enforced. We want to 
learn whether the Ethics Commission will be strong enough to end the 
mentality that ``rules are made to be broken.''
    On the second panel we will hear from Senator George Mitchell and 
Dr. Henry Kissinger. Senator Mitchell Chaired the USOC's Special Bid 
Oversight Commission. He along with Ken Duberstein and others, reviewed 
the circumstances surrounding Salt Lake City's bid and made 
recommendations to improve the process. We will also hear from Dr. 
Kissinger who is a member of the IOC 2000 Commission.
    The bidding process was eroding away from an evaluation of the true 
merits of a bid city into an auction awarding the best bidder. The 
qualifications of a city began to matter less and less--how many gifts 
given to IOC members mattered more and more. Only after the Salt Lake 
scandal erupted and was exposed on the world stage did the IOC finally 
step up to the plate and address the need for reform.
    My concern about the IOC's commitment is based upon their response 
and President Samaranch's reaction, in particular, to over a decade of 
serious warnings and allegations that improprieties were occurring. The 
Toronto Report was presented in 1991 to a group of IOC executive 
committee members, including Mr. Samaranch, and yet no serious follow-
up investigation occurred that the author of the report Mr. Henderson 
is aware of--certainly no one asked to see Toronto's records which were 
public at the time. Additionally, Bob Helmick, an IOC executive 
committee member, never received from the IOC a copy of Toronto's 
report and he is not aware of any further investigation into the 
allegations. This report should have served as a clear warning shot 
across the bow. Was no one looking? Was no one standing watch? Or was 
this shot simply ignored?
    In fact, there is documentation on this culture of corruption 
dating back to the mid-eighties.

<bullet> Peter Ueberroth's biography ``Made In America'' describes a 
        bidding process for the Seoul games that Ueberroth saw as 
        tantamount to bribery.
<bullet> 1987, the LA Times details a luxurious Olympic lifestyle 
        enjoyed by an elite few in which travel is in grand manner, 
        every expectation is fulfilled, and ``it's all on the house.''
<bullet> In 1992, the Washingion Post article states, ``. . . Cities 
        often go to great lengths to impress its members, who have been 
        given the opportunity to play golf at Augusta National, ski in 
        the Alps or have their names engraved on a plaque on the Great 
        Wall.''
<bullet> September 1997 the Washington Post discusses South African 
        officials forced to apologize for offering first-class airplane 
        tickets to the wives of 19 IOC officials from Africa.
    Yet, nothing was really done to adequately address the problems. In 
fact, we know of one instance when the lavish gift giving was showered 
on President Samaranch's wife. Mrs. Samaranch and a friend were flown 
by Atlanta organizers to Atlanta, with a stopover in Charleston, South 
Carolina, for a cost of more than $12,000. The trip even included a 
private fashion show for Mrs. Samaranch's enjoyment. The fact that 
President Samaranch was informed of this trip and allowed it to occur 
does not give me great confidence that he is prepared to address 
similar abuses in the future. Consequently, imagine my surprise when I 
read a recent Time magazine article regarding an interview with 
President Samaranch. When he was asked about his wife's trip to Atlanta 
and whether she would make another trip to a bidding city, he 
responded, ``Maybe, It depends . . . After all, my wife is the wife of 
the president.'' Why should I or any member of this panel believe that 
IOC leadership is serious about implementing these reforms, now?
    We need to make sure that the mistakes of the past are not 
repeated.
    Our last panel today features some of the finest athletes in the 
United States. I am proud to represent an area that some great 
Olympians have called home, including Jesse Owens and Muhammad Ali. 
These men and women practice many, many years, often overcoming 
tremendous odds to compete for Olympic victory. On behalf of today's 
Olympic athletes, past Olympic competitors, and athletes throughout the 
world striving to be Olympians, this Committee will maintain its 
vigilance over the IOC reform effort. The athletes represent the very 
best in the Olympic movement. They deserve no less then the best from 
the IOC and its leadership.

    Ms. DeGette. Thank you very much, Mr. Chairman. Initially, 
I would like to express my thanks to my old friends, to Bill 
Hybl, to Henry Kissinger, and to all of the members of the U.S. 
Olympic Committee who worked very diligently to make sure that 
these reforms were passed, and who have been here in this 
hearing room also working with Congress to let us know what was 
going on, and we do appreciate their efforts. I know I can say 
that for both sides of the aisle.
    But, unfortunately, Mr. Chairman, news of more scandal has 
emerged since our last hearing in October. As we suspected, 
Atlanta and Salt Lake City were not anomalies. Reports from 
Sydney about ticket hoarding and rumors of shredded documents 
in other cities continue to tarnish the Olympic rings. The 
allegations of bribery that have been catalogued in the reports 
provided to this committee cast dark clouds over the true 
spirit of the Olympic Games. And, as we will hear from the 
fourth panel, the real victims of these scandals are the 
athletes and the fans.
    Today, the International Olympic Committee will tout the 
newly approved reforms as a symbol of change and rejuvenated 
effort to refocus the games on sport and sport alone. I hope 
they will have that effect. However, I am concerned about the 
compliance program that is supposed to monitor the IOC reforms. 
They say that the devil is in the details, but thus far we have 
seen very few details.
    I fear that these reforms will be cosmetic and purely to 
mask the aristocratic aura that has formed around the 
organization. And I am not convinced that the reforms approved 
this past weekend can be implemented in a manner that 
alleviates the situations that resulted in IOC members 
forgetting that the games are about elite athletes at the 
pinnacle of their ability.
    This culture of bribery coexisted with the rules of the 
organization in Salt Lake City, in Atlanta, in Sydney, and in 
other host cities. The rules were clear, as we found in our 
last hearing, yet the rules were not adhered to in any way. In 
fact, committee members from Salt Lake City believed that they 
lost the 1992 games to Nagano because they played by the rules. 
This corrupt culture resulted in cities and volunteers shelling 
out hundreds of thousands of dollars to IOC for shopping sprees 
at Saks, medical treatments for IOC members' relatives, and 
college tuition. So I am hopeful that these new reforms will be 
treated differently, but I am also skeptical that they can be.
    I am anxious to learn if our witnesses believe that 
lowering the age for IOC members to 70 years will prohibit 
gifts like a tennis camp in Florida for two teenagers from the 
Republic of the Congo. And I would also like to know why a 
loophole has been created for the term limits which will, in 
essence, result in infinitely renewable terms. I am hoping that 
Mr. Samaranch and our other witnesses can convince me otherwise 
today, but I am afraid that the enforcement program around the 
reforms enacted this weekend will show that what the IOC passed 
will simply be window-dressing and business will go on as 
usual.
    I am particularly concerned, as I said, about the lack of 
detail in the establishment of the Ethics Commission. This is 
perhaps the most crucial aspect of IOC reform. This is the one 
component that can prevent other scandals like the ones that 
brought us here today. However, ironically, this appears to be 
the most murky of the reforms. In fact, three Ethics Commission 
members gave three different answers as to how the commission 
will work when asked about the structure this weekend.
    Two particular guidelines caught my attention upon review 
of the IOC's proposed code of ethics, both discussed in the 
integrity section of the guidelines. One guideline states, 
``Only gifts of nominal value, in accordance with prevailing 
local customs, may be given or accepted by the Olympic parties 
as a mark of respect or friendship.''
    This is a difficult definition, given the wide variety of 
currency, buying power and cultural traditions prevalent in the 
countries participating in the Olympic movement. Most U.S. 
corporations and U.S. Congress are specific, for example, that 
a nominal gift is defined as one which does not have a value of 
more than U.S. $100 or U.S. $50. As currently written, these 
guidelines do nothing to prohibit the exorbitant gift-giving 
that we saw in past scandals.
    The second disturbing guideline states, ``The hospitality 
shown to the members and staff of the Olympic parties, and the 
persons accompanying them, shall not exceed the standards 
prevailing in the host country.'' Again, this definition is 
vague, at best. An Olympic guideline must be universal, and 
perhaps in light of past scandals, more restrictive than some 
would call ``local customs'' of the host countries in order to 
prevent future scandals.
    I hope our witnesses will provide more detail as to how 
this commission will work on a daily basis. How will complaints 
be handled? How will the commission factor in cultural 
differences or even determine what cultural differences are?
    The U.S. Congress, for example, has a self-policing Ethics 
Committee and we all know what a difficult task it is to 
evaluate and discipline peers. The IOC cannot discount the 
importance of this commission nor can it allow it to falter by 
failing to provide proper guidance for Ethics Commission 
members.
    This committee, and I can say probably this entire 
Congress, is eager to work collectively to decide how the 
United States will help in its leadership role to develop and 
implement the new reforms and guidelines that we can stick 
with. I applaud the Mitchell Commission for taking the 
initiative in developing a comprehensive plan for reform. And I 
sincerely hope that Senator Mitchell will continue to offer his 
expertise as the IOC flushes out the details of the Ethics 
Commission and other reforms.
    Again, I applaud the USOC for taking the lead in trying to 
implement the reforms recommended by the Mitchell Commission, 
and I hope this organization is willing to lend its leadership 
and experience to other national Olympic committees as they 
implement similar reforms. But the United States cannot act in 
a vacuum, and I believe we also need to take the lead in 
helping the IOC to instigate tough Ethics Commission guidelines 
so that we can stop the abuses that we have seen.
    Above all, the United States and the USOC can and must 
ensure that the athletes, some of whom we will hear from today, 
will regain their proper place as the central focus of the 
Olympic Games. U.S. cities, like cities worldwide, have had to 
perform like dancing ponies. And the USOC has been just as much 
a victim as anybody. On the other hand, United States cities 
have participated voluntarily in this type of conduct and, 
therefore, it is incumbent on the cities, the USOC, and the 
United States to act as they have in helping the IOC take a 
leadership role in this way.
    In conclusion, I hope that the IOC will extend the good 
faith it showed last weekend and begin to act in the spirit of 
the games it represents and to move to implement successfully 
real reforms. And I believe that if the Ethics Commission is 
strong and independent, these reforms can be achieved.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Diana DeGette follows:]
Prepared Statement of Hon. Diana DeGette, a Representative in Congress 
                       From the State of Colorado
    Thank you Mr. Chairman. Unfortunately, Mr. Chairman, news of more 
scandal has emerged since our last hearing in October. As we suspected, 
Atlanta and Salt Lake were not anomalies. Reports from Sydney about 
ticket hoarding and rumors of shredded documents in other cities 
continue to tarnish the Olympic rings. The allegations of bribery that 
has been catalogued in the reports provided to this committee casts 
dark clouds over the true spirit of the Olympic games. And, as we will 
hear from our third panel, the real victims of these scandals are the 
athletes and the fans.
    Today, the International Olympic Committee will tout the newly 
approved reforms today as a symbol of change and a rejuvenated effort 
to refocus the Games on sport and sport alone. I hope they will have 
that effect. However, they say the devil is in the details, but thus 
far, I have seen very few reforms. I fear that these reforms are purely 
cosmetic reforms and fail to eliminate the aristocratic aura that has 
formed around the organization. I am not convinced that the reforms 
approved this past weekend can be implemented in a manner that 
alleviates the situations that resulted in IOC members forgetting that 
the games are about elite athletes at the pinnacle of their ability.
    This culture of bribery that co-existed with the rules of the 
organization in Salt Lake City, in Atlanta, in Sydney and other host 
cities. The rules were clear, as we learned in our last hearing, yet 
they were not adhered to in any way. In fact, committee members from 
Salt Lake City believed they lost the 1992 games to Nagano because they 
played by the rules. This corrupt culture resulted in cities and 
volunteers shelling out hundreds of thousands of dollars to IOC for 
shopping sprees at Saks, medical treatments for IOC member's relatives 
and college tuition. So I am hopeful that these new reforms will be 
treated differently, but skeptical that they can be. I am anxious to 
learn if our witnesses believe that lowering the age limit for IOC 
membership from 80 to 70 years old will prohibit gifts like a tennis 
camp in Florida for two teenagers from the Republic of the Congo. I 
would like to know why a loophole has been created for the much touted 
``term limits'' which result in infinitely renewable terms. I am 
hopeful that our witnesses can convince me otherwise today, but 
unfortunately I am afraid the reforms enacted this weekend signify that 
the IOC passed will simply be window dressing and business will go on 
as usual.
    I am particularly concerned by the lack of detail in the 
establishment of the Ethics Commission. This is perhaps the most 
crucial aspect of IOC reform; this is the one component that could 
prevent other scandals like those that brought us here today. However, 
this appears to be the murkiest of all the reforms. In fact, three 
Ethics Commission members gave three different answers as to how the 
Commission will work when asked about the structure this weekend. Two 
particular guidelines caught my attention upon review of the IOC's 
proposed Code of Ethics; both discussed in the Integrity section of the 
guidelines. One guideline states: ``Only gifts of nominal value, in 
accordance with prevailing local customs, may be given or accepted by 
the Olympic parties, as a mark of respect or friendship.''
    This is a difficult definition given the wide variety of currency, 
buying power and cultural traditions prevalent in the countries 
participating in the Olympic movement. Most U.S. corporations, and the 
United States Congress are specific, for example, that nominal gift is 
defined as one which does not have a value of more than $US 100, or $US 
50. As currently, written, the guideline does nothing to prohibit the 
exorbitant gift giving we saw in past scandals.
    The second disturbing guideline states: ``The hospitality shown to 
the members and staff of the Olympic parties, and the persons 
accompanying them, shall not exceed the standards prevailing in the 
host country.''
    Again, the definition is vague, at best. An Olympic guideline must 
be universal and perhaps, in light of past scandals, more restrictive 
than some would call local customs of the host countries in order to 
prevent future scandals.
    I hope our witnesses will provide more detail as to how this 
commission will work on a daily basis. How will complaints be handled? 
How will the Commission factor in cultural differences? Or even 
determine what cultural differences are? The US Congress has a self-
policing ethics Committee, and we all know what a difficult task it is 
to evaluate and discipline peers. The IOC cannot discount the 
importance of this Commission, nor can it allow it to falter by failing 
to provide proper guidance for Ethics Commission members.
    This Committee, and indeed I can probably say this entire Congress, 
is anxious to work collectively to decide how the United States is 
going to take the leadership role implementing the new reforms and 
developing guidelines that we can stick with. I applaud the Mitchell 
Commission for taking the initiative in developing a comprehensive plan 
for reform and I sincerely hope that Senator Mitchell will continue to 
offer his expertise as the IOC flushes out the details of an Ethics 
Commission and other reforms. Again, I applaud the USOC for taking the 
lead in trying to implement the reforms recommended by the Mitchell 
Commission and I hope this organization is ready to lend its leadership 
and experience to other national Olympic Committees as they implement 
similar reforms. But the United States cannot act in a vacuum. I 
believe we must take the lead in insisting that the IOC install tough 
guidelines. Above all, the US and the USOC can and must ensure that the 
athletes, some of whom we'll hear from today, regain their proper place 
as the central focus of the Olympic games.
    U.S. cities, like cities worldwide, have had to perform like 
dancing ponies and the USOC has been just as much a victim as anyone. 
On the other hand, United States cities have participated in this type 
of conduct, and, therefore, it is incumbent on the cities, the USOC, 
and the United States Congress to take the lead in putting 
international pressure in cleaning up these practices.
    I hope the IOC will extend the good faith it showed this weekend 
and will begin to act in the spirit of the games it represents and move 
to successfully implement the reforms it has approved.

    Mr. Upton. Thank you.
    At this point I will recognize the vice chairman of the 
subcommittee for an opening statement, Mr. Burr from North 
Carolina.
    Mr. Burr. Mr. Chairman, I ask unanimous consent to enter my 
statement into the record, my written statement, because I 
think it is pretty good, but I feel compelled, listening to my 
colleagues before me, to make some remarks off the cuff.
    Let me welcome Mr. Samaranch. I know this is voluntary 
participation, and I appreciate your willingness to come and to 
testify in front of this committee. I also want to take this 
opportunity to welcome our other witnesses, because I believe 
it is extremely important that we do a thorough, fair and open 
process in completion of this task before Congress.
    I had the opportunity to play college football. I 
understand what real competition is, what winning and losing 
is. I understand what is generated from fans of schools and 
fans of countries as it relates to sporting events. I also 
understand the integrity that must exist for that support to 
continue and for that trust to build. One only has to look at 
the reports since the weekend to understand, and I commend the 
IOC and its president for a number of changes, that there are 
still statements that contradict each other.
    It was quoted in The Washington Post by the President of 
John Hancock Mutual Life Insurance, Mr. D'Allessandro, that 
``the first thing they have accomplished is they have 
acknowledged that public opinion does count. In the past, there 
has been no limit on the levels of arrogance. We are somewhat 
more confident, but we will have a wait-and-see attitude with 
how everything is implemented.''
    In the same article, an IOC member, Mr. Nicaleu of Greece, 
told Mr. Samaranch over the weekend, ``I would suggest you do 
not go to Washington. You are the President of the IOC and you 
are only accountable to the Olympic family.''
    What a huge difference in the perspective of, one, a 
financial contributor to the Olympic Games and, two, a member 
of the voting committee who had an opportunity to pass real 
reforms.
    Mr. President, I am thankful you did not listen to that IOC 
member from Greece and that you are in fact in front of us 
today, because I think the correct observation is closer to the 
President of John Hancock Mutual Life, that public opinion does 
count, that public trust and integrity is essential to the 
games, and that the Olympics are about athletes.
    I agree with Mr. Samaranch's statements, as they appeared 
in the world press, that this weekend's vote marked an historic 
page in the long history of the IOC. Unfortunately, just 
turning the page on the transgressions of the past will not 
ensure that those transgressions are not repeated. You can turn 
the page, Mr. Samaranch, but the next page will not make much 
sense if the IOC doesn't build on the recommendations and see 
that meaningful reform actually takes place.
    Many IOC members have expressed concerns that the outside 
world, including this subcommittee and this Congress, has no 
business involving itself in IOC affairs. I must respectfully 
disagree. The IOC may own the rights to the Olympic rings and 
other symbols, but the Olympic Games themselves are bigger than 
any one person and any one group. They belong to the people of 
the world, to the athletes that devote their lives to excelling 
in a sport, to the spectators who stand in awe of their 
accomplishments. The Olympic family does not consist of just 
the IOC and its membership, and that is something the current 
IOC membership has to date failed to recognize.
    The entire Olympic family deserves nothing less than the 
knowledge that the games and all events surrounding the games 
are conducted in a free, open and fair manner. I hope that, as 
we move forward, Mr. Samaranch, that in fact we will all aspire 
to a free, open and fair process.
    With that, I yield back, Mr. Chairman.
    [The prepared statement of Hon. Richard Burr follows:]
 Prepared Statement of Hon. Richard Burr, a Representative in Congress 
                    from the State of North Carolina
    Thank you Mr. Chairman, and thank you for holding this important 
hearing--the second held by this subcommittee to investigate the 
Olympics site selection process. Our first, in October, left many 
questions unanswered and many areas unexplored. I am hopeful that we 
can address some of the remaining issues today, but I hold no illusions 
that today will mark the end of this subcommittee's involvement in this 
issue. Nor should it. The American people--who have long been champions 
of the Olympic movement and the staunchest supporters of its values and 
principles--as well as people around the world deserve to know if those 
charged with promoting, developing, and staging the Olympic Games are 
doing so not in their own self-interest but in the interest of the 
Games and all they stand for.
    I am pleased to see that the subcommittee has invited such 
distinguished witnesses to testify before us today, particularly the 
president of the International Olympic Committee, Juan Antonio 
Samaranch. I was pleased to see the IOC approved all of the IOC 2000 
Commission's recommendations this past weekend, due in no small part to 
the efforts of Mr. Samaranch. However, a number of serious questions 
remain that I hope Mr. Samaranch and our other witnesses can address.
    Of utmost importance to me is adequate oversight and control of the 
site selection and bid process. Without serious changes in the way the 
process is managed, none of the reforms adopted by the IOC will have 
any meaning. The faults in the bid process go to the heart of the 
difficulties currently facing the Olympic Movement, and those faults 
must be repaired. We must fully understand the relationship between bid 
cities, national Olympic committees, and the IOC as well as the 
responsibilities of each.
    I agree with Mr. Samaranch's statements, as they appeared in the 
world press, that this weekend's votes mark a historic page in the long 
history of the IOC. Unfortunately, just turning the page on the 
transgressions of the past will not ensure that those transgressions 
are not repeated. You can turn the page, Mr. Samaranch, but the next 
page will not make much sense if the IOC doesn't build on the 
recommendations and see that meaningful reform actually takes place.
    Many IOC members have expressed concerns that the outside world, 
including this subcommittee and this Congress, has no business 
involving itself in the IOC's affairs. I must respectfully disagree. 
The IOC may own the rights to the Olympic rings and other symbols, but 
the Olympic Games themselves are bigger than any one person or any one 
group. They belong to the people of the world, from the athletes that 
devote their lives to excelling in a sport to the spectators who stand 
in awe of their accomplishments. The Olympic Family does not consist of 
just the IOC and its membership, and that is something the current IOC 
membership has, to date, failed to recognize. The entire Olympic Family 
deserves nothing less than the knowledge that the Games, and all events 
surrounding the Games are conducted in a free, open, and fair manner.
    Thank you, Mr. Chairman.

    Mr. Upton. Thank you, Mr. Burr.
    The gentleman from California, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
thank you for holding this important hearing, and I want to 
welcome all of our distinguished guests that are going to be 
appearing before us today.
    Fifteen years ago, my hometown of Los Angeles hosted the 
23rd Summer Olympics. It was a proud moment both for the people 
of Los Angeles and for the entire country. The success of the 
1984 Olympics was an accomplishment that we are still proud of 
today in Los Angeles.
    Unfortunately, the reputation of the Olympics in 1999 is 
very different from what it was in 1984. That is why I believe 
that the United States and, in particular, the U.S. Congress 
has an obligation to try to clean up the Olympics.
    In April, I introduced legislation to prohibit American 
corporations, including the television networks, from providing 
any financial support to the IOC until it instituted the 
reforms proposed by Senator Mitchell's commission. It was a 
tough bill, a controversial one, but a necessary piece of 
legislation. It was also a bill with bipartisan support from 
members with very different political views.
    Now that the reforms have been adopted, some people believe 
that the U.S. Congress should step aside. I disagree. Congress 
can and should play a role in ensuring that these reforms are 
actually implemented and that they are effective. If this does 
not happen, Congress should move forward with sanctions like 
those envisioned in my bill. It is easy when you are under a 
lot of pressure to take some actions that appear to be doing 
the right thing, and then, when the world is not paying 
attention, to ignore those very rules.
    In my opinion, there are several important issues that 
still need to be addressed.
    First, are these reforms enough? Does more need to be done 
to ensure that the problems that occurred in Salt Lake City and 
Atlanta do not occur again? I am especially interested in 
hearing Senator Mitchell's views on this topic.
    Second, how will these reforms be enforced? For a long time 
the IOC has had rules against gift giving, rules which were 
regularly disregarded. I have great faith in Senator Baker and 
know that he will do his utmost to enforce the new rules 
adopted this past weekend. But I also know that the culture of 
gift giving and perks that existed for years cannot be 
eliminated overnight, and it certainly cannot be eliminated by 
one person, even if that person is Howard Baker, unless he has 
the complete support of the rest of the IOC.
    Finally, merely changing a few rules does not mean we are 
going to solve the problem. After all, it is easy to rewrite 
rules. It is much harder to change attitudes and behaviors, 
particularly when they are so ingrained in the fabric of an 
organization. That is the real challenge facing the IOC in the 
coming months. Without a genuine change in attitude, no amount 
of enforcement will be enough.
    When I read the press coverage of this weekend's meeting, I 
was struck by the reaction of several IOC members to the reform 
package. An Italian IOC member said, ``Our vote was mostly a 
vote of confidence for Samaranch. Many, many people were 
against some of the proposals. But we decided almost 
unanimously that we would support the President.'' To be honest 
with you, that does not sound like someone who believes in the 
importance of reform.
    Even more incredible is a comment from a Pakistani member, 
who said that bid cities used ``Satanic''--that is his word, 
``Satanic''--methods to prey upon IOC members. This IOC member 
also said that the IOC was ``unnecessarily suffering from a 
guilt complex.'' Clearly, this is another IOC member who does 
not get it.
    Reading these comments does not inspire a great deal of 
confidence in me that the IOC problems will be solved 
overnight. I hope that the witnesses today will give us some 
reason to feel confident.
    Thank you, Mr. Chairman.
    Mr. Upton. The gentleman from Texas, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman.
    I, too, want to welcome the distinguished President of the 
International Olympic Committee to this subcommittee hearing. I 
have great admiration for many of the innovations that you have 
instigated during your tenure as president since 1980. I think 
it is only fair that you get the credit for the good things, 
but I think it is also fair that you get the accountability for 
the bad things.
    I have a written statement, Mr. Chairman, I am going to put 
in the record. And, as Mr. Burr, I am just going to kind of 
outline what my questions will be.
    I think the first question I am going to ask when it is my 
appropriate turn is why, of the reforms that have been 
implemented, apparently none of them apply to the office of the 
presidency? As I understand it, even if these reforms are fully 
implemented and enforced, you would be able to travel at host 
city expense; you would be able, or whoever the president 
happens to be, would be able to receive gifts; all the things 
that have caused consternation as they have been reported in 
the United States. If you or whoever becomes president were to 
continue those activities, it would be acceptable. I just 
cannot believe that that would meet with much support if the 
rank and file of the Olympic movement knew that.
    Second thing I am going to ask is why it is necessary for 
the Olympic committee to maintain a luxury suite at the Palace 
Hotel in Lausanne, Switzerland, for your personal use, your 
private use, apparently your exclusive use on a year-round 
basis. We have not been able to determine exactly how much that 
costs, but the estimates range from $100,000 to $300,000 a 
year. I do not see how that furthers the Olympic movement 
myself, but perhaps you can explain that to us.
    We would also like to know how it furthers the Olympic 
movement that apparently you feel it is appropriate for your 
family, specifically your wife, to travel at potential host 
city expense all over the globe, and in the case of the Atlanta 
host city at a cost of at least $13,000. And that is exclusive 
of hotel rooms, meals, and shopping excursions. And according 
to documents that the committee has, we are told that she did 
not want to be bothered with looking at the venue, that she 
really liked the high society and to go shopping.
    I have a wife, too. She likes high society, she likes to go 
shopping, but when she goes shopping, I pay for it. The 
potential host city does not pay for it or some committee.
    So those are some of the questions that I am going to be 
asking.
    Quite frankly, I think it is well-known that I have asked 
that you resign. I would like for you to announce today that 
you will resign. I think you have done many good things, but I 
do not think that the good things you have done overwhelm the 
bad practices that have developed, and I think it is time for 
some new blood and some new leadership, and this would be a 
great venue for you to be a true statesman of sport and 
announce that.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Joe Barton follows:]
  Prepared Statement of Hon. Joe Barton, a Representative in Congress 
                        from the State of Texas
    Today's hearing is the second time we, as a Subcommittee, have come 
together to discuss the process in which potential sites for Olympic 
Games are considered, reviewed and chosen by the International Olympic 
Committee, IOC. As we all know, we last met here on October 14th of 
this year in response to the widespread media reports of corruption and 
abuse of power involved in this process. Our last hearing attempted to 
highlight some of the problems involved in this process and, hopefully, 
bring about substantial and meaningful reform within the IOC. Today's 
hearing is to review what efforts have been taken. It should come as no 
surprise to anyone present today that I feel that the reform efforts 
taken thus far by the IOC are not sufficient and the environment for 
potential unethical conduct is still quite evident. In fact, it has 
become obvious to me that true reform of the Olympic site selection 
process will be difficult to enforce until a change in leadership of 
the IOC occurs so that someone with a fresh outlook and impartial voice 
can attempt to address these concerns.
    I look forward to hearing from today's witnesses, specifically 
current president of the IOC, Juan Antonio Samaranch. It is with his 
actions that I personally am most concerned. Mr. Samaranch has been 
quite vocal recently as to the ``sweeping'' reforms he has spearheaded 
in the IOC. However, these recent actions and sound clips by Mr. 
Samaranch may be misleading. During his 19 years in office, many 
questionable actions have occurred by he and other members of IOC 
throughout the site selection process. It is alleged that for many 
years, members were accepting lavish gifts and trips from potential 
site cities, both solicited and unsolicited. In most cases, these items 
were viewed by potential cities as a must in order to secure votes by 
IOC members. It is the opinion of some that President Samaranch knew 
this was occurring and did nothing to stop it because he, too, may have 
been benefitting from and soliciting such actions.
    The IOC is a non profit organization. Why does the IOC have 
overhead costs 3 to 4 times higher than other non-profit organizations? 
Why do proposed reforms of the IOC selection process not appear to 
apply to President Samaranch himself? Why should he be provided a hotel 
suite, year-round, in Switzerland with the hefty cost of over $100,000 
per year paid for by funds from the IOC? In what official capacity did 
his wife and family friend serve when they accepted an all expenses 
paid trip to Atlanta, Charleston and Orlando? How does his influence 
over the Executive Committee and other IOC members affect any attempts 
of impartial investigating by the Ethics Commission? Are there any 
limitations as to the number of times IOC policy can be altered, such 
as the maximum age of IOC serving members for example, to personally 
benefit his standing in the organization?
    These are just a few of many questions that raise serious concerns 
with me as to the ability of Mr. Samaranch to effectively serve as 
President of the IOC. I feel that it would be beneficial that Mr. 
Samaranch resign so that any reform efforts established by the IOC will 
be able to be independent in nature, clear in direction and fresh in 
its outlook. Until a change in leadership exists, I am concerned that 
it will be very difficult to ensure that any reform proposals will be 
taken seriously and feel that is safe to say that the temptation for 
members to continue such unethical practices may continue to occur 
throughout the IOC.
    I appreciate Chairman Upton holding this follow-up hearing and am 
looking forward to hearing the testimony of all the witnesses gathered 
here today.

    Mr. Upton. Thank you, Mr. Barton.
    Mr. Bryant, from Tennessee.
    Mr. Bryant. Thank you, Mr. Chairman. I do appreciate, as 
everyone here on this panel does today, you holding a follow-up 
hearing on this important issue. I especially want to thank all 
of our distinguished witnesses, not only this panel but the 
panels to come.
    I am confident today that the panels we will hear from will 
provide the members of this subcommittee as well as the 
supporters of the Olympic Games around the world a new 
perspective on the culture of the IOC and its dedication to 
achieving much needed reform. I was pleased to see in the news 
over the weekend that the IOC had taken several important steps 
toward restoring the public's faith in the sanctity of the 
games.
    As a result of the 2-day meeting of all the IOC members, 
the committee expelled six members, and four others resigned 
after they were accused of breaking rules on accepting gifts 
from representatives of the Salt Lake City team during its 
successful bid for the 2002 Winter Games.
    Among the reforms that I have made reference to, that you 
have agreed to over this weekend, was a proposal to make 
members face reelection every 8 years, thus eliminating the 
unchecked power and influence associated with lifetime 
appointments.
    The session also voted to allow future presidents to be 
elected for an 8-year term, with a right to stand for a further 
4 years, and agreed to add 15 active athletes to the committee. 
I hope that these athletes testifying today will provide us 
with their comments on the benefits of this last change in 
particular.
    Mr. Chairman, I agree with Dr. Kissinger that the IOC, had 
they not taken these steps, would have faced a crisis of public 
confidence sooner or later. However, I also concur with former 
President Reagan's belief that we should trust but verify.
    At our last hearing we were informed that rules were 
already in place limiting the ability of IOC members to receive 
gifts. For example, under the IOC rules, gifts of a value 
exceeding $200 are not permitted and that candidate cities 
shall not organize individual receptions for IOC members. Yet 
King and Spalding, the Atlanta law firm that is involved in 
this, has clearly documented gifts such as cameras, a shotgun 
and a bowl with values ranging from $250 to $1,000. My question 
would be, what assurances do we now have that these new rules 
will actually be carried out and enforced?
    I will also appreciate hearing from the distinguished IOC 
president what assurances he can give the members of this 
subcommittee that our United States cities will not be denied 
future site consideration as retribution for its role in 
calling for reform. These are important questions, and it is 
vital we do not leave here today congratulating the IOC for 
supporting reform without some indication that these changes 
are put into practice and not simply promised.
    Again, I appreciate your presence here to testify. I 
appreciate, Mr. Chairman, your holding this hearing, and I look 
forward to listening to today's testimony, and I would yield 
back the balance of my time.
    [The prepared statement of Hon. Ed Bryant follows:]
Prepared Statement of Hon. Ed Bryant, a Representative in Congress from 
                         the State of Tennessee
    Thank you Mr. Chairman:
    I appreciate your holding a follow-up hearing on this important 
issue, and I especially want to welcome all of our distinguished 
witnesses. I am confident that the panels we will hear from today will 
provide the members of this subcommittee, as well as supporters of the 
Olympic games around the world, a new perspective on the culture of the 
International Olympic Committee and its dedication to achieving much 
needed reform.
    I was pleased to see in the news over the weekend that the IOC has 
taken several important steps toward restoring the public's faith in 
the sanctity of the games. As a result of the two-day meeting of all 
IOC members, the Committee expelled six members and four others 
resigned after they were accused of breaking rules on accepting gifts 
from representatives of Salt Lake City during its successful bid for 
the 2002 Winter Games.
    Among the reforms agreed was a proposal to make members face re-
election every eight years, thus eliminating the unchecked power and 
influence associated with lifetime appointments. The session also voted 
to allow future presidents to be elected for an eight-year term with 
the right to stand for a further four years and agreed to add 15 active 
athletes to the committee. I hope the athletes testifying here today 
will provide us with their comments on the benefits of this last 
change.
    Mr. Chairman, I agree with Dr. Kissinger that had the IOC not taken 
these steps, they would have faced a crisis of public confidence sooner 
or later. However, I also concur with former President Reagan's belief 
that we should trust but verify.
    At our last hearing we were informed that rules were already in 
place limiting the ability of IOC members to receive gifts. For 
example, under IOC rules ``Gifts of a value exceeding $200 are not 
permitted'' and the candidate cities ``shall not organize individual 
receptions for IOC members,'' yet King and Spalding clearly documented 
gifts such as cameras, a shotgun, and a bowl with values ranging from 
$250 to $1000. What assurances do we have that the new rules will 
actually be carried out and enforced? I would also appreciate hearing 
from IOC President Juan Antonio Samaranch what assurances he can give 
the members of this subcommittee that US cities will not be denied 
future site consideration as retribution for its role in calling for 
reform. These are important questions, and it is vital that we do not 
leave here today congratulating the IOC for supporting reform without 
some indication that these changes are put into practice and not simply 
promised.
    Again, I appreciate your holding this hearing Mr. Chairman. I look 
forward to listening to today's testimony and yield back the balance of 
my time.

    Mr. Upton. Thank you, Mr. Bryant.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you Mr. Chairman.
    This is the second hearing that the Committee has held on the 
International Olympic Committee's (``IOC'') site selection process. We 
learned at the first hearing that the various parts of the scandal were 
evident for more than 10 years before the shameful events involving 
Salt Lake City exploded across the world stage. Consequently, at this 
hearing we will be reviewing what reforms and more importantly what 
enforcement will be necessary to ensure that the abuses and excesses 
that developed within the site selection process will not occur again.
    The Olympics represent the highest of ideals. Unfortunately, the 
fundamental principles of the Olympic Movement have been tarnished by 
these scandals. Therefore, it is critical that the reforms we will 
learn about today are aggressively implemented and enforced. If it were 
not for the effort and hard work of both this Committee and the 
Americans sitting in this room today, the IOC reform effort would not 
be a reality. Senator Mitchell investigated the Salt Lake City scandal 
and produced a comprehensive report recommending extensive reforms for 
both the USOC and the IOC. We are very pleased to have Senator Mitchell 
with us today to give his assessment of the reforms that have just been 
passed by the IOC last weekend. Senator Baker is a member of the IOC 
Ethics Commission. We are very lucky to have someone with his 
experience and integrity working to ensure that a meaningful framework 
is developed and maintained to implement the ethical standards that the 
Ethics Commission recently has adopted. Finally, Dr. Kissinger 
testified at our first hearing regarding his work on the IOC 2000 
Commission. He is returning today to give the Committee a status report 
of the reform process and an analysis of those reforms just passed. We 
welcome all of you and certainly thank you for your work.
    This past weekend the IOC passed a number of reforms that are 
intended to restore the ideals of the Olympic Movement. I am hopeful 
that the necessary changes can be realized. But this will only be 
achieved with true commitment to reform. I thank the Chairman for 
holding this hearing, and I look forward to the testimony of our 
witnesses.
                                 ______
                                 
Prepared Statement of Hon. Ron Klink, a Representative in Congress from 
                       the State of Pennsylvania
    Thank you, Mr. Chairman, and thank you for having this hearing.
    This weekend the IOC made partial payment on a promise it made 
months ago. In the extraordinary session held on December 11th and 
12th, the IOC passed a series of reforms. I applaud them for making 
that first step. But while there are those that say the IOC is now 
``reformed,'' I believe a more accurate description is that the IOC has 
begun a ``Process'' of ``reforming.'' The IOC's reform is not complete 
because certain areas still need considerable work.
    Mr. Chairman, to understand why last weekend's reforms are but a 
beginning and not an end, one must first understand the mindset from 
which this organization must reform. For more than a decade, warnings 
had been issued suggesting serious problems existed within the IOC. In 
fact, as far back as the mid 1980's, the press reported on a culture of 
excessive gift giving in connection with the efforts made by bidding 
cities to win the right to host the games. For example in 1986, Sports 
Illustrated made the following observation:
        ``The tactics of Olympic bidders vary somewhat, but they are 
        never very subtle. The most popular strategy is simply to 
        shower everyone on the IOC with gifts, trips and parties . . . 
        No city did better in this area than Paris. Whenever an IOC 
        member felt the need to vacation in Paris for a while, he was 
        instantly sent airline tickets and given a free room in the 
        elegant Hotel de Crillon, as well as reserved tables at Maxim's 
        or Tour D'Argent with the bill paid in advance. Members 
        traveled everywhere in limousines, sometimes with a police 
        escort, and they were given perfume, raincoats, jogging suits 
        and discounts at some of Paris's finest shops.''
    Perhaps the IOC could have argued that evidence such as this was 
too vague; that it was only what the press was saying, or that nobody 
directly affiliated with the games had made such allegations. But a 
1991 report given to the IOC by the Toronto Ontario Olympic Council 
(whose bid to host the Olympics was unsuccessful) provided additional 
and seemingly credible evidence that should have raised red flags. To 
quote from that report:
        ``No single issue is so open to abuse as gifts and other 
        material inducements to individual IOC members. Perhaps no 
        single issue has the power to undermine the integrity of the 
        IOC as this particular one. Unfortunately, many IOC members 
        expect to receive gifts above and beyond what anyone would 
        judge to be courteous and gracious. Cash, jewelry or other 
        items easily converted to cash, were hinted at on several 
        occasions. We were surprised to discover on more than one 
        shopping trip that the bid city host was expected to pay for 
        all the purchases made by not only the member, but the guest as 
        well.
    In yet another section of the Toronto Ontario Olympic Council 
report, this time involving the issue of IOC member travel, other 
abuses were illustrated and presented to the IOC:
        ``The most blatant abuses were the misappropriation of travel 
        expenses and airline tickets or passes advanced by [Toronto] to 
        IOC Members. Our personal observations suggest that at least 18 
        Members and their companions materially benefitted [sic] from 
        one or other of the following devices:
    --obtaining airline tickets from local sources at sometimes 
            discounted prices and demanding hard currency in return for 
            the unused first class passes received from [Toronto];
    --obtaining combination airline tickets to several bid Cities on a 
            single trip and demanding cash equal to return first class 
            tickets between their countries and each bid City;
    --demanding and receiving full fare tickets, failing to arrive, and 
            cashing in those tickets;
    --coupling a trip paid by a bid City with a trip to a Session paid 
            by the IOC and converting the City's passes to cash.
        It is our estimate that all of the forgoing abuses associated 
        with IOC Member visits may have cost [Toronto] some $700,000 to 
        $800,000.''
    Those were serious allegations, Mr. Chairman, made almost 10 years 
ago by a seemingly credible source. But as with other evidence, it 
appears that much of this information was either outright ignored, or 
management was incapable of using it to determine if key reforms were 
needed.
    Equally troubling, this attitude appears to have persisted even 
into this year. After this Subcommittee began to expose the 
questionable behavior by some IOC officials connected with Atlanta's 
bid to host the games, the IOC again became defensive. Rather than 
acknowledging some immediate responsibility for the problems that were 
increasingly becoming evident with Atlanta's bid, an IOC spokesperson 
said the following:
        ``Everything that we have read shows that Atlanta actually 
        pushed those favors and gifts onto the IOC members under the 
        pretext of friendship . . . The members weren't used to this 
        systematic approach to lobbying.''
    Incredibly, this statement was made even after the revelations of 
Salt Lake City suggested that such practices had been widespread for 
years.
    It is important to remind ourselves of this troubling fact-pattern, 
because if the IOC is serious about reform, it must move beyond a hear 
no evil see no evil. speak no evil style of governance. But so far, Mr. 
Chairman, I see no clear evidence that the IOC has implemented a system 
capable of doing this.
    To be fair, the IOC has created an ethics commission that is 
supposed to assume this role. But details remain vague on how this 
commission will function and what role it will play in preventing 
future corruption. At the very least, we should know the following:

(1) What specific authorities will this commission have to investigate 
        potential wrongdoing? Can it compel testimony from all IOC 
        officials, for example? What happens if such parties refuse to 
        testify, or they provide misleading or wrongful testimony?
(2) What is the commission's jurisdiction regarding activities 
        connected with IOC business, and what is the time period during 
        which this commission can investigate potential wrongdoing? 
        Press stories have suggested it can only investigate events 
        occurring after January 1, 2000. Other reports say the 
        commission can look at events before this date. Which is it?
(3) How will allegations be reported to the commission for possible 
        investigation? For example, will the commission be allowed to 
        initiate investigations based on information reported in the 
        press? Will the commission be allowed to initiate 
        investigations from anonymous sources? Will it have a hotline? 
        If so, who will staff it, and in what languages will it 
        operate?
(4) Will the ethics commission develop a compliance manual with 
        unambiguous and detailed rules all IOC officials must follow? 
        Will each IOC official receive training on both the purpose and 
        the definition of such rules?
(5) Finally, what resources will the ethics commission have to carry 
        out its mandate? Will it have large enough staff to do the 
        daily work? So far, there are a number of prominent figures 
        associated with the commission that meet from time to time--all 
        very bright. But I don't envision Senator Baker or Judge Keba 
        Mbaye answering a hotline or personally conducting an inquiry.
    Mr. Chairman, it is critical to recognize that none of the reforms 
voted on last weekend were designed to detect and sanction the sorts of 
ethical lapses that have so undermined the credibility of the IOC. That 
effort remains the task of the ethics program. But because details have 
yet to be defined, this important reform remains incomplete. Simply 
put, as long as this commission remains a ``work in progress,'' the IOC 
should not be considered ``reformed.''
    Mr. Chairman, an ugly storm has engulfed the IOC over the past 
year. Yet through the efforts of many, the IOC has made progress toward 
meaningful reform. Nevertheless, significant work remains. And while I 
want to acknowledge the efforts of the many who have contributed to 
this effort--in particular the efforts of three distinguished 
gentleman, Senator Mitchell, Senator Baker, and Dr. Kissinger--we 
should not let our guard down until this job is complete. As an old but 
useful saying goes, ``You may trust in God, but always tie your 
camel.''
    I welcome the witnesses before us today and I greatly look forward 
to their testimony on the progress the IOC is making toward reform. But 
because there remains considerable work ahead, and because some of the 
most important reforms remain incomplete, I'll continue to keep my 
camel tethered.
    With that, I yield back.

    Mr. Upton. I have a few housekeeping things that I need to 
do before we get started with testimony from Mr. Samaranch.
    First of all, I need to ask unanimous consent that in the 
first round we will not have a 5-minute question period but 10. 
So is there any objection to a 10-minute question period?
    Hearing none, that will be the case.
    Second, Mr. Samaranch, you may be aware that this 
subcommittee is in fact an investigative subcommittee and, as 
such, we have always had the practice of taking testimony under 
oath. Do you have any objection to testifying under oath?
    Mr. Samaranch. No.
    Mr. Upton. Also, under the Rules of the House and the 
committee, you are entitled to be advised by counsel. Do you 
desire to be advised by counsel during your testimony today?
    Mr. Samaranch. Yes, I am.
    Mr. Upton. If you and your counsel then would rise and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Upton. Thank you. You are now under oath. We recognize 
you.
    I want to make sure that you are aware that your entire 
statement will be made part of the record, and we now would 
like to listen to your opening statement. You may begin. Thank 
you.

 TESTIMONY OF JUAN ANTONIO SAMARANCH, PRESIDENT, INTERNATIONAL 
 OLYMPIC COMMITTEE, ACCOMPANIED BY FRANCOIS CARRARD, DIRECTOR 
   GENERAL, INTERNATIONAL OLYMPIC COMMITTEE, COUNSEL TO MR. 
                           SAMARANCH

    Mr. Samaranch. Mr. Chairman, members of the committee, 
thank you for giving the International Olympic Committee and 
its president an opportunity to address our crisis and our 
subsequent efforts. I would like to summarize what happened, 
what we did, where we are now, and, finally, where we intend to 
go.
    What happened? A little more than 1 year ago the 
International Olympic Committee had for the first time evidence 
of misconduct by some of its members. Yes, there had been many, 
many rumors. Yes, there were many allegations in the media. But 
every time we tried to get proof, nothing that could have 
initiated an inquiry was ever produced.
    The simple fact is that, as the financial stakes become 
higher and higher, leading the cities bidding to hold the games 
become more and more aggressive, and also some of our members--
and I would like to say all volunteers and independent--become 
vulnerable and misbehaved. This happened and was revealed in 
the occasion of the bid of Salt Lake City.
    What did we do? We immediately ordered a full-scale 
investigation run by an ad hoc commission chaired by our first 
vice-president, Mr. Dick Pound, who is here with me. The ad hoc 
commission immediately set to work in full coordination with 
Salt Lake City.
    Also, all of the cities, bidding cities for many games, 
more than 30, we asked them for a report. Within 3 months, 
regarding Salt Lake City, without any coercive authority, the 
ad hoc commission ended its work, which led to the departure of 
10 IOC members--6 were expelled and 4 resigned, 1 had passed 
away--plus severe sanctions for other members. But we did not 
stop here, as we were committed to turning this crisis, a very 
important crisis, into a positive side.
    Extraordinary session in March, 1999. This session was the 
first session of the International Olympic Committee after the 
crisis. And at the beginning of this very important session, 
because in the session they had to study the possibility to 
expel some members, I thought myself, as president of the 
International Olympic Committee, that I had a great 
responsibility. For this reason, at the very beginning of the 
session, I asked all the members for a vote of confidence.
    As you know, I was elected by the members of the 
International Olympic Committee in 1980 in Moscow. My first 
responsibility is to the IOC members. I left the hall, the 
meeting room. The vice president took the Chair. He organized a 
secret ballot regarding if the members held confidence in me or 
not. The result was stunning even for me: Eighty-six members 
voted in favor, with 2 against and 1 abstaining.
    This vote--the result of this vote was really very 
important for me. Because I realized that the members of the 
International Olympic Committee were not only confirming me as 
president of the International Olympic Committee, they were 
telling me directly, ``You are the man to run this crisis. You 
have the experience, you have our support, and you, with all 
the people that run with you, with the support of the IOC, the 
staff of the International Olympic Committee, we think you can 
solve this crisis before the end of this year.''
    But we did many other things in this session in March. We 
published publicly the accounts audited by PriceWaterhouse 
Coopers, and today you can see this account in our website, the 
website of the International Olympic Committee. Because we 
thought that the main problem of the IOC regarding bidding 
cities was the visit of the members and we had an election for 
the Winter Games in 2006, we canceled the visits. And the 
system, for me, worked very well. And in this session in March 
in Seoul, Torino, Italy, was elected as the city who will have 
the honor and also the responsibility to organize the games in 
2006.
    And we established a new Ethics Commission consisting of a 
majority of independent external personalities like Senator 
Baker, who is with us today. But we established also the IOC 
2000 Reform Commission that was comprised by 50 percent of 
members outside the IOC and 50 percent of members of the 
International Olympic Committee. As you know, there were around 
80 members.
    Among the members outside the IOC, there were many 
important personalities in the world like Dr. Kissinger, Mr. 
Ebersol, Mr. Boutros Boutros Ghali, Mr. Peter Ueberroth, Paul 
Allaire, Mr. Agnelli, Mr. Stoltenberg, a very important man, a 
former foreign minister of Norway.
    Also, we studied carefully the Mitchell report. And I flew 
to London, and I met with Senator Mitchell and also Mr. 
Duberstein. That meeting for us was very positive, very 
positive. And I would like to say also that the report of 
Senator Mitchell was a guide to us for the future reforms. I 
would like, before you, to thank Senator Mitchell and also Mr. 
Duberstein.
    The second important step was done in Seoul, the second 
session of the IOC this year. A code of ethics was approved. 
And for the first time in the long history of the International 
Olympic Committee, we opened the session to the media through a 
television circuit. And I think the media now they can follow 
all the details of our meetings.
    Also, during the summer, there were many meetings of the 
IOC 2000 Commission's Working Groups until late October, when 
this IOC 2000 Commission presented the 50 recommendations. 
During this time, also, I spoke with many members of the 
International Olympic Committee, because the most important of 
this stage was that many members had to give up many of their 
powers, many of the advantages they had as members of the 
International Olympic Committee. And I think during these 
meetings with the IOC members, we convinced them it was time 
for change.
    Finally, the third session of the International Olympic 
Committee this year, normally we have only one, was last 
weekend, 11 and 12 December, in Lausanne, where we have the 
headquarters of the International Olympic Committee.
    What we will do. We approved many things, and many of these 
things already are implemented. The new nomination of the 
International Olympic Committee, to be a member, will be 
totally different. Sports organizations, like international 
federations, National Olympic Committees as well as athletes 
and other persons have the right to present candidates. New 
nominations will be screened by this screening committee 
composed of 3 members of the IOC, 4 members outside the IOC, 
and 1 athlete.
    In this first step of the nomination committee, the 
proposals will go to the executive board of the International 
Olympic Committee and finally to the session, where they will 
vote by a secret ballot the approval of the admission of new 
members.
    Also, the International Olympic Committee will include in 
physical position 15 representatives from international 
federations, 15 from national Olympic committees, and 15 
athletes chosen by their peers, active athletes. These 
elections have been organized in Atlanta and also in Nagano. 
These elections have been organized with great success. In 
Atlanta, 53 percent of the members, of the athletes, they 
voted. That means around 7,000. And the participation of the 
athletes in Nagano was really much more important, because 60 
percent voted. In Atlanta, they elected seven athletes 
representing the Summer Games, and in Nagano three athletes 
representing the Winter Games.
    Also, during this session in Lausanne last weekend, every 
member, new member or old member, must be reelected every 8 
years. For the new members, we lower the age limit to 70 years. 
This limit vote will have in the future 15 members instead of 
11, and they will reflect the whole membership of the session. 
That means that when we vote we must have representatives of 
international federations, of National Olympic Committees, from 
athletes, and also minimum, minimum, one woman.
    The term of president has been changed. To now, in 105 
years of history, we have had only seven presidents of the 
International Olympic Committee. Our founder, Baron de 
Coubertin, served for 29 years as president. Mr. Avery 
Brundage, from your country, served 20 years, and now I am in 
my 19th year as president. Now, for the next president, will be 
a term of 8 years, plus 4 if he is reelected.
    Also, something that was I was looking for a long, long 
time, we changed the system of election of host cities. There 
will not be more visits of International Olympic Committee 
members to the cities. I think, really, that is not necessary. 
But, also, there will not be visits from the bid cities to the 
IOC members. I think avoiding these visits also we avoid a real 
danger.
    There are other reforms, Mr. Chairman, but I wanted to 
emphasize the most important. I would like also to say that 
many of these changes are now, today, in the Olympic Charter--
now, today, in the Olympic Charter.
    I am going to where we are now. In 1 year, I think we 
worked a lot. Normally, we have one session; we had three 
sessions. Normally, we have four executive board meetings; we 
had eight, and many other meetings. I think we cleaned the 
house, and a fundamental reform package has been adopted.
    Much more for me is much important, because I know you are 
very interested in the athletes, we have already incorporated, 
elected, 10 active athletes as elected by their peers. Seven 
that were in Lausanne were introduced to the session. They sat 
among the members of the International Olympic Committee. In 
the last part of our session, they had the right to speak, they 
had the right to vote. That is the first time that active 
athletes have been members of the International Olympic 
Committee. One of these athletes is coming from the United 
States.
    But besides these active athletes, I would like to say that 
in the International Olympic Committee we have 29 members, 29 
members, that took part in the Olympic Games. That means that 
we have today 39 members of the International Olympic Committee 
that took part in the Olympic Games, and 26 of these members 
gained a medal during the Olympic Games. That means, and some 
of you mentioned the aristocracy in the International Olympic 
Committee, today the aristocracy in the International Olympic 
Committee are the athletes.
    We also are very pleased that the International Olympic 
Committee was touched, we suffered a lot, but the Olympic 
Games, they are not touched. The preparation of the Sydney 
games are going very well.
    Some of you mentioned the whole scandal with the tickets. I 
will say, on a positive side of the scandal, that that means 
that 1 year before the games the Australians are very much 
interested to buy tickets to attend this very important event 
at the Olympic Games. Salt Lake City also suffered from this 
crisis.
    Now we have a new president of the organizing committee, 
Mr. Romney, very good relations with International Olympic 
Committee, and he is doing really, I would like to say, a 
wonderful job. It was not easy for him. But we can assure you 
that today the games in Salt Lake City, they are going the 
right way.
    What do we intend to do from now on? As I said before, most 
of the critical reforms are already implemented and written 
into our Olympic Charter. The inclusion of athletes is done. 
The ban on visits of the bidding cities also. The 8 years fixed 
term for members and the lowering age limit, the limit term for 
the President's mandate and the opening of the session to the 
media all have been done.
    For the other reforms of the--for example, the composition 
of the executive board, they met 1 day after the session, last 
Monday in Lausanne, the executive board, and we began to work. 
And we think that all of the other measures will be implemented 
before or during the games in Sidney next year in September. 
Our goal is to make sure that the world gets with the new 
millennium a totally renovated IOC, younger, modern, 
transparent, accountable, dynamic, worthy of the fundamental 
values of Olympism. That is our goal. And my personal hope is 
to be able to deliver to my successor, in 2001, an 
International Olympic Committee with a fully restored prestige 
and credibility, not only for the best of the Olympic Movement, 
but also for the youth of the world. And for the athletes, we 
have the responsibility.
    Mr. Chairman, members of the commission, I can assure you 
that we will deliver what we promise. Thank you very much.
    [The prepared statement of Juan Antonio Samaranch follows:]
Prepared Statement of Juan Antonio Samaranch, President, International 
                           Olympic Committee
    Mr. Chairman, on January 24, I promised the IOC would institute 
fundamental reforms. I can now say the IOC has kept its word.
    Once fully implemented, the reforms will result in a fundamentally 
renovated IOC--one that is more transparent, more accountable, and more 
responsive. It will be an institution adapted to contemporary society 
featuring a lower age limit, specific terms of service, 15 active 
athletes elected by their peers as members, more sports leaders 
nominated by their national or international organizations, and new 
processes for electing IOC members and Olympic host cities. We have 
elected 10 active athletes to our membership and banned visits to bid 
cities.
    It is because these changes promise a better future for the Olympic 
Movement that I believe the crisis will go down in history as a 
positive force for the International Olympic Committee.
                  the international olympic committee
    The IOC was established in Paris in 1894 to revive the spirit and 
competition of the Olympic Games of ancient Greece. Since then, the IOC 
has consistently coordinated and supervised the celebration of the 
modern Olympic Games and the growth of the Olympic Movement. In the 
most simple terms, the Olympic Movement is made up of those people who 
agree to uphold the Olympic Charter. Although the Movement consists of 
many partners, most notably the Olympic athletes, the four leading 
constituencies of the Olympic Movement are the international sports 
federations (IFs) that manage sport on a global level, the 200 national 
Olympic committees (NOCs) that coordinate the Olympic Movement within 
their own countries, the IOC, and the athletes.
    The IOC is organized as an association having legal personality 
under Swiss law and is headquartered in Lausanne, Switzerland. It is 
privately funded and receives no public monies. Its activities and 
relationships are governed by the terms of the Olympic Charter, and it 
has a permanent staff of around 100.
    The IOC's membership includes 113 members from more than 80 
different countries, with different backgrounds, cultures, races, and 
religions. Each member serves as a fully independent trustee of the 
Olympic Movement. This independence is a hallmark of the IOC and has 
allowed the Olympic Movement to survive political pressure inconsistent 
with the Olympic values. While all members are different, their common 
bond is their love of sport. One out of three is an Olympian, as are 
six of the eleven Executive Board members, with four of them being 
Olympic medalists. This love of sport drives them to work as unpaid 
volunteers for the development of sport around the world.
                       role of the ioc president
    Presiding over an organization of 113 unpaid, independent 
volunteers, the IOC President serves principally as a coordinator and 
motivator for the growth of the Olympic Movement and the preservation 
of the Olympic Games.
    As President of the IOC, I too am an unpaid volunteer; however, 
because I work nearly full-time as IOC President, the IOC covers the 
cost of my expenses. I frequently travel to varying sports competitions 
and related events, administrative meetings, and to cities bidding for 
the Games. In many countries, because of the values the Olympic Games 
represent, the IOC is regarded as an important institution, and thus, 
its president is greeted with treatment comparable to a senior 
government official, and sometimes even a head of state.
    Questions have been raised in this Committee whether the IOC 
president is subject to the Hodler guidelines and the IOC ethics codes. 
Every member is equal, however, the IOC president represents and acts 
on behalf of the entire organization and thus receives gifts and 
hospitality on behalf of the organization. I give these gifts to the 
Museum or for display at IOC headquarters. Mainly for this reason, in 
all deliberations over the guidelines, the IOC president was never 
considered to be subject to the limits the IOC set to check the 
behavior of bidding cities toward voting members. This is not 
specifically written, but it is the custom. As President, I have never 
participated in votes for the host city. Likewise, this is not written, 
but it is the practice.
    My wife sometimes accompanies me on my travels, and sometimes 
represents me. With regard to her trip to Atlanta, I had been to 
Atlanta on the occasion of the opening of the bid committee's offices, 
as I happened to be traveling in the U.S. at that time. Officials of 
the Atlanta bid committee asked whether my wife would visit Atlanta, 
expressing to me that they wanted her to see their city first hand. 
Over the next several months, a number of bid committee members wrote 
to my wife, asking her to come. She accepted the invitation and went, 
as a representative of the IOC, as a courtesy.
    My wife accepted the invitation to Atlanta in the spirit in which 
it and so many others have been offered: friendship and hospitality. A 
stranger to Atlanta, she put herself at the bid team's disposal, 
agreeing to participate in an itinerary planned and selected by those 
who knew the city best. She was honored by the enthusiasm generated by 
her visit, and left Atlanta with many friends. Even Vice President Dan 
Quayle wrote to her afterwards, expressing his appreciation for her 
visit.
                    the ioc's choice of host cities
    The selection of the host cities for the Olympic Games and the 
Olympic Winter Games, which was the central issue in this crisis, is 
one of the most important roles and responsibilities of the IOC. The 
Games are, in some respects, the ``engine'' that drives the whole of 
the Olympic Movement and the IOC exercises great care in the selection 
of host cities.
    The selection process for host cities has evolved over the years, 
as we have tried both to be of assistance to candidate cities and, at 
the same time, to be more confident that we have reviewed all relevant 
aspects of the candidature files for purposes of making an informed 
choice from amongst the various candidates.
    For the Atlanta bid, on which this Committee is particularly 
focused, we had six candidates: Athens, Atlanta, Belgrade, Manchester, 
Melbourne and Toronto.
    The report of the IOC Evaluation Commission (which did not, at the 
time, give numerical rankings) nevertheless made it reasonably clear 
that Atlanta had the best overall ranking amongst the six candidates. 
This is not to suggest, however, that other cities would not have been 
capable of staging excellent Games as well, such as Toronto, which 
finished third, or Melbourne, which finished fourth. But it did 
indicate that Atlanta met all the criteria that the IOC considered 
important in a potential host city for the Games.
    The voting, on the occasion of our Session in Tokyo in 1990, 
indicated that the IOC members had quite differing views on the matter 
of where the Centennial Games should be celebrated. One group, which 
might be characterized as conservative or traditional, felt very 
strongly that the Games should return to Athens, where they began in 
1896. This group was convinced, despite the fact that Athens was 
probably not ready, at the time of the election, to host such an 
ambitious project, it would, because of the importance of the Olympic 
Games to Greece, make whatever efforts might be necessary to host 
successful Games. The other group, a significant majority of the 
members, was not so convinced.
    The early rounds of the voting were, therefore, essentially a 
process of choosing the candidate that would eventually go up against 
Athens in the final round of voting. Our system is that an absolute 
majority is required for a decision and, where no such absolute 
majority is obtained, the candidate with the lowest number of votes 
drops off and we proceed with the next round. Atlanta emerged from this 
process and, in the final round, won handily over Athens. The IOC was 
quite satisfied with the process and the eventual winner. Atlanta 
staged exceptional Games for the centenary of the modern Olympic 
Movement and the United States should be proud of that success.
 the relationships between the ioc, its members, the usoc and bidding 
                                 cities
    The IOC operates, in a manner akin to governments, by 
``recognition'' of international sports federations (``IFs'') that 
govern particular sports and of national Olympic committees (``NOCs'') 
that agree to subscribe to and be bound by the provisions of the 
Olympic Charter.
    The responsibilities of NOCs are, inter alia, to promote the 
Olympic Movement within their respective territories and to select the 
athletes from those territories who will participate in the Olympic 
Games.
    In addition, NOCs are responsible for the selection of possible 
candidate cities from within their territories to bid to host the 
Olympic Games. In most circumstances, the NOC will work closely with 
its candidate city to provide advice and counsel at that stage of the 
process, since most candidate cities have no real knowledge of the 
Olympic Movement when they begin the quest. The NOCs are represented on 
any Organizing Committee that is formed, should the candidate city from 
that country be successful in winning the right to host the Games. This 
is a requirement contained in the Olympic Charter, to ensure that the 
Organizing Committees benefit from the knowledge of the sports 
authorities in their country.
    Thus, the USOC selected Atlanta from amongst several U.S. cities 
that wished to be candidates. Our rule is that only one city per 
country may be presented as a candidate to host any particular edition 
of the Games.
    The candidate cities, once they are officially selected by the NOC, 
embark on a process not unlike an election campaign. Each candidate 
city tries to convince as many IOC members (the voters) that it would 
be the best prospective host city for the Games. This involves many 
meetings over the course of the campaign, some of which are formal, 
when presentations are made on the occasion of Olympic gatherings, and 
some of which are informal, whether in groups or one-on-one situations. 
Under the previous system, the candidate cities would try to convince 
IOC members to visit them in order to show them the highlights of the 
cities and the proposed locations of the many Olympic events. Those 
cities not as well known to international audiences thought it was 
vital for the IOC members to make a physical visit, especially when 
other cities with established international reputations are involved. 
The Atlanta bid organizers felt this way because at the time, it was 
not so well known internationally.
    The visits of those IOC members who were willing to travel to bid 
cities were paid for by the bidding committees, as the IOC members are 
not paid to perform their duties. The IOC had become, over time, 
concerned that candidate cities not incur too much expense in their 
activities, since only one would win. It is important to the IOC that 
we have candidate cities for each Games in the future and we did not 
want the costs to be so high that cities would be inhibited from coming 
forward as candidates to host the Olympic Games.
    We took many steps in this regard to reduce the costs incurred by 
candidate cities in that process, many of which were vehemently opposed 
by candidate cities themselves. They considered that they should be 
free to promote themselves in any way they chose and that it was 
paternalistic of the IOC to restrict their activities. In that regard, 
many of the candidate cities considered that the process of obtaining 
the Olympic Games was similar to that of attracting industries or 
corporations to their cities, getting major projects to occur within 
their communities, or competing for franchises, conventions and other 
spectacles. They did not appreciate that normal practices, whether of 
business or governments, used in such circumstances might not be in the 
best interests of the Olympic Movement on a long-term basis.
    But, it was nevertheless the desire of the IOC that expenditures we 
considered to be of no or marginal value in the bid process be 
restricted, in the best interests of the Olympic Movement and all 
candidate cities, present and future. For example, we restricted the 
holding of expensive receptions, the preparation of hugely expensive 
bid books, staging expensive displays around the world on the occasion 
of Olympic meetings and the number and duration of visits by IOC 
members. We also tried to make it clear that the IOC did not want 
candidate cities to spend money on expensive gifts. The rules were not 
intended, beyond this overall objective of reducing the costs of 
Olympic bids, to restrict the day-to-day activities of the candidate 
cities per se in the promotion of their candidacies. I believe we were 
successful in reducing such costs by millions of dollars for each 
candidate city.
                the growth of the games and the movement
    Looking at the Olympic Games today, it is hard to imagine a time 
when they were unprofitable in a financial sense or even when the very 
future of the Olympic Movement was in question. But this was the case 
not even 20 years ago. The Olympic Movement and the world in which it 
lives have changed since the management of the Games became a 
profitable enterprise so coveted by so many cities. While not yet 
official, perhaps a dozen cities will vie for the honor of hosting the 
Games of the XXIX Olympiad in 2008.
    Much good has been accomplished since the financial success of the 
Olympic Games of Los Angeles. Our Olympic Solidarity program, helping 
turn the Games profit into benefits for the athletes, is stronger than 
ever. NOCs that before could have never dreamed of being able to afford 
to train their athletes along side competitors from wealthier nations 
now do. IFs now have extra funds to improve the administration of world 
sport. Advanced research into doping controls has been commissioned. 
Educational, cultural, environmental, and women in sport programs have 
been and are being advanced throughout the Movement.
    The Olympic Games have grown into the most important sports event 
in the world. This growth and financial success, however, did not come 
without risks, nor did all of our practices keep up with the pace of 
change.
    The result of an old-style structure managing the details involved 
with the modern Games, including the bid city visits, was not 
corruption, but a situation in which some of the less responsible 
members--a small minority--abused the system.
    We ran a system that relied heavily on the expectation that our 
members would act honorably and uphold their Olympic Oath. Without the 
introduction of gains to be had, or members vulnerable to temptation, 
the system was sufficient. The far majority of our members conducted 
themselves in a proper manner in the past, and they still do today. As 
IOC President, I always have trusted the members elected by the 
Session. After all, before being elected to the IOC, many of them had 
been democratically elected to the heads of international and national 
sports organizations or held other respected positions within their 
communities as either senior business executives or high-ranking 
government officials.
    As the temptations rose, our policing of the situations that placed 
people at risk should have increased. We can now see our practices were 
too weak to disallow those among us who could be tempted to accept--and 
unfortunately even demand--excesses. Yes there were rumors, but never 
proof; so with limited knowledge, we took limited action. As mentioned 
earlier, we attempted to place guidelines on what bid cities could do--
initially to limit their expenditure, and later on, to limit the 
chances for impropriety. We tried to control the aggressive nature the 
bid process was assuming, but the Salt Lake City experience 
demonstrates our actions were insufficient.
    In ours, and for some other long-standing organizations, it took a 
crisis to come to the realization and build the political will to 
affect real change. In the face of this realization, I considered what 
would be the best for the organization--for me to resign, as some 
suggested, or to remain as president. My decision was to put this 
question to a vote of the Session. By secret ballot, the Session voted 
for me to stay in office by a vote of 86-2. I interpreted this vote to 
be a mandate to make the changes necessary to fix the problems. From 
the beginning, I thought good would come from these revelations. This 
nearly unanimous vote steeled my and the Executive Board's 
determination to find the positive outcome of the crisis. That positive 
outcome today is a renewed organization.
                                 reform
    Many of the problems that directly caused the crisis could have 
been taken care of by rooting out the wrongdoers, refining the 
procedure for electing Olympic host cities and by limiting the risk of 
vulnerable members to cross the line. In fact, one of the first steps 
the IOC Executive Board took in reaction to the crisis was to eliminate 
both visits and gifts for the bid for the Olympic Games in 2006. 
However, we realized that this was the moment to review and refresh our 
policies to bring them in line with the demands of contemporary 
society.
Expulsions and Sanctions
    The revelations that came out of Salt Lake City demonstrated there 
were IOC members among those at fault in the wrongdoing. The IOC took 
responsibility for the behavior of those members and levied the 
harshest of sanctions on them.
    On December 1, 1998, I sent a letter to SLOC asking for more 
information about the allegations that were being reported by the Salt 
Lake City media. On December 11, 1998, the Executive Board created an 
ad hoc commission to investigate credible evidence of wrongdoing in 
relation with the bid. On January 29, 1999, I widened the investigation 
by sending letters of inquiry to all NOCs that had participated in bids 
going back to 1990. We incorporated these findings along with the 
findings of the SLOC investigative committee into our initial 
investigation.
    Immediately after it became clear there were improprieties involved 
with the selection of the host site for the 2002 Winter Olympic Games, 
the Executive Board and I took steps toward organizing an internal 
probe. The IOC was the first to act and the first to report.
    As a result of our investigation, by March 17--less than three 
months after credible evidence emerged--six members were expelled, four 
resigned under pressure, and one had passed away before the beginning 
of the investigation. Ten others were sanctioned with warnings of 
varying degree of severity.
    Expelling six members by a two-third majority vote of their peers 
and leading four others to resign was a most painful moment for the 
International Olympic Committee; yet these actions were resolutely 
endorsed by the membership.
Transparency
    Once we dealt with these problems, we turned our attention to key 
policy and structural changes. One of the more immediate shifts of 
policy was the IOC's stronger embrace of transparency.
    The IOC had not grasped the desire of the public to know more about 
our internal workings. To the IOC, the Olympic Games were what 
mattered, and we make every effort to ensure everyone can participate 
in the experience, including enforcing a free-TV-only policy for 
broadcasting the Games. Now we understand the public wishes to know 
more about the process which bring them the Games. We have no problem 
with this, it just took time to realize the interest.
    We took several significant steps. Earlier this year, the IOC 
published and posted on the Internet its financial statements audited 
by PriceWaterhouseCoopers. Our communications department was 
reorganized to provide a wealth of information to the public, most of 
it available on our web site, www.olympic.org. We opened the IOC 2000 
Commission plenary meetings and the IOC's annual membership meeting, 
the IOC Session, to the media. And, of course, the media was able to 
follow the deliberations over the reforms earlier this week as well.
    Our financial transparency will be enhanced by the publishing of 
additional financial reports that clearly illustrate the flow of the 
sources and uses of IOC revenues. We will disclose the amounts of 
revenues redistributed to the numerous Olympic organizations and 
require those organizations that receive IOC funding to publish similar 
reports on how they use those funds. The IOC has also recommended that 
all NOCs and IFs follow the same disclosure policy.
Ethics Commission
    The first key change in terms of structural reform was the creation 
of the permanent and independent IOC Ethics Commission. The IOC 
membership voted to create the Ethics Commission at its 108th Session 
in Lausanne in March 1999 and charged it with ensuring the ethical 
standards for IOC members and staff are clear, applied, and enforced.
    The Commission is headed by Judge Keba Mbaye, former vice president 
of the International Court of Justice and an IOC member since 1973. He 
is joined on the Commission by five independent, international 
personalities:

<bullet> Robert Badinter, Senator, former president of the French 
        Constitutional Court and former French minister of justice;
<bullet> Howard Baker, former Senate majority leader and White House 
        chief of staff;
<bullet> Charmaine Crooks, a five-time Olympian from Canada and an 
        elected member to the IOC Athletes Commission.
<bullet> Javier Perez de Cuellar, former United Nations secretary 
        general; and
<bullet> Kurt Furgler, former President of Switzerland.
    IOC members Kevan Gosper, Olympic silver medalist, former chairman 
and CEO of Shell Australia, and former Melbourne city executive, and 
Chiharu Igaya, silver medalist and board member of major corporations 
such as the American Home Assurance Company and American International 
Underwriters, also serve on the Commission.
    The Commission's initial work resulted in the adoption of a code of 
ethics and changes to Rule 25 of the Olympic Charter ``Standards and 
Sanctions'' at the 109th Session in June 1999. The IOC Code of Ethics 
will govern the actions of IOC members and staff, the NOCs, the 
officials of candidate cities, and the organizing committees of the 
Games (OCOGs). Among other provisions, the new Code limits gifts to 
items of nominal value and hospitality to the prevailing customs in the 
host country. The amendments to Rule 25 of the Charter enhanced and 
clarified the powers of the IOC Executive Board to sanction and suspend 
members for unethical behavior.
    After organizing itself and writing the Code, the Ethics Commission 
decided it will hire a Special Representative who will implement, 
monitor, and enforce the Code. This decision was taken following a 
presentation by highly-respected experts in the field of implementing 
ethics programs in a multi-national context. It is a critical area for 
the success of the Ethics Commission, and the details of this 
implementation program are still being worked out. The Ethics 
Commission was advised by experts; in order to be most effective, these 
programs must be developed with deliberate consideration.
    I want to thank Senator Baker for helping the Commission focus its 
efforts in this direction. His ideas will have a lasting, positive 
impact on the IOC.
IOC 2000
    The results of this weekend's Session provide further fundamental 
changes to the IOC's structure. These come as a result of the hard work 
of the IOC 2000 Commission.
    The IOC 2000, the IOC's reform commission, was established by the 
will of the IOC Session in March 1999 and was given a broad mandate to 
review all facets of the organization, including its structures, rules, 
procedures, and host city selection process.
    IOC 2000's general membership of 82 was led by a 26-member 
Executive Committee, comprised equally of IOC members and external 
personalities. (Of the thirteen external personalities on the Executive 
Committee, five were from the United States.) IOC 2000's plenary 
commission included top leaders of international sports organizations, 
senior business executives, academics, sponsor and television broadcast 
partner representatives, and other internationally known public 
figures.
    Among the members were:

<bullet> the ten members of the IOC Athletes Commission, elected by 
        their peers during the last Summer and Winter Olympic Games;
<bullet> Paul Allaire, chairman, Xerox;
<bullet> Giovanni Agnelli, the honorary chairman of Fiat;
<bullet> Michel Barnier, European Commissioner;
<bullet> Boutros Boutros-Ghali, former UN secretary general;
<bullet> Dick Ebersol, chairman, NBC Sports;
<bullet> Henry Kissinger, former U.S. secretary of state; and
<bullet> Thomas Stoltenberg, former foreign minister of Norway.
    IOC 2000's working groups met throughout the summer to develop the 
list of 50 major recommendations, endorsed by the IOC 2000 plenary 
commission on October 30, and adopted by the IOC membership on December 
11 and 12, 1999.
    The 50 reforms adopted at the 110th Session last weekend mean 
fundamental change.
New Composition
    The new IOC will have a new makeup of its membership that, when in 
place, will be more reflective of the sports world.
    The key to a good organization is having good individuals within 
it, so the IOC has made improvements as to how it will choose its new 
members. While some recommended that national and international sports 
bodies elect representatives to sit on the IOC, we felt this system 
would add problems as it tried to solve others. The biggest problem 
with this suggestion is that the IOC would then be comprised of members 
wed to external interests rather than the interests of the Olympic 
Movement. Members would be subject to the very political and 
ideological pressures from which the Movement has tried to refrain. 
Under that type of system, I doubt, for example, that the Movement 
would have survived the tensions of the Cold War.
    The IOC has added totally new procedures to the election process. 
First, all Olympic organizations are entitled to nominate people for 
election to the IOC. Second, a nominations committee, consisting of 
three members elected by the IOC, three by the Ethics Commission, and 
one by the athletes commission, will screen the nominations and present 
the qualified ones to the Executive Board. Third, the IOC Executive 
Board is entrusted select candidates from this pool to present to the 
IOC membership for a vote.
    Eventually, the membership will be set at a maximum of 115 members. 
Fifteen will be active Olympic athletes elected at the Games by their 
peers; 15 will be chosen from among the NOC presidents; and, in similar 
fashion, 15 will be chosen from among the Olympic IF presidents. The 
other 70 members will be elected as individuals.
    At the 110th Session, we elected for the first time, 10 active 
athletes to the IOC. These athletes had previously been elected to the 
Athletes' Commission by their peers in Atlanta and Nagano.
    The age limit for incoming members is now set at 70 years. The 
current members are not affected by this change, as it is proper to 
maintain their rights acquired upon their election. Grandfathering 
acquired rights is a time-honored tradition in the United States and is 
one we chose to uphold.
    All members, including current members, will serve for renewable 
terms of eight-years. Members will have to face the reelection process 
above to renew their terms. It is interesting to note that more than 
half of the IOC's membership today has been in office eight years or 
less.
    The IOC's leadership also will be different in the coming years. 
The term of office for the IOC President will be set at eight years 
with a possible four year second term. The Executive Board will be 
enlarged to 15 members to better reflect the new composition of the IOC 
membership. It is my hope and expectation that the IOC will always 
reserve a seat by practice for at least one active athlete.
New Bid Procedure
    The IOC will now elect its host cities in a substantially different 
way. The Executive Board has been given the new responsibilities and 
powers to better manage this process. A new bid acceptance procedure 
has been established that will review the organizational capacity of 
the interested cities in order to accept them as candidates. The 
obligations of the NOCs to oversee and counsel the bidding committees 
in their countries will be clearly laid out and reinforced. The IOC, 
the accepted candidate cities, and their NOCs will sign a contract 
outlining the obligations of each party, the applicable code of 
conduct, and the sanctions for breach of the terms. Member visits to 
candidate cities have been eliminated, as they were rendered 
unnecessary by the enhancement of the IOC Evaluation Commission. Of 
course, gifts have been limited to nominal value by the Ethics Code.
Other Reforms
    Along with changes to the IOC's structure and the bid process, the 
Session adopted further enhancements of many other IOC policies. Mr. 
Chairman, I would like to request that the record be kept open to allow 
me to submit when completed the new Olympic charter that will 
incorporate the changes enacted last weekend.
                       fundamental ioc principles
    All of these reforms will improve the IOC without destroying the 
special characteristics that have made the Olympic Movement a worldwide 
phenomenon. The structure and the fundamental principles upon which the 
IOC was founded have been essential elements in the success and growth 
of the Olympic Movement, which has been a force for social good and 
progress, the motivation of the youth of the world and the building of 
a better society through the combination of sport, education and 
culture.
    I want to stress the importance of the autonomy of the Olympic 
Movement, which I consider to be absolutely essential to its growth and 
existence. Matters relating to the governance of sport must be left in 
the hands of the sports authorities. Yet, the sports authorities 
welcome the involvement of the public authorities in the development of 
sport and welcome the opportunity to work in co-operation with them. 
The IOC always has encouraged this co-operation and has worked for many 
years to build up good working relationships with the public 
authorities throughout the world.
    The traditions and stages of development of sport in each country 
are necessarily different. As I understand the development of sport in 
the United States, the government has always supported the Olympic 
Movement and has encouraged the existence of a strong and independent 
USOC. This has been especially true in recent years, following the 
enactment of the Amateur Sports Act in 1978, when the USOC was given 
wide responsibilities and powers for the coordination and advancement 
of the Olympic Movement and amateur sport within the United States. The 
IOC also has supported the activities of the USOC, recognizing its 
special role in your country and the importance of the United States 
within the Olympic Movement. We have made special arrangements with the 
USOC to reflect our understanding of the special role that it plays and 
we have awarded the Olympic Games to the United States on more 
occasions than for any other country. Under my presidency alone the 
Olympic Games were celebrated twice in the United States. This is a 
very important relationship, and I hope that it can be encouraged by 
your government so that the United States can continue to play a major 
role in the Olympic Movement.
                           ioc's appreciation
    Looking back at the reform process, the IOC owes a debt of 
gratitude to the members of IOC 2000--especially the external members--
who gave so much of their time to help develop the appropriate formula 
for IOC reform.
    The IOC always has valued the input of leading personalities who 
are not affiliated with the Olympic Movement, but never have we 
embraced the contributions of these external personalities to the 
extent we did during the reform process. This was a positive experience 
as these contributions were extremely valuable.
    I also want to recognize the contributions of this Committee and 
those of the Senate Commerce Committee. Our US members, Ms. DeFrantz 
and Mr. Easton, have met with you and your staff during your oversight 
review, and we have received beneficial input from those meetings. 
Thank you for receiving them.
    In addition to the views of the Congressional Committees, the IOC 
gave serious consideration of the recommendations of the United States 
Olympic Committee's Special Bid Oversight Commission, known as the 
Mitchell Commission.
    I would like to thank the Mitchell Commission, especially Senator 
George Mitchell and Mr. Ken Duberstein who met with us and provided 
input on certain areas of IOC reform. In some cases, IOC 2000 may have 
recommended different solutions, but I believe the reforms achieve 
almost all the goals of the Mitchell Commission: terms of service and 
reelection; more transparency, financial disclosure, responsiveness, 
and accountability; conflict of interest protection; changes to the bid 
procedure; and so on.
    An area still unresolved is the recommendation to apply to be 
covered under the statutes of the Foreign Corrupt Practices Act. As an 
international organization, the IOC wrote to the Organization of 
Economic Cooperation and Development (OECD) to determine how it could 
be governed by the Convention on Combating Bribery of Foreign Public 
Officials in International Business Transactions. The OECD recently 
replied that they would study how the IOC may be able to be covered 
under its conventions even though we are not an international 
governmental body.
    One area where the IOC has gone further that the Mitchell 
Commission recommendations is in the area of visits. While the Mitchell 
Commission recommended restricting them, we simply eliminated them.
    Finally, I would like to thank the people without whom the reforms 
would have never happened: the members of the International Olympic 
Committee. Over the course of this year, the misdeeds of a few have 
colored the reputation of all. The good members of the IOC have 
suffered a steep personal toll. Despite this, they stayed focused on 
the necessary course of action and embraced change.
                               conclusion
    The work of this year was dedicated to regaining the trust of the 
people. Our comprehensive reform effort has brought forth renewed 
structures and enhanced policies, and we are working on their 
implementation. I realize it will take more than new policies and new 
structures to regain the trust of the people, so I will work during the 
remainder of my tenure to make sure the spirit of the reform effort 
becomes a living part of our culture.
    While the IOC has just completed a reform process that is 
unprecedented in both scope and pace for a 105-year-old, multicultural 
organization, the IOC leadership will continue to work toward regaining 
the public's trust and ensuring the celebration of human effort that is 
the Olympic Games flourishes well into the next Millenium.
    Mr. Chairman, that concludes my formal statement. I look forward to 
your questions.

    Mr. Upton. Thank you very much. We want those words to ring 
true, that you will deliver what you promised.
    This little light now is for us, and I have set it at 10 
minutes. I will go first.
    Mr. Samaranch, I am interested in learning how and why the 
culture of excessive gift giving, favors, perks to IOC members 
by bid cities became a normal practice within the bidding 
process. In the words of a very famous Senator, who happens to 
be sitting in the front row, I want to know what did you know 
and when did you know it. When did you personally become aware 
that bid cities were giving excessive gifts and inducements to 
IOC members in violation of IOC rules? And in our last hearing 
we learned that during the 1986 competition between Barcelona 
and Paris, excessive lobbying and gift giving occurred.
    Were you aware that any excessive gifts were given to IOC 
members during that bidding cycle?
    Mr. Samaranch. May I answer?
    Mr. Upton. Yes.
    Mr. Samaranch. The culture of gift giving and also some 
borderline illicit initiatives on the part of members of the 
IOC date back to the Los Angeles games. The Los Angeles games 
were a tremendous success, not only from a sport standpoint, 
but also financially. And this was an achievement by the 
president of the organizing committees of the Los Angeles 
games, Mr. Peter Ueberroth. I believe that the net benefit of 
the Los Angeles games were in excess of $200 million.
    That's how we funded two foundations. One was established 
to assist Californian youth, gearing them toward sports 
activities; and the second through the United States Olympic 
Committee was designed to assist young athletes. After this 
economic success, the cities that would bid for the upcoming 
games became far more aggressive. These cities began to invite 
members of IOC.
    We came to realize that this was risky and we passed a few 
rules. They were called the Hodler Rules. For instance, they 
included the provisions such as that a member of the IOC would 
not be allowed to stay in the same city for more than 3 days, 
that no presents with value in excess of $200 could be received 
by him. But the fact is that these regulations did not produce 
anything. I realize that we have made a mistake, but it was 
very difficult for us to persuade the members of the IOC that 
they could not take part in such visits. And now, perhaps 
thanks to this crisis, we have been able to persuade them.
    As I said in my statement, we heard a great deal of rumors 
and the media has also informed about abnormalities. But 
whenever we become cognizant of some concrete fact such as the 
Toronto report, we officially ask them to name names, members--
names of members of the IOC who did not have the proper 
behavior. This is not only for Toronto, but also it applies to 
other bidding cities. We can only take action if we have 
concrete evidence. And the first time that we became cognizant 
of concrete evidence was when I received a series of documents, 
copies, from the Salt Lake City organizer; and in these copies 
there were many members of IOC who were involved. That's when 
we set up the ad hoc commission presided over by Mr. Pound, the 
vice president. And I think he took expeditious and fair 
action, as I see it. In these instances we succeeded in 
gathering sufficient intelligence, and that enabled us to expel 
6 members, and 4 additional members resigned.
    Concerning Barcelona and Paris, I would like to address 
that specifically, although I have already done so in my 
statement. I think we made a mistake in failing to take action 
against these visits by the IOC members. But we tried it 
several times, however, and we were unsuccessful. They would 
not be willing to relinquish that right, the members of the 
IOC.
    Mr. Upton. Let me tell you something that concerns me. I 
would like to read parts of the Toronto report that I have 
highlighted. This, for those in the audience, dates back to the 
9th of January, 1991. On page 15, it says, ``No single issue is 
so open to abuse as gifts and other material inducements to 
individual IOC members. Perhaps no single issue has the power 
to undermine the integrity of the IOC as this particular one.''
    On page 19, it goes on to say, ``Other bid cities staged 
functions which clearly were outside the guidelines, yet no IOC 
member suggested to us that he thought that any bid city had 
been acting improperly.''
    And in this report, it also talks about on page 8, ``We 
would be pleased to answer any questions that you might have 
about them,'' meaning this report. Some discussions that 
happened this weekend--at this point I will ask unanimous 
consent that a letter be inserted into the record dated 
December 13, 1999. This is a letter from Bob Helmick, who 
writes--and I will just include parts of this in my statement. 
``I first received a copy of this report''--meaning the Toronto 
report--``on January 29, 1999, following a conversation with 
Chris Grosskurth of CBC News, Canada, in response to my comment 
that I heard that Paul Henderson with the Toronto committee and 
others had met with certain executives of the IOC in which they 
claimed of the excessiveness of the bid process, certain 
inappropriate actions of the IOC members, and suggestions for 
the IOC to remedy the situation. I do not recall ever having 
seen the report. I am able to confirm that the report had never 
been furnished to me. I was a member of the executive committee 
of the IOC at this time and do recall that in an IOC executive 
committee meeting in 1991 a reference was made to this 
meeting.''
    But he concludes, ``I am not aware of any further 
investigation into the allegations made in this report,'' which 
was almost a decade ago. My concern is that as you talked about 
Los Angeles and the beginning improprieties that were known, 
began to become known in the 1980's and again in the early 
1990's, that when you say you want expeditious action and 
enforcement, that in fact this information has been on your 
doorstep for a long time, and until now nothing was done, which 
stretches our confidence in terms of what can be done with 
these reforms that were announced to be in place this weekend.
    [The information referred to follows:]

                                       Dorsey & Whitney LLP
                                                  December 13, 1999
Committee on Commerce
United States House of Representatives
Attn: Jan Faiks, Counsel
2125 Rayburn House Office Building
Washington, DC 20515

Re: Testimony regarding bidding process for Olympic Games

    You have requested a statement regarding my knowledge, if any, of 
the ``Toronto Report,'' namely the document entitled ``Report to the 
International Olympic Committee--9, January, 1991 by the Toronto 
Ontario Olympic Council on the Candidature of The City of Toronto to 
host the Games of XXVIth Olympiad.''
    I first received a copy of this Report on January 29, 1999, 
following a conversation with Chris Grosskurth of CBC News Canada in 
response to my comment that I heard that Paul Henderson, with the 
Toronto Committee and others, had met with certain executives of the 
IOC in which they complained of the excessiveness of the bid process, 
certain inappropriate actions of IOC members, and suggestions for the 
IOC to remedy the situation. I did not recall ever having seen the 
Report.
    Upon receipt of the Report that day by fax, I am able to confirm 
that this Report had never previously been furnished to me. For purpose 
of identification, I have enclosed a copy of the Report I received from 
CBC News Canada.
    I was a member of the Executive Committee of the IOC at this time, 
and do recall that at an IOC Executive Committee meeting in 1991 a 
reference was made to this meeting. We were informed that some 
unsubstantiated claims were made, but nothing was produced that could 
form the basis of confirming the facts or forming the basis of an 
investigation. The details of this matter should be reflected in the 
IOC Executive Committee minutes and, more particularly, the verbatim 
transcript that was made of all Executive Committee meetings.
    I am not aware of any further investigation into the allegations 
made in the Report.
    If this does not fairly respond to your question, please do not 
hesitate to contact me.
            Very truly yours,
                                                  Robert H. Helmick
Enclosure

    Mr. Samaranch. I have explained this earlier on, but 
concerning Toronto, I would like to reiterate my answer. This 
report was the source of alarm to us. We called Mr. Henderson 
to come to Lausanne and he did so. He had an interview with Mr. 
Hodler, who was in charge of controlling and checking visits by 
IOC members, the bidding cities. And we requested from him 
names, facts. Never did he submit a single name. Had they given 
us a name, we would have been able to take action.
    Concerning, Mr. Chairman, the letter from Mr. Helmick, I 
think it is of dubious value. Mr. Helmick was a member of the 
IOC; in fact, a member of the executive board. He had problems 
in the United States. He had to resign from the presidency of 
the United States Olympic Committee, and also he resigned his 
membership in the International Olympic Committee.
    Mr. Upton. I know my time has expired. If I intend to keep 
this gavel, I will come back. At this point I recognize Ms. 
DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. Mr. Samaranch, as you 
see, the red light goes on really fast in this committee. I 
would appreciate it--I have a series of questions to ask you. I 
would appreciate short answers, if possible.
    First of all, as you have heard from members of this panel, 
we are concerned how the IOC will ultimately police itself. We 
are glad the rules are on the books, but the policing will be 
the issue. Now, we understand that the IOC has formed an ethics 
commission which is really a compliance program, but over the 
weekend there was much confusion in the press by IOC members as 
to how this commission will function. So I would like to ask 
you some questions about the powers of the commission.
    First of all, Mr. Samaranch, will the commission be allowed 
to compel testimony from all IOC officials if it believes there 
is wrongdoing?
    Mr. Samaranch. The ethics commission is totally 
independent. I am sure Senator Baker would be in a position to 
provide----
    Ms. DeGette. So you, as president of the IOC, do not now 
whether or not the commission will be allowed to compel 
testimony by subpoena or other means from IOC officials, yes or 
no?
    Mr. Samaranch. To give you a short answer, yes, ma'am.
    Ms. DeGette. You do know?
    Mr. Samaranch. Yes.
    Ms. DeGette. And will they be allowed to compel testimony?
    Mr. Samaranch. They are fully independent, and they act as 
they find advisable.
    Ms. DeGette. So is that a yes, that they will be able to 
compel testimony, or an, I don't know whether or not since they 
are independent?
    Mr. Samaranch. As I say again, the ethics commission is 
independent.
    Ms. DeGette. Mr. Samaranch, will the ethics commission be 
able to compel testimony or not? If you don't know, I will ask 
someone else.
    Mr. Samaranch. I do know, and the answer is yes.
    Ms. DeGette. Thank you. Now, do you know how they will 
compel testimony from witnesses? Subpoena, other kinds of 
means?
    Mr. Samaranch. Generally, this consists of a letter 
summoning him before the ethics commission.
    Ms. DeGette. What if the witness does not want to comply 
with the request of the letter? What will happen?
    Mr. Samaranch. The ethics commission will then decide on 
some form of sanction for this member.
    Ms. DeGette. Thank you. Will the ethics commission decide 
what that sanction will be if they don't cooperate?
    Mr. Samaranch. They propose a sanction, and that proposal 
is then ratified by the executive board.
    Ms. DeGette. But the sanction to be proposed would be 
decided by the ethics panel. Correct?
    Mr. Samaranch. Precisely.
    Ms. DeGette. Mr. Samaranch, who exactly will be allowed to 
make an allegation to the ethics commission?
    Mr. Samaranch. Everyone. Sports organizations, athletes, 
and also private citizens.
    Ms. DeGette. How about the press?
    Mr. Samaranch. Also.
    Ms. DeGette. Mr. Samaranch, can the special representative 
or the ethics commission begin an inquiry based on an anonymous 
source?
    Mr. Samaranch. Yes. Yes, ma'am. This is part of our 
regulations, and the regulations have been passed.
    Ms. DeGette. Mr. Samaranch, will there be a detailed set of 
rules or an ethics manual developed so that IOC members will 
know precisely what the rules are that they are required to 
follow?
    Mr. Samaranch. This code will be put together as soon as 
possible. I hope you realize, ma'am, that the ethics commission 
has been working now for the last 3 to 4 months only.
    Ms. DeGette. Yes, I do. Do they have a target date by which 
the code will be completed?
    Mr. Samaranch. Mind you, it is a totally independent----
    Ms. DeGette. I understand that it is independent. Have the 
members told you some date by which they hope to complete the 
code----
    Mr. Samaranch. But you will have an opportunity to ask 
Senator Baker about it.
    Ms. DeGette. When would you like to see it done, Mr. 
Samaranch, as president of the IOC?
    Mr. Samaranch. As soon as possible.
    Ms. DeGette. Do you know, Mr. Samaranch, whether there will 
be a certification process to ensure that all IOC members have 
been taught the rules and fully understand what they mean?
    Mr. Samaranch. As I pointed out, I believe so. But the 
ethics commission still has to complete the drafting of these 
regulations.
    Ms. DeGette. As soon as possible. Mr. Samaranch, I have 
reviewed the IOC rules from over the years. And here is what I 
am concerned about, that we have a very strong certification 
requirement. In 1987, the IOC gift rule said IOC members should 
be limited to documentation relating to a city's candidature, 
and souvenirs, hence gifts, of value are not permitted. In 1988 
the gift rule said that gifts of a value exceeding U.S. $200 
are not permitted. In 1989, similar rules. And it goes on in 
1990. The gift rules that were just promulgated last weekend 
said, ``only gifts of nominal value in accordance with 
prevailing local customs may be given or accepted by the 
Olympic parties.''
    We know, based on our investigations, that the previous 
gift rules were flagrantly violated time and time again for at 
least the Atlanta and Salt Lake City Olympics. We are hearing 
more evidence of flagrant violation in other cases. I would 
like to know why you think the new gift rules just promulgated, 
which admittedly are quite vague, will be obeyed when the 
previous gift rules have never been obeyed.
    Mr. Samaranch. The rules you termed as vague, quite vague, 
I think it was one of the agreements in the ethics commission. 
But that problem is no longer with us. It has disappeared 
completely. No visits, no gifts.
    Ms. DeGette. Well, you see here is the problem, Mr. 
Samaranch. The visits, that's a fairly clear rule. But the 
gifts, gifts were prohibited in the past. And yet we have ample 
evidence that they occurred both in Atlanta and Salt Lake City. 
The new gift rule says only gifts of nominal value in 
accordance with prevailing local customs. What happens if 
someone says a gift of $500, $1,000 U.S. dollars is in 
accordance with U.S. customs? What is to prevent that under 
this new rule adopted by the IOC this weekend?
    Mr. Samaranch. I think gifts were closely connected to 
trips. The article that you referred to would no longer be 
valid today. I would ask--I will have them remove it.
    Ms. DeGette. You will have them remove the gift provision?
    Mr. Samaranch. So since there are no more visits, there 
will be no more danger of gifts. And we are actually willing to 
have the ethics commission rescind that article.
    Ms. DeGette. So what you are saying is you will have the 
ethics commission ban all gifts?
    Mr. Samaranch. As I was saying, there are no visits, no 
more visits, and no more dangers of gifts.
    Ms. DeGette. If there is no more dangers of gifts, why 
don't you just ban them?
    Mr. Samaranch. Precisely. That's what we are going to do.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. Let me start by 
commending Mr. Samaranch for his English, and I appreciate your 
opening statement in English. That was helpful for all of us. 
Let me stay on the subject of the reforms passed by the IOC and 
specifically the ban on visits. The session passed the proposal 
to eliminate visits by IOC members by bidding candidate cities. 
But I am troubled by the wording in the second half of the rule 
change that states, and I quote, ``It is also not considered 
necessary for representatives of candidate cities or third 
parties acting on their behalf to visit IOC members.''
    My question is what specifically does that language mean 
and is it legal, is it ethical, is it appropriate for bid 
cities to visit IOC members outside of that bid city's 
location?
    Mr. Samaranch. During our last meeting in Lausanne, I think 
we did ban. The things we did ban were visits in both ways. IOC 
members no longer are allowed to visit the bidding cities, and 
organizing committees' representatives are not allowed to visit 
the national Olympic Committee in their own country. Based on 
the Olympic Committee investigation procedures for the bidding 
cities, I think all the members will have enough information to 
ascertain whether that or which one is the best city to be 
visited.
    Mr. Burr. Have I by chance misrepresented what the rule of 
the reform says? I will read it again. ``it is also not 
considered necessary for representatives of candidate cities or 
third parties acting on their behalf to visit IOC members.''
    I don't read into that statement a ban.
    Mr. Samaranch. I think you are quite right. Perhaps we 
drafted it incorrectly. But the decision was to ban visits on 
both sides, both censuses.
    Mr. Burr. Let me move on to the substance of the ethics 
commission, if I can, and ask you, Mr. Samaranch, did you 
select the members of the ethics committee?
    Mr. Samaranch. No, we did not, sir. We only had appointed 
or suggested three names that would represent the IOC at the 
ethics board. The other four independent members was thanks to 
some good offices given by Mr. Mbaye with important 
personalities. They are Mr. Badinter, former minister of 
justice of France and former president of the constitutional 
tribunal; Mr. Perez de Cuellar, former secretary general of the 
United Nations; Mr. Furgler, three times president of the 
Helvetic Confederation, Switzerland. And the fourth, Senator 
Baker.
    Mr. Burr. I think you saved the best for last in Senator 
Baker. I would agree with you that the credentials of these 
individuals are impeccable, but I will also point to the IOC 
rule as it related to the ethics commission. It states that the 
members of the ethics commission shall be designated by the 
president and subject to the executive board ratification.
    Did you choose Mr. Mbaye, I believe I correctly pronounced 
his name, to chair the commission?
    Mr. Samaranch. I did not. It was the executive board of the 
IOC that selected him.
    Mr. Burr. Does Mr. Mbaye serve on the executive board?
    Mr. Samaranch. He is the member and also the vice 
president.
    Mr. Burr. And the structure, the ethics commission will 
report any violation to, in fact, the executive board of which 
Mr. Mbaye is the vice president of the board?
    Mr. Samaranch. Yes, precisely.
    Mr. Burr. Should this committee or should the public be 
concerned whether the ethics process can work when the ethics 
committee chairman is in fact the vice president of the board 
that would make a decision on the findings of the ethics 
committee?
    Mr. Samaranch. I think--I don't think so, sir, because the 
sports world is quite familiar with Mr. Mbaye. He was the 
Justice in the Supreme Court of Senegal, his country, and also 
vice president of the International Court of Justice in the 
Hague. I think these credentials are sufficient for us to place 
our trust in him.
    Mr. Burr. Will the ethics committee have the ability to--
access the bid city and bid city officials for--to conduct 
their investigations?
    Mr. Samaranch. The ethics board is empowered to take action 
and intervene in all matters that pertain to the IOC and other 
organizations that are in contact with them.
    Ms. DeGette. Would you yield for one moment? I am listening 
to this line of questioning, and it seems that you have faith 
in the integrity of the ethics committee based on the 
individual who will be chairing it. And I am wondering what 
happens when he leaves? How can you be sure that someone who is 
also the vice president of the IOC can have that independence 
once the person you trust is gone? Again, this entire system 
seems to be based on personality, not structure.
    Mr. Samaranch. As soon as when he goes, we will have to 
select another to replace him. The graveyards are full of 
indispensable people.
    Mr. Burr. Mr. Samaranch, one of the reforms passed last 
weekend, in fact, lowered the age for an IOC--that an IOC 
member could serve until to 70 years old. The age limit used to 
be 72. In 1995 the age limit was raised to 75. Then in 1997 it 
was raised to 80 years old. When this rule change was made last 
weekend, it grandfathered every current IOC member under the 
age of 80 years old. What is the real purpose of this 70 year 
old age and what is to assure this committee that next time 
when have you a vote the age won't change?
    Mr. Samaranch. Well, I can't give you assurances that rules 
will not be changed in the future, sir. People will come after 
me and these same individuals may be--will change the rules. I 
don't think any organization in the world can have unchanging 
or permanent rules. Could I have the first part of your 
question, sir?
    Mr. Burr. The question dealt with how can we be assured 
that this age does not change? I used the reference of the 
original age of 72 years as the IOC membership began to age 
itself. We saw a change from 72 to 75 to 80, and now we have 
grandfathered every current member.
    My last statement would be in line with the gentlelady, Ms. 
DeGette, and it is where I am headed on this. I think she 
summed it up very well. Mr. President, you said it very well 
that you can't be assured that the next president and the next 
committee vote might not reverse all 50 or 51 changes or all 
changes that you make. The problem that we have is a cultural 
change with the system. Cultural changes are not successfully 
accomplished without the assurances that in the future that 
that foundation that they are established on is solid, that it 
is not just because the political winds, the investigations by 
this committee, or the outrage of athletes around the world.
    I hope that the changes that were voted on last weekend 
will in fact receive the teeth that Senator Baker and his 
colleagues on the ethics commission will in fact have the tools 
to successfully complete their job and to bring the highest of 
integrity back to this International Olympic Committee. I yield 
back the balance of my time.
    Mr. Upton. Thank you. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman, for calling on me.
    Mr. Samaranch, to be a member of the IOC and to be 
president of the IOC is a pretty powerful position. As you 
indicated, the decisions that are made involve very high 
financial stakes. When high financial stakes are on the table, 
I think we want to know that those people that are making those 
decisions are accountable, that they are not going to be 
abusing the power that they have, and they are not going to be 
caught in a conflict of interest.
    It is clear to me that the rules under which the IOC has 
been operating or the failure of rules under which they have 
been operating indicates that you have a broken system and it 
needs to be repaired. You acknowledge that as well. It reminds 
me of our own campaign finance system in the United States, 
which I think is also broken and needs to be changed. We all 
have to be mindful of conflicts of interest and appearances of 
impropriety.
    Mr. Samaranch, I want to ask you today about two such 
conflicts of interest and appearances of impropriety. First, I 
understand that allegations have been raised about the manner 
in which NBC obtained the television rights for the next five 
Olympics. An allegation has been made that there is a conflict 
of interest because a senior NBC executive was also an IOC 
member. And moreover, I understand that the IOC accepted NBC's 
bid without even soliciting bids from the other American 
networks.
    And then the other allegation that I want to ask you about 
involves an Olympic museum in Switzerland. I understand that 
you have been very active in obtaining financial support for 
that museum. I also understand that after winning the Olympic 
television contract, NBC made a million dollar donation to the 
museum. And I have to tell you that looks to me like a quid pro 
quo. But even more incredibly, a Japanese corporation gave $20 
million to that museum at the same time that the IOC was 
considering whether to award the 1988 Olympics to Nagano, 
Japan. I would like you to respond to these allegations that 
have been made of possible improprieties, possible conflicts of 
interest.
    Mr. Samaranch. Let me try my hand at answering your 
questions, sir. In the first place, let me say that we are very 
happy with the NBC contract. They have been with us for a long 
time now. They cover, in a very good manner, all of the games 
and as a matter of fact, NBC has a representative at the IOC. 
He is from Israel. I can assure you, though, that this 
gentleman does not take part in any way on negotiations.
    If you so desire, I would be more than happy to explain how 
the negotiations are conducted with television and media.
    Mr. Waxman. Mr. Samaranch, the appearance is that when a 
highly lucrative television contract is let out to one network 
and the other networks don't even get a chance to come in and 
present to you and your colleagues an opportunity to do as 
well, if not better, and then money is donated by the winner to 
a museum that you have been very involved in, doesn't that 
appear to be a conflict of interest, an impropriety?
    Mr. Samaranch. With NBC, it was to expand the contract they 
already had with us. There were two very important points 
concerning television contracts. One, we want television in the 
open. In other words, no cable or pay-per-view; it would be 
broadcast.
    Mr. Waxman. But you didn't have the bidding in the open; is 
that correct? It was a no-bid contract, nobody else got to 
compete?
    Mr. Samaranch. No. There was no such thing for the people--
--
    Mr. Waxman. I'm sorry, there was----
    Mr. Samaranch. [continuing] request for bids for the 
renewal. We felt that NBC is a company that deserves our 
confidence and had our confidence.
    Mr. Waxman. Mr. Samaranch, excuse me. My time is limited, 
as you know.
    You may well be satisfied with NBC, but they got the 
contract without anybody else being able to compete. Then NBC 
gives a million dollars to a museum that you personally care a 
lot about. The other example that I gave you was Nagano wanted 
to get the selection--they get the selection and they give $20 
million to the museum as well. That appears like a conflict. 
Certainly--did you require of them that they make this 
contribution to the museum in order to get television rights or 
in order to be selected for a site of the Olympics?
    Mr. Samaranch. No, I didn't demand anything from NBC. NBC, 
all it did was to persuade sponsoring agencies and companies to 
make a donation to our museum. The museum is not my personal 
initiative. It is the home of the world of sports.
    Mr. Waxman. Have you been asking and soliciting 
contributions to the museum for yourself?
    Mr. Samaranch. I do not----
    Mr. Waxman. I could not hear----
    Mr. Samaranch. [continuing] but many of the sponsoring 
companies have decided to assist us in putting together this 
museum. This is no secret because at the very entrance of the 
museum there is a wall with the names of each of the donors 
inscribed in the bricks.
    Mr. Waxman. Mr. Samaranch, you are giving us your 
explanations, but you still haven't addressed the fact that it 
appears that there was a conflict of interest. You have the 
power and the IOC has the power to let out the contract for 
television coverage. You don't ask for bids from anyone else 
and then a million dollars goes to this museum. And I don't 
know what else might have gone to anyone else not disclosed. 
The same thing with Nagano. They get the selection, and they 
give their $20 million to this museum. If we are going to have 
a system that is going to meet people's expectations of 
confidence in the integrity of the International Olympic 
Committee and its president, we have got to avoid appearances 
of improprieties. These are clearly appearances of 
improprieties whether you acknowledge that or not. And if you 
don't, it makes me wonder whether you can see what many of us 
are concerned about when we hear about what happened in Salt 
Lake City and also from our last hearing that Atlanta was able 
to win its Olympic bid through the giving of gifts to the 
people who make the decisions.
    Mr. Samaranch. Mr. Congressman, this is my personal 
opinion. My concern--and I am concerned about anything that is 
done sub rosa, but contracts that are closed--are open and in 
the public's view are not of concern to me because it is----
    Mr. Waxman. Mr. Samaranch, in that regard, are you willing 
to release records dealing with the awarding of the television 
contract and the museum's finances?
    Mr. Samaranch. I will be more than happy to make available 
to you a full list of donors to the museum together with a copy 
of the contract signed by NBC and the IOC.
    Mr. Waxman. Mr. Samaranch--excuse me, are you finished?
    Mr. Samaranch. For the last Olympic games in Nagano and 
Sidney, we have hired for the negotiations $3.5 billion.
    Mr. Waxman. Mr. Samaranch, I don't want to argue with you 
whether you have got your money's worth. My question to you is 
whether we are going to get the records to know how that 
decision was made.
    My time is up, but we are going to have Bonnie Blair 
testify before us later today. She didn't win her gold medal 
because the Olympics were comfortable with her. She didn't have 
to have the IOC approve her. She did it solely on the merits, 
and she competed against others who wanted that gold medal as 
well. But here the IOC gives a contract to one network and the 
others are not even allowed to compete. They weren't even 
allowed to come in and make their case to the powers that be 
why they should have been given the contract and then let you 
see who was the real--who was the best bidder, not the only 
bidder who you thought was doing a good job and deserved your 
support. That to me is what a real competition is all about, 
and the Olympics should be about real competition. And the IOC 
ought to make their decisions based on competition, not 
something that appears to be a conflict of interest and 
impropriety, a sweetheart deal.
    My time is up. If the chairman would like to enable him to 
respond, if he wants to?
    Mr. Samaranch. With my permission, sir, may I add 
something? You have requested documents and if you ask me 
officially I will be glad to make them available to you.
    Mr. Waxman. I am so requesting, thank you.
    Mr. Upton. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. President Samaranch, 
in your opening statement you say that you first became aware 
of some of these improprieties a year ago and you have begun to 
take actions to correct those improprieties. You also agreed to 
testify under oath, so you have sworn that everything that you 
have say is the truth, the whole truth, and nothing but the 
truth. I want to read to you a statement from a Sports 
Illustrated article, I think in February 1999, to get your 
response to that in light of the fact that you just said you 
first became aware of some of these problems a year ago.
    I quote: ``protestations by top level IOC members 
Samaranch, Pound''--and Pound is an IOC member, I believe, from 
Canada who is a vice president--``and other members of the 
executive board that they have had no evidence of malfeasance 
before the stories begin coming out of Salt Lake City are 
nonsense. In 1986 Wolf Lieberg, secretary general of the 
Swedish Olympic Committee, wrote Pound to complain that an IOC 
member had asked for sex from a woman member of the committee 
representing the city of Prolond in its bid for the 1992 winter 
games. Pound reportedly wrote back that while he was 
sympathetic, without a formal request it is very difficult to 
do anything.''
    Were you aware of this letter that Mr. Lieberg sent to your 
committee in 1986?
    Mr. Samaranch. As I said earlier, we can only take action 
at the IOC when we have concrete facts. I read the same thing 
from a Swedish publication. We asked them for names, and they 
did not come up with any.
    Mr. Barton. So the fact that the secretary general of the 
Swedish Olympic Committee sent your committee a formal letter, 
you didn't consider that to be a formal request?
    Mr. Samaranch. The letter that I received contained no 
names.
    Mr. Barton. Did you make any attempt in your office to 
follow up on this letter?
    Mr. Samaranch. We are trying to find out who that member 
might be, but no success.
    Mr. Barton. I see. Let's fast forward to 1991. I have here 
a photocopy report to the International Olympic Committee by 
the Toronto, Ontario, Olympic council on the candidature of the 
city of Toronto to host the games of the 26th Olympiad 
presented to the IOC, Lausanne, January 9, 1991. It is 
approximately 25 pages long.
    Have you ever seen or heard of the Toronto International 
Olympic report? This is in January 1991.
    Mr. Samaranch. At this point, I have no recollection of 
having seen it, but I am sure that I have seen it. And I am 
sure that in that report there are no names.
    Mr. Barton. Ah. So for your esteemed committee to take 
action, you demand the disclosure of names. Even if it is an 
official document of the Canadian committee, that is not 
sufficient?
    Mr. Samaranch. Before we can impose sanctions on anyone, we 
have to know who those sanctions are being imposed to.
    Mr. Barton. I am told that the Canadian Olympic committee 
or government, some body in Canada, kept the documents that 
went into filing this report for about 7 years before they were 
destroyed. Did you ask any of your cracker jack Olympic 
investigators to try to go to Canada to look at those source 
documents?
    Mr. Samaranch. I did not know that the Canadian government 
had that report.
    Mr. Barton. I am not swearing that it was the Canadian 
government, but some documents existed that were maintained in 
Canada by a former body, and the staff says it was the 
government.
    Mr. Upton. If the gentleman would yield, am I right in your 
question to Mr. Samaranch that you asked Mr. Samaranch if he 
was there to receive the report from the Toronto committee?
    Is that correct? Was that your question?
    Mr. Barton. Excuse me, I was----
    Mr. Upton. Was your question to Mr. Samaranch was whether 
Mr. Samaranch was present for the presentation of the report 
from the Toronto----
    Mr. Barton. My question was whether he was aware that this 
report was turned in. The salutation says Your Excellency. I am 
told that Mr. Samaranch requires that he be addressed as Your 
Excellency, so I assume that he was present, but that could be 
a mistake.
    Mr. Upton. Mr. Samaranch, was your--you do not recall this 
meeting that may have occurred by the Toronto committee before 
a number of the members of the IOC?
    Mr. Samaranch. The meeting with Mr. Henderson from Toronto 
was held with the person who was in charge of talking to 
bidding cities.
    Mr. Upton. The reason I ask that is the information that we 
had that we have gotten from Mr. Henderson indicated that there 
were a number of members present including Mr. Samaranch and 
Mr. Pound, who I know is sitting behind you.
    Mr. Samaranch. I can't deny that I attended that meeting. 
But again I reiterate that this report names no names and that 
is what really matters as far as we are concerned.
    Mr. Barton. Reclaiming my time, that begs the question. We 
have several documents on the record that were sent officially 
to your organization while you were president and apparently 
your response is if they don't name names, it doesn't count. So 
I guess my next question is, the reason that you decided to 
investigate Salt Lake City and Atlanta is because somebody 
named names?
    Is that what differentiates your actions in the last year 
is because some stalwart investigative reporter began to name 
names?
    Mr. Samaranch. Going back to Toronto, we requested them to 
supply us with names, and they did not do so.
    Mr. Barton. Those are open records kept by the Canadian 
Government and they remained open for at least 7 years. And I 
am told at the staff level no Olympic official has attempted to 
investigate those records, so they may not still be in 
existence. They have been destroyed. But for 7 years they were 
available, and no one at your committee made an attempt to 
investigate. But I want to go on. I only have a limited amount 
of time.
    My next question is, of all these reforms that you have 
supported being implemented, I am told that none apply to you 
or the Office of the Presidency. Why is that?
    Mr. Samaranch. Because I don't think this would be 
necessary.
    Mr. Barton. Oh. What if this subcommittee thought it might 
be necessary? Would you be willing to have them apply to the 
Office of the Presidency?
    Mr. Samaranch. I would be glad to listen and then we will 
review your proposal.
    Mr. Barton. I see. Well, I guess I need to send you a 
formal letter naming names, and I will send such a letter that 
I formally request the International Olympic Committee to apply 
the reforms that they are applying to the IOC members to the 
President, the Office of the President. Would that be explicit 
enough to have you consider it?
    Mr. Samaranch. Particularly if you make specific reference 
to the action or measures to be adopted regarding the 
President, we will be glad to review it.
    Mr. Barton. I appreciate that. Let me ask you about the 
suite of rooms at the Palace Hotel in Lausanne, Switzerland. 
Sports illustrated indicates that that costs the IOC half a 
million dollars a year and that it is for your exclusive use.
    Is that true?
    Mr. Samaranch. No, this is not true.
    Mr. Barton. Okay. What part of that statement is not true?
    Mr. Samaranch. The total you alluded to, the half a million 
dollars. I live in a hotel in the city of Lausanne. I have two 
rooms; one is my bedroom and the other is a small salon. It is 
not very large.
    That costs approximately $250 a day, and days in which I am 
out of town, like today, I pay $70 for them to keep the 
reservation, the room available to me. Let me assure you that 
that is far from being a luxurious suite.
    Mr. Barton. So when Sports Illustrated says, ``demands a 
suite, not just a suite, but the Presidential Suite, the finest 
hotel room in the city, the IOC at a cost of some $500,000 a 
year rents a massive suite that takes up half the top floor of 
the Palace Hotel to house Samaranch when he stays in 
Lausanne,'' that is just an incorrect statement? Sports 
illustrated is wrong?
    Mr. Samaranch. No, it is not that it is wrong, sir; it is a 
lie.
    Mr. Barton. It is a lie.
    Mr. Samaranch. A lie.
    Mr. Barton. If it is a lie, are you willing today to state 
whatever the cost, you will pay it out of your own pocket and 
not charge the IOC? If it is only $250 a day and you only use 
it a few times a year and they can rent it out to other people, 
are you willing to take that upon yourself to pay that cost?
    Mr. Samaranch. I don't think I have a reason to pay for 
that. I am the Chairman of the IOC. I have no payments made to 
me. They cover my expenses, the hotel in Lausanne, and also 
travel expenses when I had to come here to Washington and the 
same thing occurred. I never demand to have a very large suite. 
All I request usually is a bedroom and a room to receive 
people, such as the case of the hotel I am staying in here in 
Washington. That is all I request.
    Mr. Barton. So if we formally request, and again be 
explicit that we name the hotel, you will provide the 
documentation or instruct the IOC accounting department to 
provide the documentation that the statement you just made is 
true, that it is only $250 a day and it is just two small rooms 
and all that?
    Mr. Samaranch. I don't think it will be necessary to 
request that, because you can read it in The Los Angeles Times 
today.
    Mr. Barton. Well, we may want to request it.
    One final question, and then I yield back. Do you maintain 
personal effects in these two small rooms in Lausanne, 
Switzerland, in the Palace Hotel; your clothing and personal 
artifacts that are only yours, that stay there when you are not 
there?
    Mr. Samaranch. As I explained earlier, sir, when I am not 
in town, the IOC pays $70 a day----
    Mr. Barton. That is not--my question is does he maintain 
his personal effects in the suite, even when he is not there? 
Some of his clothing, some of his hygienic supplies, 
photographs of his family, various gifts that have been given 
to him by well-wishers around the world?
    Mr. Samaranch. The answer is yes.
    Mr. Barton. Thank you, sir. I yield back.
    Mr. Upton. The gentleman's time has expired. The gentleman 
from Tennessee, Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. Mr. President, thank 
you for coming today to testify. I am going to try to move mine 
right along. I know we have an extremely distinguished panel 
which follows you. I think they can add an awful lot of 
information to where we are today. After sitting here and 
listening to the questioning, I think you have been asked an 
awful lot already in terms of covering the territory that needs 
to be covered with you. I think we have done most of that, and 
I appreciate you being here today and being on the hot seat and 
taking some very difficult questions.
    I think you can tell from the tone and tenor of the 
questioning by this panel that we are indeed very concerned 
about what we have learned over the last several months in 
particular and the last years of some of the practices 
involving the IOC, and I can appreciate that you too are very 
concerned about those.
    I would, before I ask you just a couple of questions and 
yield back the balance of my time, I would like to reiterate 
what one of my predecessors in questioning has asked, and that 
is that you give extremely serious consideration to applying 
the ethical changes you are incorporating to your office. I 
don't think there is any question that you know this and we all 
know this, that on these types of issues, that the leadership 
at the top must set the example, must lead by example.
    I think, again, you gather from the questions that have 
been asked, there are I think legitimate and serious concerns 
about some of the issues that have been involved that would be 
in the realm of ethical conduct.
    I might add to that, because you answered some of the 
questions, it is your view they were not conflicts, and I am 
not going to get into all the different questions again, but 
there is a very important element to this that it doesn't have 
to actually be a conflict. Sometimes it is the appearance of 
the conflict that causes a great deal of difficulty. So I 
caution you that you incorporate both of those, not only 
concern with regard to avoiding conflicts, but also that same 
concern for avoiding the appearance of a conflict. I know you 
feel that way.
    The two words that I have consistently heard in the 
hearings I have been in that involve the Olympics, are the 
spirit of the Olympics and how that spirit, everyone is 
concerned it not be tainted in any way; and that some feel that 
these allegations, and in fact they are beyond allegations, 
this misconduct, has tainted the Olympics. That is something we 
all want to avoid.
    The second word that I hear an awful lot, and it gets to my 
question, is the word culture, that the culture of the Olympic 
Committee has been a result or has been a cause of some of 
these problems. The culture that has gone on for years, just 
the way that the Olympic Committee has done business, if you 
will.
    I can appreciate the establishment of this commission. You 
have had some outstanding people that have participated in 
that, and again we are going to hear from them later. But it is 
going to be important that we have confidence that we have now 
a good set of rules set up. It is going to be very important 
that we also have confidence in the second part of that, that 
several of us have made reference to, that we make sure they 
are enforced properly.
    Do you feel that the expulsion of those 10 members, either 
by resignation or by expulsion, do you feel like you have 
eliminated that culture from the committee?
    Mr. Samaranch. I sincerely believe so, sir. We gathered 
evidence regarding these 10 members. Either they were expelled 
or they resigned. Other members were also sanctioned, but in 
various degrees. But I have full confidence in the current 
membership of the IOC.
    Mr. Bryant. In reading some of the articles that covered 
the meeting, I was able to discern some of the debate, and 
there was some opposition, relatively minor I think, but they 
were concerned. They raised as a defense this questioned their 
own personal ethics; they didn't need somebody to watch over 
them. But I think you led the majority appropriately to the 
fact that there is evidence out there that people have violated 
the rules.
    Again, I want to commend you for overcoming that 
opposition. I think it is time that the people involved in the 
Olympic Committee rid themselves of that culture. Again, I 
think you have taken good steps in doing so.
    I want to move on and hear from the second panel, because 
again they are going to talk about how this whole set of 
changes will come into play. Hopefully it will result in 
restoring that spirit that we expect from the Olympics.
    But I wanted to conclude my questioning by asking you 
something I made reference to in my opening statement, and 
after listening to the rather lively examination of you, I 
simply want to reiterate that I trust that the fact that we 
have been involved in this, a lot of the clamor for reform has 
come from the United States, and certainly this panel has been 
questioning you about those issues, I trust that this will in 
no way affect any future involvement of the United States in 
terms of being a site city. Do you sense that there might be, 
not necessarily from you, but from others on your committee, 
there might be some--``retribution'' is the wrong word, but 
some unanticipated or unhoped for results in terms of this 
country's hosting future Olympic Games?
    Mr. Samaranch. Mr. Bryant, I am sure this will not take 
place. Members and myself are of the opinion that your country, 
the United States, has a very, very important position among 
the family of nations, Olympic nations. This is the country in 
the world that has organized the highest number of Olympic 
Games. I myself had the privilege of presiding over four Summer 
Olympic Games, two of which were held in the United States. 
Aside from the Salt Lake City 2002 Olympic Games, we know for a 
fact that many cities in the United States are beginning to 
express interest in organizing and hosting the 2012 Games. As 
you probably know, we can only accept one candidate. The 
process of selection is conducted by each country's Olympic 
Committee, and I am sure that the bid that will come from the 
United States will be correct; they will stand identical 
chances of being selected, like all the others.
    Mr. Bryant. Thank you. I yield back my time.
    Mr. Waxman. Will the gentleman yield?
    Mr. Bryant. I will be happy to yield to my colleague from 
California.
    Mr. Waxman. Thank you very much. Mr. Samaranch, we have 
been hearing about all these problems because of Salt Lake City 
and Atlanta, and most of what we heard came not from an 
investigation by the IOC, but by the press and city officials 
in these two American cities.
    Has the IOC confirmed that no serious wrongdoing or bid 
irregularities similar to what happened in Salt Lake City and 
Atlanta occurred in Nagano, Athens, or Sidney? Are you 
convinced that the IOC's house is totally clean when it came to 
those cities?
    Mr. Samaranch. Many of the national organizing committees 
are no longer in existence. When this crisis came upon us, we 
wrote letters or memos to all the national organizing 
committees that had bid for the Summer Games or Winter Games. 
We sent 30 letters. In some of these letters there is an 
indication that if anything abnormal shows--and this letter was 
forwarded to the Ethics Board.
    Mr. Waxman. Your investigation involved letters, but isn't 
it true that Nagano burned many if not all of its Olympic bid 
records? If the gentleman from Ohio would allow me 2 minutes, 
it is really his time now.
    Mr. Bryant. I would yield you whatever time the Chair----
    Mr. Upton. He has no time left.
    Mr. Waxman. Mr. Chairman, let me ask you then, particularly 
I am asking Mr. Oxley, I have to run to another hearing, and I 
wanted to ask questions, so I would do it within 2 minutes 
rather than miss the opportunity for a 5-minute round later. 
You waited very patiently for your time. I leave it to your 
discretion.
    Mr. Oxley. It is okay. I will be glad to yield. I need to 
be recognized first, and I will yield to the gentleman from 
California.
    Mr. Upton. I accept the unanimous consent agreement that 
Mr. Waxman have 2 minutes.
    Mr. Waxman. I thank my colleagues. Unfortunately, I have to 
go to another hearing, so I will not be able to be here for all 
the testimony. But what I wanted to ask about, Mr. Samaranch, 
is it seems like the only investigation the IOC did of other 
cities in the past was sent letters; and, as I understand it, 
when it came to Nagano, I have heard that they burned many if 
not all of their Olympic bid records. Is that an accurate 
statement?
    Mr. Samaranch. I learned the same thing as you have.
    Mr. Waxman. What does that mean to you? Why do you think 
they would do that? What are we supposed to make of the fact 
that a city would burn its Olympic bid records? Is it to keep 
it from you, to keep it from the press, from the world?
    Mr. Samaranch. I don't know. I think you should direct that 
question to Nagano.
    Mr. Waxman. The reason I am asking you is that the IOC 
doesn't appear to have done much of an investigation about any 
of the potential abuses by other cities except to send some 
letters asking them whether they knew of some abuses, and 
accepted pretty much what they had to say. It seems to me that 
the IOC, if you really cared to know whether abuses took place 
in the past, would have demanded records and called the people 
from Nagano on the carpet to find out why they destroyed their 
records.
    We in the United States have had Salt Lake City and Atlanta 
held up to real scrutiny because we care about this issue. But 
it looks like we care about it, I am not sure the IOC cares 
about it.
    Mr. Samaranch. I respect your point, sir. We did what we 
had to do. We sent those memos to all the national organizing 
committees and also the United States Olympic Committee, and 
all these letters were also forwarded to the Ethics Commission.
    Mr. Waxman. Would the Ethics Commission be permitted to 
reopen these issues from these previous cities' bids to know 
whether there were improprieties?
    Mr. Samaranch. Whenever new facts arise that will warrant 
opening up an investigation, the Ethics Board will do so.
    Mr. Waxman. Thank you, Mr. Chairman, and particularly Mr. 
Oxley for giving me this opportunity to jump in on these 
questions. But it appears that I have heard it said over and 
over again, when facts come up, when we are presented with 
names, then we will do something about it. That kind of 
attitude doesn't give me confidence that the IOC really wants 
to know what abuses have taken place and that they are going to 
aggressively encourage their Ethics Committee to go out and 
investigate these matters and to take actions against those 
that have acted improperly.
    Mr. Chairman, I hope that we will continue our 
investigation in this committee and continue our oversight on 
this whole question of whether these reforms are real or not.
    Thank you very much. I yield back the balance of whatever 
time I might have had.
    Mr. Upton. The gentleman's time has expired.
    The gentleman from Ohio has been very patient. We welcome 
the Chairman of the Finance and Hazardous Materials 
Subcommittee, Mr. Oxley, to join us today. You are recognized 
for 10 minutes.
    Mr. Oxley. Thank you, Mr. Chairman, for allowing me to 
participate in this important hearing. As the Chair knows, I, 
along with Chairman Bliley, cosponsored legislation dealing 
with antibribery as it related to the OECD Convention and 
bringing the United States into conformity with the OECD 
Convention.
    Mr. Samaranch, there have been reports in the press about 
the IOC petitioning to be subject to the OECD Convention on 
combatting bribery of foreign public officials as one way to 
address some of the IOC's recent problems. However, my 
understanding is that only governments can join the Convention, 
and since the IOC is not a government, it could not join. I 
understand that this was confirmed for you recently in a letter 
sent by the OECD.
    Mr. Chairman, I would like to quote from the letter. This a 
letter from Donald J. Johnston from the OECD to Mr. Carrard, 
who is with us today, the IOC Director General. In part it 
states the IOC does not correspond to the definition of a 
public international organization in the meaning of Article I, 
paragraph 4 of the Convention, and that as a result its members 
could not be regarded as foreign public officials in the 
meaning of the Convention.
    He goes on to say, I have asked the Secretariat in the 
context of this work, to put to the working group the idea of 
the Convention possibly covering the officials of 
nongovernmental international organizations such as the IOC.
    Mr. Chairman, this was translated from French. I want you 
to know I did not do this personally, that is the translation. 
But I would like to make it part of the record and ask 
unanimous consent that the letter be made part of the record at 
this point.
    I thank the Chair.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]60363.330
    
    [GRAPHIC] [TIFF OMITTED]60363.331
    
    Mr. Oxley. Furthermore, as the letter indicates--I am 
sorry, the letter does not indicate, but it is my understanding 
the Convention only deals with those who pay bribes, not with 
those who receive them. In the case of the IOC, the allegations 
dealt with bribes received, not bribes paid, and there is 
obviously a big distinction there.
    Mr. Samaranch, I would like to ask you, would you agree 
that OECD member governments such as the United States and 
others should make the IOC subject to their own anti-bribery 
laws, laws which needed to be adopted in accordance with the 
Convention?
    Mr. Samaranch. The issue of OECD came up during our 
negotiations or our contacts with Mr. Mitchell in London. They 
told me that the International Red Cross was a member of that 
organization and I told them that the IOC would have no 
problems in applying for membership at the OECD. They did so, 
as you so aptly pointed out, and their response which came to 
us about 5 days ago was that we were not eligible because we 
were not a governmental organization.
    We will be very happy if the U.S. Government would lend its 
good offices to have us become members of the OECD. We would be 
very happy.
    Mr. Oxley. It is my understanding that the information 
regarding the Red Cross was in error, that in fact it is quite 
clear that NGO's, nongovernmental organizations such as the 
International Olympic Committee or indeed the Red Cross cannot 
become members of the OECD Convention.
    Is that statement correct?
    Mr. Samaranch. What I can tell you, sir, is that at that 
point the IRC was told that they--I was told that the IRC was a 
member. That is why we came up with the application. But if 
there is any other organization that is very much the same as 
OECD, we will be more than glad to consider the possibility of 
applying for membership.
    Mr. Oxley. I would appreciate that. Again, it appears to 
this member that we will need to take some leadership working 
with you to make certain that the member countries of the IOC 
make application to follow the OECD Convention, and we want to 
work with you toward that end.
    Mr. Samaranch. Please bear in mind the fact that we have 
200 countries in our membership.
    Mr. Oxley. I understand that. There may be some members, 
member countries, that are not--I am sure there are a number of 
them that are not signatories to the OECD Convention, and that 
is precisely why it is important that we work with those 
countries to make certain that they adopt not just for the IOC, 
by the way, but in general to expand the Anti-bribery 
Convention at the OECD. I think they did yeoman's work, and the 
IOC is an important part of that, but only a part of joining 
that Convention.
    Mr. Samaranch. I can say that we fully accept your 
proposal, sir.
    Mr. Oxley. Let me turn to a question regarding the 
television contract, if I may. Mr. Samaranch, did you even know 
about the NBC donation before the contract dealing with Salt 
Lake City and Sidney was signed?
    Mr. Samaranch. No, I did not.
    Mr. Oxley. Isn't it a fact that you were surprised when 
that announcement took place at the ceremony celebrating the 
contract?
    Mr. Samaranch. It did not come as a total surprise to us 
because we had already received donations from sponsors, many 
of them from the United States.
    Mr. Oxley. But the specific gift to the museum from NBC 
network, that was a surprise?
    Mr. Samaranch. It did not surprise.
    Mr. Oxley. It did not surprise. And how many sponsoring 
companies are on the wall there at the museum?
    Mr. Samaranch. We have received about $80 million in 
donations, about 60 or 65 companies, but not only businesses, 
but also States and governments, the organizing committees, for 
instance, of the Games. In other words, all the names are there 
for the public to see. And we are very thankful for these 
donors, because thanks to them, we have been able to build this 
museum which is a source of great pride to us.
    Mr. Oxley. Thank you. Thank you, Mr. Chairman.
    Mr. Upton. Thank you, Mr. Oxley. I know that a couple of 
members have a couple more questions, so we are going to move 
this to a 5-minute round, and then I think we will be done with 
the first panel, and we will start with the second panel 
immediately following.
    Mr. Samaranch, we appreciate your testimony and willingness 
to come today. I guess if I had a bottom line, I want to be 
perfectly clear that we want the Olympics and the Olympic 
movement to be clean as a whistle, and that means that the 
referees have to be able to blow the whistle and have to be 
able to throw a flag when there is a penalty, as we would see 
on a football field. We want no loopholes, none.
    I want to go back to a question that I think Mr. Burr 
asked. I want to clarify your answer with regard to the visits 
to cities.
    The way that a number of us read the documentation, you 
indicated that though IOC members will no longer be able to 
visit the cities, it is not necessary, and those were the words 
used, it is not necessary for the cities to visit the IOC 
members. I want to come back to you and to all of us up here, I 
think, the language ``not necessary'' means that it in fact is 
still permissible.
    With your statement, does that mean you are going to amend 
what we had read before and in fact will block visits by cities 
to visit IOC members in their respective countries? Do we 
expect to see that clarification come about?
    Mr. Samaranch. Let me address the two questions, if I may. 
I fully concur with you, we need a referee, and that referee is 
the Ethics Commission.
    I would like to once again reiterate that the visits by 
organizing committees to members of IOC are banned. My Director 
General points out that perhaps you would have with you a draft 
of the recommendation, but the decision was to ban visits in 
either sense.
    Mr. Upton. On both sides.
    Mr. Samaranch. And this is absolutely firm.
    Mr. Upton. Good. My last question before I move down the 
panel, I have a whole series of statements that were in the 
press, reports dating back to 1986 with the Los Angeles Times, 
the Washington Post, the New York Times, really spanning about 
15 years, talking about abuse with the IOC members with regard 
to gifts, trips, and I suppose you could say cash as well, 
bribery. It is mentioned a number of times.
    I want to make certain that this new Ethics Committee that 
is being established in fact will have the authority when they 
see, if they see press accounts like these in the future, that 
they will have the independence and authority to investigate 
fully these reports and that those investigations in fact will 
be made public once they are complete.
    Mr. Samaranch. As I said before, the Ethics Commission has 
full powers and full independence. In fact, even their budget 
will be separated. And, as such, they are empowered to conduct 
all kinds of investigations.
    Mr. Upton. So that in fact if these appear again in major 
newspapers across the world, they will have the authority to 
pursue it?
    Mr. Samaranch. Fully.
    Mr. Upton. Terrific. I yield to the gentlelady from 
Colorado.
    Ms. DeGette. Thank you, Mr. Samaranch. I noted with 
interest Mr. Bryant's question and your response regarding 
whether the United States will be punished in some way for 
pushing for these reforms. I would like to ask the question in 
a slightly different way.
    I look in the second row and I see the athletes who are 
here with us today. The American athletes who are not here and 
were not in the Olympics because of any kind of special bribery 
or special favors or anything, but simply because of their 
athletic committee--I would like to ask you directly in the 
spirit of the Olympics, do you believe the United States 
athletes will suffer in any way because of the United States' 
efforts to aggressively push these reforms?
    Mr. Samaranch. I don't think so. Sports in the United 
States is an area that has the highest respect. The U.S. is a 
very important member in the Olympic movement and that is why I 
am here.
    Ms. DeGette. Thank you.
    Mr. Samaranch. And I am more than certain that the U.S. 
team will get tremendous results in Sidney and they will be 
treated with the same fair play that we devote to other 
countries, or all other countries.
    Ms. DeGette. Thank you very much. Another question: What do 
you think the United States' role should be in monitoring the 
progress of implementation of these reforms?
    Mr. Samaranch. It is actually up to you, madam, because we 
have two members from the United States in the IOC, Anita 
DeFrantz and Mr. Jim Easton. We will be more than happy to 
report regularly to you, if you so desire, through these two 
members who sit at the IOC.
    Ms. DeGette. I think we would like to hear regular reports, 
probably on a quarterly basis, and in particular the thing we 
will be interested in knowing, as soon as possible, is the 
progress of the Ethics Committee in promulgating its 
regulations.
    Mr. Samaranch. You will receive that if you so desire. Mr. 
Chairman, if I might, I would like to correct one thing. I said 
that there were two IOC members from the United States. As of 
last Sunday, we have three; the third one being Mr. Ctvrlik, 
Gold Medalist in the Olympic Games, and we take great pride in 
having him with us.
    Ms. DeGette. Thank you very much for clarifying. Senator 
Mitchell and Mr. Duberstein conducted a very thorough review of 
the Salt Lake City bid, and because of that review, we were 
able to make very specific recommendations to our own National 
Olympic Committee, the USOC. Have the other former bid 
countries conducted similar reviews to see if they have got 
problems and to see if they can improve the function?
    Mr. Samaranch. My Director General points out that there 
was an inquiry in Berlin.
    Ms. DeGette. And do you think it would be worthwhile for 
the other countries to conduct such an audit to see how their 
experience can lend to the promulgation of the regulations?
    Mr. Samaranch. I have always been in favor of whenever you 
can make things clear, you should do so.
    Ms. DeGette. So to be clear, your answer would be yes?
    Mr. Samaranch. Yes.
    Ms. DeGette. Thank you.
    Mr. Samaranch. There is also another inquiry in Sidney, I 
have just been advised.
    Ms. DeGette. Thank you. Mr. Chairman, I think that it is 
critical to recognize that none of the reforms that were voted 
on last weekend were actually designed to detect and sanction 
the sorts of ethical lapses have undermined the credibility of 
the IOC. That effort is going to remain the task of the ethics 
program. But since the details have not yet been defined, the 
important reform is incomplete.
    I guess I would say, simply put, as long as this Commission 
remains a work in progress, the IOC cannot be considered 
reformed.
    Mr. Chairman, an ugly storm has engulfed the IOC over the 
past year, but I do believe--and I want to join you in thanking 
Mr. Samaranch for coming--the IOC has made progress toward 
substantial reform but significant work remains. As an old but 
useful saying goes, you may trust in God, but always tie your 
camel.
    I welcome the witnesses before us today, and I look forward 
to hearing the rest of the testimony. The thing I look forward 
to seeing most of all is the regulations that are promulgated 
by the Ethics Committee, and until I see that, I guess what I 
would have to say is I am going to have to keep my camel 
tethered.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Samaranch. Thank you very much for your kind words, and 
I can assure you that many of the decisions we have made late 
last week are already part of the Olympic charter. As to the 
others, with regard to the others, we will have them clearly 
decided and included by the time that we hold the preparatory 
meetings in Sidney next year, in 2000.
    Mr. Upton. Mr. Burr.
    Mr. Burr. Mr. Samaranch, you said that the United States 
plays an important role in the Olympic movement. Let me ask you 
if you think that Congress has a role in this process?
    Mr. Samaranch. Given the tremendous importance of sports in 
any society, agencies of that society should also take an 
interest in sports, and in this case the International Olympic 
Committee, and we can only thank you for that.
    Mr. Burr. I thank you for your willingness to testify in 
front of us.
    Let me ask you, have you accomplished all the changes you 
personally feel need to be made?
    Mr. Samaranch. I believe so. I believe we have already 
adopted the most important changes, and in all candor I might 
say that we might not have succeeded in including these changes 
unless we had had this crisis.
    Mr. Burr. Let me ask the same question a different way: If 
changes did not require a vote of the IOC membership, are there 
any additional reforms that you personally would have liked to 
have adopted?
    Mr. Samaranch. I think we are speaking frankly. I believe 
that we should, for instance, have the bidding and the 
selection of host cities to be made by the executive board, not 
by the plenary. But I think this would be the job of the next 
President.
    Mr. Burr. Let me again take this opportunity to thank you 
for your willingness to be here, for your openness with this 
committee. I thank the Chairman and yield back the balance of 
my time.
    Mr. Upton. Thank you, Mr. Burr. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. Mr. Chairman, in the 
first round of my questions we established, according to the 
answers that President Samaranch gave, that the reforms that 
are being implemented for the IOC members, committeemen, do not 
apply to him, because in his own words they are not necessary 
that they apply to him. We established that they haven't 
investigated past reports of improprieties in the site 
selection process because no names were provided by those 
reports that were given to the IOC Committee and that as 
President, he apparently made no attempt to try to document any 
of those prior charges. We established that the Sports 
Illustrated report that a half-a-million-dollar-a-year hotel 
suite is kept for his personal use in Lausanne, Switzerland on 
the top of the Palace hotel, is a lie, in his own words, 
because the dollar amount reported in the Sports Illustrated 
report is incorrect.
    I am not going to go over any of that in this round. I am 
going to concentrate on a trip that his wife and a friend of 
his wife took to the Atlanta area in the spring of 1990.
    My first question to President Samaranch: Is he aware that 
his wife did in fact travel to Atlanta at the expense of the 
Atlanta host city organization in the spring of 1990?
    Mr. Samaranch. This took place many years ago, but I 
expected something like that to arise, so I would like to give 
you a brief rundown of events.
    Mr. Barton. My first question is simply is he aware that 
his wife did visit the Atlanta area?
    Mr. Samaranch. Not only did I know it, but I also advised 
her to go.
    Mr. Barton. I would be happy to let him elaborate on that 
visit before I ask some more questions.
    Mr. Samaranch. In 1989 I went to Atlanta to attend the 
opening ceremony of the organizing committee, the officers of 
this organizing committee presided over, with Mr. Billy Payne. 
We were good friends and we had worked together well. At that 
point I was alone, and they regretted the fact that my wife had 
not been able to come to Atlanta with me.
    They insisted on inviting her and they did so, and I felt 
that she should accept the invitation and visit Atlanta.
    My wife was already advanced in years and she cannot travel 
on her own. I am not going to tell you how old she is because 
she might be angry at me.
    Mr. Barton. I respect that.
    Mr. Samaranch. But she attended the invitation, she was 
very well treated. I wouldn't call it an official visit, but it 
was a visit by the wife of the IOC's President.
    With your permission, I have in hand a letter that is very 
significant. I will ask that it be read.
    The Vice President, Washington, April 6, 1999, addressed 
Mrs. Juan Antonio Samaranch, International Olympic Committee, 
Chateau de Vidy, 1007 Lausanne, Switzerland: Dear Mrs. 
Samaranch, it was a pleasure to meet with you in Atlanta. I 
hope you were able to sample the warm hospitality for which the 
American South is famous and that you enjoyed your stay there. 
Should the city of Atlanta receive the honor of hosting the 
1996 Games, I know its people and all Americans would ensure 
that these games are among the best ever. Best wishes as you 
plan this tremendous event. Sincerely. Signature, Dan Quayle.
    Mr. Barton. I will stipulate that Dan Quayle was Vice 
President of the United States at the time that letter was 
written, if the president will allow me to add that to the 
document.
    Mr. Samaranch. Yes.
    Mr. Barton. Can I ask a question now that I have heard his 
response?
    Mr. Upton. Yes.
    Mr. Barton. What formal purpose, if any, was served for the 
good of the Olympic movement by having the Atlanta organization 
spend at least $13,000 to host your wife on her visit to 
Atlanta, Charleston, and I believe Orlando on that trip?
    Mr. Samaranch. Perhaps this is part of what the letter 
says, which is the American--the South is famous for its 
hospitality.
    Mr. Barton. I will agree with that. I am from Texas. I 
understand we are famous for our hospitality. But my question 
is----
    Mr. Samaranch. She was invited and they felt they should 
defray the costs. But I don't think this point is really that 
important.
    Mr. Barton. It is not important that your lovely wife, who 
I am sure is a lovely lady--and I don't mean that 
sarcastically--she has no formal vote in the proceeding; we 
have documents that show she was not interested in even looking 
at any of the venues, she just wanted to go to artsy-craftsy 
places and participate in high society. So I think it is well 
and good if she wants to visit the South and have that 
hospitality, but I don't think the Olympic movement and the 
host cities bidding to host Olympics should have to pay her 
expenses.
    Mr. Samaranch. You are probably right, sir. This is a 
problem of the organizing committee. This was an invitation 
based on friendship.
    Mr. Barton. I understand.
    Mr. Samaranch. And this is all I can advance.
    Mr. Barton. My final question, and I want to read one 
statement from the Sports Illustrated article and see if this 
too is a lie. This again is from the February article of Sports 
Illustrated, and I quote: It says, ``Before Samaranch took over 
the presidency in 1980, IOC representatives had to pay their 
own way to cities bidding for the games. Within a year, they 
were getting not one but two first class tickets from 
prospective cities, plus all expenses. In 1983 spending money 
of $100 a day was added to the package required of bid 
cities.''
    Is that a true statement?
    Mr. Samaranch. I think your question has to do with what 
members of the IOC received----
    Mr. Barton. No. According to Sports Illustrated, before Mr. 
Samaranch became President in 1980, IOC representatives had to 
pay their own way to cities bidding for the games. Within a 
year after he became President, members of IOC representatives 
were required to give two first class tickets, and by 1983, 
$100 a day for expenses. That would appear to me that President 
Samaranch suggested to the IOC membership board or at least 
acquiesced when this change was made. So that bid cities had to 
pay these expenses before 1980, before he became the President, 
IOC representatives had to pay their own way. So that is my 
question. Is this one of the reforms he instigated when he 
became President in 1980?
    Mr. Samaranch. I don't think there were visits scheduled 
before 1980, none. So perhaps there is some degree of 
confusion.
    Mr. Barton. So this is something if we again send a 
specific letter asking specific questions, he can check his 
files and see what caused this particular change in policy to 
be made?
    Mr. Samaranch. With your permission, I would like to give 
you my version. No visits were organized prior to 1980 to the 
bidding cities. IOC members were expected, and did pay for 
their own expenses when they attended meetings. I thought this 
was unfair. During the first IOC session that I presided over 
in 1981, we adopted the decision to pay members of the IOC all 
expenses, transportation, hotel, for all members. But alone, 
not with second or a companion.
    Mr. Barton. Who paid that? The IOC was going to pay it or 
you were going to require the host city to pay it?
    Mr. Samaranch. No, I am talking about the sessions of the 
IOC. They were paid by the IOC. But, Mr. Congressman, if you 
are really interested, we will be more than glad to respond to 
a request in writing from you.
    Mr. Barton. I understand. Thank you, sir. Thank you, Mr. 
Chairman.
    Mr. Upton. Thank you, Mr. Barton.
    Mr. Samaranch, we appreciate very much your willingness to 
come here today, and in particular we thank the interpreters, 
who we expect gave us the right answers back and forth. But we 
also want to thank Mr. Carrard, who spent a number of trips, a 
number of many hours, communicating with members of the 
committee and keeping us posted on the developments. We 
appreciated his openness and his willingness in every which 
way.
    Mr. Samaranch, we thank you for your testimony. As I 
indicated in my opening statement, we expect to continue 
oversight to make sure that this new Ethics Commission does 
have the teeth so it can look into possible abuses. We want the 
Olympic rings to be free from tarnish and we know and hope that 
you are on our side as well. You are now, as we might say, 
formally excused. We appreciate very much the time you spent 
with us today.
    At this point we will have the second panel, which includes 
Dr. Henry Kissinger, Senator Howard Baker, and because of 
flight troubles, for the time being we also now have Mr. Ken 
Duberstein, who is the vice chair with Mr. Mitchell, chair, in 
compiling the Mitchell-Duberstein report.
    If folks that are visiting the committee would take their 
seats so we can continue, we have a number of pressing 
commitments yet today. We appreciate the willingness of the 
panel and, obviously, the ability of Mr. Duberstein to step in 
the big shoes of Mr. Mitchell again. For purposes of 
introduction, we will yield to Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman.
    I would like to introduce one of our very distinguished 
witness and home State friend from Tennessee, former Senator 
Howard Baker, Jr. I can take about 3 hours and adequately 
introduce him, but given the nature of the time we have here, I 
am going to give just a short, very, very abbreviated 
introduction of our Senator Baker.
    After serving in the U.S. Senate from 1967 until 1985 and 
as President Reagan's Chief of Staff from February, 1987, until 
July 1988, Howard Baker has returned to private life and the 
practice of law.
    Following undergraduate studies at the University of the 
South and Tulane University, Senator Baker received his law 
degree from the University of Tennessee. He served 3 years in 
the United States Navy during World War II.
    Senator Baker first won national recognition in 1973 as the 
Vice Chairman of the Senate Watergate Committee. He was the 
keynote speaker at the Republican National Convention in 1976 
and was a candidate for the Republican Presidential nomination 
in 1980. He concluded his Senate career by serving two terms as 
minority leader and two terms as majority leader.
    Senator Baker has received many awards, including the 
Presidential Medal of Freedom, our Nation's highest civilian 
award, and the Jefferson Award for the greatest public service 
performed by an elected or appointed official.
    Senator Baker is currently an original member of the 
International Olympic Committee Ethics Commission, which was 
established this past March to strengthen the IOC's ethical 
guidelines and provide a clear standard of conduct for all 
members of the Olympic family.
    I welcome you, Senator Baker, my friend from Huntsville, 
Tennessee, and look forward to your testimony.
    Mr. Upton. Mr. Leader, welcome back to the better side of 
the capitol, and we will begin with you.
    As for all three, your testimony will be made, in its 
entirety, as part of the record. We would like to limit your 
remarks to 5 minutes. I know Dr. Kissinger needs to catch a 
train back by 1:30. And I do have to swear you in.
    As you know, we have a long-standing practice in this 
committee of swearing in our witnesses. Do any of you have 
objection to that? Do any of you need counsel, as provided in 
the committee rules?
    [Witnesses sworn.]
    Mr. Upton. You are now under oath.
    Mr. Leader, we will begin with you.

               TESTIMONY OF HON. HOWARD H. BAKER

    Mr. Baker. Mr. Chairman, may I assert the privilege of 
going first for the purpose of saying that while I served in 
the other body I was aware of this body. It was brought to my 
attention forcefully from time to time.
    I also would point out that both my father and mother 
served in this branch of the Congress. So I am a third-going 
congressional brat.
    My thanks to my friend Ed Bryant for the generosity of his 
introduction. You covered everything I can think of, except 
that my grandmother was sheriff of Roane County, Tennessee, 
just for the record.
    Mr. Chairman and members of the committee, I am here to 
speak on the creation and implementation of an ethics code and 
an Ethics Commission for the IOC. As you say, while I can 
submit the statement, which I do herewith for inclusion in the 
record, I will abbreviate it and cover the principal points 
that I think are relevant to your inquiry.
    First of all, it is a pleasure to serve on this commission. 
It is a distinguished commission made up of former United 
Nations Secretary General Javier Perez de Cuellar of Peru; the 
former president of Switzerland; the former president of the 
French Constitution Court, Robert Badinter of France; and five-
time Olympian Charmaine Crooks of Canada. The three current IOC 
members appointed to the commission are Judge Keba Mbaye of 
Senegal, who is chairman and former vice president of the Court 
of Justice; Kevan Gosper of Australia, who is an IOC vice 
president and former chairman and chief executive officer of 
Shell Australia; and also an Olympic silver medalist, Chiharu 
Igaya of Japan.
    Mr. Chairman, when I was asked to accept this position, 
frankly, it came as a surprise, and I inquired why I might be 
asked to do this job. It was pointed out that I had had 
experience as an attorney in constructing an ethics code, more 
than one ethics code, for major U.S. and international 
corporations. So I went into this job hoping that I could 
bring, and I believe I have had an opportunity to bring, some 
insight into how others construct Olympic codes, how they are 
put in place, how they are made useful, how the provisions of 
the code are enforced, and how you go about determining that 
violations of the code have occurred.
    And also, Mr. Chairman, I think perhaps the most important 
part of any ethics undertaking is to make sure that the 
membership involved, in this case country committees seeking 
the presence of the Olympics and those involved in the Olympic 
movement, fully understand that the leadership of the 
International Olympic Committee is committed to these 
statements of ethical conduct. And for that purpose, the Ethics 
Commission has adopted a code, has adopted bylaws, and has made 
it clear that the education of the membership of the IOC is one 
of the essential and first elements of a successful program.
    We are in the process now, Mr. Chairman and members of the 
committee, of choosing a ``special representative.'' Special 
representative is the word chosen by the commission. My own 
description of that person is an ethics officer in the context 
of an American corporation or an American enterprise who would 
choose someone to implement that code, to administer its 
provisions and to ascertain that action must be taken or should 
be taken by the body itself.
    The Ethics Commission of the IOC is roughly comparable in 
U.S. corporate terms to perhaps a committee of the board of 
directors, an audit committee perhaps, who has the stated 
responsibility to see that the code is fully complied with and 
to investigate allegations and charges that violations have 
occurred, and also to see that there is an appropriate 
education of those who will be affected by and involved with 
the ethics program.
    Mr. Chairman and members of the committee, I feel 
optimistic about the progress we have made so far. There have 
been lively, sometimes enthusiastic debates within the 
commission on the terms of the code itself and on the terms of 
the bylaws. The commission charged Kevan Gosper and I with 
writing those bylaws, and we believe that we have successfully 
provided for the implementation and the general principles 
established in the code itself. But, as I said earlier, we are 
now involved in the business of choosing an administrative 
officer, an ethics officer, if you please, designated here as a 
special representative.
    Now, in deference to my friends on the committee, I am 
going to abbreviate the rest of these remarks and make three 
points.
    The first is, Secretary Kissinger has made a major 
contribution to setting the stage for a new era in ethical 
conduct for the IOC. Senator Mitchell--my friend Senator 
Mitchell and my friend Ken Duberstein have taken the next step 
and made a major contribution to the furtherance of that 
purpose. It is my hope that the Ethics Commission now can 
complete the structural arrangements that will provide the 
oversight, the investigatory authority and the education 
necessary to have a successful ethics program for the IOC.
    The three points I would make, Mr. Chairman, are these:
    First, the IOC is worth saving. It is a great institution 
with a great history. It has most recently been involved in 
conduct that has brought criticism and difficulty for the 
organization itself, but it is worth saving. It is a great 
institution and has a great future.
    The second point I would make is, I believe by and large 
the members of the Olympic Committee, the Executive Committee, 
and all those I have been associated with are men and women of 
goodwill, and they are willing to accept a code or standards of 
conduct that will rectify the apparent difficulties of the 
past.
    I have already covered the third point, that the essence of 
any ethical program is education, to make sure that those who 
are involved and may be impacted by this code understand that 
management, so-called, at the very highest level, is committed 
to the enforcement of these provisions. And in my view that 
means not only investigating charges that may be brought by 
people in writing or otherwise about the conduct of particular 
people or groups or countries but rather to make sure that 
there is a positive requirement that those involved have a 
responsibility to report violations as they occur. Because it 
is virtually impossible for an ethics officer, and certainly 
for an Ethics Commission, to ascertain every misfeasance, every 
violation of this code that is likely to occur.
    And there will be violations. We do not live in a perfect 
world. And the best we can do is to set up a mechanism that can 
sense out and understand the charges as they are made and find 
evidence of misconduct and bring it to the attention of the 
commission itself to make a judgment.
    Now, the commission itself, under this setup, does not 
impose sanctions. Rather, it makes recommendations to the 
Executive Committee. And I think that is appropriate. Once 
again, the parallelism between an audit committee and a 
national board or a U.S. board of directors is not 
inappropriate. Because in that case, while the audit committee 
might have the responsibility and often does have the 
responsibility for administering the code and supervising its 
application, it is the board itself and the management of the 
company that finally must determine what to do about it.
    So here the sequence of events is that the ethics officer, 
in this case designated as a special representative, will seek 
out evidence of misconduct, will respond to charges of 
misconduct, and will make recommendation to the Ethics 
Commission. The Ethics Commission will then inquire into those 
matters and will decide whether or not to make a recommendation 
to the Executive Committee on what should be done. That is the 
chain of events.
    It is not dissimilar to those that have been adopted by 
major international corporations. I think it is appropriate to 
the IOC model. I think there is a high likelihood that it can 
work. I think the atmosphere is appropriate to the 
circumstance. And I believe that we have a good opportunity to 
see that the blemishes against the reputation of the IOC will 
be erased and that the future will be improved.
    And I thank you, Mr. Chairman.
    [The prepared statement of Hon. Howard H. Baker follows:]
           Prepared Statement of Senator Howard H. Baker, Jr.
    Chairman Upton, Ranking Member Klink, and Members of the 
Subcommittee, I thank you for inviting me to discuss my views on 
International Olympic Committee reform and the role of its Ethics 
Commission.
    The IOC Ethics Commission was established this past March to 
strengthen the IOC's ethical guidelines and provide a clear standard of 
conduct for all members of the Olympic Family, as well as ensuring that 
these guidelines are reflected in the policies and practices of the 
IOC, the National Olympic Committees and organizations associated with 
efforts to host the Olympic Games. The Commission takes responsibility 
for considering and acting upon all ethical matters affecting the 
Olympic Movement.
    I was invited to join former United Nations Secretary General 
Xavier Perez de Cuellar of Peru; former Swiss President Kurt Furgler of 
Switzerland; former President of the French Constitution Court Robert 
Badinter of France; and five-time Olympian Charmaine Crooks of Canada, 
in serving as outside members of the Commission. Three current IOC 
members were also appointed to the Commission: Judge Keba Mbaye of 
Senegal, Chairman of the Commission and former Vice President of the 
International Court of Justice; R. Kevan Gosper of Australia, IOC Vice 
President and Chairman and Chief Executive Officer of Shell Australia; 
and Olympic silver medalist Chiharu Igaya of Japan.
    When I was invited to join this group, I assumed that it was based 
on my prior experience in constructing and applying ethics codes in the 
U.S. corporate context and I believe that the work product that I have 
advocated for the Commission is generally in keeping with the 
philosophy of recognized codes of ethics in this country and elsewhere.
    In May, the Ethics Commission adopted Code of Ethics that sets 
forth the basic ethical guidelines to be followed by the entire Olympic 
Family, including IOC members and those representing cities bidding to 
host the Olympic Games. By adopting the Code during its June session in 
Seoul, the full IOC made a firm commitment to its letter and spirit.
    I am pleased that in addition to the Statutes and Rules of 
Procedure, the Ethics Commission adopted my recommendation that we 
create a specific set of guidelines to govern the implementation, 
monitoring and enforcement of the Code. The Commission asked that I 
work with a fellow Commission member (Kevan Gosper of Australia) to 
develop bylaws to the Code that would accomplish this purpose. We felt 
that the IOC should establish a permanent ethics office that would be 
responsible for the day-to-day management of a comprehensive ethics 
program modeled after some of the more successful corporate programs, 
but tailored to fit the unique needs of the IOC.
    As a result of that effort, bylaws to the Code were adopted by the 
Ethics Commission this past Friday which I believe materially assist in 
its definition and enforcement. The Commission voted to appoint a 
Special Representative who will be given the resources necessary to 
develop and manage a comprehensive Ethics Program for the IOC. This 
will facilitate the full implementation of the Code of Ethics, as well 
as the monitoring of its application and the enforcement thereof. As I 
previously urged, the Special Representative will consider other ethics 
programs successfully established by corporations and organizations 
from around the world and the Commission has authorized the Special 
Representative to engage private experts to assist in this effort.
    I expect the Commission to immediately begin the process of 
selecting a qualified candidate for this most important position and I 
look forward to being an active participant in this process.
    In terms of the overall management of the Ethics Program, the 
Special Representative and requisite staff will be charged to educate 
all Olympic Parties about their obligations under the letter and spirit 
of the Code of Ethics; serve as a permanent resource in connection with 
the application of the Code; monitor such application; investigate 
alleged breaches of conduct; regularly report to the Commission on the 
results of any investigation; and make ongoing suggestions about how 
the Ethics Program can be improved.
    The Special Representative will report to, and consult with, the 
Ethics Commission on a regular basis, particularly during the first 
year, when the Ethics Program is in its developmental stages. This 
reporting is in additional to the Special Representative's regular 
monthly reporting equirements.
    In general, the Special Representative works at the direction of 
the Ethics Commission, pursuant to its objectives and priorities, and 
in a manner consistent with the Ethics Commission's Rules and 
Procedures. In this context, the Ethics Commission will ensure that the 
Special Representative has sufficient autonomy, consistent with best 
business and governmental practice.
    I am satisfied that this action by the Ethics Commission is a major 
step toward the development of a credible, comprehensive and effective 
system for promoting positive ethics and addressing breaches of the 
Code where they occur.
    To encourage the Special Representative to move as quickly as 
possible in developing the Ethics Program, I am encouraging the 
Commission to specifically require the Special Representative to 
accomplish the following objectives during the first year of his or her 
tenure:
<bullet> The development of an organizational chart for the IOC Ethics 
        Program that will clarify its size and scope, as well as fully 
        describe its functionality;
<bullet> The creation of an IOC Ethics Program Handbook that clearly 
        and comprehensively sets forth the standards of conduct that 
        all Olympic Parties will be expected to uphold. This Handbook 
        will consolidate and clarify all relevant rules and guidelines 
        from the Olympic Charter, as amended, the Code of Ethics and 
        attendant Rules and Statutes, and the pertinent new reforms 
        adopted this past weekend;
<bullet> The crafting of recommendations to the Ethics Commission 
        suggesting ways to more fully develop the applicable procedures 
        for the Ethics Commission and the Ethics Program to ensure 
        fairness and efficiency in the investigation and processing of 
        breach of conduct allegations. These recommendations will 
        reflect careful consideration of the kinds of cases that have 
        previously been considered by the IOC and the Ethics Commission 
        and those that are reasonably foreseeable; and
<bullet> Establishing a comprehensive education and training program 
        for the Ethics Program that will ensure that all Olympic 
        Parties are made fully aware of the goals, standards, 
        procedures and resources of the Ethics Program. To facilitate 
        this objective, the Special Representative will work closely 
        with, and encourage the active participation of, Olympic 
        Organizations.
    To encourage transparency, I am also urging that the Special 
Representative work closely with the Ethics Commission to determine, on 
a regular basis, the extent to which non-confidential information about 
the Ethics Program's activities can be made available to the public.
    Mr. Chairman, I know that some confusion has arisen over the last 
few days regarding the scope of the Ethics Commission's jurisdiction 
and its overall mandate. I would like to briefly give the Committee my 
views on this issue, which I believe are fully consistent with those of 
my fellow Commission members and the IOC.
    In establishing the Ethics Commission this past March, the IOC 
intended that it would become the principal entity within the IOC's 
organization responsible for considering and acting upon all ethical 
matters affecting the Olympic Movement. Although the Commission did 
defer to the IOC Executive Board with respect to the cases involving 
IOC members Kim and Coles, it only did so because the Executive Board 
had already launched an investigation into those matters prior to 
creation of the Commission and it didn't make sense to begin a 
concurrent investigation. I do believe that the Commission has the 
authority and mandate to consider any new allegations arising out of 
matters previously investigated and acted upon by the Executive Board.
    In any event, the deferral on those two cases should be considered 
as an exception, not the rule, and it was not intended to set a 
precedent that the Commission would not consider any matter involving 
circumstances occurring prior to its creation. I do agree with my 
friend and fellow Commission member Mr. Perez de Cuellar that the 
Commission must ultimately be focused on promoting positive ethics and 
preventing scandals of the magnitude we have seen over the past year 
from occurring again.
    A fair question has also been raised about the willingness of the 
Commission to take the initiative to look into allegations of unethical 
conduct that are not supported by a written Complaint, as required in 
the Commission's Rules. While I believe the requirement of a written 
Complaint may have some merit in terms of minimizing the number of 
frivolous complaints that the Commission will have to consider, I also 
know that it is entirely possible for meritorious claims to be made in 
other ways. I would hope that when the Special Representative makes 
recommendations to the Commission regarding the efficacy of its Rules 
and Procedures, they will reflect a careful examination of this issue. 
At that time I am certain that the Commission will consider modifying 
its procedures if necessary to ensure that we achieve our broad mandate 
to fully address ethical matters within the Olympic Movement.
    I am also happy that the IOC voted this past weekend in support of 
the major reforms developed by the IOC 2000 Reform Commission, which 
counts Dr. Henry Kissinger among its members. These reforms--which were 
strongly influenced by the good work done by the Special Bid Oversight 
Commission chaired by Senator Mitchell and Vice-Chairman Ken 
Duberstein--will bring about permanent and positive change to the way 
the IOC operates. Some of these reforms will be critically important to 
the Ethics Commission's effort to fully implement and enforce the Code 
of Ethics, such as the inclusion in the Olympic Oath of a commitment to 
compliance with the Code of Ethics; requiring a contract with all bid 
cities that stipulates adherence to the Code; allowing the Ethics 
Commission to appoint three members to the newly-established 
Nominations Commission, which will screen prospective candidates for 
IOC membership; and, of course, the banning of travel to bid cities. 
The adoption of broad reforms by the IOC is indeed a watershed moment 
in its long history and I applaud the huge effort required to make this 
a reality.
    While I was initially skeptical about whether the IOC would 
undertake serious ethical and structural reforms in a fairly short 
period of time, it is now my distinct impression that the IOC--its 
leaders and its members--fully recognize the need to restore the 
Movement's credibility. And, as evidenced by the actions taken this 
past weekend, I believe that they are willing to make the tough 
decisions necessary to do so. The entire Olympic Movement must now join 
with the IOC in accepting shared responsibility for preserving the 
integrity of the Movement for generations to come and ensuring that the 
Olympics and the spirit of Olympism will rise above the difficulties of 
the past year. Ultimately, we all want the Olympics to be about the 
athletes and the competition, not about ethical scandals.
    Thank you for allowing me to express my views and I will be happy 
to entertain your questions.

    Thank you, Mr. Leader.
    Mr. Upton. Dr. Kissinger, welcome back.

               TESTIMONY OF HON. HENRY KISSINGER

    Mr. Kissinger. Thank you, Mr. Chairman.
    When I was asked to join the reform commission, I had the 
same reaction as Senator Baker. I did not know much about the 
organization of the IOC. Frankly, I didn't know the difference 
between the IOC and the national committees and the various 
groups composing it. But I did have an experience as a boy in 
Germany when the Olympic Games were held there in 1936 and 
brought about for a brief period an easing of pressure on the 
community to which I belonged.
    And so from this early time on, I have associated the 
Olympic movement with humanitarian purposes, with contributing 
to a world in which people can compete on the basis of merit 
and excellence and not on the basis of any other consideration. 
So I was honored to have an opportunity to contribute to the 
charge that was given to us, which was to reform the 
International Olympic Committee so that it would be 
transparent, its actions predictable, and on the highest 
ethical level.
    I know all the members of the Ethics Commission--or almost 
all the members of the Ethics Commission. I know all the 
outside members well. Senator Baker has been a close friend of 
mine for decades and needs no introduction here. But also the 
French member and also Perez de Cuellar, a man of extraordinary 
distinction.
    I happened to work on the committee in which I participated 
in the reform commission with the judge from Senegal who is 
chairman, and I want to assure the members who have raised very 
justified concerns whether the vice chairman of the IOC could 
be relied upon to be scrupulous, he is one of the most 
distinguished individuals that I have met, and he was a driving 
force in the reforms that were actually adopted. And Senator 
Baker has already referred to Kevan Gosper from Australia. So I 
have enormous confidence in the Ethics Commission. And it is of 
course true that the Ethics Commission, as a continuing 
supervisory body, will have a major responsibility for the 
spirit in which the other reforms are carried out.
    We were organized in three groups, and I was particularly 
familiar with the organization of the Olympic Commission and 
somewhat, through Paul Allaire, with the requirements for 
auditing of regular reports and procedures which parallel those 
of major American and international corporations.
    Our purpose in addressing the issue of organization was to 
set up a system where this election of members, their conduct 
and their organization, would be transparent and would be open 
to the outside world. So we proposed a selection committee of 
seven members, three of whom are outsiders, one of whom is an 
athlete, and three members of the IOC. So a majority of the 
members of the selection committee are outsiders. We proposed 
an age limit of 70 in order to make possible a rotation and 
various limitations on terms of office for the President and 
for the Executive Committee.
    We believe that, coupled with the creation of an Ethics 
Commission, insofar as any organization can guarantee a 
behavior that is widely understood and generally accepted, we 
have come as close to achieving this as we were able to. I must 
stress that on the commission on which I serve we were never 
aware of any particular views that Mr. Samaranch might have, 
and I can think of no proposal that was made that was not 
accepted.
    The basic guidance toward which I tried to orbit the 
activities of the commission was the Mitchell report. I met 
with Senator Mitchell, Mr. Duberstein and their associates at 
great length, before I even met with any member of the IOC. I 
did talk with Ken Duberstein because Senator Mitchell was 
otherwise engaged. I talked to Ken Duberstein at least once a 
week as we were progressing on our work, and I have the 
impression--of course, he can speak for himself--that what we 
proposed is consistent with the recommendations of the Mitchell 
Commission and could not have been achieved without the work 
that the Mitchell Commission had done.
    I also stayed in close touch with the athletes and with 
General McCaffrey in the White House in order to bring about a 
reconciliation between the approach of the IOC to the drug 
problem and the view of the White House to the drug problem, 
and I believe that this problem has been solved to the 
satisfaction of both sides by creating an independent 
commission.
    These were the basic thrusts of our effort. I think we owe 
it to the members of the IOC to say that there were of course 
some bad apples. But the vast majority of the IOC members are 
trying to serve the ideals of the Olympic movement. And 
certainly all the ones that I met that were actually engaged in 
the reform program were actively supporting the effort that was 
being made. And I believe that after a very short period of 
time enough fresh blood is going to be introduced to achieve 
the objectives that we all share and to which this committee 
has so greatly contributed.
    Thank you very much.
    Mr. Upton. Mr. Duberstein. Welcome back, particularly in 
light of your pinch-hitting role for former Leader Mitchell, 
who is stuck in Michigan.

                TESTIMONY OF HON. KEN DUBERSTEIN

    Mr. Duberstein. Mr. Chairman, it is an honor to appear 
before this subcommittee yet again. Senator Mitchell, as you 
stated, was supposed to testify. He was detained by the fog in 
Michigan, certainly not by the fog in Washington.
    I am honored to be in a program with two gold medal winner 
Americans, Henry Kissinger and Howard Baker. They are the best 
in American public service.
    I am appearing today as the vice chairman, pinch-hitting 
for George Mitchell, of the special commission appointed by the 
U.S. Olympic Committee President Bill Hybl in December, a year 
ago, to review the circumstance surrounding the selection of 
Salt Lake City to host the 2002 Winter Olympic Games. Serving 
with me on the commission were Chairman George Mitchell, my 
other Vice Chairman Don Fehr, and members Roberta Cooper Ramo 
and Jeff Benz.
    We made public our recommendations on March 1, which seems 
like a long time ago. As we reported to the Senate Commerce 
Committee in April, and to you in October, we concluded that 
the activity of the Salt Lake City bid committee was not 
isolated. Rather, it was part of a broader culture in which 
candidate cities provided items of value to International 
Olympic Committee members as a way of influencing their votes. 
This culture, we concluded, was made possible in part by the 
closed nature of the IOC and by the absence of transparency and 
accountability.
    We also concluded that some of the actions of the USOC in 
support of the Salt Lake City bid effort were inappropriate, 
and we made a series of recommendations in this regard. The 
USOC's response was quick and decisive, and by the time of the 
Senate hearing in April, I was able to report that the USOC had 
implemented all of our recommendations.
    We made 15 recommendations to the IOC. They largely fell 
into three categories: financial transparency, site selection, 
and IOC structure and accountability.
    The actions taken by the IOC last weekend, we believe, 
represent real progress in all three categories. We commend 
President Samaranch, Henry Kissinger, Howard Baker, Paul 
Allaire, Dick Ebersol, Peter Ueberroth, Bill Hybl, and the 
others, all of whom participated in the reform effort. Let me 
underscore, we believe that progress has been made.
    In the first two categories, financial transparency and 
site selection, the IOC's actions were significant. They 
generally were consistent with the recommendations of our 
commission. In one important respect, on the matter which 
sparked the controversy, visits to bid cities by IOC members, 
the ban adopted by the IOC goes even further than we 
recommended.
    In the third category, structure and accountability, the 
actions taken by the IOC, while positive, may need a bit 
further refinement and certainly continued scrutiny.
    We recommended changes in the method of electing IOC 
members. We felt that one source of its problems was its 
closed, self-perpetuating nature. Although recent changes 
provides for representation of athletes, national Olympic 
committee presidents, and sports federation leaders, they will 
be chosen by the IOC itself after being submitted by the IOC 
executive board. But, importantly, athletes will be selected by 
athletes.
    In addition, we recommended that representatives of these 
constituencies comprise a substantial majority of the IOC. They 
are not quite there. We recommended term limits. Although a 
mandatory retirement age of 70 was adopted, there is no limit 
on the number of 8-year terms that an IOC member can serve. 
They must, however, go through a process of being renominated 
and reelected, and we think that is a significant step in the 
right direction.
    We recommended the discontinuation of the practice of 
interlocking directorates between an IOC member and the NOC or 
the OCOG of that member's home country. The IOC referred that 
matter for further study.
    The IOC did recommend that the IOC members retain automatic 
entitlement to membership on the national NOC, although the 45 
IOC members drawn from the athletes, the International 
Federations, and the National Olympic Committees would not be 
permitted to vote.
    We recommended the creation of an independent Office of 
Compliance. This has been referred to the independent IOC 
Ethics Committee on which Senator Baker serves for their 
consideration.
    So with respect to structure and accountability, there were 
many positive changes. But, in our view, they were not as 
finalized as were the changes in financial transparency and 
site selection, and the new reforms need to be fully 
implemented and carefully scrutinized.
    One other subject deserves mention. Our commission regarded 
as important our recommendation that the IOC require 
prospective host countries to designate the IOC as a public 
international organization under its laws pursuant to the OECD 
Convention on Combating Bribery on International Business 
Transactions. In the U.S., this would mean coming under the 
coverage of the Foreign Corrupt Practices Act.
    The IOC petitioned the Secretariat of the OECD to have the 
IOC so designated, although as Congressman Oxley and others 
have stated, to date, because of procedural reasons, this has 
not been done. Nevertheless, we applaud Mr. Samaranch for the 
IOC effort in this regard. We hope that the IOC, the OECD 
Secretariat, and the Olympic Games' bidding and host countries 
will continue to work toward implementing the convention's 
provisions.
    Of course, the test of the effectiveness of the measures 
adopted by the IOC will be in their implementation and 
enforcement. A mechanism to ensure compliance must be fully 
constructed. Without one, lasting reform will be difficult to 
achieve. I understand, however, that the development of a 
strong enforcement program is at least partly the 
responsibility of the IOC Ethics Commission. We hope that they 
will ensure a strong code of ethics that is effectively 
enforced. One of its members, Senator Baker, let us just make 
it clear, his judgment and his integrity speaks volumes about 
the IOC appointment and asking Senator Baker to undertake those 
serious responsibilities.
    Mr. Chairman, a scandal has focused attention on a 
situation in which reform was long overdue. President Samaranch 
and his colleagues have responded to the challenge. They have 
taken important steps in the right direction. The IOC needs 
close monitoring and frequent checkups. The real test lies 
ahead in implementation and enforcement. They need to manage 
effectively what they have promised, and we need to ensure they 
continue on the reform course they have so finally established.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. George Mitchell follows:]
Prepared Statement of Hon. George J. Mitchell, Chairman of the Special 
       Bid Oversight Commission, United States Olympic Committee
    Mr. Chairman and members of the Subcommittee, I appear today as the 
chairman of the special commission appointed by U.S. Olympic Committee 
President Bill Hybl in December 1998 to review the circumstances 
surrounding the selection of Salt Lake City to host the 2002 Winter 
Olympic Games. Serving with me on the Commission were Vice-Chairmen 
Kenneth Duberstein and Donald Fehr, and members Roberta Cooper Ramo and 
Jeffrey Benz.
    We made public our recommendations on March 1, 1999. As I reported 
to the Senate Commerce Committee on April 14th, we concluded that the 
activity of the Salt Lake City Bid Committee was not isolated. Rather, 
it was part of a broader culture in which candidate cities provided 
items of value to International Olympic Committee members as a way of 
influencing their votes. This culture, we concluded, was made possible 
in part by the closed nature of the IOC and by the absence of 
transparency and accountability.
    We also concluded that some of the actions of the USOC in support 
of Salt Lake City's bid effort were inappropriate, and we made a series 
of recommendations in this regard. The USOC's response was quick and 
decisive, and by the time of the Senate hearing in April I was able to 
report that the USOC had implemented all of our recommendations.
    We made fifteen recommendations to the IOC. They largely fell into 
three categories: financial transparency; site selection; and IOC 
structure and accountability.
    The actions taken by the IOC last weekend represent progress in all 
three categories. I commend President Samaranch, Dr. Kissinger, Senator 
Baker, and all those who participated in the reform effort.
    In the first two categories--financial transparency and site 
selection--the IOC's actions were significant. They generally were 
consistent with the recommendations of our commission. In one important 
respect, on the matter which sparked this controversy--visits to 
bidding cities by IOC members--the ban adopted by the IOC goes even 
further than we recommended.
    In the third category, structure and accountability, the actions 
taken by the IOC, while positive, fell short of our recommendations.

<bullet> We recommended changes in the method of electing IOC members. 
        We felt that one source of its problems was its closed, self-
        perpetuating nature. Although the recent changes provide for 
        representation of athletes, National Olympic Committee 
        presidents, and sports federation leaders, they are not to be 
        elected or appointed by their respective constituencies. 
        Rather, ultimately they will be chosen by the IOC itself, after 
        being submitted by the IOC Executive Board. In addition, we 
        recommended that representatives of these constituencies 
        comprise a substantial majority of the IOC, but the IOC has 
        only provided for 45 of its 115 members to be drawn from these 
        groups.
<bullet> We recommended term limits. Although a mandatory retirement 
        age of 70 was adopted, there is no limit on the number of 
        eight-year terms that an IOC member can serve. Those current 
        IOC members who would be affected by the new mandatory 70-year 
        retirement age are ``grandfathered'' in to the age of 80.
<bullet> We recommended the discontinuation of the practice of 
        interlocking directorates between an IOC member and the NOC or 
        OCOG of that member's home country. The IOC did not adopt that 
        recommendation, but referred the matter for further study. The 
        IOC did recommend that IOC members retain automatic entitlement 
        to membership on the national Olympic committees though the 45 
        IOC members drawn from the athletes, international federations, 
        and national Olympic committees would not be permitted to vote.
<bullet> We recommended creation of an independent Office of 
        Compliance. This apparently has been referred to the IOC Ethics 
        Committee for consideration.
    So with respect to structure and accountability, there were some 
positive changes. But, in our view, they were not as complete or as 
meaningful as we had recommended or as were the changes in financial 
transparency and site selection.
    One other subject deserves mention. Our commission regarded as 
important our recommendation that the IOC require prospective host 
countries to designate the IOC as a public international organization 
under its laws pursuant to the OECD Convention on Combatting Bribery on 
International Business Transactions. In the U.S. this would mean coming 
under the coverage of the Foreign Corrupt Practices Act. The IOC has 
petitioned the Secretariat of the OECD to have the IOC so designated, 
although I have been advised that to date this has not occurred for 
procedural reasons. Nevertheless, we applaud the IOC for its effort. We 
hope that the IOC, the OECD Secretariat, and the Olympic Games bidding 
and host countries will continue to work toward implementing the 
Convention's provisions.
    Of course, the test of the effectiveness of the measures adopted by 
the IOC will be in their implementation and enforcement. A mechanism to 
ensure compliance has yet to be constructed. Without one, lasting 
reform will be difficult to achieve. I understand, however, that the 
development of a strong enforcement program is at least partly the 
responsibility of the IOC Ethics Commission. We hope that they will 
ensure that a strong Code of Ethics is developed and enforced. One of 
its members is our distinguished former colleague, Senator Baker, whose 
judgement and integrity should serve this important part of the process 
well. Mr. Chairman, a scandal has focused attention on a situation in 
which reform was long overdue. President Samaranch and his colleagues 
have responded to the challenge. But the real test lies ahead, in 
implementation and enforcement. These are important steps in the right 
direction but the IOC needs close monitoring and frequent checkups.

    Mr. Upton. Thank you very much.
    I know that Dr. Kissinger has a train to catch shortly, so 
I am going to deviate from the normal practice.
    I have one question for you, Dr. Kissinger, and we may have 
a couple of members that may have specific questions for you, 
so we will take that time out of turn.
    When you were here in October and testified you made the 
point very clear, and that of course was before the reform 
commission had reported out and, obviously, the vote this last 
weekend, you made it very clear that if for some reason those 
reforms failed, and in fact at the hearing some thought that 
the chance then was only 50-50 that it would pass, that you 
would be the first one back to criticize the IOC for not making 
the necessary reforms.
    As we look ahead and obviously focus on the enforcement of 
those reforms, the testimony by you and Mr. Baker and Mr. 
Duberstein, the implementation and enforcement of that is so 
important. Will you make that same commitment to us again, 
knowing full well that in fact the reports will be public by 
the Ethics Committee, that if in fact they do fail to enforce 
that, at any point along the line, that you will--in fact will 
take that same responsibility to tell not only us but the world 
and the IOC members that they are off the track again?
    Mr. Kissinger. Well, I have no formal right to do this, but 
as an individual--and I have no formal function with respect to 
a supervisory role at the IOC--but if it should come to my 
attention, and I certainly will continue to take an interest in 
the Olympic movement, if they are not living up not only to the 
letter but also to the spirit of what has been done here, I 
would certainly be very vocal about it and I would surely come 
back to this committee.
    May I make one point about term limits that my friend Ken 
Duberstein made? I am a professor of political science, and 
endless Ph.D. Theses have been written on the subject of how 
you create organizations, and you can find plausible arguments 
in either direction. I know of no corporation that prevents 
reelection, other than age.
    And, actually, this was not a matter where the IOC objected 
to the proposal. It was the considered judgment of our 
committee, right or wrong, that in light of an age limit of 70 
and of the need for some continuity of the need for reelection 
through this election committee so that you didn't come up 
automatically for reelection that that met the needs of the 
Mitchell proposals.
    But this is one of those issues about which political 
scientists and experts in organizations will argue forever. I 
just want to make clear this was not a failure of a reform 
proposal, this was a judgment that all of us outsiders made, 
and we were certainly free to come to a different conclusion.
    Mr. Duberstein. And the key was that each member would be 
renominated and have to go through a reelection.
    Mr. Kissinger. First he has to be renominated, then he has 
to go through the seven-member selection committee, four of 
whom are outsiders. So it is not an automatic reelection.
    If you will forgive me, I must catch a train.
    Mr. Upton. Does anyone have just a brief question for Dr. 
Kissinger before he leaves?
    Mr. Burr.
    Mr. Burr. I want to just extend to Secretary Kissinger the 
same question that I gave to Mr. Samaranch; and that is, of the 
reforms that took place, are there others that you would have 
liked to have seen that you found through your participation in 
this that were not included in the package? And, if so, what 
were they?
    Mr. Kissinger. Except for the term limit one, I really 
don't know any, and I did not push for the term limit one, I 
believe that the essential recommendations were adopted.
    I also would like to say that the chairman of the USOC, 
Bill Hybl, was an invaluable contributor to the reform process 
and gave tremendous support to all of us.
    Mr. Burr. I thank the chairman, and I thank Mr. Kissinger.
    Mr. Upton. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman.
    I will ask this to Senator Baker, too, but, Secretary 
Kissinger, what is your opinion on the reforms that are being 
implemented for the IOC members also applying to the office of 
the presidency of the IOC?
    Mr. Kissinger. On the what?
    Mr. Barton. That the reforms that have been voted on for 
the members of the IOC, those same reforms apply to the office 
of the presidency of the IOC. Because currently none of these 
reforms actually apply to the office of the president of the 
IOC.
    Mr. Kissinger. Well, I frankly had not focused on that, but 
I would assume that the premise is that the President of the 
IOC will want to carry out these reforms without being 
technically compelled to do so as far as his own office is 
concerned. I would certainly expect that the President of the 
IOC would set an example to the rest of the organization for 
meticulous adherence to the letter and the spirit of the 
reforms.
    Mr. Barton. Thank you, Mr. Secretary.
    Mr. Upton. Thank you, Dr. Kissinger.
    When we were here last, when Mr. Duberstein testified, and, 
Mr. Baker, we also had transportation trouble that day as well, 
as I recall, as you had an event in North Carolina that sent 
you off from our second panel, a lot was said. In fact, it was 
Mr. Duberstein's testimony of trust but verify, and that is 
exactly what we want to see come about here.
    I would like to share your optimism and your confidence in 
the new system. I am not quite there yet. We are anxious to see 
that the code of ethics, as it is drafted up--we are anxious to 
see that perhaps the first number of cases and how they are 
dealt with--we are interested to see, obviously, the full 
implementation and the progress that is made and perhaps 
further refinement with the scrutiny that comes about.
    But there was something that did come about, and I do not 
know if you saw this, I guess it was in Sports Illustrated this 
last week, posted from Switzerland, and I just want to run 
through with you some of the events that take place that sort 
of adds to our not full confidence. It adds to our skepticism 
in terms of being fully effective, the new Ethics Committee.
    I read, ``John Kim was indicted in September on Federal 
charges that he lied to investigators and entered the U.S. with 
a fraudulently obtained green card.'' Mr. Kim, a member of the 
IOC--his son, I'm sorry.
    ``Kim received a severe warning from the IOC earlier this 
year for alleged ethics violations.
    ``Asked last Wednesday whether Kim's status was under 
review as a result of his son's indictment, Director-General 
Francois Carrard said, `There are no facts as far as we are 
concerned. It would be a matter for the Ethics Commission'.''
    Sent to the right place. Those are my words.
    The story reads, ``Commission members, however, said they 
have no power to initiate further investigations on the case, 
which IOC spokesman Franklin Servan-Schreiber said is `closed 
until there is new proof'.''
    ``Ethics commissioner member Robert Badinter said that `we 
will not be Scotland Yard'.''
    It goes on.
    How does that comport with the power that the Ethics 
Committee has on obviously a case that is pretty recent versus 
back in the 1980's or even earlier in this decade?
    Mr. Baker. Mr. Chairman, I would say a few things.
    No. 1, the commission is still very much a work in 
progress. As I said in my earlier testimony, in the summation 
of my testimony, while we have adopted the code, we have 
adopted the bylaws, we are now in the process of writing rules 
and regulations and finding an administrative officer, an 
ethics officer, a special representative.
    And, by the way, it is my view that we ought to pick that 
person, the administrative officer, before we finish the 
drafting of the rules and regulations, because he or she should 
have some role to play there.
    On the question of whether or not we go into matters that 
are in the past and prior to the creation of the commission or 
prior to the perfection of the commission's activities, it is a 
very thorny issue. My friend, Mr. Badinter, also said at one 
point, or one of my fellow members did, that we are a forward-
looking commission, and indeed we are.
    And you finally then get to the question, where do you 
close a matter? Do you go all the way back to the very earliest 
selection process and review the whole thing? I don't think so. 
Do you take a look at new allegations and new charges that were 
not considered? I certainly do think so. Is the commission a 
self-starter? Yes, in my view it is.
    And without any allegation of misconduct, it seems to me 
that if the administrative officer or his staff or the 
commission or any member of the commission ascertains that 
there is a reason to believe that there has been an infraction 
of the code or of appropriate conduct, that they should be a 
self-starter and go forward with it.
    But there has to be a dividing line someplace. And while we 
cannot go back and review everything that has ever happened, I 
do think that the commission, that the administrative officer, 
should be open to taking a look at anything that looks like it 
ought to be looked at and that perhaps may not have been looked 
into before. But it is like prior jeopardy in the legal 
parlance. You have to stop someplace.
    Mr. Upton. You would not necessarily close the door on this 
investigation, which is pretty recent?
    Mr. Baker. I would not close the door on that or any other 
investigation. If something new comes up that is clear it was 
not considered, then I think it is entirely appropriate for the 
Ethics Commission to take a look at it.
    Mr. Upton. Ms. DeGette.
    Ms. DeGette. Well, Senator, I really agree with what you 
have just said in terms of independent investigatory authority. 
Because something that I am very concerned about hearing in the 
testimony today so far is this testimony about, well, we never 
investigated abuses because no one reported them to us. And of 
course, as we know, if any organization is going to engage in a 
culture of corruption, you are not going to have reporting 
because everybody is going to back each other up.
    So I guess I would like to hear from you what you think 
that the Ethics Committee will be doing in its regulations to 
empower it to have this independent investigatory authority. I 
never got what I considered to be a very clear answer from Mr. 
Samaranch as to how we are going to break this cycle that has 
built up and how we are actually going to investigate whether 
it is happening, whether or not we have a specific allegation 
of abuse by a specific individual.
    Mr. Baker. Well, I think, first of all, you might like to 
have a little insight into how we finally derived the wording 
of the ethics code. One of the most energetic debates we had 
within the commission was whether or not there is a positive 
requirement for those who participate in Olympic activities to 
report a violation. Some said, well, you know, we just cannot 
do that. We would turn ourselves into, as one member said, into 
a bunch of McCarthyites. I said, well, in my view, you cannot 
have an effective ethics code unless you have a corresponding 
requirement that you report what you find.
    Ms. DeGette. Right.
    Mr. Baker. And while that is not dealt with directly in the 
ethics code, I think finally there is a unanimous view that the 
Ethics Commission has the positive responsibility to 
investigate whatever comes to their attention in whatever way.
    Ms. DeGette. But no proactive responsibility was put on IOC 
members to report, is what you are saying, and that kind of 
disturbs me.
    Mr. Baker. It is not spelled out in the code itself. But I 
say now, in my view, not only does the Ethics Commission have 
that responsibility, but I believe the Executive Committee has 
that responsibility, the IOC has that responsibility, and I 
think anybody involved, including national committees, should 
have, and I believe does have, the responsibility under the 
code to tell us if they see a violation of provisions of the 
code.
    Ms. DeGette. I understand what you are saying. I saw Mr. 
Duberstein nod. Do you think it will be possible, as we flush 
out these committee rules, to have some kind of affirmative 
responsibility to report any gifts that are received or trips 
that are taken or so on?
    Mr. Baker. Well, I hope so. Yes, on trips that are taken, I 
certainly think so.
    Ms. DeGette. Well, to follow up on the gifts, Mr. Samaranch 
just said a few minutes ago that he thinks the gifts should 
just be banned since they are an adjunct to the trips, and the 
trips are bad. So I will look forward to that change.
    Mr. Baker. By the way, I have a view of that. I don't think 
you ought to ban the trips. I think the trips are useful. I 
think what ought to happen, and I have said this, but it is not 
incorporated in the policy directives, I think what ought to 
happen is the IOC itself should pay for those trips.
    Mr. Duberstein. Which is, in fact, the recommendation of 
our commission.
    Mr. Baker. Exactly.
    Mr. Duberstein. But the IOC went----
    Ms. DeGette. So is that going to lead to another change in 
the rules, do you think? I might happen to think the trips 
would be useful, too, but the IOC should pay. But that is not 
what the IOC did.
    Mr. Baker. No. It is not in the rules and, really, it is a 
matter of policy, I think, absent any specific provision. What 
I am saying is I would feel better if it were done that way.
    Ms. DeGette. Mr. Duberstein, feel free to jump in. Do you 
feel it would be helpful to have some kind of hotline, where 
people could report some kind of potential abuses?
    Mr. Baker. That was discussed also, as we debated and 
finally adopted the ethics code. Many corporations do have 
that. They have a hotline not only to make it easier for people 
to report allegations of misconduct and violations of the code, 
but also so they can do it anonymously.
    Ms. DeGette. Right. Well, do you think a hotline will 
happen? We are talking about all these ideas, and maybe they 
are good ideas, but I do not hear this happening.
    Mr. Baker. We are still a work in progress, and that is my 
view, but I guess I have not given up on that yet.
    Ms. DeGette. All right. Just one last question, if I may. 
And by the way, we have enormous respect for you, for the other 
members of the panel, everybody who is working on this. We know 
you are all very diligent, and you are all very well respected. 
The concern I have got, and someone I think on the other side 
mentioned this in the previous questioning, what happens when 
you are all gone?
    How can we institutionalize an Ethics Committee that will 
not be primarily or even solely reliant on personalities and 
the goodwill of the vice chairman and of you good folks?
    Mr. Baker. Well, I appreciate the compliment, and I usually 
decline to think about what happens after I disappear.
    Ms. DeGette. Just after you leave the committee.
    Mr. Upton. We will use the John McCain example. We will 
give you some dark glasses and prop you up like he is going to 
do with Alan Greenspan.
    Mr. Baker. I would agree. But you are doing here the best 
thing you can do, and that is to ventilate these issues, to 
call public attention and to the attention of the IOC 
apparatus. Believe me, I know firsthand the IOC is listening to 
this and the Executive Committee is listening to it, and they 
are taking to heart the suggestions that you have made, that 
the Ethics Committee makes. This is the most effective thing 
that can be done.
    The Congress of the United States has no jurisdiction over 
the IOC. Maybe we can get at it in some indirect ways. But the 
surest way to deal with this, in my view, is to make sure it is 
a prominent, well-ventilated issue.
    Mr. Upton. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. And given as much time 
as you spent with Senator Thurmond, Senator Baker, I don't 
expect you to go anywhere anytime soon.
    Let me set the record straight. And I don't think Mr. 
Kissinger meant specifically what he said, but I have 
questioned individuals, the chairman of the Ethics Committee, 
who is the vice president of the Executive Committee, and I 
have not questioned his character or his integrity, I question 
structurally whether the ability to serve as the chairman of an 
Ethics Committee and the responsibility he then had as a vice 
chair or vice president of the Executive Committee could in 
fact be performed by the same individual. Clearly, if you 
believe that that works, then I can accept that.
    I think the question that we all have about this process is 
structure. Is the structure in place that outlasts all of us 
and is one that the IOC can turn to in troubling times?
    So let me get to maybe not what the Ethics Committee is 
doing but how you envision the Ethics Committee handling 
certain things. Do you envision the Ethics Committee 
recommendations to be transparent or will they be closed at the 
Executive Committee level?
    Mr. Baker. Let me take them in reverse order. Should the 
deliberations of the ethics committee be totally transparent?
    Mr. Burr. Maybe not the deliberations but the findings of 
the Ethics Committee.
    Mr. Baker. The findings certainly should be transparent. 
The deliberations, you may have cases where you would want to 
protect the innocent or make sure that you protect sources or 
for other reasons that you would want to hold in confidence 
some of the deliberations of the commission.
    Mr. Burr. But you would expect the findings of the Ethics 
Committee that you turn over, based upon the structure that I 
understand, to the Executive Committee of the IOC to be open, 
those recommendations?
    Mr. Baker. I don't believe it is dealt with anyplace in our 
bylaws or our proposals, but I would expect that to be so, yes.
    Mr. Burr. Do you envision the Ethics Committee having the 
capabilities of disciplining IOC members or can that only be 
done under the structure by the Executive Committee?
    Mr. Baker. I don't think the Ethics Commission actually 
will have any authority to sanction or punish anyone. What we 
do is act as a fact-finding group, make a recommendation to the 
Executive Committee, and perhaps then from the Executive 
Committee to the full IOC. But we have no authority as an 
Ethics Commission to do that.
    Could I say a word about Judge Mbaye?
    Mr. Burr. Yes, sir.
    Mr. Baker. I met Judge Mbaye before I agreed to be on this 
commission, but I must tell you I am mightily impressed by him. 
He is careful, and he is deliberate, but he is also determined, 
and he is determined to see this undertaking works. And the 
fact that he is also a member of the Executive Committee does 
not really bother me at all. Perhaps it might at some future 
time, but I really am not really concerned about that, and I am 
certainly not concerned with Judge Mbaye.
    Mr. Burr. If this were not the IOC and this was a 
corporation that you served on the board of and that 
corporation set up an Ethics Committee within its company and 
the Chair of the Ethics Committee was in fact the vice 
president of the board, would you have a problem with that?
    Mr. Baker. Well, I was on a board, and before I went on the 
board I was asked to draw a code of ethics. And then after I 
got there, I became a member of the audit committee, which had 
responsibility for overseeing the performance of the ethics 
code. We had no chairman. We were a committee. But had we had a 
chairman, and were it a member of management, I don't think it 
would have bothered me. Because we had a majority of directors, 
outside directors. As a matter of fact, all but one was an 
outside director on the audit committee. And it never occurred 
to me that there was anything wrong with that.
    And, honestly, I don't think I will worry about this.
    Mr. Burr. Again, my question is not toward the integrity or 
capabilities of Mr. Mbaye, it is more toward the structure. Is 
that the structure we want for the future?
    Let me go on. Do you envision that the Ethics Committee can 
investigate charges on their own, or would they have to be 
directed by the Ethics Committee?
    Mr. Baker. Well, that is a very good question. I have heard 
expressions of several variations on that subject. My own 
personal view is that the Ethics Commission, and more likely 
the ethics officer, should have free rein to investigate 
anything that comes to their attention or that they suspect. 
And if it is in writing, that is fine, but they might even 
require it to be in writing. But I don't think there should be 
any restriction on the scope of the permissible inquiry that 
the Ethics Commission can make.
    Mr. Burr. According to an IOC press release dated October 
28, 1999, it stated that the Ethics Committee plans to develop 
within 12 months a process by which the Olympic parties will 
certify that they will comply with the letter and spirit of the 
IOC code of ethics. Let me just ask you, why will it take so 
long to develop?
    Mr. Baker. Well, I am not so sure it will. But I do think, 
as I said earlier, that it is as important that we have an 
educational program as it is that we have a code. Because those 
who are potentially impacted by this code or by the rules and 
regulations must be aware of the fact that not only the 
commission itself is behind these provisions but so is the top 
management, so to speak, of the IOC.
    I have no view on how long it will take. It has taken us a 
long time to get as far as we are, and it is still very much a 
work in progress.
    Mr. Burr. But you do see that as a vital part of the 
compliance by bid cities?
    Mr. Baker. The compliance part is important, and it is 
going to take awhile. And to be absolutely honest and candid, 
you don't get instant agreement within this commission on every 
item that comes up. It takes awhile for it to percolate through 
and to develop a consensus.
    Mr. Burr. That must be odd for you, after leaving the 
legislative branch up here, not to have full agreement?
    Mr. Baker. Absolutely unheard of.
    Mr. Burr. Last question. Is the Ethics Committee currently 
investigating any allegations of wrongdoing? Not asking for 
specifics, I am just asking in general.
    Mr. Baker. If I may, Mr. Burr, I think I will reserve on 
that for the moment.
    Mr. Burr. The gentleman certainly has the right to do that, 
and I respect that.
    I thank the Senator, and I thank Mr. Duberstein.
    Mr. Chairman, I yield back.
    Mr. Upton. The gentleman's time has expired.
    The gentleman from Texas, Mr. Barton.
    Mr. Barton. I thank the chairman.
    I want to comment on something that Senator Baker said in 
response to an earlier question, that the U.S. Congress does 
not have direct jurisdiction over the International Olympic 
Committee. That is very true. I am told, though, that the U.S. 
Government directly gives several hundred million tax dollars 
every Olympic cycle to the IOC, or USOC, indirectly through our 
Tax Code another several hundred million, and then U.S. 
corporations through sponsorship and commercial dealings 
several billion dollars. So I think there is a reasonable right 
of the Congress to be concerned about this, and I know that you 
share that.
    Senator Baker, I may not have this quote exactly right, and 
I would beg your excuse before the fact. But when I was a lad 
watching the House and the Senate growing up in Texas, I 
remember a certain Senator on a certain committee saying 
something to the effect, ``What did he know and when did he 
know it?'' Do you recollect who said that and when that person 
said that?
    Mr. Baker. I also recall that at lunch, on the day before I 
said it, with my press secretary Ron MacNamy, where I said we 
have to summarize this thing some way. It is drifting away. And 
I am going to ask what did the President know and when did he 
know it. And my press secretary said, ``No, don't use that, it 
doesn't have any clout.'' And I was about half convinced.
    But I do think it summarized the whole thing, and I don't 
think it is inappropriate to this inquiry. And it should be 
extended beyond just the President. It should be extended as 
well to the management of the IOC and specifically to the 
Ethics Commission. As long as I stay on the Ethics Commission, 
I intend to make sure that everything is possible for me to 
know about appearances of impropriety or about allegations of 
impropriety. That may be very difficult, but I feel that is the 
responsibility of the management and of the commission to do.
    Mr. Barton. Well, I want to commend you, Senator Baker, for 
having the courage in the early 1970's, as part of the Select 
Committee on what was commonly called the Watergate 
Investigative Committee, as a member of the minority party in 
the House and the Senate, to make that statement, to stick to 
your guns. Ultimately, the fact that a person of your 
commission and your eminence asked that question led to the 
resignation of the President of the United States. And I think 
President Samaranch, who is still in the room, is to be 
commended for appointing, for lack of a better term, what we in 
Texas would call a posse that puts people of your eminence and 
Dr. Kissinger and Senator Mitchell and some of the 
international community on it.
    But I would point out that, to use that analogy a little 
further, if the sheriff or President Samaranch sends the posse 
in the wrong direction, you can look all day and have the best 
sharpshooters and bloodhounds and troubleshooters and not find 
anything. So I am a little concerned about the responsibility 
for implementation, as the other members are, and I have a few 
questions for you in that regard.
    Sports Illustrated reports that of the 112 members on the 
IOC board as of February, 90 were appointed by President 
Samaranch. Is that concurrent with what your understanding is 
of the current make-up of the IOC?
    Mr. Baker. I have no reason to dispute that at this point.
    Mr. Barton. If that is in fact true, how independent do you 
think the current IOC board membership can be in implementing 
all of these various reform measures, given the fact that the 
incumbent president intends to remain in office?
    Mr. Baker. Let me regress for a minute and say that 
throughout my participation in this inquiry and the 
construction of the ethics code, I could not have asked for 
more cooperation than I have had from President Samaranch. I 
have talked to him privately, I have talked to him in groups, 
and I came away convinced that he was fully dedicated in a 
manner of trying to clean this up, so to speak, and that he 
fully supported our effort to draft a code that would 
institutionalize this new regime. So I have a very high regard 
for President Samaranch. I know that he testified effectively 
this morning, but I wanted to add that.
    Now, on the independence of the IOC, the very best way that 
you could do that, I think, is the way that we talked about a 
moment ago, and that is to make sure that the deliberations the 
IOC, of the Ethics Commission, the executive committee are all 
transparent to the maximum appropriate extent, and that as you 
point out, the Congress--in particular this committee--keep 
track of the evolution and development of this work in progress 
so that you can publish, so that you can call the country's 
attention to the successes and perhaps the failures of our 
efforts to institute a new day at the IOC. I really don't have 
any fear of undue influence by President Samaranch. I think he 
is well meaning and dedicated, I think he has given 
distinguished service, and I really have no reason to think 
that that would change.
    Mr. Barton. Are we going to have a second round, Mr. 
Chairman, on this panel?
    Mr. Bryant [presiding]. I have been told that it's up to 
me. That could be dangerous.
    Mr. Baker. Would the chairman accept a suggestion that if 
we have a second round, that we have sandwiches?
    Mr. Bryant. Only Mr. Upton might think on it. The chairman, 
the real chairman will be back here shortly. I will certainly 
leave it to his discretion. I suspect he will, if there are----
    Mr. Barton. Let me ask you one more question, and then I 
will defer my other series for the second round, if we have a 
second round.
    Why should not the reforms that are being implemented for 
the IOC board members not also be applied to the office of the 
presidency and the other executive offices?
    Mr. Baker. Well, I have listened to that question and Dr. 
Kissinger's answers. To tell you the truth, I haven't thought 
about that. But part of the reason I haven't thought about it, 
I guess, is because I have become such an admirer of President 
Samaranch. But I will think about it, and I will see that the 
matter is addressed and properly debated in the Ethics 
Commission. I am not----
    Mr. Barton. Dr. Kissinger's basic response was that he 
hadn't thought about it too much either, and he just assumed 
that whoever assumed the presidency would honor the spirit and 
the letter of the reforms to the rest of the membership. I 
would simply offer suggestions to your committee that the 
reforms on travel and acceptance of gifts and reporting and 
transparency be formalized for the Office of the Presidency and 
the other executive offices if for no other reason than to 
assure congruity and conformity.
    Mr. Baker. I thank you for the suggestion and I will see 
that it is passed on. I will promise to pursue the matter. I 
might also say, Mr. Barton, that my dad, who was in Congress 
years ago, taught me that if I ever testified before a 
congressional committee to always make sure that I didn't speak 
more clearly than I thought.
    Mr. Barton. We appreciate this panel testifying without the 
benefit of interpreters. That helps us. Mr. Chairman, I yield 
back the balance of my time.
    Mr. Upton. We have a little problem with the time because I 
know that--we are going combine Panel III and IV together. I 
know that some of those athletes will not be able to stay much 
longer because of transportation. So if we can, I would like to 
conclude with this round. If we have a passing question, come 
see me. Let me go to Mr. Bryant first.
    Mr. Bryant. Thank you. Mr. Duberstein and Senator, I would 
like, if either one of you have opinions on two questions that 
I have, if you could maybe express those rather succinctly, and 
we will try to move this along. I think we probably took a 
little longer than we anticipated with our first panel. But in 
terms of this Ethics Commission, is it too early to determine 
whether or not the members of the IOC--I don't know, perhaps I 
am assuming there has been some feedback--are taking this 
seriously, because I mentioned the culture that we feel. We 
heard a lot about that in the first hearing, that is sort of 
out there. In addition to that--this is not my second question, 
but in addition--are they going to take it seriously; are there 
powers that this commission will have, the special 
representative will have to get their attention?
    Mr. Baker. Mr. Bryant, I think that the IOC itself and the 
staff of the IOC and perhaps those who know of our 
deliberations, country committees and the like, do take it very 
seriously indeed; and there have been lots of suggestions about 
what should or should not be included in the code or the bylaws 
or the implementation plan.
    Once again, I think the surest way to make certain that the 
reforms survive and endure beyond the life of this commission 
or even this executive committee is to make sure that groups 
like this committee continue to have an interest in it. I know 
it is intrusive and unpleasant and an inconvenience to the IOC 
to have hearings like this, but it is the surest guarantee that 
these issues will be addressed and they will persevere in their 
effort to create a new day.
    Mr. Bryant. Mr. Duberstein, do you want to add anything to 
that?
    Mr. Duberstein. The only thing that I would add is our 
commission and Senator Mitchell and I had concerns, until the 
time that we traveled to London to meet with Mr. Samaranch, Mr. 
Carrard. We spent a good bit of time with them. Subsequently, 
we have talked with one or both of them on a number of 
occasions and became convinced of their not only dedication to 
reform, but to the transparency of the IOC and to the more full 
participation and representation at the IOC. I think it is 
significant that Mr. Samaranch came here today to appear before 
this committee. I agree with Congressman Barton as far as 
jurisdiction, but the fact is that Mr. Samaranch came here and 
testified and took all the questions that were asked. I think 
that should suggest to you that the commitment to reform on Mr. 
Samaranch is something that he is now living every day. I think 
that is reassuring.
    Mr. Baker. Could I add to that just for one moment? I am 
talking a little out of school, but I could tell you that there 
are many people on the IOC structure who thought it was 
inappropriate and unwise for President Samaranch to appear 
here. He persisted from the beginning, saying that he felt he 
should, and he did, and I am glad he came.
    Mr. Duberstein. I agree.
    Mr. Bryant. This will call for a short answer one way or 
the other, but both of you if you could answer this, both 
members of the panel, based on your experiences thus far as a 
member of the IOC Ethics Commission, are you satisfied with the 
progress that has been made to implement the necessary 
procedures to ensure the Ethics Commission will be successful 
in overseeing compliance with IOC rules and the ethics code?
    Mr. Baker. Yes, I am. There is always many a slip between 
the cup and the lip, but--I will repeat what I said earlier. 
This was not a cut-and-dried deal. There was a lot of 
controversy about the provisions of the code. It was finally 
unanimously adopted. I think the commission is fully on board 
and enthusiastic. I think the executive committee is. I believe 
that President Samaranch is, and that's way down the road. That 
is coming along.
    Mr. Duberstein. I do agree with what I observed and my 
conversations with Senator Baker.
    Mr. Upton. Mr. Oxley.
    Mr. Oxley. Thank you, Mr. Chairman. Let me first thank both 
of you for excellent work on behalf of the International 
Olympic Movement. It has been spectacular and I think your 
presence here today points that out.
    This whole issue has become one that the press has focused 
in on essentially because of bribery or at least alleged 
bribery and as a result of trying to get a bid for a particular 
city. And I suspect that had that not happened, we wouldn't be 
here today and a lot of the allegations that floated around for 
years probably would have continued to go unnoticed. But as a 
result of that, the bribery allegations, a lot of good reforms 
have come out of it.
    As I mentioned to the other panel, to President Samaranch, 
Congress last year passed a bill that I introduced with 
Chairman Bliley to implement the OECD convention against 
bribery of foreign public officials. We have had in this 
country a history of legislation dealing with foreign corrupt 
practices. Senator Baker, you are well aware of that. Mr. 
Duberstein, you are as well. In many cases we took the lead. In 
many cases we were the only country that had a similar type of 
legislation. And it was in many ways a disadvantage for our 
companies insomuch that we lost billions of dollars in 
contracts overseas over the years as a result of our strict 
adherence to the Foreign Corrupt Practices Act.
    Finally over the OECD leadership and the convention, the 
anti-bribery convention gives an opportunity for all of the 
countries to essentially sign on to that and put us on the same 
level that everybody else is. As a matter of fact, as many of 
you know, the laws in some countries actually rewarded 
companies for providing bribes, actually allowed companies to 
write it off on their taxes.
    So we have come a long way and I think the U.S. has taken 
that leadership and part of that was this anti-bribery statute 
that we were able to pass last session. One of the provisions 
in the legislation said that for the first time, briberies of 
officials of international organizations would be illegal under 
our Foreign Corrupt Practices Act. The IOC was not on the list 
of organizations covered because it was simply not covered by 
the International Organization Immunities Act. In drafting the 
bill, it did take into account the possibility that other 
organizations might need to be added to those subject to the 
FCPA. This provision allows the President to designate new 
organizations as subject to the FCPA by executive order. I, 
along with Chairman Bliley, wrote to the President in March--
March 26, as a matter of fact--raising the issue. I understand 
that the Mitchell commission also raised that issue.
    Mr. Chairman, I will just quote briefly from the letter 
that Chairman Bliley and I sent to the President in March. ``We 
made it clear during this process that we expected prompt 
action by the administration to implement the treaty, including 
encouraging other nations to expand their own anti-bribery 
laws. The implementing legislation gave you the specific 
authority to add international organizations such as the IOC 
via executive order to the list of organizations covered by the 
Foreign Corrupt Practices Act, our Nation's tough anti-bribery 
law.''
    We go on to quote USOC president William J. Hybl in which 
he wrote to the president asking that you take this step 
recommended by the commission. In making this request, Mr. Hybl 
states, ``The United States Olympic Committee fully supports 
this recommendation by the Special Bid Oversight Commission and 
respectfully requests that you issue such an order.''
    As Mr. Hybl points out in his letter, issuing such a 
Presidential executive order would make it illegal to bribe an 
IOC official under the FPCA.
    Mr. Chairman, I would like to ask unanimous consent that 
this letter to the President be made a part of the record.
    Mr. Upton. Without objection.
    [The letter follows:]

                      U.S. House of Representatives
                                      Committee on Commerce
                                                     March 26, 1999
The Honorable William Jefferson Clinton
President of the United States of America
The White House
Washington, D.C. 20502
    Dear Mr. President: The recent events regarding the ethical lapses 
concerning the International Olympic Committee (``IOC'') raise serious 
issues that must be addressed promptly. Like all Americans, we were 
shocked and discouraged to learn that bribery and other illicit 
inducements may not only be common in the Olympic site selection bid 
process, but also that these practices allegedly were employed by some 
members of the Salt Lake City Organizing Committee for the Olympic 
Winter Games of 2002 (``SLOC''). The very notion of IOC members 
profiting through their association with the Olympics is anathema to 
the diligence and dedication the world's athletes show in preparing for 
Olympic competition.
    We worked together last year to successfully pass the implementing 
legislation necessary for the Organization for Economic Cooperation and 
Development (``OECD'') Convention on Combating Bribery of Foreign 
Officials in International Business Transactions. We made it clear 
during this process that we expected prompt action by the 
Administration to implement this treaty, including encouraging other 
nations to expand their own anti-bribery laws. The implementing 
legislation gave you the specific authority to add international 
organizations, such as the IOC, via Executive Order, to the list of 
organizations covered by the Foreign Corrupt Practices Act (``FCPA''), 
our nation's tough anti-bribery law. We did this so you could act 
promptly, without seeking additional legislation, in a circumstance 
just like this. Given that you signed our legislation into law last 
fall, we are interested in learning why you have not exercised your 
authority in this regard in the four months since the scandal first 
broke.
    Furthermore, on March 1, 1999, Senator George Mitchell presented 
the Report of the Special Bid Oversight Commission to the United States 
Olympic Committee (``USOC''). This Report reviewed the circumstances 
surrounding Salt Lake City's bid to host the Olympic Winter Games and 
recommended improving the policies and procedures associated with the 
Olympic bidding process. Addressing the need for the IOC to make 
fundamental changes to increase its accountability, the Commission 
encouraged ``the USOC to consider requesting the issuance of a 
presidential Executive Order that names the IOC `a public international 
organization' within the meaning of FCPA.''
    Accordingly, on March 3, 1999, USOC President William J. Hybl wrote 
you, asking that you take this step recommended by the Commission. In 
making this request, Hybl states: ``[t]he United States Olympic 
Committee fully supports this recommendation by the Special Bid 
Oversight Commission, and respectfully requests that you issue such an 
Order.'' As Mr. Hybl points out in his letter, issuing such a 
Presidential Executive Order would make it illegal to bribe an IOC 
official under the FCPA.
    In light of the foregoing, namely that you now possess the specific 
authority to take action and a recommendation to do so from this 
nation's own Olympic Committee, do you intend to issue an Executive 
Order designating the IOC as subject to the FCPA? If you do not plan to 
issue such an Order, please include an explanation of your decision not 
to act.
    During our consideration of the implementing legislation, we made 
it clear that convincing other nations to ratify and implement the 
Convention was critical to its success. If we want to return integrity 
to the Olympics, we urge you to encourage as many nations as possible 
not only to ratify and implement the OECD Convention, but do so in a 
way that specifically makes bribery of IOC members illegal under their 
own anti-corruption laws. We are interested in learning what you have 
done in this regard. Accordingly, please describe the steps taken by 
the Administration, if any, to encourage other nations to implement the 
OECD Convention in a manner so as to make bribery of an IOC official 
illegal. Also, please identify, as of the date of this letter, the 
nations the Administration has contacted to urge them to implement the 
OECD Convention in such a manner as to specifically make the bribery of 
IOC officials illegal. We would greatly appreciate your response to our 
questions by April 13, 1999.
    Fairness, clear rules and objectivity are critical in the sporting 
world. The Olympic spirit reflects the highest ideals in this respect, 
or at least it should. Athletes spend years of hard work in training in 
order to pursue the Olympic dream. Their tireless dedication to 
excellence should not be sullied by corruption, or by acquiescence to 
corruption.
    If you have any questions about this request, please contact us or 
have your staff contact Mr. Edward Hearst of the House Commerce 
Committee staff at (202) 226-2424. We look forward to hearing from you 
on this important matter.
            Sincerely,
                                       Tom Bliley, Chairman
                                              Committee on Commerce
                                 Michael G. Oxley, Chairman
                    Subcommittee on Finance and Hazardous Materials

    Mr. Oxley. Thank you, Mr. Chairman. I would like to ask 
both of the you, Mr. Duberstein and Senator Baker, do you think 
the President should designate the IOC as an organization 
subject to the Foreign Corrupt Practices Act?
    Mr. Duberstein. Yes.
    Mr. Baker. So do I.
    Mr. Oxley. Mr. Duberstein, would you require a host nation 
to be made part of the OECD Anti-bribery Convention and make 
illegal bribery of the IOC members illegal?
    Mr. Duberstein. I think that would be quite useful, 
Congressman.
    Mr. Oxley. Senator Baker.
    Mr. Baker. I have a different view. I have no objection to 
that, but I feel like before a country can be considered as a 
host country, a host committee, that they should make a 
positive affirmation of their commitment to comply with the 
code of ethics, and the code of ethics will also cover that 
point.
    Mr. Oxley. The idea would be that there would be at least 
an incentive there for any prospective host country to adopt 
the Anti-bribery Convention as a means of assuring that the 
bribery would not take place. Is that a reasonable assumption?
    Mr. Baker. I think so. I have no objection to it. But once 
again, my experience in this context is with the ethics code. 
We considered that in the ethics code, whether or not 
subscribing to the provisions of the ethics code ought to be a 
condition precedent to considering a country as a host country.
    Mr. Oxley. Mr. Chairman, we still await responses by the 
administration to our letter regarding any positive movement 
toward including the IOC under the anti-bribery statute. And 
perhaps we could work together to make certain that the 
administration understands how serious this committee is and, I 
am sure, how serious these gentlemen are about following 
through on that idea.
    Mr. Upton. I would just like to say that I would like to 
work with you on that. Though I thought the administration was 
trying to seek, though, in a little different form, but they 
were in fact trying to get the IOC underneath the Foreign 
Corrupt Practices Act. I thought they had sent that signal as 
poorly written.
    Mr. Oxley. Under the legislation, as I indicated, the 
President by executive order could do that today, and it has 
not been forthcoming. I think it is important that we make the 
administration understand how serious we are about that issue. 
I thank the Chairman for his indulgence in allowing me to sit 
in on the subcommittee and I yield back.
    Mr. Upton. Thank you very much. I would like to say that a 
number of us will have additional questions that we will submit 
in writing.
    A couple of us have questions that we would like to pursue 
in person, and I will first recognize Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. I will be brief. I 
just have two questions.
    Senator, you testified a few minutes ago, at least I 
thought that you testified that the Special Representative can 
conduct or can gather evidence and conduct investigations on 
his or her initiative. But as I read the minutes adopted this 
weekend, they note that the Special Representative proceeds 
with the approval of the Commission, or if it's not meeting, of 
the Chairman. So I read those minutes that they could be 
interpreted in a slightly different way than your testimony. 
This raises the whole issue we have been talking about today, 
which is that these minutes really need to be fleshed out a lot 
more clearly. I think that you have got a lot of work cut out 
for you.
    Based on that, I have two questions. First of all, do you 
think that the IOC should consider elevating the Special 
Representative to a higher status than it is now, so in fact 
that office can have independent investigative authority?
    Mr. Baker. I don't think there is any doubt but that the 
fair intendment of the ethics code in the bylaws is that the 
Special Representatives--Special Representative should be 
independent and should have the budget and the staff to carry 
out his or her duties.
    I guess I would verse that a little different on the 
question of whether or not they could proceed with the 
concurrence of the Executive Committee or Ethics Commission. I 
said earlier, and I believe and I hope that my fellow 
commissioners believe, that the Special Representatives--
Special Representative has the full authority to follow 
whatever leads occur to him or her. They require no 
authorization from the Ethics Commission or anyone else to 
pursue them. The Special Representative has no authority to 
sanction. The Ethics Commission has no authority to sanction, 
but I think the Special Representative should be fully 
empowered and I believe is fully empowered to pursue any lead 
that occurs to him.
    Ms. DeGette. Following up on that. I know your staff, in 
particular Kevin Jones, has been very helpful to our staff in 
trying to work this through. This just points out to me we are 
seeing confusion in the minutes adopted this weekend. We are 
seeing clarifications that are needed. I am wondering if we can 
try to have a series of follow-up conversations to see how the 
details are really being fleshed out with the first one of them 
to occur the first week of February of next year.
    Mr. Baker. Sure, I would be glad to. Thank you for your 
remarks about Kevin, who has been very helpful to me in this 
whole matter. He does it as I do it without any employment with 
the IOC.
    May I reiterate, this is still a work in progress. We are 
still trying to create a structure here and I welcome your 
observations and we will take account of them.
    Mr. Upton. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I will be very quick. 
I just have three questions.
    First of all, I heard your complimentary comments on 
President Samaranch. I am sure those are sincere and well 
taken. But I would assume that Senator Baker and Mr. Duberstein 
would agree that there are other men and women of eminence and 
integrity in the world that could also serve as President of 
the IOC. Do you agree with that?
    Mr. Baker. Certainly so.
    Mr. Barton. The second question deals with independent 
spousal and family travel and recipient of gifts. Are some of 
these reforms that are going to be put in place, do they deal 
with that issue which would be separate from the IOC membership 
itself, or is that still an open question?
    Mr. Baker. No, I think they will be dealt with as a matter 
of policy as well as a matter of structure. I reiterate what I 
said before. It was not adopted as policy by the Executive 
Committee or the Commission, but my own view is that country 
visits are great but they ought to be paid for by the IOC. I 
must tell you, having your wife along is a major advantage. If 
the IOC will pay for it, I have no objection to it.
    Mr. Barton. My question, Senator, is not on a spouse or 
family member attending an official visit. My question is on an 
independent spousal or family visit, which has occurred 
repeatedly from the Office of the Presidency on down the IOC. 
These are independent visits where the IOC member or the 
executive officer is not there. The example that I alluded to 
was the president's wife attending Atlanta and making no bones 
about the fact that she wasn't interested in looking at the 
potential venues. She wanted to go shopping and wanted to see 
some of the cultural sites of the South. My question is 
independent family/spousal visits, not attending or an official 
visit.
    Mr. Baker. I know trouble when I see it. I am not about to 
talk about a wife attending these meetings. I take your point 
and I understand.
    Mr. Barton. It is something that needs to be looked at. I 
am just bringing to it to your attention.
    Mr. Baker. I will adhere to that.
    Mr. Barton. There are a number of reports over the years 
that have alluded to that.
    My last of my questions is somewhat more complicated. If 
you want to cogitate on it and present a formal response for 
the record because of time, I understand that. But I am told 
when you attended your first IOC either Executive Committee 
meeting or maybe preliminary session that you appeared--you 
came back and were appalled at the lack of any regular order. I 
know you are from the Senate and we sometimes in the House 
think that the Senate doesn't have any regular order, but we 
have a Rules Committee and a Jefferson's Manual, and we adhere 
to certain procedural rules. Apparently when the IOC conducts a 
meeting, there are no rules, as in whatever the presiding 
officer makes them at that meeting.
    Should it be made in order that you actually recommend a 
set of procedural rules so that the way votes are taken, the 
way items are put on the agenda, the way things are brought up 
for consideration, all of the things that we take for granted 
in a democracy, but appear to be done, if at all, very murkily 
in the IOC hierarchy?
    Mr. Baker. It is a pretty informal group, at least the 
Ethics Commission is. I will acknowledge to you that after my 
first meeting I was tempted to resign. But then I thought 
better of the whole thing and made my recommendations and many 
of them were adopted. I think that it is a worthwhile endeavor. 
But I have no--I see no crying need for a formal code of 
procedure for the Commission. I have never been to an IOC 
meeting or Executive Committee meeting so I can't speak to 
that. But I think the Commission works okay. Judge Mbaye runs 
it in a very effective manner.
    As I repeat, in the first meeting I certainly got off to a 
rough start. We had some pretty enthusiastic disagreements on 
some points. But it all came together, it is working as a 
group. I think it is effective. I think the code they have 
adopted is good, perhaps even excellent. I think that the 
bylaws that have been adopted are good and relevant and I think 
that our next big challenge is to find the right Special 
Representative, our administrative officer. But I have come a 
long way since that first meeting when I was sort of nonplused 
by the way that it went. But I think things are going well and 
I think they will continue.
    Mr. Barton. I was told that at last week's meeting, one of 
the motions was made on a particular reform measure, and there 
were 90 members present who were allowed to vote and the vote 
was called and 10 voted for it and it was moved that it was 
adopted. In the U.S. Senate, if the vote were 10 to 80, the 
nays would have it. I think there is work to be done in that 
area and I would commend that to your Commission to look into.
    Mr. Baker. One of my law partners who is chairman of the 
firm, always at firm meetings says, I perceive a consensus.
    Mr. Barton. I thank the panel. Thank you, Mr. Chairman.
    Mr. Upton. Thank you again, both of you, and Dr. Kissinger 
has left early to catch his transportation. We appreciate very 
much your testimony. I just want to say that we look forward to 
hearing both your frustrations and the words of success as this 
moves forward in the future. I know that you will be willing 
and able to communicate it to this panel. We appreciate very 
much your time and wish you a very happy holiday season. Thank 
you. Good to see you.
    If we could have the third and fourth panels assemble. I 
know that in particular Bonnie Blair has a 3 o'clock plane that 
I am told is on time. I made it to National in 6 minutes, so 
that may be an Olympic record, and you are supposed to be 
faster than me. But if at this time we could have the remaining 
two panels together, Mr. John Naber, Mr. Bill Stapleton, Mr. 
Robert Ctvrtlik, Ms. Bonnie Blair, Mr. Kerrie Strug, Mr. Kevin 
Szott, Mr. Billy Mills, and Mr. Peter Westbrook come to the 
table.
    As you know, our process is taking testimony under oath. If 
you raise your right hand.
    [Witnesses sworn.]
    Mr. Upton. We will start with Ms. Blair who still has a 
chance to catch the flight. You can take any chair. We know who 
you are, you have been identified. We need that mike.
    Your statement in its entirety will be made a part of the 
record. Thank you.

    TESTIMONY OF BONNIE BLAIR; JOHN NABER; BILL STAPLETON, 
  CHAIRMAN, USOC ATHLETES ADVISORY COUNCIL; ROBERT CTVRTLIK; 
  BILLY MILLS; KERRIE STRUG; PETER WESTBROOK; AND KEVIN SZOTT

    Ms. Blair. Can everybody hear me? Obviously, it kind of 
seems already that everybody knows who I am. In my original 
statement, I said good morning but I think now it is afternoon. 
We do appreciate and, I guess, on behalf of the all of the 
athletes, you letting us be here and in a sense kind of speak 
our minds as well.
    I am Bonnie Blair. I have been in four winter Olympics, 
consecutive Olympics, starting in Sarajevo in 1984 and going on 
through Lillehammer in 1994. I was able to have the, I think, 
the great fortune to be able to win 5 Olympic gold medals and 
one bronze for myself as well as the United States. As of right 
now, that's the record for the most medals for a female 
American, which that is something I am still proud of.
    During the course of the Olympics, being able to be up on 
the medal stand is something that is difficult to express in 
words what that feeling is like. Having that medal draped 
around your neck, hearing the Star Spangled Banner played, 
there is nothing quite like it ever in my wildest dreams. I was 
lucky enough to be able to do that five times.
    But through all of that and the great victories that I have 
had, one of the most greatest victories that I felt was a race 
where I actually didn't receive a medal, where I actually 
placed fourth in the 1500 in Lillehammer. That was a personal 
best for me.
    So I think a lot of times for us, especially as athletes, 
when you achieve something that is beyond your wildest dreams, 
that is success. I think success comes from a lot of different 
areas in life; in the Olympics, in everything that we do. 
Sometimes success just doesn't always mean finishing first. But 
for sure as an athlete, as an Olympian, I didn't go to the 
Olympics not thinking of gold. That was something that was 
obvious in all of our minds. Like I said, success comes on a 
lot of different levels. To me, striving for a personal best 
was something that I was just as proud of achieving as it was 
the Olympic medals that I received as well.
    I think also as a competitor, as an Olympian, you can't be 
afraid to compete. Whatever the level, whatever the race, you 
go out there and give it everything that you have got. And 
maybe sometimes people think of being scared of something. It's 
kind of iffy. But I guess part of that also has to come with 
the possibility of knowing that you might have to accept change 
and risk. Because, for sure, as athletes a lot of things can 
change: your age, your health, your condition. But you always 
have to be willing to be up to the challenge of the change, of 
taking that risk.
    I think that's one of the things where the IOC has come up 
against something. They know that they have had to make a 
change. They have had to make something different, to do 
something different, to try to always be the best that you can 
be. And that's what is happening.
    I know as an Olympian, I have been just as disappointed as 
a lot of you have of the things that have happened over the 
course of the last year. But they know that they have to make 
change. They are having to do something different. In my eyes, 
what has gone on over the last year, especially over this last 
weekend, they are taking those steps to make the change. I 
think all of us here were the ones that were going to keep 
backing then. We are going to keep supporting them and 
challenging them to keep making it better and to be the best 
that they can be.
    I have definitely been proud of my relationship with the 
Olympic Committee, starting off with speed skating as a whole 
here in the United States with our Olympic Committee and being 
a part of the Olympic Movement worldwide. It is definitely a 
position in my life that I know is going to carry on for a 
lifetime. And I want to continue to work with them, hopefully 
try to keep making things better so that they can be the best 
that they can be for the future of what our Olympians are going 
to be. I know that they are going to make the change. To me it 
has been obvious and I think that we have to stick with them 
and try to help them as best we can. Thank you.
    [The prepared statement of Bonnie Blair follows:]
                   Prepared Statement of Bonnie Blair
    Good Morning, Mr. Chairman and members of the Subcommittee. My name 
is Bonnie Blair. I am a recently-retired Olympic speedskater and I am 
pleased to appear before this committee.
    I have had the tremendous good fortune and the high honor of 
representing the United States at four consecutive Winter Olympics: 
Sarajevo in 1984, Calgary in 1988, Albertville in 1992, and Lillehammer 
in 1994. During the course of my Olympic competition I won five gold 
medals which, I understand, is a record for an American female 
Olympian.
    It was a thrill each time I stepped up on the platform and heard 
the Star Spangled Banner play as the gold medal I won was placed around 
my neck. But to me, ``winning'' is a relative term. The greatest 
victory I ever experienced was my finish in a race in which I did not 
receive a medal, but in which my performance far exceeded any of my 
previous competitions in that event. That, to me, was a victory because 
I had achieved something I never dreamed I was capable of achieving, 
although I had been working hard to prepare.
    Don't get me wrong, as an athlete, and as an Olympian, I always 
skated for the gold. But I am saying that there are other measures of 
success--in life as in sport. Being the best that you can be, without 
fear of failure. We have to recognize and honor even our smallest 
triumphs, the personal-best-goals that we set for ourselves, even if 
they seem less than noteworthy to others. That is the Olympic ideal, 
and is at the base of what motivates all of us as we prepare for 
competition, whether in the Olympic Games or in life.
    The successful athlete knows that you can't be afraid to compete, 
whatever the pressure, whatever the race. This brings me to a bit of a 
contradiction and that is, in order to be successful consistently, we 
need to be flexible enough to change and risk. For an athlete, 
conditions change. Age, experience, health and conditioning change. 
Equipment and technique change, too. If I had resisted change as a 
competitor, I would have been left behind long before I experienced the 
success I did. We see this element of change manifesting itself in the 
global environment, too. Attitudes change, policies change, even 
governments. Why? Because the bottom-line goal is to make things 
better.
    I have personally been troubled by the events surrounding the 
International Olympic Committee as they have unfolded over the last 
year. I believe these problems have served as a detrimental distraction 
from the Olympic ideals of competition and personal excellence, and 
have forced the concentration of the athletes onto matters unrelated to 
their quest and pursuit of excellence.
    The way I see things, the International Olympic Movement is on the 
cusp of great and much-needed change. It must not fear change, but 
welcome it as a competitive challenge to make it a better organization; 
responsive to athlete interests and respectful of the ideals it has 
always represented. The athletes, who are the backbone and reason for 
the Olympic Games deserve to have the honor and nobility restored to 
the great tradition that is the Olympic Movement. For that matter, so 
do the world citizens who make up the audience that cheers for the 
victors, weeps for the tragic figures and ultimately exalts in every 
athlete's participation in the Games.
    From what I have read over the weekend, the IOC has taken the first 
steps toward restoring the integrity of the Olympic Movement and I 
encourage them to continue their progress. In this we, the Olympic 
athletes, want to be a part of the process because we truly care. We 
will not let you fail because we will bring the same energy toward the 
restoration of the Olympic ideal that we brought to our preparation for 
competition as Olympians and Olympic Hopefuls.
    My association with the Olympic Movement is a major factor in who I 
am and I am proud of my association with it. The current difficulties, 
I believe, are only temporary, and we are now on the road back. Let all 
of us who really care about the Olympic Movement be part of the 
restoration process, applaud the successes, however seemingly 
insignificant, and help the IOC be the best that it can be. That is the 
Olympic spirit, the Olympic way, and I know that a characteristic 
Olympic effort will yield a result that will make everyone involved a 
winner.

    Mr. Upton. Thank you very much.
    Ms. DeGette. Mr. Chairman, may I ask unanimous consent to 
ask Ms. Blair one question before she leaves?
    Mr. Upton. Sure.
    Ms. DeGette. Ms. Blair, as you have heard, sitting through 
the whole testimony today, our real concern is that the IOC be 
as good as it can be also, and that's why Congress has really 
been trying to pressure for these reforms for a long time. What 
I would like to ask you is, is there concern--I might ask the 
rest of the athletes this later--is there concern among the 
athlete community that Congress's efforts to clean up the IOC 
is going to somehow result in retaliation against the U.S. 
athletes?
    Ms. Blair. I certainly hope not. I think one way to look at 
it is that everybody is trying to make the steps to make it 
better. I think John Naber will talk a little bit more on his 
end and what he has been involved in. I think that's been a big 
forefront on the athlete part. But I think it is coming from 
all different areas as well as from the sponsorships, those 
people taking a stand, too. But I think in a sense it is kind 
of like everybody coming together to make that wheel spin in a 
perfect circle so that we can be the best that we can be in all 
different areas.
    Ms. DeGette. So you think that the athletes support this 
effort to make the IOC reform?
    Ms. Blair. I think the athletes always want to have 
whatever is best. I think as far as the athletes go, a lot of 
the things that happened, you never really touch them 
specifically. We go to the Olympic Games and we compete. We are 
kind of like in tunnel vision. A lot of the things that happen 
on the outskirts beforehand, we don't have a lot of anything to 
do with that. So our main focus was always to go out there and 
strive to be the best that we can be. I think for anything, you 
always wanted to be the best that you can be, whatever the 
circumstances. Obviously, we have been hit with a battle of a 
lot of frustrating circumstances. I think in the long run it is 
going to make it bigger, better, and stronger.
    Mr. Upton. I don't mean to cut you off, but if you are 
going to make your flight, you better go.
    Ms. Blair. I guess I will try.
    Mr. Upton. Thank you very much. We appreciate it.
    Again, I regret that we needed to put these panels 
together, but as you all know, we had some starting problems 
this morning because of the airport trouble and whatnot. I 
think really at this point, because of the time constraints, 
even though a wonderful video was prepared and certainly I 
intend to watch it, we will not do it at the liberty of 
everybody else that has been waiting.
    Oh, do you want to watch it? All right. We will roll the 
videotape as they say. But I do want to say, too, in putting 
this panel together when the video was made, I know that John 
Naber is not shown on the video and he on his own has received 
5 gold medals and 1 silver and that needs to be certainly 
recognized. But let's roll the tape. Thank you.
    [Videotape shown.]
    Mr. Upton. We appreciate the USOC doing that. I only wish 
it was about a couple of hours longer. It was really terrific 
and I appreciate your efforts on behalf of this country. We 
appreciate your willingness to come today as well. We are sorry 
about the schedule. Those things happen. At least we didn't 
have 10 votes today that would have required us to get up and 
back. We appreciate your willingness to appear as one panel as 
that will save a little bit of time.
    At this point all of your statements will be made part of 
the record in their entirety. If you could limit your remarks 
to no more than 5 minutes, hopefully a little bit shorter, that 
would be terrific. We will start with Mr. Naber. Thank you very 
much.
    You need to pass those mikes down as well. And also we want 
to make a unanimous consent request that the report, which you 
had a large degree in helping to write, of your organization is 
now made a part of the record as well, by unanimous consent.

                     TESTIMONY OF JOHN NABER

    Mr. Naber. Thank you, Mr. Chairman. Before I begin my 
remarks, I want to acknowledge that although I won my gold 
medals underneath the flag of the U.S. Olympic Committee and 
the USA, I am also a member of Character Counts Sports. I am 
also a member of OATH, Olympic Advocates Together Honorably, 
and the Healthy Competition Foundation which are a lot of 
different organizations that care about what is good in sport.
    As part of that I want to acknowledge that the Olympic 
motto is ``Citius, Altius, Fortius,'' which is swifter, higher, 
stronger. Not swiftest, highest, strongest. It is not about 
winning, it is about getting better. As Bonnie Blair just said, 
her losing race was one of the ones she was most proud of.
    It is because of that philosophy of personal improvement 
that I offer my remarks and it is in that spirit which I hope 
they are received. I know we are limited on time so I just want 
to cover four quick points and one underlying commonality that 
goes through them all.
    First of all, whenever I watch professional sporting events 
on television, football, basketball, baseball, it makes me wish 
I was a better athlete. Whenever I watch the Olympics, it makes 
me wish I was a better person. It is the stories of individuals 
overcoming obstacles and trying their best, not just about 
winning. It is that that I love about the Olympics. Even the 
International Olympic Committee's own stated fundamental 
principles say, and I quote, ``that the Olympic Movement is a 
philosophy which seeks to create a way of life based on the joy 
found in effort, the educational value of good example, and 
respect for fundamental ethical principles.''
    ``The goal of the movement is'' and I continue quoting ``to 
contribute to building a better world by educating youth 
through sport practiced without discrimination of any kind 
which requires mutual understanding and the spirit of 
friendship, solidarity, and fair play.''
    I think everybody on this panel would be perfectly happy if 
the IOC merely lived up to its own statement of fundamental 
principles. Now, with the commitment of fair play and 
sportsmanship, the Olympic Games, currently five wonderful 
gifts from this community: significant government funding for 
host city infrastructure; generous availability and access over 
the public airwaves; vast tax-deductible corporate 
sponsorships; the unbridled enthusiasm of wide-eyed spectators 
and young kids; and the undying affection of those of us who 
are the focus of the games, the athletes themselves.
    With so many stakeholders, surely you have to call the 
Olympic Movement a public trust. It should be protected by the 
public for the good of all humanity. Now, the report, as 
recently suggested by the IOC Commission, the IOC 2000 
Commission, that were unanimously accepted are wonderful. The 
abuses that brought those things to light, the bid city 
scandal, frankly was like an iceberg that rips out the side of 
the ship. But though it did make the changes possible, it would 
have been unthinkable 13 months ago.
    So it is without any sarcasm that I join the rest of the 
speakers when I say congratulations to Juan Antonio Samaranch, 
IOC Executive Board, and the 110th council, the Congress in 
Lausanne, for accepting all of these responsibilities. In my 
view, it turned this 105-year-old luxury liner a full 15 
degrees to port. They made a big change in the last year for a 
luxury liner.
    While many of the accepted reforms have the promise of 
potential change, they are still vulnerable to manipulation and 
abuse. If the reforms are not both implemented and enforced in 
a manner that is in keeping with those fundamental principles, 
the ship is destined to spring a leak and sink once again.
    Let me begin with the first of four issues, the ethics. If 
we pretend that all people who ever hold or will hold an IOC 
post are always ethical and always make good decisions, perhaps 
you don't need a fully functioning, ever vigilant proactive 
investigator. Presumably, the number of lifeboats on the 
Titanic were perfectly adequate for the trip they intended to 
take. In sport, however, accidental violations of a rule are as 
common as ethical lapses are in life. At the Olympic Games, the 
athletes enjoy a clearly defined set of rules and well-trained 
officials whose only job it is to bring those transgressions to 
light.
    Well, though the scandal has precipitated the creation of 
the Ethics Commission, the measure of their efficiency or 
efficacy is not their credentials--they are all above reproach, 
they are all fabulous people--but rather, the method by which 
they were chosen, the independence of their thinking, the 
transparency of their process, and the binding authority of 
their decision. Maybe the word ``independence'' has lost 
something in the translation, but I didn't see clear 
independence reflected by some of these reforms. If each member 
of the Ethics Committee is hand-picked behind closed doors, has 
no authority to root out ethical lapses but only makes 
suggestions that must be ratified by the Executive Board, then 
this group will be no more successful than the individual 
conscience of each IOC member. Giving the Ethics Commission the 
responsibility to eliminate the perception of IOC misconduct 
without giving them the power to do so, it is like finding a 
man drowning 20 feet from shore, tossing him a 15-foot rope and 
saying that you have met him more than halfway.
    The creation of their Special Representative post is a 
great first step. But his or her selection process and 
responsibilities and the independence and the loyalties are 
still unclear.
    Let's move on to the second area, performance enhancing 
drugs, which has the ability to be the single greatest thorn in 
the Olympic Movement's side because it attacks the very 
validity of the gold medals themselves. The great Norwegian 
speed skater and humanitarian, Johann Olav Koss, was approached 
by a pre-teen Olympic hopeful who said, Mr. Koss, what kind of 
drugs did you have to take in order to win the gold medals?
    That skepticism affects the winners and the cheaters alike. 
Sadly, any critics of the IOC can now add to their complaints 
any dissatisfaction they may have with the results of pending 
drug testing, and it needs pointing out that many of the 
international federations have indicated their unwillingness to 
play along with the international drug testing programs. The 
difficulties are substantial, with unproven new testing 
protocols, sophisticated drug users remaining one step ahead of 
the authorities, even the rumor of concealed positive drug 
tests for fear of offending or in any way embarrassing the 
Olympic Movement. In the aquatic vernacular, I would say either 
the net is too loose, the fish are too smart, or somebody is 
playing catch and release.
    It's a wonder to me then why the IOC wants to remain in the 
word's cross-hairs with this responsibility. For the results of 
all drug testing to be universally believable, we have to 
remove the impression that there might be any incentive to 
conceal a guilty person's guilt. A zero tolerance additive is 
believable only from a truly independent body.
    No. three, the third area of concern is the duration of the 
IOC terms--the two are frequently used to curtail the runaway 
power of entrenched position--is the application of term 
limits. This method allows any organization the opportunity to 
gradually build into the system a polite way of allowing new 
blood onto the committee and encouraging those with decades to 
leave service without a hint of rancor of scandal. The current 
new members, however, will be elected to 8-year terms with the 
possibility of unlimited reelections by their fellow members. 
Unlike U.S. corporations or other groups, they not accountable 
to the vast body. They only have to receive their votes from 
their own brothers and sisters. Since the votes are cast by IOC 
members, the possibility of the same group electing itself over 
and over again is real and frightening. Furthermore, since all 
of their 8-year terms begin January 1, they all come up for 
renewal at the same time, eliciting the possibility of a votes-
for-votes scandal, and that's also frightening.
    In the Olympic Games, the defending champion or current 
world record holder doesn't get a bye into the finals or a head 
start into the race. He or she is not automatically to return 
to the games 4 years later. Each victory must be fairly earned 
and each battle won on the merits on that date. The chance of 
an upset is what keeps the challengers working so hard and at 
the same time keeps the veteran on his toes.
    Here is the fundamental truth. There is no room for 
entitlement at the Olympics and there shouldn't be in IOC 
membership.
    My final area of concern is athlete representation, pretty 
much moot at this point, I am delighted to say. Recent rules 
allow for these new athletes to join the IOC, but they have to 
leave the IOC 8 years after their most recent Olympic 
appearance, which ties their athletic ability to their term, 
and it is in fact a de facto term limit. I don't mind getting 
new blood on the committee. I think it is unfair to issue term 
limits to the athletes while not issuing term limits to the 
rest of the IOC. We want a level playing field.
    The criteria to serve as a representative of the active 
Olympians, also, I should note, the election timing stinks. To 
hold an election in the middle of the Olympic Games when 
athletes are at their most heightened critical moment in their 
life, it is really unfair. It seems a bit flawed, and each 
election could easily be a popularity contest with the public 
name of the medalists as opposed to their legitimate desires to 
serve the good of the movement.
    Last is their voice on the Executive Board. If you are 
going to put these athletes on, let them vote and choose their 
representative to the Executive Board right now. That has to be 
approved by the IOC president, although perhaps that may change 
in the near future.
    The overriding concern, the fundamental common flaw in all 
of these four areas, in my opinion it is called the lack of IOC 
accountability. While they created the Ethics Commission, I 
don't know that they have agreed to abide by every decision 
that the Commission makes. While they have reduced the age 
limit, they have put no limit on their own terms, thereby 
indicating a reluctance to let go of the positions until the 
last possible moment. They have created an international drug 
testing program. They seem reluctant to let it loose to allow 
the system to work without their influence. And while they have 
added seats for athletes, they have limited the pool of the 
athletes they can choose from, and in fact, limited the length 
of the athletes' terms to frankly their most athletically 
fruitful years.
    Though they have shown a recent willingness to be 
inclusive, the system is still stacked in their favor because 
there is no authority to which they willingly hold themselves 
accountable. There is no system of checks and balances and far 
too many decisions seem to be made behind closed doors and by 
claim.
    Olympians may be the finest athletic specimens on the 
planet, but even they are held accountable to the rules of 
support, the official decisions, the governing bodies, the 
testers for drugs, and, of course, the IOC.
    After accepting all 50 reforms, though, I have to say the 
IOC bought my vote. At least they bought the benefit of my 
doubt. I am willing to trust the IOC to be genuine in their 
call for democracy, transparency, and responsibility. I know 
many IOC members personally and I can vouch for their motives 
always being for the benefit of the movement without seeking 
personal glory or gain. We must remember that every IOC member 
is in fact a volunteer. They are giving of their time.
    Juan Antonio Samaranch did concern me, though, by his 
comments earlier in the day when he said, ``My first 
responsibility is to the IOC members.'' He said that today. 
Even so, we must remember that without accountability to 
others, unprincipled and expeditious choices become easier to 
make and, sadly, easier to overlook. Leaders need to be 
accountable to someone other than themselves, not just in word 
but in deed. There must be an ongoing means for an independent 
review of the IOC and an occasional inspection of this luxury 
liner's moral compass to maintain her true heading.
    By announcing this area well in advance, Mr. Chairman, you 
put all of the players on notice that their decisions will be 
made public, that their critics will be heard, and that their 
deeds will have to stand up to the scrutiny of media attention. 
I won't repeat the phrase that Reagan said before--okay, I 
will: Trust, but verify.
    [The prepared statement of John Naber follows:]
                    Prepared Statement of John Naber
    Before I begin my remarks, I want to make clear that though I won 
my medals for the United States of America, and am the democratically 
elected president of the US Olympians (our nation's Olympic Alumni), 
and serve on the CHARACTER COUNTS! Sports Advisory Board, I sit before 
you today as one of many members of OATH (Olympic Advocates, Together 
Honorably), the only truly independent, international, athlete-led 
organization of Olympians in the world. I am grateful for this 
opportunity to share thoughts and observations that I've gathered 
during my over twenty three years in the Olympic movement.
    Because we are limited for time, today, I'll be focusing my remarks 
on four areas of discussion, as they pertain to the recently adopted 
IOC reforms, and the one common bond they seem to share. But let me 
begin by calling attention to the reason I am glad to be here.
    The Olympic Motto of ``Citius, Altius, Fortius'' means ``Swifter, 
Higher, Stronger''. . . not ``Swiftest, Highest, Strongest''. The 
Olympic Games should be about personal and professional improvement, 
not about winning at all costs. This quest for improvement reflects the 
athlete's desire to set new records, to enhance performance, to improve 
themselves while following the ideals of sportsmanship and fair play. 
It is in that spirit that I seek to point out any imperfections or 
suggestions for the purpose of improving the Olympic movement and I 
hope my remarks will be delivered for the future benefit of all 
Olympians and stakeholders.
                  the olympic games as a public trust:
    When I watch professional sporting events on television, (the Super 
Bowl, NBA Playoffs or World Series), it makes me wish I was a better 
athlete. But when I watch the Olympics, it makes me wish I was a better 
person, because of its collection of young men and women trying to work 
hard and overcome obstacles to reach their personal potential and 
dreams, without any realistic hope for financial security.
    The International Olympic Committee's own Charter includes a 
statement of Fundamental Principles, in which the purpose of the 
Olympic movement is described as (and I quote) ``a philosophy . . . 
(which) seeks to create a way of life based on the joy found in effort, 
the educational value of good example and respect for fundamental 
ethical principles.'' The goal of this movement is (and I quote again) 
``to contribute to building a . . . better world, by educating youth 
through sport, practiced without discrimination of any kind . . . which 
requires mutual understanding with a spirit of friendship, solidarity 
and fair play.''
    With its commitment to fair play and sportsmanship and all that is 
best in the world of sport, the Olympic Games enjoy significant 
government funding for host city infrastructure, generous availability 
and access over the public airwaves, vast tax-deductible corporate 
sponsorships, the unbridled enthusiasm of wide eyed spectators and 
children from around the world, and of course the undying affection of 
the focus of the Games, the athletes themselves. With so many 
``stakeholders'' surely the Olympics can be called a ``public trust,'' 
one that needs to be protected by the public for the good of all 
humanity.
    The reforms recommended by the IOC 2000 Commission, and recently 
accepted by the IOC General Session last week are a remarkable 
testament to the disinfectant power of sunlight. The abuses that were 
brought to light by the ``Bid City Scandal,'' like an iceberg that rips 
out the side of the ship, have made changes possible that would have 
been unthinkable a mere 13 months ago.
    Had these changes come about on their own, without public pressure, 
I would have been among the first to champion the IOC for its 
progressive stance, and forward thinking leadership.
    Even so, it is without any sarcasm that I now sincerely applaud 
Juan Antonio Samaranch, the IOC Executive Board and the 110th Session 
Congress for overhauling this 105 year old ``luxury liner'' called the 
International Olympic Committee, and steering her a full fifteen 
degrees to port in little more than a year.
    The reforms suggested by the IOC 2000 Commission go a long way 
towards making sure the ship never hits that same iceberg again, but 
historically, the people at the helm have shown little evidence of 
their willingness to be accountable to the concerns of the ship's 
investors, passengers or crew. It's for that reason that I am now 
cautiously optimistic when I am told that the gash in the hull has been 
patched, and we're ready to resume full speed, without at the same time 
receiving adequate guarantees of the craft's future safe passage.
    While many of the accepted reforms have the promise and potential 
of great positive change, the structure of those reforms is still 
vulnerable to manipulation and abuse, and, if the reforms are not 
implemented and enforced in a manner that is in keeping with the IOC's 
own Fundamental Principles, the ship is destined to spring a leak, and 
sink once again.
                           ethics commission:
    The first area of my concern is potentially the most far-reaching 
reform, which was made in the creation of the Ethics Commission and the 
new position of the Special Representative. While their work is not yet 
done, I want to share my enthusiasm for their task ahead. Mr. Samaranch 
himself noted ``There has been a breach of trust between the IOC and 
the public, and it will take time to heal.'' We should not expect 
immediate results, but I am looking forward to the prompt and adequate 
resolution to any remaining cases pertaining to the ``votes-for-
bribes'' issue or any other ethical lapses as well.
    If we assume that all people who hold or ever will hold a seat on 
the IOC are fundamentally good and wise, and will always follow each 
and every rule, ethical or otherwise, then there's probably not going 
to be a need for a fully functioning, ever vigilant, proactive 
investigator. Presumably, the number of lifeboats on the Titanic was 
perfectly adequate for the smooth voyage that was anticipated.
    In sport, however, accidental violations of a rule are as common as 
ethical lapses are in life. Sometimes ignorance of the rules is to 
blame, or perhaps the strength of the temptation is also too much to 
bear. At the Olympic Games, the athletes enjoy a clearly defined set of 
rules, and well trained officials whose only job is to bring any 
transgressions to light.
    In my Olympic swimming races, eight competitors performed in front 
of about 20 trained officials. The officials were not there because the 
IOC expected someone to break the rules, but rather to give everyone 
another reason not to. Their presence also insured that the eventual 
winners would not have to see their victories disputed.
    The existing Ethics Commission members each have reputations that 
are impeccable and beyond reproach, but to blindly trust that all 
ethical lapses will disappear because the IOC put really ethical people 
on a commission, is like entrusting the repair of four cavities, three 
partial crowns and a root canal to someone who has good teeth, instead 
of a dentist's diploma.
    Though the scandal has precipitated the creation of the Ethics 
Commission, the measure of its efficacy is not the credentials of the 
members, but rather the method by which they were chosen, the 
independence of their thinking, the transparency of the process and the 
binding authority of their decisions.
    If each member is hand-picked behind closed doors, and has no 
authority to root out ethical lapses but only to make suggestions for 
further ratification, this group will be no more successful than the 
conscience of each IOC member. Giving the Ethics Commission the 
responsibility to eliminate the perception of IOC misconduct, without 
giving them the power to do so is like finding a man drowning twenty 
feet from shore, tossing him a fifteen foot rope, proudly claiming 
you've met him more than half way.
    The primary responsibility of the Ethics Commission should be to 
create a lasting document, an ``Honor Code,'' with a clear and specific 
definition of appropriate (and inappropriate) conduct, with remedies 
attached. The USOC has a similar document already in place for its 
various coaches. Only after we understand this document, can we begin 
to measure it's likely impact. Rules have been in place before, but the 
people also must follow them. Just as the liberty of a nation can be 
traced to its citizens' adherence to well written laws, so too, the 
reputation of the IOC will depend on its members' willingness to follow 
these guidelines.
    Naturally, this document must be made easily available to the 
public.
    I also commend the IOC on the creation of the ``Special 
Representative'' post. It is a great first step, but his/her selection 
process, job responsibilities, independence, powers and loyalties are 
currently unclear.
    Early in my swimming career, I was caught and disqualified for 
doing an illegal turn. I never made that same mistake again, for two 
reasons. 1) the prompt execution of appropriate punishment made me a 
better person (I learned my lesson), and 2) I knew the ``stroke & turn 
judge'' would still be watching over me the next time I swam. The 
ongoing threat of being caught put me on my best behavior, and 
eventually helped me earn a reputation for honesty as well as 
excellence.
                    world anti-doping agency (wada):
    Now, let's move on to the second area of my concern, the use of 
performance enhancing drugs which is the single greatest threat to the 
Olympic Games, because it attacks the very validity of the gold medals 
themselves.
    The great Norwegian speed skater and humanitarian, Johann Olaf 
Koss, was approached by a pre-teen Olympic hopeful, who asked ``What 
kind of drugs did you have to take in order to win your gold medals?'' 
This attitude of skepticism affects the ``clean'' and ``dirty'' 
champions alike.
    I am delighted to see the progress made on this issue by the IOC. 
Their commitment of financial ($25 million) and other resources has not 
gone unnoticed or unappreciated. The decision to create the World Anti-
Doping Agency (WADA) is long overdue.
    Sadly, any critics of the IOC can now add to their complaints any 
dissatisfaction they may have with the results of the pending drug 
testing, and it needs pointing out that some of the International 
Sports Federations have indicated a reluctance to ``play along.''
    The difficulties are substantial, with unproved or new testing 
protocols, sophisticated drug users remaining one step ahead of the 
authorities, or even the rumor of concealed positive results so as to 
avoid official embarrassment. In the aquatic vernacular, either the net 
is too loose, the fish are too smart or someone is practicing ``catch 
and release.''
    Even so, for the results of all drug testing to be universally 
believable, we have to remove the impression that there might be any 
incentive to conceal an athlete's guilt. A ``zero tolerance'' attitude 
is believable only from a truly independent testing body.
    I've had a life-long admiration for IOC member and fellow Olympic 
swimmer, Richard Pound. His work on WADA has been relentless and 
perhaps thankless as well, and yet, even so, I still believe that it is 
in the Agency's best interest to be completely independent, 
transparent, and accountable to all the passengers on board, where 
there can be no suspicion about the fairness of the testing or the 
reliability of the published results.
                            ioc term limits:
    The third area of concern to me is the duration of the IOC terms.
    When it comes to IOC membership, I believe that someone's age is 
irrelevant to their ability to serve the Olympic cause so therefore the 
IOC's established age limits are irrelevant, but limiting the length of 
time someone may sit on the IOC is not.
    A tool frequently used to curtail the runaway power of entrenched 
position is the application of term limits. This method allows any 
organization the opportunity to gradually build into the system a 
polite way of allowing ``new blood'' onto the Committee, and 
encouraging those with decades of service to leave without a hint of 
rancor or scandal.
    Though the IOC 2000 recommendations included regular elections for 
all members, (one eight year term allows members to attend four Olympic 
Games, two summer and two winter), but the reforms did not go far 
enough.
    Current and new members, however, will be elected to eight year 
terms, with the possibility of unlimited re-elections, by their fellow 
members.
    Since the votes are cast by other IOC members, the possibility of 
the same group voting for each other year after year, is both 
disturbing and real. Further, all existing members will be up for 
renewal at the same time, and without staggered terms, the likelihood 
of a ``votes-for-votes'' scandal is frightening. Besides, for an 
organization like the IOC, it is the addition of new members, added 
regularly, that will allow it to keep on top of the significant issues 
that concern all stakeholders. If the IOC decided that it's wise to 
give their own President a limit to the number of years he/she may 
serve, why not then make the General Membership also subject to this 
same restriction?
    In the Olympic Games, the defending champion or current world 
record holder doesn't get a ``bye'' into the finals, or a head start in 
the race. He or she is not automatically invited to return to the Games 
four years later. Each victory must be fairly earned, each battle won 
on its merits on that day. The chance of an upset is what keeps the 
challengers working so hard, and at the same time, keeps the veterans 
``on their toes.''
    There is no room for ``entitlement'' at the Olympics, and there 
shouldn't be in the IOC membership.
                   ``active athlete'' representation:
    My final area of concern is also my favorite issue, athlete 
representation.
    Much of the progress made in the allocation of power to the 
athletes themselves is due to the work by members of the IOC's Athletes 
Advisory Council (AAC). Their professional behavior and devotion to the 
movement has made it possible for a greater role for athletes in the 
future of the IOC. In fact, ten AAC members were recently placed on the 
IOC, a clear step towards a spirit of inclusiveness and cooperation.
    The recent change in the rules now allows for fifteen (15) seats on 
the IOC to be reserved for ``active athletes'' (as defined as someone 
who participated in the Olympics during the past four years) to be 
elected (by other Olympians), but also must resign eight years after 
their last Olympic competition. This is a de-facto term limit to which 
the other IOC members are not subject.
    Though I'm told it's a mere formality, those that are elected by 
their peers still have three more hurdles to cross. This ``potential 
gauntlet'' includes the new IOC ``Selection Committee'' which must 
approve their qualifications, followed by a review by the IOC Executive 
Board, and finally the election by the IOC General Session.
    While I wholeheartedly agree with the sentiment that seeks to 
include the opinions of today's competitors, this particular reform 
falls short in providing true accountability on a level playing field 
in three areas.
                           ioc interference:
    First, if the IOC truly seeks to have the unvarnished opinions of 
the athletes included in discussions, the athletes should also be 
trusted to elect someone with their own best interests in mind, without 
fear of being overruled or edited by the IOC.
    Criteria to serve as the representative of the active Olympians 
should not be limited by current athletic prowess, but rather the 
ability to gather the confidence of the various Olympic performers. If 
they have to leave the IOC, let it be for term limits (shared by all 
members) and not the falling off of their athletic skills.
    The athletes' concerns might be better addressed by someone with 
years of experience, someone like a Donna de Varona, who swam to gold 
in 1964, served as an Olympic television announcer for years, lobbied 
on the Hill for the Amateur Sports Act and Title IX, Co-Founded the 
Women's Sports Foundation and recently was Chairperson for the Women's 
World Cup of Soccer. Under current rules, the Olympic athletes would 
not be allowed to elect her as their representative.
    Let the athletes elect whom they want, and then they'll get the 
representation they deserve.
                            election timing:
    Secondly, the election process is sadly ill timed.
    For most competitors, the Olympic Games symbolize more than a 
sporting contest. It's a Mecca for personal dreams and ambitions. 
Living in the village and meeting the international cast, seeing the 
sights and hearing the sounds, all of it is to be relished for a 
lifetime.
    To hold a campaign and election in the midst of the Olympic Games 
themselves, when the athletes' minds must necessarily be on more 
pressing issues, seems a bit flawed, and can easily result in a 
popularity contest instead of an election.
    To put it another way, making the ship's passengers themselves 
stand the midnight watch in the rain, just might take a bit of fun out 
of the cruise.
    Voters need to listen to the candidates articulate their positions, 
and clearly affirm their willingness to devote the time and energy 
necessary to serve. And without a recall option, those elected are not 
accountable to their athletic peers, but only to their new brotherhood, 
the IOC.
                    athlete on ioc executive board:
    Thirdly, the concerns of the ``active athletes'' should be 
addressed at the Executive Board by a representative chosen by the 
``active athletes,'' not appointed (or even approved) by the IOC 
President.
    Good governance should not be measured by the possibility of having 
a contrary point of view reach the IOC Executive Board, but rather the 
impossibility of the IOC to prevent such conflicting opinions from 
being heard.
    To discover the openness and accountability of this ``overhauled 
organization,'' we only have to ask ourselves, ``What response might we 
expect if the IOC doesn't like the contrary opinions of a potential 
member?'' and ``What can they do about it under this new system?''
    While I'm not suggesting that opposition to the IOC's policies 
should serve as an automatic qualification for membership. Most 
responsible organizations don't avoid, but rather seek the dissenting 
point of view.
                        the overriding concern:
    What do these four areas have in common? In my opinion it's the 
lack of IOC accountability. While they created the Ethics Commission, I 
don't know that they've agreed to abide by every decision the 
Commission makes. While they've reduced the age limit, they've put no 
limits on their own terms, indicating a reluctance to let go of their 
positions until the last possible moment. While they've created an 
international drug testing program, they seem reluctant to set it loose 
to allow the system to work without their influence. While they've 
added seats for the athletes, they've limited the pool the athletes can 
choose from, and in fact limited the length of the athletes' terms to 
their most athletically fruitful years.
    Though they have shown a recent willingness to be inclusive, the 
system is still stacked in their favor, because there is no authority 
to which they willingly hold themselves accountable. There is no system 
of checks and balances, and far too many decisions seem to be made 
behind closed doors, or by ``acclaim.''
    Olympians may be the finest athletic specimens on the planet, but 
even they are held accountable to the rules of their sport, the 
officials, their governing bodies, the drug testers, their coaches, and 
of course the IOC.
    If I wanted to be cynical, I might see these reforms as a way for 
the IOC to give lip-service to the outrage of public opinion, but in 
fact, I am trusting the IOC to be genuine in their call for democracy, 
transparency and responsibility. I know many IOC members personally, 
and their motives have always been for the betterment of the movement, 
without seeking personal glory or gain.
    I shared membership on the 1976 Olympic Team with Anita DeFrantz, 
and rejoiced at her election to the IOC. I served with Jim Easton on 
the Los Angeles Olympic Organizing Committee, and I know Dick Pound has 
always tried to make each decision with the best interest of the 
athletes in mind, I've seen no duplicity there.
    But even so, we must remember that without accountability to 
others, unprincipled and expeditious choices become easier to make and 
easier to overlook. The leaders need to be accountable to someone other 
than themselves, not just in word, but deed.
    There must be an ongoing means for an independent review of the 
IOC, an occasional inspection of the ship's ``moral compass'' to 
maintain her true heading.
    The ``danger radar'' needs to be on alert for potential ``crises on 
the high seas,'' and most importantly, the passengers on board (those 
who paid for their ticket with years of athletic effort and personal 
sacrifice) deserve the service one might expect on such a well 
traveled, historically significant and world renowned vessel.
    We realize that for these reforms to be effective, they need time 
to work. New members have recently been added to the IOC, and I have 
faith that changes are (or soon will be) on the horizon. After the 
IOC's overwhelming endorsement of all fifty IOC 2000 recommendations, 
the IOC leadership is entitled to my cautious but optimistic support. 
Rest assured, I will not be the only person keeping a close eye on the 
goings on in Lausanne.
    By announcing this hearing well in advance, Mr. Chairman, you put 
all the players on notice that their decisions will be made public, 
that their critics will be heard, and that their deeds will have to 
stand up to the scrutiny of media attention. In your action, I can see 
the wisdom of Ronald Reagan's quote of the Russian idiom, ``Trust but 
verify.''

    Mr. Upton. Thank you very much.
    Mr. Stapleton.

                   TESTIMONY OF BILL STAPLETON

    Mr. Stapleton. Thank you. Mr. Chairman, members of the 
subcommittee, I am a former Olympic swimmer. I competed in the 
1988 Olympic Games in Seoul, South Korea. In my professional 
life I'm a lawyer and represent Olympic and professional 
athletes, one of whom, Lance Armstrong, this year's winner of 
the Tour de France, recently testified here on Capitol Hill 
regarding government funding of cancer research. In my role as 
a sports attorney and agent, I hear the views of actively 
engaged world class athletes every day, and I am here to share 
their thoughts with you.
    Most importantly, I am also here today in my capacity as 
the Chairman of the United States Olympic Committee's Athletes 
Advisory Council, a duly elected body within the USOC, which 
represents the interests and perspectives of current and 
recently former athletes who, presumably, are or at least 
should be the foundation of the Olympic Movement. As you can 
imagine, I have heard quite a bit of feedback from athletes 
around the world in the past year. I am happy to report that 
athletes like Lance Armstrong are much more concerned about 
preparing to win Olympic medals and repeat Tour de France 
victories than they are about corruption in the IOC. However, I 
am disappointed to report that most athletes that I have talked 
to consider what happened in Salt Lake to be business as usual 
within the IOC, and they have little faith in reform.
    This is the first of what are now three hearings into the 
International Olympic Committee bid scandal in which athletes 
have had a prominent presence. While I appreciate this 
opportunity to be here, this emphasis on Olympic sport 
officials is appropriate because the controversy is not about 
Olympic athletes, but about those who may have abused an 
athlete support institution for self-aggrandizement. In doing 
so, they have damaged the reputation and image of the formal 
institutions they represented.
    But fortunately, the image of the Olympic Movement and the 
athletes who are at its heart have been left unscathed. Indeed 
I have seen survey results that confirm that the support and 
respect for America's Olympic athletes is at its highest point 
ever. Frankly, most athletes who train for Olympic competition 
don't care that much about the scandal because they are too 
busy preparing to represent their country in the Olympic Games 
in Sidney and in Salt Lake.
    But for those of us whose careers are behind us, such as 
many of those on this panel, who are committed to preserving 
the tradition of excellence of the Olympic Games and increasing 
opportunities for tomorrow's Olympians, we are furious with 
what has been done in the name of and at the expense of the 
world's Olympic athletes and their noble aspirations. Perhaps 
the problem is that athletes have not been permitted to be 
involved in the process to the extent that we should, and that 
we must be permitted to be more visible and active in setting 
the course for the governance of the Olympic Movement. This 
scandal might end up being the best thing that could happen to 
the IOC and the International Olympic Movement because it has 
forced an examination, not just of the IOC's processes but also 
of its culture, and has revealed serious deficiencies.
    Action to correct these deficiencies was initiated by the 
IOC this path weekend. We applaud what they accomplished and 
the spirit in which the IOC membership dealt with this 
difficult matter. But I submit that the corrective process has 
just begun and that there is much still to be addressed and 
remedied before meaningful progress is realized.
    When this scandal was first revealed, the USOC commissioned 
its own investigative body, headed by Senator George Mitchell, 
to examine the USOC practices and to make a series of 
recommendations, a number of which relate to the IOC. The USOC 
Athletes' Advisory Council considers the Mitchell Commission's 
recommendations to be extremely important to ensuring that the 
scandal does not repeat itself.
    We are disappointed with the IOC's disposition of some of 
these Mitchell Commission recommendations. Significant athlete 
participation in the governance of Olympic institutions is, in 
my view, a necessity. What constitutes significant is open to 
debate, but in the United States, by both Federal statute and 
USOC policy, a minimum 20 percent participation of athletes of 
all Olympic sports governing bodies is required.
    In this country, the Congress, with the leadership of 
Senator Stevens and certain important Members of the House, 
passed the Amateur Sports Act of 1978, which was recently 
amended in 1998. That statute requires the U.S. Olympic 
Committee and the national governing bodies it recognizes to 
set aside 20 percent of the membership or voting power of their 
governing boards and committees for actively engaged or 
recently competed world-class athletes elected by athletes.
    As I am certain no one from the USOC or national governing 
bodies will dispute, these athlete representatives have 
fundamentally and positively impacted the governance of Olympic 
sports in this country. These athlete representatives bring 
with them to the board room the knowledge gained from having 
recently competed at an elite level in their sport. In 
addition, these athletes are directly accountable to the 
athletes that elected them.
    The IOC has finally recognized the athletes who participate 
in its governance, but I believe the athlete quota on the newly 
configured IOC, a mere 15 out of a board comprised of 115 
people, is insufficient and suggests tokenism. Further, these 
athlete representatives, some are not elected by their peers, 
but are selected through an undemocratic process which I would 
phrase as co-optation, whereby an elite panel, appointed by the 
IOC leadership, selects and recommends candidates for 
membership.
    Finally, given that an individual is only eligible to serve 
as athlete representatives in the IOC for the period of 4 years 
after they compete in the Olympic Games, given that few, if 
any, athletes have time available to both compete at an elite 
level and serve as an IOC member, this limit effectively limits 
athlete participation to the 4-year period after they last 
competed. This limit does not allow time for an athlete IOC 
member to come up to speed on the relevant issues and to become 
politically viable.
    As a result, I suspect the athlete voice will be tolerated, 
but it cannot be completely effective. I believe this is a 
recipe for maintaining the status quo and is a significant 
obstacle to the realization of true reform.
    Further, it appears that the concept of limits is the most 
elusive, if not nonexistent, quality to the term limits 
proposal adopted this past weekend. I find this provision in 
the reforms to be the most offensive. First, the effect of the 
new provision is minimal on current IOC members, so it may be 
decades before the current membership is appreciably altered. 
The provision adopted merely substitutes a renewable 8-year 
term for a much longer term that lasted until the IOC member 
turned 80 and imposes a mandatory retirement age of 70, but, as 
noted, exempts current members.
    Under this system, it is unlikely that entrenched interests 
will continue to dominate unchecked as they always have. It is 
these entrenched interests and failure by these IOC members to 
enforce self-control that contributed significantly to the mess 
we are in today. More importantly, when this infinitely 
renewable term limit is viewed alongside the clearly defined 
term limit for athlete representatives, it is clear that the 
only IOC members with true term limits are athletes.
    The Mitchell Commission made a number of recommendations 
that would make the IOC more transparent and accountable, such 
as annual audits, disclosure policies and the creation of an 
enforcement mechanism. In so many of these areas, the reforms 
that were adopted partially addressed a deficiency, but did not 
go far enough. The audit provision, for example, prescribes 
annual audits of IOC finances, but allows public disclosure 
only quadrennially. Rather, in addition, the need for an Office 
of Compliance was confirmed, but was not established.
    The most important question, however, is how will these 
reforms be implemented? I encourage this committee to continue 
its oversight. The IOC could put anything down on paper, but 
unless these provisions are translated into practice in a 
manner consistent with the spirit in which they were adopted, 
they are just words. The key to effective implementation is a 
formal mechanism for enforcement and the will of the current 
IOC membership whose tenures have been protected to enforce 
proposals that may be contrary to the individual interests of 
some. I seriously question whether that will exists, but am 
willing at the moment to give them the benefit of the doubt. 
Nevertheless, I encourage its new athlete IOC members, although 
small in number, to bring to their jobs the same dedication to 
vigilance in this process that they brought to their own 
preparation for Olympic competition. I think the future of the 
IOC is somewhat in their hands, and I urge them to strive for 
meaningful reform.
    I am thankful that this Congress has opted to insert itself 
into this important issue, and I believe that if it had not 
done so, we would not be confronted with a reformed IOC today. 
However, I urge the members of this committee to study very 
carefully the impact of any legislation currently pending or 
that might be introduced that would negatively impact the IOC 
as this legislation might have a serious impact on America's 
athletes who are training for Sidney and Salt Lake City 
Olympics.
    Thank you for being willing to take your time on this 
issue, which is important to all the American athletes who have 
realized or hope to realize their Olympic dreams.
    [The prepared statement of William J. Stapleton follows:]
 Prepared Statement of William J. Stapleton, Chairman, USOC Athletes' 
                            Advisory Council
    Mr. Chairman and members of the Subcommittee. I myself am an 
Olympian, having competed in the 1988 Olympic Games in Seoul, South 
Korea in swimming. In my professional life, I am a lawyer and represent 
Olympic and professional athletes, one of whom, Lance Armstrong, this 
year's winner of the Tour de France, recently testified here on Capitol 
Hill regarding government funding of cancer research. In my role as a 
sports attorney and agent, I hear the views of actively engaged world-
class athletes every day and I am hear to share their thoughts with 
you. Most importantly, I am also here today in my capacity as the 
Chairman of the United States Olympic Committee's (``USOC'') Athletes' 
Advisory Council (``AAC''), the duly elected body within the USOC which 
represents the interests and perspectives of the current and recently 
former athletes who, presumably, are, or at least should be, the 
foundation of the Olympic Movement. As you can imagine, I have heard 
quite a bit of feedback from athletes around the world in the past 
year. I am happy to report that athletes like Lance Armstrong are much 
more concerned about preparing to win Olympic medals and Tour de 
France's than they are about corruption in the IOC. However, I am 
disappointed to report that most athletes I have talked to consider 
what happened in Salt Lake to be business as usual within the IOC and 
they have little faith in reform.
    This is the first of what are now three hearings into the 
International Olympic Committee (``IOC'') bid scandal in which athletes 
have had a prominent presence. While I appreciate this opportunity to 
be here, this emphasis on Olympic sport officials is appropriate 
because this controversy is not about Olympic athletes, but about those 
who may have abused an athlete support institution for self-
aggrandizement. In so doing they have damaged the reputation and image 
of the formal institutions they represented, but fortunately, the image 
of the Olympic Movement and the athletes who are at its heart have been 
left unscathed. Indeed, I have seen survey results that confirm that 
the support and respect for America's Olympic athletes is at its 
highest point ever.
    Frankly, most athletes training for Olympic competition don't care 
that much about this scandal because they are too busy preparing to 
represent their country in the Olympic Games in Sydney next September. 
But for those whose careers are behind them, such as many of those on 
this panel, who are committed to preserving the tradition of excellence 
of the Olympic Games and increasing opportunities for tomorrow's 
Olympians, we are furious with what has been done in the name, and at 
the expense of the world's Olympic athletes and their noble 
aspirations. Perhaps the problem is that the athletes have not been 
permitted to be involved in the process to the extent that we should, 
and that we must be permitted to be more visible and active in setting 
the course for the governance of the Olympic Movement.
    This scandal might end up being the best thing that could have 
happened to the IOC and the international Olympic movement because it 
has forced an examination not just of the IOC's processes, but also of 
its culture, and has revealed serious deficiencies. Action to correct 
these deficiencies was initiated by the IOC this past weekend; we 
applaud what they accomplished and the spirit in which the IOC 
membership dealt with this difficult matter. But I submit that the 
corrective process has just begun, and there is much that must still be 
addressed and remedied before meaningful progress is realized.
    When this scandal was first revealed, the USOC commissioned its own 
investigative body, headed by Senator George Mitchell, to examine USOC 
practices and to make a series of recommendations, a number of which 
relate to the IOC. The USOC AAC considers the Mitchell Commission's 
recommendations to be extremely important to ensuring that this scandal 
does not repeat itself. We are disappointed with the IOC's disposition 
of some of these Mitchell Commission recommendations.
    Significant athlete participation in the governance of Olympic 
institutions is, in my view, a necessity. What constitutes 
``significant'' is open to debate, but in the United States, by both 
federal statute and USOC policy, a minimum twenty percent participation 
of athletes on all Olympic sport governance bodies is required. In this 
country, the Congress, with the leadership of Senator Stevens and 
certain important members of the House, passed the Amateur Sports Act 
of 1978, which was amended in 1998. That statute requires the U.S. 
Olympic Committee and the national governing bodies it recognizes to 
set aside 20% of the membership or voting power of their governing 
boards and committees for actively engaged or recently active athletes 
who are elected by athletes. As I am certain no one from the USOC or 
the national governing bodies will dispute, these athlete 
representatives have fundamentally and positively impacted the 
governance of Olympic sports in this country. These athlete 
representatives bring with them to the board room table the knowledge 
gained from having recently competed at an elite level in their sport. 
In addition, these athletes are directly accountable to the athletes 
that elected them.
    The IOC has finally recognized that athletes should participate in 
its governance, but I believe that the athlete quota on the newly-
configured IOC--a mere fifteen out of a board comprised of one hundred 
and fifteen people--is insufficient, and suggests tokenism. Further, 
these athlete representatives are not elected by athletes, but are 
selected through an undemocratic process known as ``cooptation,'' 
whereby an elite panel appointed by the IOC leadership selects and 
recommends candidates for IOC membership. Finally, given that 
individuals are only eligible to serve as athlete representatives in 
the IOC for the period of four years after they compete in the Olympic 
Games; given that few if any athletes have time available to both 
compete at an elite level and serve as an IOC member while still 
actively competing, this limit effectively limits athlete participation 
to the four year period after they last competed. This limit does not 
allow time for an athlete IOC member to come up to speed on the 
relevant issues and to become politically viable; as a result, I 
suspect the athlete voice will be tolerated but it cannot be effective. 
I believe that this is a recipe for maintaining the status quo, and is 
a significant obstacle to the realization of true reform.
    It appears that the concept of ``limits'' is the most elusive, if 
not non-existent, quality of the term limits proposal adopted this past 
weekend. First, the effect of the new provision is minimal on current 
IOC members, so it may be decades before the IOC's current membership 
is appreciably altered. The provision that was adopted merely 
substitutes a renewable eight-year term for a much longer term that 
lasted until the IOC member turned 80, and imposes a mandatory 
retirement age of seventy, but, as noted, exempts current members. 
Under this system it is likely that entrenched interests will continue 
to dominate unchecked, as they always have; it is these entrenched 
interests, and failure by these IOC members to enforce self control, 
that contributed significantly to the mess that has brought all of us 
here today. More importantly, when this infinitely renewable term limit 
is viewed alongside the clearly defined term limit for athlete 
representatives, it is clear that the only IOC members with true term 
limits are the athletes.
    The Mitchell Commission made a number of recommendations that would 
make the IOC more transparent and accountable, such as annual audits, 
disclosure policies, and the creation of an enforcement mechanism. In 
so many of these areas the reforms that were adopted partially 
addressed a deficiency, but didn't go far enough. The audit provision, 
for example, prescribes annual audits of IOC finances, but allows 
public disclosure only quadrennially. In addition, the need for an 
Office of Compliance was confirmed, but was not established. Rather, it 
was turned over to the newly-created Ethics Commission for study and 
possible future action, and that Ethics Commission has apparently 
adopted the position that it will not investigate allegations that 
arise in the future about bid-related misconduct affecting Salt Lake 
City or earlier bids.
    The most important question, however, is how will these reforms be 
implemented? The IOC could put anything down on paper, but unless these 
provisions are translated into practice in a manner consistent with the 
spirit in which they were adopted they are just words.
    The key to effective implementation is a formal mechanism for 
enforcement and the will of the current IOC membership, whose tenures 
have been protected, to enforce proposals that may be contrary to the 
individual interests of some. I seriously question whether that will 
exists, but am willing, at the moment, to give them the benefit of the 
doubt. Nevertheless, I encourage the new athlete IOC members, although 
small in number, to bring to their jobs the same dedication to 
vigilance in this process that they brought to their own preparation 
for Olympic competition. I think the future of the IOC is somewhat in 
their hands, and I urge them to strive for meaningful reform in the 
same way that they sought in their competitive endeavors the glory of 
sport and the pursuit of excellence.
    I am thankful that this Congress has opted to insert itself into 
this important issue and I believe that if it had not done so we would 
not be confronted with a reformed IOC today. However, I urge the 
members of this committee to study very carefully the impact of any 
legislation currently pending or that might be introduced that would 
negatively impact the IOC, as this legislation will have a serious 
negative impact on America's athletes who are training for the Sydney 
and Salt Lake City Olympics and beyond.
    Thank you for being willing to take up this issue, which is 
important to all of America's athletes who have realized or hope to 
realize their Olympic dreams.

    Mr. Upton. Thank you very much.
    Mr. Ctvrtlik. Did I say it right? I listened to that tape.

                  TESTIMONY OF ROBERT CTVRTLIK

    Mr. Ctvrtlik. Excellent, and I submitted a written report 
that maybe you can make an official record, and I will try to 
stay within your 5-minute time limit. Your stamina and 
endurance is amazing.
    Chairman Upton, members, thank you for inviting me here 
today. As the tape did show, I am a three-time Olympian, two-
time medalist, representing the United States of America. I am 
sorry that I didn't have time to relay what has really happened 
this last weekend over in Lausanne to the prior two speakers, 
because I think their testimony might have been a little bit 
different. But, as you know, we all are volunteers, and we can 
only be in so many places at one time.
    I accepted your invitation a few days ago to testify as an 
elected member of the IOC Athletes Commission. What that means, 
that is elected at the Olympic Games by all the athletes of the 
world. I have also recently been named to the IOC session as of 
36 hours ago.
    For the last 14 years, I represented the United States on 
the volleyball court. In 1988, I was fortunate enough to win a 
gold medal, and in 1992 I was unfortunate enough to shave off 
all my hair when we won the bronze medal. And in 1996 I saw the 
Olympics from a completely different light, when we lost by one 
point before we made it to the medal stand. So I feel 
competitively I know what the Olympics brings to athletes.
    But in the last 2\1/2\ years, since I was elected by the 
athletes to the IOC as a representative, I began to see the 
sports administration side of the movement. I have served on 
the IOC Sports Environment Commission, the IOC 2000 Reform 
Commission this whole year, and I just recently was nominated 
or appointed to the World Antidoping Agency.
    But today we want to talk about what reforms--to talk about 
the reforms in taking care of the Olympic Games, which, as John 
mentioned, I do consider as well to be a public trust. But I, 
as opposed to the previous two speakers, have every confidence 
that what was enacted over these last days will be the first 
step in regaining that trust.
    Not too many people realize that President Samaranch was 
the one that was instrumental in getting all 10 elected 
athletes on the IOC 2000 Reform Commission. We weren't just 
wallflowers on the Commission. We were on the plenary session, 
we were in on the executive board, as well as in every working 
group.
    We were allowed the microphone alongside Dr. Kissinger, Mr. 
Bhoutros Bhoutros-Ghalli, some of the American representatives, 
Mr. Peter Uebberroth and Mr. Dick Ebersol, and there was 
something somewhat magical that happened when athletes took the 
floor as opposed to sleeping, some of the members; it seemed 
like everyone seemed to sit up and really listen to what the 
athletes had to say.
    In consultation with members of the Mitchell Commission and 
the United States Olympic Commission athlete representatives, 
we came up, as the IOC Athlete Commission representatives in 
the Reform Commission--on the Reform Commission, we came up 
with five major recommendations that we would like the IOC 
Commission to enact. The first, we wanted to make all of the 
active athlete commission members IOC members for the length of 
their term. Second, we definitely wanted to have one athlete 
elected to the executive board, the highest governing body 
within the IOC Movement. Third, we wanted to give the athletes 
power to elect their own chairman, because as we have heard 
earlier today, the chairman within the IOC has quite a bit of 
sway on how the meetings are conducted. We also wanted our own 
budget, and we wanted to lengthen the terms from the present 4 
years to 8 years so that we can make the relationships that you 
need within the IOC to compete and put forth ideas against 
powerful international federation presidents, as well as the 
different NOC representatives.
    Once again, this was a wish list. We put these things 
forward; we presented them in our different commissions. What 
happened this last weekend, after some small negotiated 
changes, we achieved major victories in every one of the five 
categories, the recommendations that we put forward.
    Now, you might say, as Bill Stapleton just alluded to, 
maybe we should have 20 percent as opposed to 15 percent, or 
have two people on the executive board as opposed to one. But 
the propositions and recommendations we put forward were 
accepted with almost unanimous vote by the IOC members.
    Personally, I can say I am very proud to have been a part 
of this throughout this last year, as I think it is going to go 
back in the history as one of the most pivotal weekends in the 
history of the IOC.
    But just to conclude, 10 active athletes have been elected 
to the IOC no less than 3 days ago, and these 10 were very 
symbolic of the Olympic Movement. Just like the Olympic 
Movement itself, we have stories of our highs and lows as well 
as the obstacles that we had to overcome to achieve our 
excellence. But within the 60,000 living Olympians, the stories 
that all of us have, they are just typical of the sacrifice and 
dedication that we have put forth. But on behalf of the nine 
elected active athletes on the IOC Athletes Commission that 
were present through all of the reforms this entire year, I can 
say we fully, 100 percent, unanimously supported the findings 
that have been passed this last week during the 110th IOC 
session. We have been pleased and honored to be equal 
participants, not on the outside of the IOC, but we were 
inside, being able to talk to anyone we wanted, make the 
arguments that we wanted, and, as was done by Hassiba Boulmerka 
in one of the sessions, she took 20 to 25 minutes of everyone's 
time to make one argument.
    We are not resting on the laurels of what they just passed. 
We understand this is not the conclusion, the end of the race, 
but as athlete members who are now on the inside, we will be 
extremely vigilant. All the future sessions are on television. 
It will be very difficult for the IOC members not to heed 
publicly what the IOC athlete elected representatives want to 
put forth.
    So, rest assured we will be very vigilant to safeguard the 
Olympic ideals that all of us here have worked to embody and 
just thank you for your time. I will answer any questions at 
the end that you have. Thank you very much.
    [The prepared statement of Robert Ctvrtlik follows:]
 Prepared Statement of Robert Ctvrtlik, Member, IOC Athletes Commission
    Chairman Upton, Congressman Klink, Members of the Committee, thank 
you for inviting me here today. I am Bob Ctvrtlik, a newly-elected 
member of the International Olympic Committee, three-time Olympian, and 
two-time medal winner representing the United States of America.
    I accepted your invitation some days ago to testify as an elected 
member of the IOC Athletes Commission who was actively working on IOC 
reform. Today, I am one of the first active athletes ever elected to 
the IOC. As a result of the fundamental reforms passed this weekend, 
all 10 elected members of the Athletes Commission are now voting 
members of the IOC.
    For 14 years, I represented the United States of America on the 
volleyball court, competing in the Olympic Games of 1988, 1992, and 
1996. I have been blessed to have experienced Olympic competition from 
different perspectives: from the Gold medal platform in 88, the Bronze 
medal platform in 92, and from the floor when in 1996 I left my heart 
on the court when we lost our last match before the medal round--by one 
point.
    Since my playing career ended 2\1/2\ years ago, I have been working 
on the sports administration side of the Olympic Movement. This started 
at the 96 Olympic Games, where I was one of the seven Summer sport 
athletes elected to serve on the IOC Athlete's Commission. Since my 
election to the IOC, I have served as the athlete representative on the 
IOC Environmental Commission and the important IOC 2000 reform 
commission that reviewed the IOC's structures and policies and 
recommended the 50 reforms passed this past weekend in Lausanne. I 
should also mention that a couple of weeks ago, I was appointed to the 
World Anti-Doping Agency--another major achievement of the Olympic 
Movement.
    We're here today to talk about the reforms and taking care of the 
Olympic Games. I consider them to be a public trust. I have every 
confidence that the reforms enacted by the International Olympic 
Committee will go a long way to restore this trust. I would like to 
share with you my impression of the process that has occurred over the 
last year.
    President Samaranch, who during my years on the Commission has 
always supported the rights of the athlete, maneuvered around 
opposition to have all elected members of our commission placed on the 
IOC reform commission. We were included at all levels, in the plenary 
session, in the working groups, and also on the executive board.
    We were allowed the microphone alongside world leaders such as Dr. 
Henry Kissinger, Mr. Bhoutros Bhoutros-Ghalli, Mr. Peter Uebberroth and 
Mr. Dick Ebersol. If we had a view it was not only tolerated, but 
encouraged. From day one, I had the feeling that the world leaders and 
the IOC members seemed to pay special attention when one of the 
athletes would take the floor.
    Through consultation with other athlete leaders, we came up with a 
list of five reforms we felt were critical to making the athletes a 
permanent and effective part of the governing structure:

<bullet> Making all of the Athlete's commission members IOC members 
        with full voting rights;
<bullet> Electing at least one athlete to the executive board;
<bullet> Giving the Athlete's Commission the power to elect our own 
        chairman;
<bullet> Providing the Athlete's Commission our own budget; and
<bullet> Lengthening the term of the athlete representatives so that 
        they would have enough time to develop the relationships needed 
        to effect policy.
    Once again, this was a wish list, and we were determined to achieve 
as much of this as possible.
    Compare this list with the following selection of reforms that were 
adopted by the 110th session of the IOC are:

<bullet> Athletes will elect nominees for the chairman of the Athlete's 
        Commission and the President of the IOC will appoint someone 
        from our list.
<bullet> We will elect a nominee or nominees for the Executive Board, 
        and the entire session will vote on which of our nominees they 
        select.
<bullet> We will be granted a budget to be used to advance the 
        Athlete's Commissions agenda.
<bullet> The length of terms for future Athlete Commission Members will 
        be extended to 8 years from the current 4. (In addition they 
        will also be staggered)
<bullet> Most importantly, all elected athletes will become IOC members 
        with complete voting rights for the length of their terms.
    We were able to achieve, after some small-negotiated modifications, 
major victories in all of the categories in which we asked the IOC to 
change. Now of course, some people might say you should have gotten 17 
members instead of 15, or some small change such as that. But in 
general, the IOC included us in the process, listened to our ideas, 
presented them to the IOC Members, and passed them with a nearly 
unanimous vote. We feel these gains are a major victory for the 
athletes of the world. And personally, I am very proud to say I was a 
part of the commission during this last year.
    To conclude, the ten active athletes elected to the IOC four days 
ago are very symbolic of the Olympic Movement. Just like the Olympic 
Movement itself, we all have stories of our highs and lows, as well as 
the obstacles we had to overcome to achieve excellence. But within the 
60,000 living Olympians, our stories are just typical of the sacrifice 
and dedication that we all have had to put forth. On behalf of the 
other nine elected athlete representatives, and as representatives of 
the athletes of the world, let me make it clear the majority of 
athletes FULLY support the reform measures passed by the 110th IOC 
Session.
    We have been pleased and honored to be equal participants with the 
IOC as we have worked on reform during this last year. Rest assured, we 
are not resting on our laurels, and we do not take our new 
responsibilities lightly. But in the future we will be vigilant to 
safeguard the Olympic Ideals that we have all worked so hard to embody.
    Thank you. I look forward to answering any questions you may have.

    Mr. Upton. Thank you very, very much.
    Mr. Mills.

                    TESTIMONY OF BILLY MILLS

    Mr. Mills. Chairman Upton and members, with my colleagues 
on my right making the comments they have, I think I would like 
to very quickly recapture on October 14th, 1964, dusk was 
falling over Tokyo, Japan, and the final lap of the Olympic 
10,000-meter race was under way. Mohammed Gamoudi from Tunisia, 
Ron Clarke, the world record holder from Australia, and Mills, 
an unheralded distance runner from the United States, were 
racing shoulder to shoulder, battling for the lead.
    The announcer went something to the effect with 100 meters 
to go, ``Clarke is passing Gamoudi; no, it is Gamoudi; it is 
Clarke, Clarke is in the lead. Gamoudi is refusing to let 
Clarke go by. Clarke is in the lead. Here comes Mills, here 
comes Mills. He won. He won.''
    That one fleeting moment in time for me was magical. I felt 
like I had wings on my feet. I was told the moment was 
electrifying, and the world had just witnessed one of the 
greatest upsets in Olympic history.
    However, that moment was not what I took from the Olympic 
Games. What I took was the true sense of global unity through 
the dignity, through the character, through the beauty of 
global diversity, and this sense of unity through diversity is 
the true feeling of the Olympic ideal and also the destiny I 
seek for mankind.
    ``Swifter, Higher, Stronger,'' as my colleague said, is the 
Olympic motto, not the swiftest, not the highest, not the 
strongest.
    I will quickly reflect back, as a young Indian boy living 
on the reservation, orphaned, poverty, and, for a brief moment 
of time, living in the back seat of an old car, I had a dream. 
I dreamt constantly of the Olympic Games. At that point I 
started taking quotes from Greek mythology, from Native 
American values, and truly tried to start living my Olympic 
dream.
    Socrates said, ``With achievement comes honor, and with 
honor comes responsibility.'' That, to me, is our Olympic 
ideal.
    Being half Sioux Indian, being half white, in a struggle 
when I was going into high school, a struggle with Brown v. 
Board of Education, Topeka, Kansas, 1954, I felt I did not 
belong. The full-blooded Indian called me mixed-blood; the rest 
of the world, European ancestry, African ancestry, called me 
Indian. Both cultures in a sense rejected me. I found a third 
culture that was global, a culture that I call sport, and the 
Olympic dream and the Olympic ideals became part of my culture, 
part of my life.
    I took the Sioux Indian concept of a warrior into sport 
with me and truly believed the concept also paralleled the 
Olympic ideals, for to a great extent America looked on us as 
mascots. But I tried to live the ideals of a warrior.
    There are four values the warrior centers his or her life 
around. You become responsible for yourself. Then you help 
others become responsible. You humble yourself to all creation. 
You are no better or no less than one another, or no less than 
all of God's creations. You learn the power of giving, and the 
first thing you learn here is respect and love yourself, so we 
can all respect and love one another. Then the warrior takes 
responsibility, humility and the power of giving and centers 
that around his or her core of spirituality. Therein 
constitutes the definition of a Lakota, a Sioux Indian warrior.
    Aristotle said all warriors seek to fulfill four spiritual 
steps: The warrior seeks to be unique; the warrior seeks to 
belong; the warrior seeks to make a creative difference to 
society; the warrior seeks to understand. These are all values 
I find represent the true sense of the Olympic ideals.
    Greeks have stated that the Olympians in the past were 
chosen by the gods. I say if you find your life's passion, and 
you live your passion through values, following your own free 
will, you will be led down a path to your destiny, and, yes, 
your destiny is God-given.
    I feel sport without value is meaningless. Sport used to 
teach life values is sacred, and that is the true sense of the 
Olympic Games to me.
    So as an Olympian today, I honor the true values, the true 
ideals of the past Olympics. I celebrate what I feel today has 
become an intelligent and adaptive program of change in the 
Olympic Movement, and I truly imagine, in closing, our future 
Olympic Games promoting global unity through the dignity, 
through the character, through the beauty of global diversity, 
and, yes, perhaps future Olympians will again be chosen by the 
gods.
    [The prepared statement of Billy Mills follows:]
                   Prepared Statement of Billy Mills
    On October 14, 1964, dusk was falling over Tokyo, Japan and the 
final lap of the Olympic 10,000-meter race was underway. Mohammed 
Gamoudi from Tunisia, Ron Clarke, the world record holder from 
Australia and Billy Mills, an unheralded distance runner from the 
United States raced shoulder to shoulder, battling for the lead.
    With 100 meters to go, the announcer was shouting, ``Clarke is 
passing Gamoudi, no, it's Gamoudi, it's Clarke! Clarke is in the lead . 
. . Clarke refuses to let Gamoudi by . . . here comes Mills; here comes 
Mills . . . he won! He won!''
    That moment was magical for me. I felt like I had wings on my feet.
    I was told the moment was electrifying and the world had just 
witnessed the greatest upset in Olympic history unfold.
    However, that one fleeting period in time was not what I took from 
the Olympics.
    What I took was the true sense of global unity through the dignity, 
the character and beauty of global diversity.
    This sense of unity through diversity is the true feeling of the 
Olympic ideal and the destiny I seek for mankind. ``Swifter, Higher, 
Stronger'' is the Olympic Motto, not, ``Swiftest, Highest, Strongest.''
    As an orphaned Indian boy, while living in the back seat of an old 
wrecked car several weeks, I dreamed of the Olympic Games. I took 
quotes from Greek mythology and Native American values and started 
living my Olympic Dream. Socrates said, ``With achievement comes honor 
and with honor comes responsibility.'' This to me is our Olympic ideal.
    Being half-Sioux Indian and half-white in a country struggling with 
``Brown v. Board of Education, Topeka, Kansas, 1954,'' I felt I did not 
belong. The full-blood Indian called me mixed-blood; the white called 
me Indian. With both cultures rejecting me, I found a third culture 
called sport. The Olympic Dream and the Olympic ideals became my 
culture.
    I took the Sioux Indian concept of a warrior into sports with me 
and truly believed the concept also paralleled the Olympic ideals.
    A warrior lives his or her life around four values: 1. You become 
responsible for yourself. Then you help others become responsible. 2. 
You humble yourself to all creation. We are no better and no less than 
all God's living creations. 3. You learn the power of giving and the 
first thing you learn to give is respect and love to yourself so you 
can respect and love others. 4. Then the warrior takes responsibility, 
humility, and the power of giving and centers them on his or her core 
of spirituality. Therein constitutes a Sioux Indian Warrior.
    Aristotle said all warriors seek to fulfill four spiritual steps. 
1. The warrior seeks to be unique. 2. The warrior seeks to belong. 3. 
The warrior seeks to make a creative difference to society. 4. The 
warrior seeks to understand. The are all values I find in the true 
sense of the Olympic Ideals.
    Greeks have stated that the Olympians were chosen by the Gods. I 
say, if you find your life's passion and live your passion throughout 
values following your own free will, you are led down a path to your 
destiny and your destiny is God-given.
    Sport without value is meaningless. Sport used to teach life values 
is sacred. So today, as an Olympian, I honor the true Olympic ideals of 
the past and celebrate what I feel are positive attempts to return to 
the true Olympic ideals.
    I imagine our future Olympic Games promoting global unity through 
the dignity, character and beauty of global diversity. Perhaps future 
Olympians will once again be chosen by the Gods.
    Thank you.

    Mr. Upton. Thank you.
    Ms. Strug.

                    TESTIMONY OF KERRI STRUG

    Ms. Strug. Good afternoon, Mr. Chairman and members of the 
subcommittee. I am Kerri Strug, and I was a member of the gold 
medal women's gymnastics team in Atlanta in the Summer Games of 
1996. After listening to the panel of seasoned veterans and 
eloquent speakers, perhaps I was asked to come here today to 
bring more of a naive, innocent perspective, because as a young 
athlete it is hard to understand the scope of the Olympic 
Movement. You go through years of training, and your focus is 
on yourself and becoming the best you can be and just the 
thrill of competition. I think every athlete just fantasizes 
about what it would be like to be there, to be in the Olympic 
Games, to be surrounded by the greatest international athletes 
competing with the world watching. I mean, that is a dream come 
true.
    Once you are at that Olympic level, your mentality has to 
shift from just focusing on you to focusing on your team and 
your country. The level of commitment is intense, and the 
support you feel from your teammates and countrymen is really 
exhilarating.
    The Olympic family starts small with getting to know your 
national teammates, and then once you are at the game, it 
encompasses the entire Olympic Village. I was fortunate to 
compete in two Olympics, Barcelona in 1992 and Atlanta in 1996, 
and the feelings of friendship and camaraderie that I 
experienced there will definitely shape the rest of my life.
    It is amazing for me to see that although all of us 
competitors have different backgrounds and cultures, and there 
is definitely a language barrier, we are able to communicate 
and exchange ideas, dreams and goals.
    I feel incredibly blessed that I was allowed the 
opportunity to participate in the Olympic Games, and I have had 
an unbelievable amount of support from my family, my friends 
and supporters of the Olympic Movement. I would not trade any 
of those experiences for anything in the world.
    I know that change in the Olympic structure is inevitable, 
but the value of the games should definitely supersede the 
politics. I just hope that the world will continue to come 
together, and hopefully competition will provide a venue for 
dreams to be realized, because that is the most important 
thing.
    Being here today I think really opened my eyes, because I 
have always seen the Olympics through one tunnel, one vision, 
one perspective, and I think maybe it would be beneficial if 
the rest of us did as well, because it is ultimately about the 
athletes. Thanks.
    [The prepared statement of Kerri Strug follows:]
                   Prepared Statement of Kerri Strug
    Good Morning Mr. Chairman, members of the Subcommittee. I am Kerri 
Strug and I was a member of the gold-medal Women's Gymnastic Team in 
1996 in Atlanta.
    As a young athlete, it is hard to understand the scope of the 
Olympic Movement. You go through years of training and are focused on 
being your best and the thrill of competitions. When you finally make 
it to the Olympic level, your feelings are indescribable. I think every 
athlete fantasizes about what it would be like to be there. To be 
surrounded by the greatest international athletes, competing with the 
world watching is a dream come true. Once your are at the Olympic 
level, your mentality shifts from you to focusing on your team and 
country. The level of commitment is intense and the support you feel 
from your teammates and countrymen is exhilarating.
    The Olympic Family starts small with getting to know your national 
teammates and then grows in scope to encompass the entire Olympic 
Village. I was so fortunate to be able to compete in two Olympics, 
Barcelona in 1992 and Atlanta in 1996. The feelings of friendship and 
camaraderie that I experienced there will shape the rest of my life. It 
was amazing to think that although all of the competitors had language 
barriers, we were able to communicate and exchange ideas, dreams and 
goals.
    I feel incredibly blessed that I was allowed the opportunity to 
participate in the Olympics. I had an unbelievable amount of support 
from my family, friends, and supporters of the Olympic Movment. I 
wouldn't trade my experiences for anything in the world. I know that 
change in the Olympic structure is inevitable, but the value of the 
Games supercedes the politics. I hope that the world will continue to 
come together in healthy competition and will continue to provide a 
venue for dreams to be realized.

    Mr. Upton. Thank you.
    Mr. Westbrook.

                  TESTIMONY OF PETER WESTBROOK

    Mr. Westbrook. Good afternoon, Representatives and members 
of the committee. I would like to thank this subcommittee for 
permitting me to speak before it. I take great pride as a 
witness in sharing what the Olympic Movement has done for me 
and for the youth of the Peter Westbrook Foundation.
    I want to thank you and compliment you on your, I guess, 
persistence with reform to the IOC. I really thank you on that.
    I would like to share a few statistics with you for a 
particular reason. As you know, I am the president of the Peter 
Westbrook Foundation. I am a six-time Olympian/bronze medalist 
in the Olympic Games. I am a six-time Pan-American team member, 
gold medalist in 1983 and 1995. I am a 13-time U.S. national 
champion. I was chosen as the flag bearer for the United States 
at the Olympic Games at Barcelona at the closing ceremony. I 
was also chosen as the flag bearer at the Pan American Games in 
1999 at the opening ceremony. I am an Athletes' Advisory 
Council member.
    I say all this because I was considered to be an at-risk 
youth. I was an at-risk inner-city youth. I was raised in a 
single-parent home in the housing project of Newark, New 
Jersey. There were many times when we didn't have enough food 
to eat or have the proper clothing to attend school. Crime and 
negative stimuli were running rampant in my community, and 
negative stimuli started to affect my life.
    I was extremely fortunate to be introduced to the Olympic 
sport of fencing at Essex Catholic High School in New Jersey. I 
started to excel and was then offered a full fencing 
scholarship to attend New York University. There I began my 
Olympic training, and my life changed dramatically. I was no 
longer considered to be an at-risk youth, but an Olympian and a 
bronze medalist of the United States of America.
    Were it not for the grace of God and the Olympic sport of 
fencing, I would not be here before you today, but rather a 
statistic. This is why I and Olympian Robert Cottingham, in the 
room now, district representative for Congressman Payne, 
started the Peter Westbrook Foundation in February 1991. It is 
a nonprofit organization that seeks out high-risk inner-city 
youth and teaches them the discipline of fencing.
    The Foundation is changing children's lives. The program, 
which solicits and relies on private and public funding, has 
been in existence for the last 9 years. We operate year-round. 
There is a Saturday and an after-school program. There are 
approximately 100 boys and girls from the ages of 9 to 19 years 
old.
    I am pleased to share with you House Members, committee 
members, that in the academic area this year, Harvey Miller, an 
at-risk youth, was introduced to our program. This high school 
junior had nothing but Fs on his report card for the last 2 
years. This year in his first tournament in Charlotte, North 
Carolina, at the national championships, he took fifth place. 
In addition, Harvey is at present an honor roll student and 
taking day and night classes and Kaplan's SAT course. He has 
his mind set on attending college and on becoming an Olympian.
    My last area I would like to share with you 
Representatives, I am so proud of their athletic 
accomplishments. This year our youth have won men's and women's 
Division I NCAA championships and United States men's and 
women's national championships in both team and individual 
events. For the last 4 years, our athletes have represented the 
United States at the junior and senior world championships. One 
individual, Akhnaten Spencer-El, was ranked No. 1, I repeat, 
No. 1, in the world in the Under 20 category. The youth capped 
it off by representing the United States at this year's Pan 
American Games in Winnipeg, Canada, by winning a silver and 
three bronze medals. It just makes me feel so good inside.
    This is a dream come true for me. This is a dream come true 
for the youth of our organization and for the youth of America. 
I am so proud, as you can tell, and I am so honored. It brings 
me great joy to witness all that has taken place before my 
eyes.
    I must say President Bill Hybl and the United States 
Olympic Committee have been instrumental in supporting our work 
and our struggle. President Bill Hybl and the USOC have also 
been financially supportive of our youth in our struggle for 
the last 7 years, and for that I am extremely, extremely 
grateful. I am also thankful to the many lives we are able to 
change together.
    I am confident that the USOC will continue not only to 
support the Peter Westbrook Foundation, but similar grass-roots 
programs that embrace high-risk inner-city youth through 
athletics.
    I would like to say I thank God for all of his magnificent 
blessings, and I thank Him for giving me the opportunity to 
work and touch the lives of so many of our children. I also 
thank the USOC for assisting me in achieving my goals and the 
goals of so many of our youth.
    In closing, I would like to say if you can only change one 
person's life, that one person may be able to go out and change 
thousands more. I thank you so much, members and 
Representatives.
    [The prepared statement of Peter Westbrook follows:]
   Prepared Statement of Peter Westbrook, President, Peter Westbrook 
                               Foundation
    Good morning Mr. Chairman and members of the Subcommittee.
    I would like to thank this Subcommittee for permitting me to speak 
before it. I take great pride as a witness in sharing what the Olympic 
Movement has done for me and for the youth in the Peter Westbrook 
Foundation.
    I would at this time like to share a few statistics with you. I am 
Peter Westbrook, President, Peter Westbrook Foundation; 6-Time 
Olympian/Bronze Medalist, 1984 Games; 6-Time Pan-American Games Team 
Member/Gold Medalist, 1983 & 1995; 13-Time United States National 
Champion; Flag Bearer--Closing Ceremonies, 1992 Olympic Games, 
Barcelona, Spain; Flag Bearer--Opening Ceremonies, 1995 Pan-American 
Games, Mar Del Plata, Argentina; and Member, Athlete Advisory Council, 
U.S. Olympic Committee1I was considered an at-risk, inner-city youth. I 
was raised in a single-parent home in the housing projects of Newark, 
New Jersey. There were many times when we didn't have enough food to 
ear or have the proper clothing to attend school. Crime and negative 
stimuli were running rampant in my community. The negative stimuli 
started to affect my life.
    I was extremely fortunate to be introduced to the Olympic sport of 
fencing in Essex Catholic High School. I started to excel and was then 
offered a fencing scholarship to attend New York University. There I 
began my Olympic training under Csaba Elthes. My life changed 
dramatically and I was no longer considered an at-risk youth, and went 
on to become a six-time Olympian and Bronze Medalist for the United 
States.
    Were it not for the grace of God and the Olympic sport of fencing, 
I would not be here before you today, but rather, a statistic.
    This is why Olympian Robert Cottingham, Jr., District 
Representative for Congressman Donald M. Payne, and I started the Peter 
Westbrook Foundation, a non-profit organization that seeks out high-
risk, inner-city youth and teaches them the discipline of fencing.
    The Peter Westbrook Foundation is changing children's lives. The 
program, which solicits and relies on private and public funding, has 
been in existence for the last nine years. The program operates year-
round. There is a Saturday Program and an After School Program. There 
are approximately 100 boys and girls from the ages of nine to 19 years 
old involved.
    In addition, the Peter Westbrook Foundation addresses the academic 
arena. This year, Harvey Miller, an at-risk youth was introduced to our 
program. This high school junior had nothing but F's on his report card 
for the last two years. This year, he attended his first tournament, 
held in Charlotte, North Carolina. At this Division II National 
Championship, he finished 5th. Harvey is at present an Honor-Roll 
student taking day and night classes and taking Kaplan's SAT 
preparatory course for college. He has his mind set on attending 
college and becoming an Olympian.
    This year our youth have won the Men's and Women's Division I NCAA 
Championships ad the United States Men's and Women's National 
Championships in both team and individual events. For the last four 
years our athletes have represented the United States at the Junior and 
Senior World Championships. One individual, Akhnaten Spencer-El, was 
ranked number one in the world in the Under-20 Division and capped that 
off by representing the United States at this year's Pan-American Games 
in Winnipeg, Canada, winning a silver and three bronze medals.
    Some of our youth will compete in next year's Olympic Games in 
Sydney, Australia and we have more targeted for the 2004 Olympic Games 
in Athens, Greece.
    This is a dream come true for me, for the youth of our 
organization, and for the youth of America. I am so proud and honored. 
It brings me great joy to witness all that has taken place before me.
    U.S. Olympic Committee President Bill Hybl and the U.S. Olympic 
Committee as a whole have been instrumental in supporting our work and 
struggle. President Hybl and the U.S. Olympic Committee have been 
financially supportive of our youth for the last seven years and for 
that I am extremely grateful. I am also thankful for the many lives we 
are able to change together. I am confident that the U.S. Olympic 
Committee will continue not only to support the Peter Westbrook 
Foundation, but similar grass roots programs that embrace high-risk, 
inner-city youth through athletics.
    I thank God for all of His blessings and thank Him for giving me 
the opportunity to work and touch the lives of so many of our children. 
I also thank the U.S. Olympic Committee for assisting me in achieving 
my goals and the goals of so many of our youth.
    If you can only change one person's life, that one person may be 
able to change thousands.
    Thank you.

    Mr. Upton. Terrific. Thank you.
    Mr. Szott.

                    TESTIMONY OF KEVIN SZOTT

    Mr. Szott. Thank you. Good afternoon to the committee. I 
appreciate the opportunity to come here and speak to you.
    Being the sole representative of the USABA, which is United 
States Association of Blind Athletes, and also USA Judo, I 
would like to take the opportunity to explain a little bit 
about the Paralympics, for those of you who may not be familiar 
with the structure of it.
    Basically there are five disabled sports organizations that 
represent those with cerebral palsy, spinal cord injury, 
amputee, blind, and dwarfs and midgets. These five 
organizations compete 10 to 14 days after the Olympic Games. 
They will be from October 18 to 29 in Sydney, Australia. There 
will be approximately 5,000 athletes and 110 countries 
represented. We value the opportunity to compete as much as 
anyone does. Able-bodied, disabled-bodied, we go through the 
dedications, the struggles, the triumphs, the pitfalls of 
competing.
    But the other part to our story is that this is a vehicle 
that allows us to demonstrate our abilities, and instead of 
people looking at what we can't do, they look at what we can 
do. Once they get past that, that gives us the opportunity to 
really express all our talents and our skills. So especially 
with the recent legislation in the United States, the 
Disabilities Act and those types of legislation, this a major 
vehicle for us to continue that movement ongoing.
    So when I hear of what occurred in Salt Lake City, me, as a 
citizen of the United States, I was embarrassed. As an athlete 
I was angered that someone would try to taint what is such a 
pure message of just competition in athletes and athletics.
    The saying goes, don't shoot the messenger for the message. 
In this case I would love to be able to shoot the messenger for 
tainting the message. Unfortunately, I don't see how we can do 
that without affecting the athletes. I hope that this 
committee--you are here looking out for our best interests.
    As an athlete, unfortunately, you know, the President was 
here answering to you. As an athlete, I wish that I could sit 
him down so he could answer to me, because we are what the 
games are all about, and when the show starts, when the whistle 
blows and the bell goes off, it is all about the athletes, and 
that is where the focus is, not in the organization.
    So I appreciate your efforts, and I would just ask as you 
go through this process to please remember that anything that 
may occur at the IOC level, the USOC level, will eventually 
trickle down to the end user, which is us, so I wish you would 
please keep that in mind as you go along.
    I started to dream back when I was basically in seventh 
grade to be an Olympian. I chose track and field. I wasn't able 
to excel high enough in that particular sport to pursue my 
Olympic dream, and at the age of 30 I picked up the sport of 
judo, basically to try to be competitive at the Paralympic 
level. I never thought I would be in the position I am now at 
36 to be fighting for an Olympic spot, trying to become the 
first blind athlete in the history of the Olympic Games.
    The Olympics has always been the purest of ideals to me, 
and it really upsets me as an individual to see it turned the 
way it has been turned.
    I just want to thank you for your time. I want to wish you 
a good holiday, and God bless the USA.
    [The prepared statement of Kevin Szott follows:]
                   Prepared Statement of Kevin Szott
    Hello and good morning Mr. Chairman, members of the Subcommittee 
and all guests and dignitaries. My name is Kevin Szott and I represent 
the United States Association of Blind Athletes and USA Judo. I am here 
today to talk to you about my experience as a Paralympian.
    I would first like to take this opportunity to explain the 
Paralympic format. The Paralympics consists of five disabled sports 
organizations dealing with physical limitations including: people who 
are blind, amputees, people with spinal cord injuries, dwarfs, and 
cerebral palsy. These five groups compete in nineteen different sports.
    The competition is fierce and as intense as any of you have ever 
seen before. There are five thousand athletes from over one hundred 
countries, all having two things in mind: winning a gold medal and 
changing people's perceptions.
    I have been a disabled athlete for twenty-two years and in this 
time I have seen many changes. The number and quality of the athletes 
has grown exponentially. The changes, however, did not end there. The 
abilities of the athletes began to overshadow the disabilities. People 
are looking at disabled persons in a whole new light. They have started 
to ask questions about our disabilities and have begun to wonder about 
their own limitations. In my life and in the lives of other disabled 
athletes, the Paralympics have played a major role in effecting this 
epiphany. The games continue to help us gain momentum toward the 
understanding and acceptance by today's society. This is what makes the 
Paralympics different from the Olympic Games: the triumph of the human 
spirit, in life and in sport.
    This is why I ask you, when making decisions about the IOC, to 
remember the message. The message is still pure and untainted by money 
or greed. The competition and the athletes are what the games are all 
about: we train for years, not for money or political gain, but for 
pride and to be the best, period. This is the purity of the message and 
is why millions of people watch the games every four years. Who will be 
the heroes and who will overcome the greatest odds to win the gold? 
Greed and money have allowed the messengers to forget about the 
message. They took the athletes' hard work and dedication and made 
financial gain for themselves. The worst part of this insult is that 
these same people were entrusted to govern our games. The messengers 
are guilty of reckless disregard of the message they were entrusted to 
maintain.
    If you could punish the messenger without harming the message, I 
would be behind it one hundred percent. I can not see a way for this 
governing body to accomplish this objective. The USA has been 
embarrassed and internationally ridiculed, and we can not change that 
fact. We will only make it worse if we try to punish the messengers. 
The only people who will suffer are your own American athletes. Please 
remember that if you punish the messenger, that you will ultimately 
punish the message. Protect your athletes, do not repeat previous 
mistakes and punish American athletes for something in which they had 
no part.
    Thank you for your time and patience. Have a great day and God 
Bless the USA.

    Mr. Upton. Well, thank you very much.
    I have to say that when I came downstairs this morning 
about--it seems like about 12 hours ago, but it wasn't, I 
didn't really want to leave the room next door when I got to 
meet all of you, knowing certainly a little bit about your 
struggle and usual great success in the field. As we tell you a 
little bit about us and our subcommittee action, you know, this 
subcommittee has been here a long time, and this is a terrific 
committee for all of us to serve on because we have so much 
jurisdiction.
    As chairman of this subcommittee, and my predecessors, I 
know, would say that, Joe Barton was one of them who was here 
earlier, our job is to go after fraud and abuse and 
mismanagement wherever we can find it, to identify it and then 
work with chairmen like Mr. Oxley, who is not here just to pick 
up tips as a coach-player of the Republican versus Democrat 
teams, whether they be baseball or basketball, but to really 
seek the legislative change so that we don't have to have 
further hearings on it, so it is done, so that it is finished 
and we can move on.
    This year we have looked at Medicare fraud, we have looked 
at Medicaid, we have looked at banking irregularities, 
insurance, Department of Energy problems with the release of 
secret information to the Chinese, a whole host of things over 
the year. We have had literally a hearing every week. It is 
quite unusual for any committee in the Congress to actually 
conduct a hearing when Congress is out of session. But when we 
began these questions last spring, we were actually hoping not 
to have a hearing. We were hoping that the Atlanta folks were 
straight and narrow, and it was only Salt Lake City, of which 
John McCain and the good work that the committee over in the 
Senate pursued would be the end of it.
    But, alas, it wasn't, and, in fact, we did find enormous 
irregularities, with a credit to the staff on both sides, 
Republican and Democrat, who spent Memorial Day weekend 
traveling down to Atlanta, looking through literally 6,000 
boxes, correcting misinformation that was given to the 
committee. A former Attorney General, Griffin Bell, came back 
to us with a report admitting there were mistakes, big 
mistakes. And in a hearing in October that we had, in essence 
we decided we are not really here to slam people's fingers in 
the drawer, that the period of discovery was over, we wanted to 
look at the next challenge, that of reforming the committee and 
to make sure that the enforcement mechanism was in place.
    That is really what our job is today, to ask some very 
tough questions. We don't have all the answers yet. That is 
clear. The work has not been done. But as we listened to your 
story, I just want to give you the assurance we are going to 
continue our oversight. Mr. Waxman on the Democratic side and 
others--it was too bad Mr. Klink was not able to be here, but 
his plane never did leave Pittsburgh this morning. But 
Republicans and Democrats want to get to the bottom of this. 
Whether it takes legislation or not, we are going to get to the 
bottom of this. We are going to have continuing hearings. We 
accept and embrace your constructive criticism of what might go 
on. We have a number of questions.
    For me, you heard some other members ask this question a 
little earlier today, but we have heard some rumblings about 
penalties to the American athletes. We saw that--at least I 
read about that, and I can remember watching the Olympics in 
Korea, and though I was never a boxer, I know a few points 
about that, and I thought, in fact, our athletes were 
discriminated against. I couldn't imagine that some of our 
athletes there weren't on the top rung of the stage when that 
anthem, when the wrong anthem, I guess, was played.
    As I read some literature about that since these hearings 
were held, and though we have heard good comments from people 
that have testified, no, we haven't heard any rumblings, what 
the Congress has done has been pretty good, you are on the 
right track, thank goodness things began to move, I guess I 
would like to know what you have heard as athletes from your 
peers, whether they be from this country or any other, about 
the actions that we took.
    We are not afraid to go after fraud and abuse, because it 
has got to be corrected. And I have to say that if the Olympics 
had not moved on the track that they did, that they would be in 
real jeopardy in the future. We heard that from advertisers, we 
heard that from corporate sponsors that began to think about 
and did pull the plug on future sites. But as you are here, I 
would be interested to know what you have heard about the 
actions of this committee and trying to seek the truth and to 
correct it.
    Mr. Szott, I guess we will just go down the list. Since my 
red light is on, I will pass the baton to my colleagues. Maybe 
just some quick answers yes or no, what you have heard or 
haven't.
    Mr. Szott. For the most part I think what the athletes here 
have said is accurate. Most of the athletes right now are more 
concerned about themselves. And as long as the games are going 
on, they don't involve themselves in a whole lot of the 
politics of what is going on with the IOC. For me personally in 
the sport of judo, the athletes at the Olympic training center 
where I train, they were offended, embarrassed about what 
happened here on our soil. What we heard from around the 
different countries was really not too much as far as ridicule 
or criticism about what went on. I guess some people had 
commented before, some people assume it is just the way the 
business goes. So in the long run, as far as the short term, a 
lot of the athletes haven't really commented.
    Mr. Upton. Mr. Westbrook.
    Mr. Westbrook. Yes, Mr. Chairman, I as an athlete haven't 
heard too much about reverberations against the athletes. But, 
for sure, I am so happy that you are looking into it, because 
the athletes would inevitably suffer because of the funding and 
the sponsorship. So I think we are all quite aware that if this 
was not looked upon and dealt with immediately, as you are 
doing, it would have just--I can't even think about the 
effects, the sponsorship, the Olympic Games, maybe no funding 
for the athletes whatsoever. I just thank you for that.
    Mr. Upton. Ms. Strug.
    Ms. Strug. I think obviously like everyone else has said, I 
don't know if I need to kind of go over it again, but we were 
kind of disappointed, and it is definitely a reflection on the 
athletes. And hopefully I think obviously with the objective 
sports, is not the athletes, they cannot suffer, but subjective 
perhaps. So I am glad you are getting down to it.
    Mr. Upton. But to rephrase my question, have you heard 
about any possible retribution that may be out there toward 
American athletes by judges or whatever?
    Ms. Strug. I have not.
    Mr. Upton. From your peers?
    Ms. Strug. No, I have not.
    Mr. Upton. Mr. Mills.
    Mr. Mills. I have not either, but what I have heard and it 
is also part of my very strong feeling, is that it was to be 
expected what, eventually happened with the International 
Olympic Committee, because I feel strongly and other athletes 
have shared this with me, as we go global with our free 
enterprise system, there is only one downside to the beautiful 
system we have, and that has been somewhat profit at all costs.
    In the beginning profit polluted the streams, the air, the 
soil. Environmental scientists have corrected that. Profit went 
into politics, profit at all costs. Character assassination, 
McCarthyism. Profit at all costs has gone into sport. It is 
okay for an athlete to abuse their spouse because they are a 
multimillion-dollar athlete, or it is okay to take steroids or 
performance enhancing drugs to win gold medals. So then the 
logical thing was it is okay to take bribes to award the game 
somewhere. And as we discussed that as athletes, we felt that 
true responsibility got back into America. As we go global with 
our free enterprise system, we have to monitor our own 
downside, our only downside, and we are doing that, and for 
that I am thankful.
    The other comment I will make is with John Naber we were at 
the World Association of Olympic Winners, and the concern of 
the athletes I talked to there was not so much the 
International Olympic committee, but how within our own world 
as athletes we monitor ourselves so we can eliminate drug 
abuse, we can eliminate sexual abuse among coaching, et cetera. 
I think all of it is for the better of the sport, to get back 
to the Olympic ideals that I expressed in my comments.
    Mr. Upton. Thank you. Mr. Ctvrtlik.
    Mr. Ctvrtlik. Thank you. I would just say that from what I 
have heard, and I fortunately or unfortunately am dealing with 
athletes that are not just Americans but from all around the 
world, they are concentrated on athletics. They want to win a 
gold medal. They are training, just like most of our stories 
here. That was our goal in our life and that is what we 
concentrated on. They are not worried about the politics of 
sport. I can say athletes are very appreciative of the work you 
have done up to this point.
    I just want to kind of reiterate that the charter was 
changed. Athletes now have a mechanism to have a voice. The 
Olympic Games do not control world sports. For some reason, the 
public has this idea that the IOC is all powerful, and they are 
not. International federations control sports. The National 
Olympic Committees, they control the sports. So if you are 
talking about retribution against American athletes, then we 
have to talk about the people picking the judges that control 
sports. That is the international federations.
    None of the athletes, this is not a concern for them. But 
it is a very valid concern, and you bring it up. But the IOC is 
not the body that controls the sports. They are just trying to 
keep all the different factions together. Thank you.
    Mr. Upton. Mr. Stapleton.
    Mr. Stapleton. Well, I won't enter into a debate with Bob 
with the IOC athlete representation and its effect, but my 
comments did not go to fraud, they went to lack of financing. 
When you say the Olympics were going to be in a world of hurt, 
that is what I was referring to when I said American athletes 
could suffer. I am not paranoid enough to believe there are 
judges out there that are going to punish Americans, at least 
on the playing field, and I hope that is not the case.
    Mr. Upton. Mr. Naber.
    Mr. Naber. One of the good things about our system in this 
country is that you get to hear dissenting points of view. I 
think good governance is not measured by having the right or 
the ability to hear a dissenting point of view, but it is the 
impossibility of keeping that viewpoint out of it.
    So what I guess I am saying is I am going to say something 
the Olympic Committee will not like to hear. That is, you asked 
have I heard is there a possibility of retribution? Come on. Of 
course. The election to choose Italy over Switzerland for the 
20006 Olympics has been disputed in the media as a reaction to 
Hodler's commentary at the Olympic Committee level.
    Is that saying that the IOC has it out for the United 
States? Not necessarily. But how can we not think that somebody 
out there is not going to hold this discussion or others like 
it against us? I don't know if we are going to see an American 
elected to the presidency of an international sports federation 
for years. Does that matter? Yes, to some people. There could 
easily be repercussions.
    But we are talking ethics, folks, and the measure of ethics 
is the ability or the willingness to do the right thing, even 
if it costs more than you are willing to pay.
    Don't back off. Don't let any possible repercussions have 
any bearing in this issue. Do what is right and get it done 
with.
    Mr. Upton. Well, we certainly intend to do that. I know my 
5 minutes has expired, so I will re-turn on the light. Ms. 
DeGette.
    Ms. DeGette. Thanks you, Mr. Chairman. Most especially I 
thank all of you. You inspire all of us. Frankly, to us you may 
be the last committee on the agenda, but to us you are really 
the first committee, because several of you said this: The 
games are what it is about and the athletes are what it is 
about, and we need to make sure that the Olympics can continue 
untarnished, and that is to express the purpose of 
international competition and all of the good things that you 
so articulately talked about much more so than myself.
    I will tell the chairman, certainly Mr. Waxman and all of 
us on the committee, Mr. Klink and myself included, intend to 
work very hard to make sure that the rules that were 
promulgated by the IOC, which are a good first step, will 
actually be carried out. So I will work with you too on this.
    Mr. Upton. Absolutely.
    Ms. DeGette. Let me start out, Mr. Naber, by asking you, I 
think I hear what you are saying, that this committee should 
continue even if there are repercussions, because it is the 
right thing to do.
    Let me ask you and then any of the rest of you who would 
like to participate, I would love to hear your view too. If you 
could make one recommendation to the IOC about some change they 
could make in how they have been operated, what would that one 
recommendation be?
    Mr. Naber. Well, the one recommendation I would make to us 
is to not make it personal. The IOC members are good 
intentioned. They are good in integrity, it is hard to measure 
perhaps, but they don't mean ill will to the Olympic Movement.
    But if I were to advise them, it is strictly on the issue 
of the appearance of impropriety. Doing anything that might 
look suspicious, whether it looks like the decision is made 
behind closed doors and we declare it by acclaim, whether it be 
the appointment of a relative of an IOC member for any 
position, whatever it may be, stop it. Term limits goes a long 
way to addressing the appearance of a good old boy's club.
    Mr. Stapleton. I would just say, if I could change one 
thing that I think they really got wrong was the term limits 
issue. You know, it is like every 8 years having a vote at my 
country club about whether they are going to kick me out or 
not, and there is a group of people, and 3 outside people, and 
they are going to decide; but actually 4 of those 7 are from 
the inside, and it is unlikely unless I do something really 
ridiculous that I am going to get thrown out. I think that is 
at the root of the corruption of the IOC. That is why they got 
off track.
    Mr. Upton. Any other thoughts? Mr. Mills?
    Mr. Mills. Term limits. But also what bothered me, I think, 
was when they grandfathered in people and also whether or not 
there was the commitment to--I know you have to stop somewhere, 
but if there was some indication of corruption and fraud, will 
they still go back and investigate it?
    Ms. DeGette. Anyone else? Yes?
    Mr. Ctvrtlik. I would like to say, I have been there for 
every meeting and I have volunteered I don't want to know how 
many days this year, and my wife is going to kill me when I get 
home, as a matter of fact, but we were there. I don't have 
anything to add. Everything that bubbled up from the athletes 
around the world, we presented and they passed. I don't know, 
there is always something more you could want, a little bit 
more, or you could ask for this or that. Sure, the athletes, we 
could be 200 members and take over the whole IOC, but we have 
asked for reasonable things and they were very responsive all 
throughout the entire year. Personally as a representative, you 
can't ask for anything more. Thank you.
    Ms. DeGette. Let me turn the tables a little bit then. What 
one piece of advice would you give to us as Members of Congress 
and this Oversight Committee as we proceed with our dealings 
with the IOC? What is the one thing you think we should do? Mr. 
Stapleton?
    Mr. Stapleton. I think you should continue to schedule 
hearings, and I think that is the best thing you can do. I 
think the threat of legislation is a bad thing. They understand 
in Lausanne that you can take away tax deductions and all of 
the things we could do to disrupt the Olympics. In my 
experience over there, sitting in IOC meetings, is the last 
thing they wanted is Americans reminding them about how much 
power we have. So I think inserting yourselves in a meaningful 
oversight role by scheduling regular hearings is a very 
positive step. As a former athlete and one who represents 
athletes, I would feel good about that.
    I think when we start rattling our saber is when we get in 
trouble, and when they put us in at arm's length and don't want 
to listen.
    Mr. Upton. Mr. Westbrook is nodding in agreement.
    Mr. Westbrook. Yes.
    Mr. Mills. I also would encourage the committee to 
encourage the major Olympic sponsors to come back into the 
fold: The corporate America save the Olympic Games, corporate 
America could destroy the Olympic Games. I think a lot of the 
problems we are facing within the International Olympic 
Movement is the only downfall of the free enterprise system. In 
a free world, how do we monitor profit at all costs, what is a 
bribe? So I think we need at this point the major corporate 
Olympic sponsors stepping forward and endorsing the change and 
going forward together.
    Mr. Naber. If I could just supplement, there are some 
stakeholders that were not represented in this room today. At 
least they didn't speak at the microphones. I would go out of 
your way to find a representative from the sponsor community. 
You did well to select somebody from both, because they are an 
independent international athlete-led organization. But the 
sponsors, the IAFs, the NOCs, they have a legitimate right to 
be heard.
    Ms. DeGette. Thank you. Thank you, Mr. Chairman.
    Mr. Upton. I would just like to say we actually, when we 
began to formulate our thoughts about the hearing, we were 
going to have the sponsors, but then they at the last minute 
were not able to come. Because of the size and the time 
element, we decided we would save it for another day.
    Coach Oxley.
    Mr. Oxley. Thank you, Mr. Chairman.
    Mr. Upton. Excuse me. ``All Star'' Oxley.
    Mr. Oxley. Thank you. I will have to brag, since the 
Republicans won the baseball game 17 to 1 and won the 
basketball game by 31 points.
    Let me first of all thank all of you for being here. I have 
been a huge Olympic fan for years. I guess the first one I can 
remember is the Helsinki games in 1952. Mr. Mills, I think you 
were on the team with Bob Shuel in Tokyo. Bob was a Miami 
university graduate, my alma mater, in Dayton. And Kerrie 
Strug, you might be tiny, but you are my hero. You are 
terrific. John Naber, maybe they didn't have a tape old enough 
to cover your exploits. I don't know. But I enjoy watching all 
of you. I think that it is shared by all the members.
    I had a question, and it may be premature, but I am 
wondering exactly how the athletes from other countries are 
looking at this issue. Is it perceived by those athletes as a 
unique problem with Salt Lake City or Atlanta, or is it 
perceived as a real problem with the entire Olympic Movement? I 
know that some of the athletes, including Koss from Norway, is 
on the committee. Maybe Bob would best answer that. What is 
your sense about what the other athletes from other countries 
are feeling about this?
    Mr. Ctvrtlik. Just feeling about the reforms?
    Mr. Oxley. Not only about the reforms, but what brought us 
to the reforms.
    Mr. Ctvrtlik. One thing that is fairly interesting on the 
Athletes Committee, the meetings we have, when we are 
discussing an issue, there is something, it is just interesting 
that I might be talking to one of our representatives from 
China or Johann Koss from Norway or anywhere around the world, 
and we have quite a bit of discussion, but we don't have that 
much trouble coming to consensus, because we have all 
sacrificed and all given so much to this movement that we think 
very similarly.
    So I think that the comments that you have heard as far as 
what the athletes feel, it is amazingly representative of what 
you have heard today.
    Mr. Oxley. Let me change the subject just briefly, because 
someone had mentioned performance-enhancing drugs. It seems to 
me we have come a long way in trying to deal with that issue. 
For those of you who have gone through that, and I assume it is 
virtually all--I am not sure, Mr. Mills, you probably had to go 
through it back in 1964--it was not a problem. But those of you 
who had to go through with it, let me ask, are you comfortable 
with the accuracy of the drug testing, and, if not, are there 
changes you would recommend? I know that General McCaffrey has 
been involved in some of our issues, our so-called drug czar. 
He has been active in taking the lead in that. I think 
particularly about the Butch Reynolds situation. I don't want 
to necessarily single him out, but there was some question as 
to the accuracy of the testing in that regard.
    Just kind of give me an idea about where we are and maybe 
where we ought to be in terms of enhancement and the drug 
testing area.
    Mr. Szott. Being in a sport, especially in my division as 
heavyweight where it is a big issue, unfortunately my 
background is in physiology, and I think the problem with the 
testing innately is it is always behind the drug user. I mean, 
by the time they are able to test something, the drug user has 
found a way around it, so they are always playing catch-up.
    I really can't foresee a paradigm in which you can control 
or anticipate every opportunity. If a person is willing to 
cheat, to me it has always been a moral decision. If a person 
is willing to cheat, they will always find a way. I think you 
can only clear out so much of it, but there will always be some 
of it in the sport.
    Mr. Naber. There are a lot of examples of athletes who win 
races 1 year and get caught with drugs the next, and that 
immediately casts suspicion on how on Earth did they pass the 
test the year before. There is a swimmer from Ireland who won 
three gold medals in Los Angeles, and rumors were rampant, but 
everyone called those rumors sour grapes, because well, 
obviously you lost and she won. A year later she turns out with 
an amount of alcohol in her system as a masking agent that 
would have killed an ox. So everyone says aw, maybe we didn't 
catch her and consequently maybe the rumors have a lot more 
credence.
    So, yes, I think there is no question the opinion of the 
athletes is we are testing, we are looking, we are just not 
catching enough of them, and how are they getting away? It goes 
back to my analogy of smart fish, a loose net, or catch and 
release.
    In any case, unless it is purely independent, there is 
always going to be an incentive to conceal positive results or 
just not to catch them. If I can say I tested everybody on the 
Olympic team and they all tested clean, then I am no longer 
culpable. Well, that is only good until one of the guys gets a 
positive test a year later and now your whole system is 
culpable.
    So by making it independent, I suggest that we put it out 
to bid, and now the integrity of the lab is on the line, not 
the integrity of the ethics of the Organizing Committee. I am a 
real believer in the need, and though I trust and love Richard 
Pound, a wonderful guy doing a great job, but I think we have 
to make it beyond suspect. Many of the athletes are very 
suspect.
    Mr. Oxley. Just briefly, if you could educate me, what is 
the regime now of testing? How soon before the Olympics? Does 
this go on constantly, or is it just during the Olympics? How 
does that work?
    Mr. Ctvrtlik. Like I mentioned earlier, the international 
federations, what happened in February there was--the IOC 
convened world governments and all the international 
federations and athlete representatives. There was a World Drug 
Conference over in Lausanne, because what--it was ridiculous 
how it was happening in the past. Each federation had their own 
list of banned subject substances. These international 
federations are extremely strong and the IOC does not tell an 
international federation what to do. They ask and they 
negotiate and try to work it out.
    So the major breakthrough happened at this conference. All 
of the international federations signed on to this same drug 
ban list, which was the first step. Then the International 
Olympic Committee, they tried to keep working. They are putting 
money behind different labs. They just put another $1.75 
million for research for the drug for EPO.
    But the next step is the World Anti-doping Agency, which 
they have--it has been created, it is going to be up and 
running by Sydney. But as far as catching people using drugs, 
the only way, and I think everyone on this panel will agree, is 
out-of-competition testing. There is no mechanism yet to do 
that around the world. So this World Anti-doping Agency, one of 
the major goals is consistency, as John Naber just said, but it 
is also to have an African runner know that when he is tested, 
he is getting the same test as a volleyball player in Long 
Beach, it is being recorded the same and being tested the same. 
And I think that is the biggest goal, and as athletes, if we 
feel comfortable that this is occurring, that will be a huge 
step in combating the proliferation of drug use.
    Thank you.
    Mr. Naber. You asked the protocol of testing. A drug 
doesn't have to be in your system on the day of the Olympics to 
have benefited you and given you a gold medal. You can use a 
drug in January. It helps you train really well for 6 months. 
By the end of the 6 months, you come off the drug, it is no 
longer in your system and you don't test positive. So just 
testing at the Olympics or just testing a month before, in and 
of itself does not catch all the cheaters. So you have to have 
random, out-of-competition testing. The IOC has just introduced 
this drug passport. So once you become eligible to be 
considered for the Olympics, you have to have this passport and 
make sure you get tested regularly. A lot more detail than you 
need today, but there is a big process.
    Mr. Oxley. Thank you, Mr. Chairman. You have made us all 
proud. We are glad to have you here.
    Mr. Upton. We are really glad to have you here. I know that 
I speak for the entire committee and Chairman Bliley as well.
    Again, just to piggyback a little bit on Mr. Oxley's 
comments, I am very interested in pursuing the drug policy, not 
only in the Olympics, but in sports, whether it be the NCAA or 
major league baseball, football, tennis, I don't care. We are 
going to go and take a look at it. In fact, it is one of nine 
things I talked to Mr. Samaranch about. I know he met with 
former General McCaffrey yesterday, and I would look to have 
him come up, General McCaffrey come up and testify as well. 
That is one of our potential hearings next year. So we may be 
getting some thoughts there, too.
    Again, I want to compliment all of you on your testimony 
and your willingness to come at your own expense today and 
really spend a considerable amount of time.
    I also want to again thank the staff, not only the staff 
that is behind us here on the dais but on the other sides of 
these walls, that have really done an outstanding job for a 
number of months making sure that we are prepared and that we, 
in fact, had terrific witnesses and allowed us to interact.
    Jan tells me I am chairing the last hearing of the century. 
Maybe. We will see. Thank you, Jan.
    But, again, we appreciate it. You are excused. We look 
forward to your input and your thoughts certainly in the months 
ahead. And for those of you that are still hoping to be a 
future Olympian, Mr. Westbrook, since 1976, I don't know if you 
are intending to be there again.
    Mr. Westbrook. No.
    Mr. Upton. No? Kevin, best of luck to you, for sure. God 
bless all.
    [Whereupon, at 4:03 p.m., the subcommittee was adjourned.]

</pre></body></html>
